<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2014 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 113-108, Part 5]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 113-108 Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1197

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2014 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                    MARCH 19; APRIL 9, 18, 23, 2013

                               __________

         Printed for the use of the Committee on Armed Services
        Available via the World Wide Web: http://www.fdsys.gov/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

85-630 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                 ______

           Subcommittee on Emerging Threats And Capabilities

                 KAY R. HAGAN, North Carolina, Chairman

JACK REED, Rhode Island              DEB FISCHER, Nebraska
BILL NELSON, Florida                 JOHN McCAIN, Arizona
MARK UDALL, Colorado                 ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        DAVID VITTER, Louisiana
KIRSTEN E. GILLIBRAND, New York      TED CRUZ, Texas

                                  (ii)



                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                  A Briefing on Cybersecurity Threats
                             march 19, 2013

                                                                   Page

Mandia, Mr. Kevin, Chief Executive Officer, Mandiant Corporation; 
  Accompanied by Mr. Richard Bejtlich, Chief Security Officer, 
  Mandiant Corporation...........................................     4
Annex: The report titled: Mandiant Report, ``APT1 - Exposing One 
  of China's Cyber Espionage Units''.............................    19

 Department of Defense Programs and Policies with Respect to Emerging 
                        Counterterrorism Threats
                             april 9, 2013

Sheehan, Hon. Michael A., Assistant Secretary of Defense for 
  Special Operations and Low Intensity Conflict and 
  Interdependent Capabilities....................................    98
Chollet, Hon. Derek H., Assistant Secretary of Defense for 
  International Security Affairs.................................   101
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................   107

The Role of the Department of Defense Science and Technology Enterprise 
                    for Innovation and Affordability
                             april 18, 2012

Shaffer, Mr. Alan R., Acting Assistant Secretary of Defense for 
  Research and Engineering.......................................   137
Prabhakar, Dr. Arati, Director, Defense Advanced Research 
  Projects Agency................................................   157
Miller, Ms. Mary J., Deputy Assistant Secretary of the Army for 
  Research and Technology........................................   164
Lacey, Ms. Mary E., Deputy Assistant Secretary of the Navy for 
  Research, Development, Test, and Evaluation....................   174
Walker, Dr. David E., Deputy Assistant Secretary of the Air Force 
  for Science, Technology, and Engineering.......................   180

                                 (iii)
 Proliferation Prevention Programs at the Department of Energy and at 
                       the Department of Defense
                             april 23, 2013

Creedon, Hon. Madelyn R., Assistant Secretary of Defense for 
  Global Strategic Affairs, Department of Defense................   217
Myers, Mr. Kenneth A., III, Director, Defense Threat Reduction 
  Agency, Department of Defense, and Director, U.S. Strategic 
  Command Center for Combating Weapons of Mass Destruction.......   224
Harrington, Ms. Anne, Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  Department of Energy...........................................   233


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, MARCH 19, 2013

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

                  A BRIEFING ON CYBERSECURITY THREATS

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-222, Russell Senate Office Building, Senator Kay R. 
Hagan (chairman of the subcommittee) presiding.
    Committee members present: Senators Hagan and Fischer.
    Majority staff members present: Joseph M. Bryan, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Creighton Greene, professional staff member; 
Michael J. Kuiken, professional staff member; Thomas K. 
McConnell, professional staff member; and Robie I. Samanta Roy, 
professional staff member.
    Minority staff members present: Thomas W. Goffus, 
professional staff member; Ambrose R. Hock, professional staff 
member; and Daniel A. Lerner, professional staff member.
    Staff assistants present: Kathleen A. Kulenkampff, Bradley 
S. Watson, and Lauren M. Gillis.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Christopher Cannon, assistant to 
Senator Hagan; Peter Schirtzinger, assistant to Senator 
Fischer; Craig Abele, assistant to Senator Graham; Joshua 
Hodges, assistant to Senator Vitter; and Charles Prosch, 
assistant to Senator Blunt.

      OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRMAN

    Senator Hagan. I would like to bring this Emerging Threats 
and Capabilities Subcommittee to order. I want to welcome 
everybody to our first meeting of this congressional year. I 
really want to welcome Senator Deb Fischer as the ranking 
member of this subcommittee. I'm looking forward to working 
together with you, Senator Fischer. Last 2 years we certainly 
had a great working relationship with Senator Portman and I 
know we will, too. So thank you.
    Today we meet to receive a briefing on cybersecurity 
threats. The Director of National Intelligence, James Clapper, 
recently testified that cyber threats are for the first time 
leading the list of specific threats to our security. The 
purpose of this briefing will be to help us gain a better and 
deeper understanding of the nature, variety, and seriousness of 
the cyber threats to our national security, including their 
impacts on the Department of Defense's (DOD) networks and 
operations.
    Cyber threats can range from individual hackers to criminal 
groups stealing financial data to nation states with 
sophisticated intelligence-gathering disruptive or offensive 
capabilities that could steal classified information or harm 
our critical infrastructure and computer networks.
    Before we get started, I do want to outline that we're 
going to hear from our witnesses in both this open session and 
in the closed session that will follow. We'll start with an 
unclassified briefing here. Then we will reconvene in the 
Office of Senate Security for the classified portion of today's 
hearing.
    I do want to encourage members to certainly take the time 
to go over to the Capitol for the classified briefing. We're 
going to be briefed there by Ms. Stephanie O'Sullivan, the 
Principal Deputy Director of National Intelligence. She will 
brief us on a recent national intelligence estimate on cyber 
and will be focusing her remarks on cyber industrial espionage, 
why it's happening, what role it plays in the national policy 
of certain countries, who benefits, and so forth. This 
information, I think, is going to be very useful for all of us 
who are concerned about this matter, in thinking about what we 
need to be doing next.
    Then the other briefer in the closed session will be 
Lieutenant General Jon M. Davis, USMC, the Deputy Commander of 
U.S. Cyber Command (CYBERCOM). General Davis will brief us on 
the cyber threat as seen from CYBERCOM, which has the 
responsibility to defend the Nation against cyber attacks that 
rise to the level of use of force or aggression, to defend the 
networks of DOD, and to carry out operations in cyber space in 
support of our combatant commands.
    The unclassified briefing we are about to receive here from 
Mr. Kevin Mandia, who is the founder and the chief executive 
officer of the Mandiant Corporation, should require little in 
the way of introduction since it has certainly been widely 
reported in the media. The Mandiant Report is in many respects 
a summation and a confirmation of untold numbers of previous 
reports and developments. But it's also a unique achievement in 
the depth of the research and the scope of its documentation. 
The report is impressive too for its professionalism and lack 
of sensationalism, and it lets the facts speak for themselves.
    This report has provided an important service for our 
public. The Mandiant Corporation has produced an Intelligence 
Community-quality report without the benefit of the tools and 
authorities of our government and without the accompanying 
classification restrictions. So this is an unclassified report 
that was put together that is being presented to us.
    [The information referred to follows:]

    See Annex: Mandiant Report, ``APT1 - Exposing One of China's Cyber 
Espionage Units,'' dated February 18, 2013, at the end of this hearing.

    Senator Hagan. So based on this report, there's simply 
nothing left in my mind for the public to doubt about the 
magnitude or relentless character of China's theft of American 
technology and other valuable business information.
    Since this is a briefing format, I'm hoping we can be less 
formal than in a normal hearing. I want to encourage all of us 
to feel free to ask questions or to seek clarifications during 
the presentation. So if we can just have an opportunity to ask 
questions and have a give and take, I think it will be a very 
useful briefing.
    I want to conclude this portion of the briefing at 3:20 
p.m. so that we can move to the Capitol for the closed portion.
    Before I call on Mr. Mandia, and thank you so much for your 
report and for being here, I wanted to ask Senator Fischer for 
any comments that she may wish to make.

                STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Thank you, Madam Chairman. It's an honor 
to serve as ranking member of this subcommittee with you. Thank 
you.
    It's also an honor to look forward to the briefings that we 
will have today and throughout our time. Just last week, in 
testimony before the Senate Select Committee on Intelligence, 
Director of National Intelligence James Clapper stated the 
threat of cyber attack has become the top security threat 
facing the Nation, overtaking the threat of terrorism. This 
assessment makes clear the risks associated with the cyber 
domain and it is vitally important that the United States meets 
them head on.
    Thus far, our defense-first policies have failed to deter 
hostile actors from attacking the United States in cyber space. 
I believe we must begin to assign accountability and impose 
consequences on those responsible for aggressive attacks on our 
systems. Little else will influence those nation states, 
terrorist organizations, and criminals who seek to hold our 
national security and our economy at risk through exploitation 
of the cyber domain.
    The issues are complex, technical, and can at times seem 
very academic. But make no mistake, the consequences are real 
and potentially far-reaching.
    I look forward to hearing from you, Mr. Mandia, at this 
open portion of the briefing and I applaud you and your team 
for your work. I also look forward to our second panel, where 
we will receive the classified briefing. Thank you so much.
    Thank you, Madam Chairman.
    Senator Hagan. Thank you, Senator Fischer.
    Mr. Mandia, once again, thank you for being here. Thank you 
for the report that your company has presented. We look forward 
to your presentation.

    STATEMENT OF MR. KEVIN MANDIA, CHIEF EXECUTIVE OFFICER, 
  MANDIANT CORPORATION; ACCOMPANIED BY MR. RICHARD BEJTLICH, 
          CHIEF SECURITY OFFICER, MANDIANT CORPORATION

    Mr. Mandia. Sure, thank you. Madam Chairman, may I ask that 
I be joined by my colleague, Richard Bejtlich, who will be 
offering some additional color and commentary to some of the 
details in the report that we presented to you?
    Senator Hagan. Certainly, and if he could say his name one 
more time for the record?
    Mr. Mandia. Sure.
    Mr. Bejtlich. Richard Bejtlich, spelled B-e-j-t-l-i-c-h.
    Senator Hagan. Great.
    Mr. Mandia. Thank you, Richard.
    I'd like to begin by just summarizing the report that 
Mandiant published, called ``Exposing One of China's Cyber 
Espionage Units.'' It's important to note that we only exposed 
one advanced persistent threat (APT) group, or threat actor, 
that we refer to as APT1. We exposed them based on a couple of 
reasons, one of those reasons being that we felt that their 
tools, tactics, and procedures had stagnated over the 7 years 
that we've been responding to them. We also just felt that in 
both the private and public sectors that the general feeling or 
emotion was that it was time to bring this to a head. You could 
sense it and feel it.
    So when we published this document, it was very important 
to us that we showed that it wasn't just attacks that were 
coming out of China targeting the intellectual property of blue 
chip American and Western European countries that was targeting 
our internet protocol (IP), it was not just the Chinese, but 
actually an army unit in China.
    The way we did that is we followed two threads of 
investigation. First, we followed the technical threads of 
doing 141 investigations where the malware being used or the 
computers being used to do the attacks were all synonymous with 
what we ended up grouping as APT1. That's just an arbitrary 
name we at Mandiant assigned this group. As we responded to 
them, the transition to practice or the fingerprints of this 
intrusion group married up at 141 different victim companies.
    As we followed that technical thread, it brought us from 
computer to computer to computer, to basically a region in 
Shanghai. Anecdotally, we also started doing open source 
collections. What is in that region of China on Datong Road in 
the Pudong Region? We went with the nontechnical evidence and 
we learned of a Unit 61398, whose charter was to do computer 
network operations, where their people needed to speak English. 
When I say computer network operations, by the way, I mean both 
computer network attack as well as computer network defend.
    We had a location of this unit in the Pudong New Area of 
Shanghai on Datong Road, and just the nontechnical open source 
evidence brought us to the exact same location. So when we 
looked at the mission of APT1, as we witnessed them stealing 
hundreds of terabytes of data from 141 companies, we witnessed 
them send fake emails speaking perfect English, we witnessed 
APT1 use nearly 1,000 different computer systems over 7 years, 
and then we witnessed them using IP addresses or computers in 
China, as well as the Chinese character set, and we married 
their location up with the mission and the scope and 
capabilities of this Unit 61398, it was absolutely the exact 
same place.
    We had the same region, we had the same mission, and we had 
the same scope of capabilities. So we felt that the Mandiant 
Report brings the reader and brings the public right up to the 
front door of this building. We couldn't fly people over there 
and run down the third floor taking photos, but there were only 
two options: APT1 that Mandiant has tracked for 7 years is, in 
fact, Unit 61398; or, in one of the most closed societies in 
the world, where they monitor Internet use of your Gmail access 
or of your Yahoo searches or Google searches, that somehow the 
Chinese Government is flat-out missing a 7-year campaign to 
pilfer millions and billions of documents from hundreds of U.S. 
companies. It's just hard to fathom that that's a real 
alternative.
    So we believe there's no valid conclusion other than a unit 
of the People's Liberation Army (PLA) has, in fact, been 
chartered to compromise the U.S. infrastructure and steal our 
intellectual property.
    Senator Hagan. Impressive opening comments.
    Let me just ask you a question on the scope. Multiple times 
in the report it stressed that even the massive activities that 
you've directly observed and catalogued is perhaps dwarfed by 
what you haven't seen, and that you judged that you have 
observed only a small fraction of what the APT1 unit alone is 
doing. So can you expand on that?
    Mr. Mandia. Absolutely. Mandiant can only know the lowest 
bounds. So we reported on what was in plain view to Mandiant as 
we were hired by different victim organizations to respond. So 
our knowledge of APT1 is what I call lateral. We were hired by 
Company A to respond to APT1, then Company B, and then go on 
through----
    Senator Hagan. That was 141 companies?
    Mr. Mandia. You bet, over time it was over 100 companies. 
As we respond to each one and we see the same types of malware, 
the same modus operandi, the same fingerprints, I call them 
digital fingerprints, tracking it back to APT1, we only know 
what we know. So all we've done is establish the lowest bounds. 
There could be thousands of companies that were compromised by 
APT1 where Mandiant wasn't hired to respond and some other 
companies were.
    Senator Hagan. You also said the non-technical unit in the 
Pudong Region. Explain that again to me?
    Mr. Mandia. What I meant is the non-technical resource that 
we did at Mandiant brought us to the same place where the 
technical threads and technical evidence brought us to, a small 
quadrant of Shanghai.
    Senator Hagan. What is your non-technical?
    Mr. Mandia. Non-technical is open source collections, 
literally Googling for the Chinese character set of Unit 61398. 
We Googled to find this place, essentially.
    Mr. Bejtlich. Madam Chairman, if I could add some color to 
that. One of the things we did was say: If you were to run an 
operation for 7 years controlling thousands of computers, 
targeting at least hundreds or probably thousands of western 
companies, what would you need to do that? You would need a 
headquarters, you would need power, you would need 
telecommunications links, and you would need infrastructure to 
support these people.
    The activity started, at least from our perspective that we 
were able to see, in 2006, and in 2007 this building, 130,000 
square feet. We got a copy of the document that ran the 
telecommunications line to this building saying: This is for 
Unit 61398, and if you don't know who they are, they're very 
important. They're the second bureau of the third department of 
the PLA, which does signals intelligence work.
    So putting that all together, thinking if this unit 
existed, what would it look like for them on the ground, and 
there it is. You have the technical indicators, you have the 
non-technical indicators. It matched very well.
    Senator Hagan. Mr. Mandia, is it APT1?
    Mr. Mandia. Yes.
    Senator Hagan. It's a military intelligence unit, but it's 
marauding through this whole portion of the broad U.S. 
industrial base. Should we conclude that the Chinese Government 
sees the theft of U.S. technology and know-how as a key element 
of their national security? If so, is this because they see 
this theft as important to their economic growth, and is this 
economic growth critical to their regime's stability?
    Mr. Mandia. Sure. I'll start with that and then pass it to 
Richard. From my experience, this is an extensive effort to 
pilfer intellectual property out of this country. It's been 
supported monetarily. It would take thousands of people, 
thousands of systems. You'd have to have your computer 
intruders--and those are normally very different people than 
the folks who benefit from these intrusions, meaning the folks 
who would read the emails or read the documents that have been 
pilfered. So the mere infrastructure alone and the time and 
duration and scope of this effort to steal our secrets has gone 
on for so long that there's a large amount of investment in it. 
Based on that investment, it's hard to conclude anything other 
than that there's an advantage being gained from that 
investment.
    Mr. Bejtlich. If you look at what the Chinese have stated 
as far as their objectives and their different areas of 
priority, the number one concern for the PLA, or really for the 
party, is the preservation of the party in power. The number 
two concern is their economic development. That's why this 
theft is really a national security concern for them. It isn't 
an economic concern in the sense that the United States thinks 
of the economy as the basis for our military power. The Chinese 
think in terms of the economic and military being together as a 
national security concern.
    So that's why we're a little skeptical that simply telling 
them to stop, they will stop, because they think this is the 
engine of growth, this is how we're going to provide jobs for 
our people, create world-leading brands. We're going to take 
this innovation from the West and put it into our own products 
and services. So they do see it as--probably the number two 
priority in their country.
    Mr. Mandia. One of the more interesting things that we did 
is as we were doing open source collections, as I call it, 
Googling for evidence to some extent, we were finding things in 
China that--we're all familiar with Kentucky Fried Chicken. We 
were finding pictures of absolute replicas in China of Kentucky 
Fried Chicken, absolute replicas of Starbucks in China.
    So as you see these things emerging from there, it's not a 
great leap to say that the computer intrusions to steal our IP 
are, in fact, to shortcut the research and development process. 
It's to shortcut learning what our marketing plans are, what 
our sales plans are, how much we charge for things, what our 
road map is for our products and technologies, how we build 
things, how we manufacture. All those materials have been taken 
and what we're starting to see is imitations of it popping up.
    Senator Hagan. Do you want to ask a question?
    Senator Fischer. Thank you, Madam Chairman.
    In your 7-year investigation, did you find other digital 
fingerprints out there? I would imagine you did. To translate 
that into numbers, how many other groups like this do you think 
there are, and what's the damage in numbers to companies here 
in this country?
    Mr. Bejtlich. Yes, ma'am. APT1 is one of at least two dozen 
numbered groups that Mandiant tracks. Not all of them are 
Chinese, but many of them are because the Chinese are the most 
prolific perpetrators of this type of activity. APT1 is one of 
those groups that is very broad in itself, but it's just one 
element of a large campaign. There are other teams working in 
other cities in other parts of the country that in some cases 
target other areas of the economy, but in other cases they 
interact.
    We've done work for victims where we've seen two, three, up 
to five or six independent groups all competing to get access 
to information of a western company simultaneously. So there 
is--we wonder in our government about deconfliction of 
priorities and different military units and such. The Chinese 
probably have that same concern because they have so many teams 
stealing data at the same time.
    As far as impact, it's tough to----
    Senator Fischer. Could I just interrupt you?
    Mr. Bejtlich. Yes, ma'am.
    Senator Fischer. Are you saying that most of them are army 
computers that are doing this?
    Mr. Bejtlich. We can say with confidence that they're 
Chinese units. We don't know if they're necessarily military. 
There's a certain hierarchy in China----
    Senator Fischer. Would you say they're government?
    Mr. Bejtlich. I would say they're at least government-
sanctioned. We can't say for sure, these other units, whether 
they are uniform-wearing military or if they're contractors or 
if they're outsourced third parties.
    The way to think about the Chinese effort is there's three 
levels. There's patriotic hacking, there's state-backed 
militias that are closely affiliated with the universities, and 
then finally there are the military or military-associated 
units. APT1 is an example of that, of that top level. But even 
then, APT1 is not the top of the hierarchy. We do see other 
teams that have other capabilities.
    Senator Fischer. What's ``patriotic hacking''?
    Mr. Bejtlich. A patriotic hacker is someone who says they 
are sympathetic to China's sense of itself in the world, they 
believe that it is their duty to attack western individuals or 
companies, and the Chinese Government tolerates that activity, 
whereas in the United States if we had someone doing that same 
activity they would most likely be arrested.
    Now, that's not to say the Chinese don't arrest hackers. If 
you are a hacker in China, or Russia, for that matter, and you 
hack another citizen, they will arrest you and in some cases 
there's fairly significant consequences. So that's one of the 
ways that they say: Look, Chinese Government, we arrest 
hackers; we don't like this. They're arresting the ones who are 
hacking each other.
    A good example of that is some hackers set up fake 
universities in China and were taking in tuition payments and 
putting out fake degrees. This was all fake and the government 
ended up shutting it down.
    You see the same dynamic in Russia. If you're a Russian 
hacking another Russian, you're going to go to jail. But if 
you're a Russian hacking an American, no problem.
    Senator Fischer. If you're a Chinese hacking an American, 
are you doing it to disrupt or are you doing it to gain 
information?
    Mr. Bejtlich. At the patriotic hacker level it's generally 
disruption. But what happens is that indicates that you have an 
interest and a capability, and you will be recruited into a 
university. Then if you show even more capability, you may end 
up in a military unit.
    Senator Fischer. I know you said the second type of hacker 
was university--you used some other term. What was that?
    Mr. Bejtlich. Kevin and I were both in the military. It's a 
tough situation to have people who want to volunteer their 
service other than the formal National Guard, Reserve, or 
Active Duty. In China you can be in a militia that's a nebulous 
organization and be allowed to hack, and the more you hack the 
better. The best of them are chosen to go into the military.
    Mr. Mandia. I'd like to expound a little bit on the 
characteristics of the advanced persistent threat hackers that 
we mostly see and make some generalities about the attacks 
we're seeing out of China. First and foremost, these attacks 
are against companies; they're not against individuals at the 
highest level. It's to steal corporate secrets, not individual 
secrets necessarily.
    But the second thing that's insidious about these attacks 
is that they actually target humans, though, and they target 
human weakness. That's why there's been such a complication in 
fixing the problem. Just, hey, why don't we stop this? But it's 
more complex than stopping it, because the intrusions that APT1 
and other groups like them are doing are exploiting human 
weakness.
    They do it by sending emails purporting to be from someone 
you know, and you get these emails, and you may get them to 
your mobile devices or to your laptop or your desktop at work, 
and they're soliciting you in pretty darn good English to click 
on a link, to see a Word document or a Powerpoint document or 
something that you would expect to get even. Just by clicking 
on that link or downloading or opening that attachment to that 
email, you're compromising yourself.
    So they're leveraging human weaknesses and human 
vulnerability and trust to break into these organizations. But 
they are not targeting an individual at home. It's very clear 
to us, after responding to Chinese intrusions for nearly 15 
years now in my career, the attacks do follow a rule of 
engagement, but it's to steal IP, but I've never witnessed 
Chinese intruders, other than to breach the confidentiality of 
documents, I've never seen them change things. They're not 
changing the integrity of the data or making it unavailable 
intentionally, meaning they're not just shutting down machines 
and making it so that no one can connect to a machine.
    So there has been rules of engagement during the 15 years 
that I've responded to these types of intruders. But make no 
mistake, they are targeting our IP. It's very obvious from the 
moment they break in that they're just pilfering every pdf, 
Word doc, Powerpoint doc, and email related to the projects or 
work that they're interested in.
    Mr. Bejtlich. The one exception to the individual part is 
if you're an activist, a Tibetan activist, Falun Gong, those 
people are targeted incessantly. I met with an activist, a 
Tibetan activist, in Toronto yesterday and she described a 10-
year campaign that her organization has been enduring. She has 
5 years of evidence. She kept all these emails with all these 
malicious attachments like Kevin described.
    They have had to rely on the human defense of, I have to 
make the decision, do I trust this email. It says that I'm a 
Tibetan, I need money, I'm going to be arrested. So they've 
tried to figure that out as best they can. But outside of that, 
it is truly an espionage campaign like you've never seen.
    Senator Fischer. With businesses, how much would an 
American company spend on cybersecurity and what's the cost to 
consumers?
    Mr. Bejtlich. Prior to working at Mandiant, I was the 
director of incident response at General Electric, and I had a 
budget of $13.33 per employee per year to spend on my team of 
40 people. With that budget--with 300,000 employees, you can do 
the math and figure out what the budget was--I was able to hold 
the line against that group.
    What that will tell you is that unless you are a top 
company who can hire top talent and scale it out, scale those 
costs across the business, you can't afford the fences that 
will stop a Chinese military unit or a Russian unit or anyone 
else. It is truly a problem that is not--small and medium 
business, as an example, have an exceptionally difficult time 
dealing with this because they just can't support a team to 
hold back a military unit, or even a non-military unit that's 
very well-skilled.
    Mr. Mandia. Thinking about the impact of it, I think we're 
on the early onset of determining the cost to the consumer, 
because there's a certain amount of time that needs to elapse 
to benefit from all the intellectual property that's been 
stolen. So I think we're on the front end of the power curve, 
learning from these intrusions to see what would be the 
consequences, how many jobs might we lose, how much competitive 
pricing pressure might we get from exports coming out of that 
region.
    So I think we're still learning what was benefited from 
this enormous data theft, and we'll learn more over the next 
few years.
    Senator Fischer. Thank you.
    Thank you, Madam Chairman.
    Senator Hagan. I'm sure we have a series of questions. On 
that topic about protecting, and from GE's perspective, or any 
customer, is it possible to keep the adversaries out of our 
networks by technical means alone? I mean, techniques such as 
firewalls, intrusion detection systems, antivirus products, and 
the like. Or is it necessary to actively monitor and constantly 
search for the intruders?
    I ask this because it should affect the standards that the 
government is developing for critical infrastructure under the 
new cyber executive order. If we need investigative processes 
as well as ``good hygiene,'' that needs to be included in the 
standards that the National Institute of Standards and 
Technology is developing. I'd love to hear both of your 
comments on that.
    Mr. Mandia. I'll give you the high-level results. As we 
improve our security posture--and by the way, throughout my 20 
years of doing cybersecurity, for the most part, the security 
in this country is getting better. It's been going in the right 
direction.
    But as we do that, what we're really doing is reducing the 
target area for the attacker. What's lacking is that no matter 
what we do there's always going to be a gap in our security. 
There's always going to be technologies that are deployed 
faster than the means to secure them, and attackers will always 
take advantage of that.
    But that doesn't mean that we just give up. So we have to 
come up with a process where we mind the security gap that's 
always going to exist. That's one of the things that I've 
observed over the last 20 years is missing. We have this 
Maginot Line of preventive forces and we've established it, and 
we keep extending it, and we keep narrowing the gap. But what 
we haven't done a great job of necessarily is minding that gap, 
observing when are the bad guys getting around our defenses.
    So that's the high-level overture of where we're at as a 
country. The gap is shrinking, but we're not minding it as well 
as we could.
    Mr. Bejtlich. Madam Chair, the techniques we've seen in the 
highest-performing organizations, whether they're the military 
or the government or private corporations, people accept that 
you will be compromised, but you have to find it quickly, scope 
it effectively so you know the size of the breach, and then 
contain it. So you detect quickly, you respond quickly, and you 
contain quickly.
    It's not you deploy some type of technology and you assume 
it will keep the bad guy out. You have to say that's going to 
fail, there's going to be a security gap, like Kevin mentioned, 
and once that gap is exploited, you react to it quickly.
    Senator Hagan. Back to the APT1 unit. Who receives the 
stolen information that has been hacked? Is it state-owned 
enterprises, private companies? Then what do they do with it? I 
have examples of companies in North Carolina that were making 
outdoor recreation equipment, small scale, and yet all of a 
sudden they received requests for replacement parts because the 
parts that the people had purchased were not the original, it 
was not their design, it was not their product. Yet, now they 
are being told that you're responsible for this defect, when it 
had been hacked, it had been copied, and obviously not used the 
sturdy material that this company used.
    Mr. Mandia. I'll answer first on that. From our 
perspective--and Richard's going to have a different answer, 
but I don't know where the information goes after the 
intrusion. As we respond to these incidents, our consultants 
are in plain view of so much stolen information we can't 
possibly go through it all, nor do we. So I just want to leave 
you with the thought, it's mind-boggling how many people it 
would take to go through terabytes and terabytes of 
information.
    When you hear the word terabyte, most people don't even 
know what the heck that is. But I can assure you, in your whole 
life you're never going to read a terabyte of information. I 
don't think you'll ever get through it. I can only conclude 
there are a lot of folks. If you want to go through all this 
information, there has to be a whole engine that can take this 
electronic information in, create what's called an index for it 
so you can search it quickly, like a card catalogue, and you 
have to have the experts or the expertise that can benefit from 
it, because we're seeing design documents that make no sense to 
anyone but the engineers who made them, and you have to have a 
proficiency and an expertise in very specific topic areas to 
take benefits of it.
    But just from the volume we've seen, it would take an 
immense and costly effort, with lots of resources, to go 
through this data.
    Mr. Bejtlich. This is the great question for us. There's 
either a great intelligence report or a Ph.D. or a book waiting 
in it. We try to think in terms of similar activities. Kevin 
talked about the size of what an activity like that might look 
like. We know that the Chinese employs tens of thousands, if 
not more, people who do nothing but censorship. These are 
people who watch Sina Waibo and these other chat technologies 
looking for key words, that they then remove; they delete these 
posts. So if the Chinese are willing to devote tens of 
thousands of people simply to monitor their own Internet usage, 
we could be sure that they would have plenty of resources to 
throw at going through these documents.
    However, that clean case of get the information, get it to 
the right place, and then duplicate the product or service, 
that's a tough one for a company like ours to make that. We 
don't have people in China. We haven't found people who are 
willing to talk about what they have seen. It would be great if 
there were some defectors or something who would give us some 
insight into that process.
    Senator Hagan. Let me talk about countering the 
proliferation of cyber weapons. Export controls and other 
methods to control the proliferation of dangerous weapons have 
been in place for decades. Cyber weapons have the potential to 
cause damage on the scale of weapons of mass destruction, and 
it's common knowledge that there is a flourishing black market 
where one can buy or rent the cyber tools that can penetrate 
just about any computer system that's in use today, as well as 
the infrastructure to carry out even large-scale operations, 
such as the large collection of compromised computers, commonly 
referred to as a botnet.
    This cyber black market is a dangerous source of 
capabilities for terrorists, for criminals, and even nation 
states. Mr. Mandia, from your perspective as a security expert 
in the private sector, do you believe that it would be possible 
to develop a system of export controls for cyber weapons 
analogous to those that we have for other weapons? Do you think 
that such an idea is workable or even worth considering?
    Mr. Mandia. I can only offer you the perspective of a 
cybersecurity practitioner. I immediately went to the technical 
complications. No matter what we try to impose via legislation, 
the ability to surreptitiously communicate on the Internet 
exists. You can have an encrypted end point speak to an 
encrypted end point and it's very hard to know the content of 
those communications.
    The challenge of cyber weaponry is that it's highly 
scaleable. Someone with great expertise here at one site can 
just email it via an encrypted protocol to somebody with far 
less capability and technical wherewithal, and yet they have 
now been empowered to do a Stuxnet-like attack. So that's the 
challenge. It's almost like trying to put the cat back in the 
bag. There's encryption that's free, publicly available. There 
are anonymization techniques that you use on the Internet----
    Senator Hagan. There is what now?
    Mr. Mandia. Anonymization techniques. That's a big word for 
it's hard to pierce anonymity on the Internet sometimes when 
people are trying to remain anonymous.
    So because of encryption and the anonymity on the Internet, 
cyber weapons could be traded. I think it would probably be 
easier to catch any money that might pass hands, quite frankly, 
because you can trade the actual electronic bits and bytes 
surreptitiously.
    Mr. Bejtlich. Madam Chair, I was at a conference in Toronto 
where this very subject came up. I'm neither a lawyer nor an 
export control expert, but it was made apparent to us that 
there are laws in place that cover preventing the export of 
items of torture or these sorts of--from the 1970s, where the 
United States is prohibited from exporting this sort of stuff.
    I think if you define certain types of tools as being used 
for that type of behavior--in other words, some type of 
software that's used to conduct surveillance on an activist in 
Syria, and that person is arrested by virtue of the government 
buying that tool, the Syrian Government buying that tool, or 
something to that effect, I think that we have the legal 
framework in place to control that sort of export. I'd like to 
see that happen. I think it's not an easy case, but I think you 
can make a good case that we should not be exporting software 
that's then used for that sort of behavior.
    If you're looking at other types of software, though, this 
same tool that can be used to break into a network I can use to 
test my network to make sure that a bad guy can't break into my 
own company. So that becomes very difficult. Sometimes it comes 
down to what the marketing is. Is this tool marketed for 
nefarious purposes or is it marketed for legitimate purposes to 
try to improve your own security?
    One of the best ways we know to find out if you're 
vulnerable, one is to check to see if intruders are there; and 
then the second one is to simulate an intruder. If an 
intruder--if you simulate the intruder and you can't get access 
to a certain computer, then you know you're doing pretty well. 
To do that sort of work, you need that tool.
    So that's where it becomes difficult to try to regulate 
that sort of software. But I do think there's room to sort of 
carve out the clearly malicious software from the software that 
has a legitimate purpose.
    Senator Hagan. Mr. Mandia, your company's report and other 
such reporting from the private sector, I think, is very 
helpful for educating the American people about this threat in 
cyber space. It's also very helpful, I believe, in getting 
China's attention to this matter and letting them know that we 
know perfectly well what they are doing. We have certainly seen 
that in the last several weeks since your report came out.
    I realize that you sacrifice something when you reveal what 
you know. China probably will now change some aspects of how 
they operate and this may make it harder for you to track them 
in the future. But it seems to me that, as you say, you just 
can't prevent and deter a crime if all we do is observe the 
criminals to gather the intelligence. We can't just sit and 
watch China stealing this property.
    If your company was able to collect all of this information 
on an unclassified basis, it seems to me that the government 
could also make such releases without undue damage to source 
and methods. What are your views on the gain versus loss 
calculation?
    Mr. Mandia. I think that's a great question, and it 
becomes, is there a network-enabling effect of sharing 
intelligence? That's pretty complex. I can share this with you. 
Mandiant, when we obtain intelligence, we do it what I call 
laterally. We have to go from company to company to company to 
company. I think that the government is uniquely positioned at 
the top of the pyramid where they can get information from the 
bottom, which means they will have a top-down view that should 
be and is more comprehensive in scope than what Mandiant can 
provide going laterally.
    So the government is uniquely positioned to know more, have 
better intelligence, and be able to make that actionable should 
they be able to share it with prospective victims or imminent 
victims, meaning the intelligence showing that something's 
about to happen or is pending.
    I think that the criteria that go into that decision, does 
the gains outweigh the negative effects, I feel that once you 
have the capabilities to observe and orient on an attacker, you 
actually gain intelligence sometimes when you deal the attacker 
what I call the Mike Tyson upper cut, where if you change their 
behaviors, but you're able to swivel and observe and orient 
quickly again, to some extent you're now in charge of the game 
that you're being played.
    So I think there's a tremendous advantage at times to share 
the intelligence, but you also need to be postured to swivel 
for where they go next. The nice thing about it is as we take 
control of the game and start pushing the mouse into other 
directions, we can start predicting what they're going to do. I 
think the minute we're predicting what their reactions will be, 
we're starting to win at the game.
    Senator Hagan. Interesting.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairman.
    The Chinese premier has made comments since your report has 
been released. Have you seen those?
    Mr. Bejtlich. Yes, I have.
    Senator Fischer. He said: ``I think we shouldn't make 
groundless accusations against each other and spend more time 
doing practical things that will contribute to cybersecurity.''
    Also, the foreign minister said: ``Anyone who tries to 
fabricate or piece together a sensational story to serve a 
political motive will not be able to blacken the name of others 
nor whitewash themselves.''
    What's your response to that?
    Mr. Bejtlich. The main response that I've seen from the 
Chinese that I find curious is that they claim that our 
attribution is based on IP addresses, when clearly it's not. IP 
addresses are but one component. Even an IP address has value 
when it's the same IP address, the number that's assigned to a 
computer is the same for 7 years. I mean, that tells you 
something.
    But what's funny is that they say you can't use that 
measurement to assign attribution, and yet in the very next 
breath they turn around and say: ``American IP addresses are 
attacking us.'' So they think that somehow it's logical to deny 
our part of the argument, but then to use it for their 
purposes.
    I think they were stunned by this. I'm waiting for them to 
write a report. I just don't know if they'll be able to do it, 
because I feel that they may have some abilities, but to be 
thorough and professional and just to lay the facts out, I 
don't know if they're in a position to do that. They've not had 
a very sophisticated response if all they can do is talk about 
IP addresses that were seen attacking.
    Because our report isn't an attack report and other reports 
that we've seen come out since then, those are all attack 
reports. Our report's an intrusion report. This shows companies 
were broken into and data was stolen. 356 days on average an 
intruder was inside a company, terabytes of data stolen. One 
company was compromised for almost 5 years. That's much, much 
different than seeing an attack that gets bounced off of 
someone's firewall or another technical defense.
    Mr. Mandia. I think you always run the risk when you deny, 
deny, deny that overwhelming facts come to the public light. I 
think that over time we should see a tapering of the denials 
coming out of China on this. There is no doubt when we released 
this report one of the factors that brought me to the cusp of 
let's release it was the response to the New York Times article 
that came out in February. The New York Times said: Hey, we 
were compromised by the Chinese and here's what they did. The 
Chinese once again came back with the statement: ``It's 
irresponsible and unprofessional to accuse us.'' I went: ``You 
know, let's accuse them.''
    I think that the more they deny something, the more likely 
we'll entertain sharing more information.
    Senator Fischer. Have you seen a change in the APT1's 
practices since your report's been released?
    Mr. Bejtlich. Yes, we have. We've seen them try to clean up 
some of their online presence.
    Senator Fischer. How would they do that?
    Mr. Bejtlich. Some of the public databases that we or other 
security researchers can use to identify them, they've changed 
some of those entries. But what's interesting about that is by 
noticing the entries were changed it revealed something about 
who did it.
    We've seen them change some of their infrastructure, so the 
computers they were using to hop from China to the West, some 
of that has been changed. But we've been able to keep up with 
them on that perspective as well.
    I think what's also fascinating is that since the report 
was published there's been at least 25, upwards of 30, 
derivative, either efforts or reports, that built on our own 
research. You may have seen a wonderful story in the L.A. Times 
where some of their on-the-ground reporters found the blog of 
what apparently is one of the members of these units, where he 
described the drudgery of working in this unit over the period 
of several years, how he disliked the fact that it was away 
from the main city, which this headquarters is often in not a 
very interesting part of town. He missed his girlfriend. He 
felt like he was working in a prison because he would work from 
8 a.m. until 8 p.m.
    It was very interesting to get a firsthand account from 
someone who was one of these, self-identified as a Chinese 
military hacker, in uniform and so forth. So we hope that by 
bringing the report forward we'll get more and more of this 
sort of derivative analysis that gives even more detail.
    Senator Fischer. Do you think that with these hackers being 
able to have access to American companies, can they also shut 
them down? Does that access give them the ability to shut them 
down?
    Mr. Mandia. Yes.
    Senator Fischer. But they choose not to at this point?
    Mr. Mandia. Yes. We've responded to APT1 over 100 times, 
and these other APT groups hundreds and hundreds of times, and 
we have never seen what I would describe as destructive 
activities. We may see every once in a while they'll clear a 
log file to erase some evidence. So I think that the tools they 
have in place a lot of the times, not all of them, but some of 
them do have the access required to do a shutdown. Some of them 
even have in their back doors, that surreptitious way to access 
a machine, the ability to shut it down.
    Haven't seen it happen yet and I don't anticipate that the 
Chinese will be a threat that starts shutting down machines. I 
think other cyber threats will emerge before they do, meaning 
the Chinese, before they take advantage of that capability.
    Senator Fischer. You mentioned back doors. Are back doors 
set up in the manufacturing of computers or software? Is that a 
point we need to be concerned about at the very beginning of 
where we get our computers?
    Mr. Bejtlich. I would be more concerned with just overall 
software quality. To the extent software is not very well-coded 
and there are vulnerabilities that make it possible for someone 
to take over that computer, that's a concern. But when we write 
about back doors in our report, we're talking about methods of 
access that the Chinese have either introduced or stolen. They 
start out with using their own tools, but then they evolve to 
using the tools that you have. In other words, if you connect 
via a virtual private network as a user so that you can work 
from home, that's what they steal, so that now it looks like 
they're a normal user.
    So half of the time when we work these intrusions, 
eventually they look just like a normal user. That's what makes 
it very difficult for a company to find them and why they're 
able to stay active for so many years.
    Mr. Mandia. My opinion is we have to be mindful of our 
supply chain. That's what we're really talking about. I think 
the minute we turn our backs on that, that obviously that'll be 
a way to exploit our country again. So traditionally, though, 
it's so easy to break in right now by exploiting human trust 
and putting the traditional back doors that we've seen for 20 
years on systems. That's what people do today.
    But if we ignore the supply chain down to the chip, over 
time that might sneak up on us and be a challenge. I have not 
personally--well, that's not true. Throughout my career there 
have been publicized cases of software having what's called 
``Easter eggs'' in it or some kind of unwanted surprise in it. 
But I think that's a future problem, but if we ignore it it'll 
come faster.
    Mr. Bejtlich. We did document a case in our latest M-Trends 
report that was released this last month where a hard target 
who had been experiencing this problem for many years found 
that they were being attacked by a partner and by an outsourced 
information technology supplier who was compromised. So this is 
the trend now, that if your primary target is hard enough you 
come in through others. It doesn't necessarily mean you come in 
through the actual laptop that you buy or that sort of thing, 
but you come in through partner organizations. As those harden, 
like Kevin said, then I think the true supply chain will be the 
issue.
    Senator Fischer. My last question would be: how do we deter 
them?
    Mr. Bejtlich. I think signaling is one way. I don't have 
privy to how the decision was made, but when I saw that General 
Alexander was talking about offense explicitly I think that was 
a signal. I think that stating that we see you and that this is 
not acceptable is proper as well.
    We need them to scale back their activity to meet the level 
that we see from other adversaries such as the Russians. 
There's a sense with the Russians that there are certain lines 
we don't cross and certain activity stays at a certain level. 
With the Chinese, they take the gloves off and they go after 
far too many industries who simply cannot defend themselves.
    Mr. Mandia. My answer is at a higher level of abstraction. 
There's going to be technical solutions and non-technical 
solutions, and neither one in and of itself is going to be 100 
percent successful. So we'll probably never get to perfection 
here, because I can't think of one technical way to prevent all 
attacks. Technology is just evolving too quickly. But I believe 
that technology is advancing. We're limiting the consequences 
of intrusions far better today than 5 years ago.
    The up side of a lot of the attacks we've seen, if you want 
to think of it that way, is we're much better postured in many 
organizations to withstand the next generation attacks that may 
come without the code of ethics we've witnessed for 15 years 
out of Russia and China. It may come from Iran, may come from a 
non-nation state, or a terrorist group. So that the security 
has come up based on a lot of these activities, but it's the 
non-technical solutions that I just don't have the proficiency 
or expertise to advise you on. But you can't get there with 
just technology. Technology is not--there's not going to be a 
silver bullet, so we're going to have to have a diplomatic as 
well as technology to approach the problem.
    Senator Fischer. Thank you.
    Thank you, Madam Chairman.
    Senator Hagan. Before we close, do you think that the 
political leadership in China has been told by their cyber 
forces that what they've been doing was undetectable? If so, 
then would there be some pretty tough questions going on right 
now from the political leaders to their cyber forces?
    Mr. Bejtlich. I'm loathe to speculate, but my guess is they 
didn't say that it was undetectable, but they would have said 
it's tolerated. Now we're signaling to them that it's not 
tolerated.
    Senator Hagan. Then I have one more, final wrap-up question 
and this is what I ask all the generals that I talk to on this 
issue, too, and other companies. Tell me about your employee 
base as far as the educational component of science, 
technology, engineering, and math (STEM) education in our 
country for the kind of people that you need to be hiring to do 
this kind of work?
    I know that STEM is certainly an area of focus that we in 
our country have to be paying a lot more attention to, so that 
we can be sure that we have the people within our military, 
within our government, within our private industries, within 
the companies that come to you to help them from an intrusion 
standpoint. Can you talk a little bit about what you see from 
your perspective?
    Mr. Bejtlich. Hiring is our biggest challenge. We struggle 
to find the types of people that will meet our needs. But there 
are good signs. 15 years ago when I started, when Kevin 
started, there weren't programs that you could attend to learn 
how to defend yourself. There were computer science programs, 
but there were not computer security programs. So we're seeing 
more of that, which is good.
    I still think there's a disconnect between the theory 
that's taught and then what you really need to do on the job. 
It would be--both Kevin and I are authors. We write books that 
people use in school and they learn how to do the real deal as 
opposed to learning about cryptography, which may or may not be 
helpful.
    So I think we're getting there. I think that the fact that 
in the military and in the FBI and some other places there are 
career paths now--that's what's difficult. When you take 
someone in uniform and they don't have a career path to stay 
doing this work, that's tough. I think that's changed now and 
that's encouraging. Even having CYBERCOM, I think, as a home 
for people like that, is very encouraging.
    But there's still plenty more to do. The fact that the 
Chinese can muster so many people and encourage so many people 
to learn how to hack and in the United States we still have 
trouble with that--not that I'm encouraging anyone to learn how 
to hack necessarily, but to do it for educational purposes and 
then do it as a job. This is the greatest job in the world as 
far as I'm concerned and I would love to have more people 
banging down our doors to try to do it with us.
    Mr. Mandia. The bottom line is there is a shortage, and 
we're doing what many other companies are doing, supporting 
local colleges, supporting students, trying to get more people 
into it. I always believe wherever money goes crime follows. 
Pretty soon we'll all be paying for things with our Android 
phones and our iPhones, and the minute we're doing all-digital 
money we're going to see more digital crime and we're going to 
need more expertise, and we need to build technology that 
expands at the scope of those expertises as well.
    So we're in an interesting time, but we're trying to make 
more--as I say, we're trying to groom more cyber pilots to help 
us.
    Senator Hagan. We certainly thank you for your report. 
Thank you for your company's making this public and sharing it 
with us. We certainly do thank you for your testimony at this 
briefing today.
    We will adjourn. Thank you.

                                 ANNEX

    [The report titled: Mandiant Report, ``APT1 - Exposing One 
of China's Cyber Espionage Units'' follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          
    [Whereupon, at 3:20 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, APRIL 9, 2013

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

 DEPARTMENT OF DEFENSE PROGRAMS AND POLICIES WITH RESPECT TO EMERGING 
                        COUNTERTERRORISM THREATS

    The subcommittee met, pursuant to notice, at 2:24 p.m. in 
room SR-222, Russell Senate Office Building, Senator Kay R. 
Hagan (chairman of the subcommittee) presiding.
    Committee members present: Senators Hagan, Nelson, Fischer, 
McCain, and Blunt.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Michael J. Kuiken, professional 
staff member; William G.P. Monahan, counsel; Michael J. Noblet, 
professional staff member; and Robie I. Samanta Roy, 
professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; and Thomas W. Goffus, professional 
staff member.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, John L. Principato, and Lauren M. Gillis.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Christopher Cannon, assistant to 
Senator Hagan; Christian Brose, assistant to Senator McCain; 
and Peter Schirtzinger, assistant to Senator Fischer.

      OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRMAN

    Senator Hagan. The Emerging Threats and Capabilities 
Subcommittee will come to order, and my first official apology. 
I, for some reason, had it in my head this was at 2:30 instead 
of 2:15. So I do apologize.
    Good afternoon, everybody, and thanks. Today the 
subcommittee welcomes Assistant Secretary of Defense for 
International Security Affairs Derek Chollet--thank you for 
being here--Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict Mike Sheehan--thank you--
and the Commander of Special Operations Command (SOCOM), 
Admiral Bill McRaven--thank you--for us to receive testimony on 
the Department of Defense (DOD) programs, policies, and 
operations with respect to countering emerging terrorism 
threats, in preparation for the committee's markup of the 
National Defense Authorization Act for Fiscal Year 2014. We 
look forward to your testimony today.
    Since the subcommittee held a similar hearing last year, 
the global landscape has continued to evolve and the demands 
being placed on our Nation's military continue to morph as 
well. Assistant Secretary Chollet, the subcommittee requested 
your participation today because the most acute terrorism 
threats our Nation faces today are located in the geographic 
area for which you are responsible.
    A few examples come to mind quickly. In Syria, the Al-Nusra 
Front, which is closely connected with al Qaeda in Iraq, has 
demonstrated remarkable strength over the past few months 
against the military and Mafia-like forces of President Assad 
and his inner circle. In Yemen, despite a number of notable 
counterterrorism (CT) successes by our Nation's CT 
professionals, al Qaeda in the Arabian Peninsula continues to 
plan strikes against the United States and our interests. In 
Somalia, a massive investment by the international community in 
the African Union Peacekeeping Force, coupled with targeted 
training by U.S. Special Operations Forces (SOF) of deploying 
units, has paid dividends that may put the Somali people and 
their nascent national government on a path to a better future.
    In North and West Africa, the political instability created 
by the Arab Spring, as well as the multilateral military 
intervention in Libya, has created a security vacuum in a vast 
region of the world where the reach of national government does 
not often extend beyond the major population centers. Al 
Qaeda's franchise in the region, al Qaeda in the Lands of the 
Islamic Maghreb, as well as a number of other local violent 
extremist groups, have seized on this instability and the 
availability of the weapons to undermine the governments in 
Mali and elsewhere.
    I know the issues surrounding this region have consumed a 
great deal of attention for all three of our witnesses today 
and we look forward to hearing your views on the situation on 
the ground as well as the support the United States, that we 
are providing to regional and international efforts to combat 
this instability.
    I also understand this situation serves as a good way to 
highlight some of the complex security assistance challenges 
that our defense professionals have sought to address in recent 
years. Secretary Sheehan and Admiral McRaven, I hope that you 
will also address these matters today.
    Another issue which I know the full committee chairman and 
ranking member have focused on in recent years is the U.S. 
Support Mission to Central Africa efforts to remove the 
leadership of the Lord's Resistance Army from the battlefield. 
Given the recent coup in the Central African Republic, the 
subcommittee looks forward to an update on this mission and the 
Department's plans for it in the coming months.
    Admiral McRaven and Secretary Sheehan, over the past year 
the Department has placed an emphasis on innovative, low-cost, 
and small footprint approaches to achieve national security 
objectives. This describes one of the hallmarks of our SOF and 
the demand for those forces we know remain high.
    While the residual threat from al Qaeda, fiscal realities 
facing the Department, and the sensitivity of many of our 
partners to a large or visible presence of U.S. military 
personnel will drive continued deployments of SOF for our CT 
operations and engagement activities designed to improve the 
capacity of foreign security forces to confront the mutual 
security challenges.
    Upon taking command of SOCOM in August 2011, Admiral 
McRaven began developing your vision for the future of our SOF. 
One element of that vision is what you've referred to as 
``enhancing the global Special Operations network.'' I know 
that published reports indicate that you're seeking a series of 
changes to your command's authority and DOD policy, which we 
have discussed, that would give you more control over the 
deployment and utilization of SOF. In some cases these 
proposals have generated speculation, and please use today's 
hearing as an opportunity to provide specifics on what you are 
hoping to achieve and what changes you believe are necessary to 
enhance the effectiveness of the SOF in carrying out these 
assigned missions.
    Secretaries Sheehan and Chollet, as the civilians with 
primary policy oversight the committee looks forward to hearing 
your thoughts on these issues.
    On the issue of security assistance authorities, I hope all 
three of our witnesses will offer views on the authorities this 
subcommittee has helped provide to the Department to address 
the multitude of security issues our Nation confronts. These 
include the Global Security Contingency Fund (GSCF), the 
targeted authorities for Yemen and the Horn of Africa, the 
Section 1208 authority, DOD's counternarcotics authority, and 
other issues that you would like to share your thoughts with 
us.
    Recent news reports have also discussed U.S. CT operations, 
including those conducted using remotely piloted aircraft, or 
drones, and whether they preponderance of such operations 
should be conducted under Title 10 of DOD authorities. The 
public statement of several senior administration officials 
suggest that changes along these lines may be under 
consideration. So I hope you'll also provide testimony on that.
    Before our witnesses provide brief opening remarks, I'll 
turn to Ranking Member Fischer for any opening remarks that she 
has to make.
    Senator Fischer.

                STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Thank you, Madam Chairman. Once again, 
this is our first official hearing. I would like to tell you 
what an honor and a pleasure it is to serve as the ranking 
member on your subcommittee.
    I join you in welcoming our witnesses today and I thank 
them for their many years of service. Their testimony will play 
an important role in informing our efforts to craft the 
National Defense Authorization Act for Fiscal Year 2014.
    Over the last month the full committee has heard from many 
of our most respected civilian and military leaders regarding 
the threats within their respective areas of responsibilities. 
What was made abundantly clear from their testimony is that 
this country and our partners are facing a global security 
environment that is as complex and daunting as any time in our 
history.
    Terrorists and other illicit networks are increasingly 
interconnected and are no longer confined to geographic 
boundaries. As you have stated previously, Admiral McRaven, 
there is no such thing as a local problem. While the security 
environment is becoming increasingly dynamic, I worry that our 
strategy to confront these threats is struggling to keep pace. 
What I hope to gain from our hearing today is a better 
understanding of what threats cause our witnesses the greatest 
concern and whether current strategy, resourcing, and legal 
authorities are sufficient to meet those threats. More simply, 
how do we most effectively address the growing threats to this 
country and our interests around the world, particularly in a 
time of growing budgetary uncertainty?
    Thank you, Madam Chairman.
    Senator Hagan. Thank you, Ranking Member Fischer.
    I want to recognize our witnesses. First, Secretary 
Sheehan, if you could give your opening statement, and then 
Secretary Chollet and then Admiral McRaven.
    Secretary Sheehan.

 STATEMENT OF HON. MICHAEL A. SHEEHAN, ASSISTANT SECRETARY OF 
 DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT AND 
                  INTERDEPENDENT CAPABILITIES

    Mr. Sheehan. Thank you, Madam Chairman, Senator Hagan, and 
thank you, Senator Fischer, as well. Thank you for the 
opportunity to speak today from the Department about our 
emerging CT threats. I've provided a longer statement for the 
record that will address many of the issues both of you raised 
in your opening comments, but I also touch upon them in my 
opening remarks as well.
    Today I'd like to talk about the evolving threat of al 
Qaeda and its affiliates, our counterterrorism efforts, and a 
few words about the role of SOF in our strategy. As you 
mentioned, Senator Hagan, the Secretary of Defense and the 
President announced in our new defense strategy that we're 
going to develop innovative, low-cost, and small footprint 
approaches to achieve our security objectives. The Secretary of 
Defense also stated that the task of training, advising, and 
partnering with foreign military and security forces has moved 
from the periphery to become a critical skill set across our 
armed services. I would add that for SOF this has always been 
one of our quintessential missions.
    Today we shall expand upon our defense strategy and discuss 
how in the context of the dynamic threat posed by al Qaeda and 
other terrorist groups, how our CT effort is progressing. In 
the past year alone, we've already seen this strategy begin to 
take shape and have some success, particularly in Somalia and 
in Yemen. I'll come back to those.
    But before I talk about the strategy, a few words about the 
threat as I see it. In the past 10 years we've had enormous 
success against al Qaeda, particularly in their ability to 
strike our Homeland and other strategic interests abroad, and 
it's important to recognize this success and understand what 
has been responsible for that success.
    However, al Qaeda's core threat to our Homeland continues 
to evolve and emanate around the world. But I will say that I 
still consider the main threat from al Qaeda from its two 
traditional strongholds, in the mountainous area between 
Afghanistan and Pakistan, the AFPAK region, number one, and 
second from its other traditional stronghold in Yemen. Those 
remain the most traditional and to me still the most important 
threats for al Qaeda, direct threats for our Homeland today, 
those two, even as al Qaeda morphs and seeks to find 
sanctuaries in other parts of the world, and we'll talk about 
those.
    Right now al Qaeda has begun to take advantage of 
uncontrolled space in other parts of the world. Now, we 
mentioned Somalia and we've had some great success there. 
That's perhaps the third area after AFPAK and Yemen, then 
Somalia. Then the two most emerging areas that we all know of 
and that you mentioned in your opening remarks, Senator Hagan, 
is North Africa, West Africa, and of course Syria. In both 
cases, al Qaeda has taken advantage of ungoverned space and 
moved into both those areas to begin to establish its networks.
    In North Africa they were able to join with a local Touareg 
rebellion, then eject that leadership of that rebellion and 
take over a large part of Mali, and we know the story of the 
French pushing them back since last January.
    In Syria the Al-Nusra Front, an al Qaeda of Iraq affiliate, 
another al Qaeda affiliate, has also taken advantage of the 
ungoverned space in the war in Syria to establish a foothold 
there, and it continues to operate, primarily with its efforts 
against the Assad regime.
    Let me take a few words to talk about our strategy against 
al Qaeda around the world. First I want to say a few words 
about direct action. Our direction----
    Senator Hagan. Secretary Sheehan, one other comment is 
let's make them pretty brief, because what my plan is is to be 
in here until 3:20 p.m.
    Mr. Sheehan. Okay. I was planning on 5 minutes.
    Senator Hagan. Okay, that's fine. Then we'll go to the 
closed session and have another hearing.
    Mr. Sheehan. All right.
    Senator Hagan. That's fine.
    Mr. Sheehan. I'll go through this briefly.
    We use several components of our strategy. One is the 
direct action or the lethal action. We've become very 
proficient at that in the Special Operations community, and it 
helps us target the key leadership and networks of al Qaeda. As 
you're aware, the President has made clear that he wants to 
continue to engage Congress and assure not only that our 
targeting, detention, and prosecution of terrorists remain 
consistent with our laws and systems of checks and balances, 
but our efforts are even more transparent with the American 
people and the world.
    The second component of our strategy is security force 
assistance. This is our building partners' capacity. You 
asked--I'll make a few comments about some of the instruments 
that Congress has provided to us particularly since September 
11, 2001, to give us tools to do that. Section 1206, the train-
and-equip, and section 1207, particularly for Yemen and East 
Africa, have been fundamental for us building the capacity in 
Yemen and in Eastern Africa, where we have had success rolling 
back al Qaeda's sanctuary over the past year.
    A year ago if I testified from here I would have been 
talking about al Qaeda controlling massive swaths of territory 
in Yemen and massive swaths of territory in Somalia. In both 
cases they've been rolled back. The programs that you've 
provided us with those authorities were central to that.
    We have a new experimental program, the GSCF, a pilot 
program, that is also assisting us in building capacity around 
the world and I can talk a little bit about later and our 
evaluation of that.
    Section 1208, although not a building capacity program per 
se, is also fundamental for our ability to work with surrogates 
to pursue our interests in operational aspects of CT. But we're 
increasingly using it as well to develop partner elite units 
that also become very operationally important to us in North 
Africa and other parts of the world.
    In the future I think it's extremely important, Senator 
Hagan, that we look to codify those authorities that have been 
provided to DOD, provide those multi-year authorities, make 
them permanent and make sure the funding streams and 
authorities are clear.
    I want to spend a few minutes talking about denying 
sanctuary. When I was following al Qaeda prior to September 11, 
we learned then that you cannot allow al Qaeda to have 
sanctuary with impunity. What we try to do whenever al Qaeda 
has sanctuary is try to either work with the host country or, 
if they're not capable, increasingly now we're working with 
multinational forces to deny al Qaeda sanctuary.
    In Yemen, where we had a capable country leadership with 
the new leadership of Hadi, we're working with the Yemenis to 
roll back al Qaeda in Yemen. In Somalia, where we didn't have a 
functioning government, we've worked with the African Union and 
a United Nations (U.N.) peacekeeping operation and have 
successfully ejected al Shabaab, the al Qaeda affiliate, out of 
the major cities in Somalia. In Mali right now, the French have 
pushed the al Qaeda Islamic Magheb (AQIM) out of the major 
cities in north Mali, and we're working to create a U.N. 
operation to follow that so the French can focus on the high-
value targets and eventually turn over that security to the 
host country.
    That's really what we're trying to do with our strategy, is 
turn it back over to the host country and local forces. We can 
assist them, but really the responsibility for ensuring the 
security of their sovereign territory is their national 
responsibility. That is the future and those tools that I just 
talked about and you mentioned, Senator Hagan, are absolutely 
fundamental for our ability to do that. We're looking at 
modifying those and coming up with some new ideas that Admiral 
McRaven and we have presented that we think will even better 
our ability to pursue those objectives.
    Let me conclude by saying that after a decade of great 
success in pounding al Qaeda leadership, typically in 
Afghanistan and Pakistan, but around the world, harassing them 
with partners and by ourselves, we've had success against the 
al Qaeda organization. We need to continue to be adaptive and 
flexible in order to continue to have that success and make 
sure we have the proper authorities, the proper funding. I 
believe we can do that together, and I look forward to 
continuing the discussion of how we do that in the rest of this 
session.
    Senator Hagan. Thank you, Mr. Secretary.
    Mr. Chollet.

  STATEMENT OF HON. DEREK H. CHOLLET, ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Mr. Chollet. Madam Chairman, Ranking Member Fischer, 
distinguished members of the subcommittee: I appreciate the 
opportunity to join this hearing to speak about how today's 
emerging CT threats impact our defense relationships in Africa 
and the Middle East and what we are doing to build strong 
partners in these critical regions.
    The dramatic events of the past 2 years throughout the 
Middle East and Africa offer both opportunities and challenges 
as we work to combat al Qaeda and associated threats. On the 
positive side, these developments hold great promise for people 
long denied freedom, dignity, and opportunity. Ultimately, we 
believe that democratic transitions will discredit violent 
extremists, provide a more enduring foundation for stability 
and cooperation, and better align our values and our interests.
    We are also aware of the significant risks inherent in such 
historic change. In particular, al Qaeda and other extremist 
organizations are seeking to exploit the resulting uncertainty 
to establish new operating environments in ungoverned or poorly 
governed spaces. In order to mitigate these risks, DOD is 
strengthening our military-to-military relationships with 
partners, working to enable effective local capacity, and 
supporting international and regional responses to terrorist 
and extremist threats.
    In all of these efforts, we are working closely with our 
allies in the regions as well as Europe to leverage our 
collective capabilities, especially as we adjust to the new 
realities of more austere budgets.
    In the interest of time, I'll briefly comment on four 
countries in particular, several of which you've mentioned, 
Madam Chairman, in your opening statement, and I'll look 
forward to your questions.
    First in Yemen. As part of a ``whole-of-government'' 
approach to combatting al Qaeda Arabian Peninsula (AQAP), DOD 
is providing training and equipment to Yemeni security forces 
to build capacity and to conduct counterterrorism operations. 
Also, in concert with our European Union (EU) and Jordanian 
partners, we are providing advice to the Yemeni military as it 
reorganizes under a single chain of command under President 
Hadi. A unified professional Yemeni military will be more 
effective in the fight against AQAP and will contribute to 
greater political stability.
    Second, we remain supportive of Libya's transition in the 
aftermath of the Benghazi attacks and seek to assist the 
Government of Libya as it strives to secure its borders, 
control its various militias, and counter violent extremists. 
DOD is willing and able to expand cooperation with the Libyan 
armed forces, but we are challenged by a heightened security 
threat and a diminished personnel presence at our embassy in 
Tripoli. As the security situation improves and the Libyans are 
better positioned to provide funding to support their armed 
forces modernization, we hope that our relationship will 
expand.
    Third, in Mali we are very concerned about the instability 
and the risk--instability in Mali and the risk it poses to 
regional stability and our interests in the region. We share, 
as Secretary Sheehan has pointed out, we share the French goals 
to shrink the AQIM safe haven, to contribute to the restoration 
of Malian territorial integrity, and to set the enabling 
conditions for elections.
    Since soon after the French forces entered Mali in January, 
the United States has been supporting them in critical ways 
through intelligence-sharing, airlift, and aerial refueling, to 
enable their operations. While there is no consideration of 
putting U.S. combat forces on the ground in Mali, we continue 
to support Mali's neighbors through training and assistance to 
counter regional threats.
    Finally but perhaps most troubling, we are keenly focused 
on events in Syria and the suffering of the Syrian people and 
the impact on regional stability generally. As President Obama 
said last mont during his visit to Israel and Jordan, we are 
very concerned about Syria becoming an enclave for extremism, 
which is why we're working with the international community to 
help accelerate a viable political transition and helping the 
Syrian opposition be more cohesive and capable.
    The United States is the single largest humanitarian donor 
to the Syrian people and is working closely with partners like 
Jordan and Turkey to help deal with the significant 
humanitarian and security challenges they face as a result of 
this conflict.
    Madam Chairman, Senator Fischer, the situation in Syria 
along with that in Yemen, Mali, Libya, and elsewhere, serves as 
a stark reminder that, as Secretary Hagel said last week in his 
speech at the National Defense University, ``The world remains 
combustible and complex.'' That's why, especially in these 
fiscally challenging times, we will continue to rely upon the 
leadership of this subcommittee and the full committee and 
Congress as a whole in supporting the Department and our men 
and women in uniform to defend our interests.
    Thank you again and I look forward to your questions.
    [The joint prepared statement of Mr. Sheehan and Mr. 
Chollet follows:]
          Joint Prepared Statement by Hon. Michael A. Sheehan 
                       and Hon. Derek H. Chollet
    Madam Chairman, Senator Fischer, and distinguished members of the 
Subcommittee: thank you for the opportunity to speak about how we, at 
the Department of Defense, are addressing today's emerging 
counterterrorism threats.
    While the past decade has been marked by two major wars in Iraq and 
Afghanistan, we have not lost sight of the more pervasive and immediate 
threat of terrorism, especially from al Qaeda and its affiliate 
networks. To combat this widespread and evolving threat, we have 
engaged with willing nations around the world, building their 
capabilities and strengthening our partnerships with them. We have also 
leveraged a whole-of-government approach, characterized by diplomatic, 
economic, intelligence, law enforcement, informational, financial, and 
military instruments. In doing so, and with support from many of you in 
this room today, we have protected the American people.
    In January 2012, the President and the Secretary of Defense 
released new defense strategic guidance, which emphasized the need to 
rebalance towards Asia/Pacific, while retaining our focus on 
counterterrorism and irregular warfare capabilities. Specifically, it 
stated that ``our [CT] efforts will become more widely distributed and 
will be characterized by a mix of direct action and security force 
assistance,'' and that we will ``continue to build and sustain tailored 
capabilities appropriate for [CT] and irregular warfare.''
    Today we wish to expand upon our defense strategy and discuss how--
in the context of the dynamic threat posed by al Qaeda and other 
terrorist groups--our CT efforts are progressing. We will also speak to 
the role of U.S. Special Operations Forces (SOF) in the context of this 
new defense strategy.
    Only 1 year into the strategy, we are already witnessing its 
impact, particularly in Somalia and Yemen. For example, in Yemen we've 
taken key leaders off the battlefield and Yemeni security forces have 
pushed them out of safe havens in the South. We are not about to claim 
victory; however, we have made significant progress in achieving our 
objectives and greatly diminishing the al Qaeda network's ability to 
recruit, train and launch effective attacks in the 12 years since 
September 11.
    We'd like to talk first about the persistent and evolving threat 
from al Qaeda and its affiliates.
                               the threat
    Al Qaeda is significantly diminished in some theaters but still a 
persistent threat. Core al Qaeda's leaders are still based in the 
mountainous region between Afghanistan and Pakistan. As we wind down 
U.S. combat operations in Afghanistan, we cannot lose focus on this 
area. But al Qaeda and its affiliates are also evolving to exploit 
opportunities and fragile environments in Africa and the Middle East 
brought on by the unrest there over the last several years.
    Outside the Afghanistan-Pakistan region, Yemen has been a safe 
haven for al Qaeda in the Arabian Peninsula (AQAP). Yemen remains a 
place where terrorists aspire to attack the United States and our 
allies, and AQAP is bent on using violence to disrupt the ongoing 
political transition there.
    In the Horn of Africa, al Qaeda commenced its global terrorist 
campaigns with attacks against U.S. embassies in Nairobi and Dar es 
Salaam in 1998. Today East Africa-based al Qaeda associates are closely 
intertwined with al-Shabaab, which itself aspires to establish a 
Taliban-like Islamic State and launch regional and transnational 
terrorist attacks. Most of the key East Africa-based al Qaeda and al-
Shabaab leaders have been removed from the battlefield. Despite the 
incredible progress in Somalia over the past few years, including the 
establishment of the first elected government in decades, some remnants 
of al Qaeda remain and are seeking to regroup.
    Meanwhile, outside of their traditional strongholds, al Qaeda and 
other extremist organizations are adapting and regenerating in 
ungoverned or poorly governed spaces, carving out new sanctuaries, and 
threatening our overseas interests and those of our regional partners. 
In particular, they are taking advantage of the instability and turmoil 
resulting from the Arab Awakening, in places like Syria and Libya. We 
saw the dangers manifest through this combination of extremism and weak 
governance at our diplomatic facilities in Benghazi, where we lost an 
Ambassador and three other Americans; in Algeria, during the attack by 
a Mali-based terrorist group on the British Petroleum facility at In 
Amenas; in Nigeria, where al Qaeda affiliates have kidnapped and 
executed western hostages and bombed the U.N. Headquarters in Abuja; 
and in northern Mali, where al Qaeda in the Lands of the Islamic 
Maghreb (AQIM) and its allies were expanding their control over some 
population centers until the French and regional partner forces--many 
of them trained and supported by the United States--intervened to 
counter the terrorists and reverse their momentum.
    In North and West Africa, AQIM is exploiting volatility in the 
region and a lack of state control over significant swaths of territory 
to establish new operating environments. Weapons from Libya and money 
from kidnappings and illicit trafficking are enabling al Qaeda activity 
that stretches from the Mediterranean to Mali and down to Nigeria. We 
rely on an indirect approach in the region, building the capacity of 
partner states to counter shared threats. Limited government capacity 
and frequent political instability--such as coups d'etats--pose 
challenges to our efforts. But such challenges make a regional approach 
even more critical and are why we are working with a wide range of 
partners, including the United Nations and regional security 
organizations, to counter these threats.
    In Syria, during an almost 2-year-long violent uprising to depose 
President Assad, al Qaeda in Iraq's (AQI) network in Syria--operating 
under the moniker al-Nusrah Front--has sought to portray itself as part 
of the legitimate Syrian opposition. Al-Nusrah Front is, in fact, an 
attempt by AQI to hijack the struggles of the Syrian people for its own 
malign purposes--attempting to establish an al Qaeda-governed state in 
the region.
    The threat is also metastasizing. New groups, many with links to al 
Qaeda, are beginning to develop, such as Ahrar al Sham in Syria, 
Muhammad Jamal Group in Egypt, Ansar al Sharia in Libya and Tunisia, 
Tawhid Wal Jihad in West Africa in Mali, as well as Boko Haram in 
Nigeria. Although many of their operatives are focused on local targets 
and goals, many of these organizations have external operations agendas 
and can be expected to turn to international targeting if left 
unopposed. In some cases, as groups become entrenched, they begin to 
establish more sophisticated training camps. Although these camps do 
not match the scale witnessed in pre-September 11 Afghanistan, they are 
specialized, mobile, and attractive to new recruits. Some of these 
camps provide advanced explosive training and tradecraft, radicalize 
personnel, and are a means to provide funding and weapons, which when 
combined, enables them to become a strategic threat. It is also 
critical to enable effective local capacity before the threats grow too 
large for local security forces to manage.
    We have learned from experiences in Libya and Algeria that these 
groups will take advantage of U.S. engagement and interests in fragile 
and conflict-affected areas to target our citizens. These opportunistic 
attacks can be challenging to predict and costly when executed. As we 
saw in the case of Algeria, these groups could target industrial or 
humanitarian compounds and threaten U.S. personnel and interests. This 
has reinforced our need to strengthen our relationships with regional 
partners to advance our common security objectives.
    Development of persistent relationships with capable units in host 
nations is critical so that we can ensure agile and capable responses 
to a range of contingencies. SOF and other forces focused on security 
force assistance are skilled at taking country-specific approaches and 
seeking opportunities to establish critical operational and 
intelligence relationships needed to: (1) maintain constant pressure on 
al Qaeda-affiliated groups; and (2) ultimately defeat them. As we 
examine indicators and trends shaping our future security environment, 
regional specialization and the ability to operate independently in 
austere and denied areas will enable enhanced security for U.S. 
overseas personnel, facilities, and interests.
                elements of a counterterrorism strategy
    We cannot allow al Qaeda to benefit from sanctuary with impunity, 
as they did in Afghanistan during the 1990s. To attack al Qaeda and 
diminish its influence, we must continue to employ a unique range of 
tools and activities. Along those lines and as mentioned earlier, the 
New Defense Strategy describes the requirement for a mix of direct 
action and security force assistance.
                             direct action
    The high-profile success stories of the last decade have often 
resulted from direct action precision strikes and raids, which have 
disrupted some attack plans and degraded elements of al Qaeda. But we 
cannot rely solely on precision strikes to defeat enemy networks and 
foster stability--these operations buy us time but do not provide a 
lasting solution. Ultimately, the decisive battle to defeat these 
groups must be fought--and won--``by, with, and through'' host nation 
efforts.
    We must now transition to a period with partners in the lead but we 
will always reserve the right to defend ourselves. For this reason, we 
must retain high end capabilities to deploy and strike swiftly and 
precisely anywhere in the world.
                       security force assistance
    The effort to build the capabilities of partner nations' special 
operations forces can serve two purposes: (1) to deny space and 
sanctuary and (2) to develop partner capability to conduct specialized 
missions, including direct action against key terrorist group leaders 
but also elite capabilities to respond to a range of contingencies and 
threats as they emerge.
    Helping our foreign partners to provide for their own security and 
contribute to regional stability is an investment that pays immediate 
and long-term dividends by reducing the need for costlier U.S. 
interventions in response to turmoil in regions critical to U.S. 
interests. These activities are a cost-effective way to strengthen our 
national security posture by building lasting relationships and 
alliances with partner nations. Efforts to build partners' capacity to 
conduct their own operations against terrorist threats are a 
fundamental aspect of our strategy. Capable partners mitigate the 
burden on U.S. forces and serve as the basis for future cooperation, 
improved U.S. access, and combined operations.
    Security Force Assistance is often conducted by our special 
operations forces, whose history and proficiency at working ``by, with, 
and through'' partner forces makes them our provider of choice for this 
mission. SOF operate through persistent engagement in key countries, 
which generates ``operational context.'' Operational context is the 
thorough understanding and, in fact, expertise that is uniquely gained 
through multiple visits to the same areas. This includes understanding 
local culture, society, language, economy, history and politics. In 
short, SOF operators have valuable insights on the physical and human 
terrain of their areas, which allow them to be more precise and 
therefore successful in their enabling activities.
    Beyond Afghanistan, SOF have been deployed to dozens of countries 
across the globe, conducting low-visibility, highly-sensitive missions 
that are putting pressure on and constraining the ability of the al 
Qaeda network to plan, train, and prepare for terrorist attacks.
    There is nothing new about this mission, for the United States or 
for our SOF. Prior to September 11, U.S. SOF were working around the 
world to train, equip, advise, and assist host nation forces to combat 
threats to security and U.S. interests.
    For example, in Colombia, U.S. Army Special Forces trained and 
assisted host-nation forces to combat the drug smuggling and violence 
instigated by the Revolutionary Armed Forces of Colombia (FARC) and the 
United Self-Defense Forces of Colombia (AUC). The successful rescue of 
three U.S. hostages in 2009 marked the culmination of 2 decades of 
persistent SOF efforts to build Colombian SOF capabilities. Now, we are 
encouraged to see that Colombia is in turn providing justice sector and 
security force assistance of their own to other U.S. partner nations 
across the Americas and in Africa.
    More recently, SOF have played a key role in places like the 
Philippines, where their decade-long engagement has yielded more 
capable partner forces that have made significant progress countering 
terrorism. The ongoing relationship between SOF and the Armed Forces of 
the Philippines (AFP) strengthened when SOF deployed in 2002 to act in 
a non-combat role to advise and assist the AFP in operations against 
the Abu Sayyaf Group, a terrorist entity taking advantage of safe 
havens in the southern Philippines. The units first engaged with local 
residents to learn their basic needs. This allowed U.S. SOF to then 
work with the AFP to address grievances in the community, severing 
their ties with the terrorist groups. As SOF trained and advised the 
AFP personnel, they helped coordinate security efforts and 
interagency--sometimes international--programs to address key issues 
such as water, medical care, transportation, and education.
    Currently, our CT cooperation with the Yemenis has placed 
unprecedented pressure on AQAP, and we continue to support the 
development of Yemeni capacity to conduct intelligence-driven CT 
operations in a manner that respects human rights and makes every 
effort to avoid civilian casualties.
    In North and West Africa, we are providing support to the French in 
their efforts to degrade the capacity of AQIM. We have moved assets and 
provided intelligence to enable the French to effectively prevent AQIM, 
its off-shoots, and allied insurgents from advancing farther south into 
Mali. These efforts illustrate that partners in the lead can include 
key allies, like France, as well as host nations such as Niger and 
Chad.
    In Somalia, the United States works through the African Union 
Mission in Somalia (AMISOM). We have provided advising and assistance 
to AMISOM which has reduced al Shabaab's freedom of movement in south 
and central Somalia.
    In order to conduct these security force assistance activities, SOF 
must leverage a wide variety of authorities available to the geographic 
combatant commands (GCCs). While many of these authorities contain 
valuable elements that enable our SOF to build capacities in key areas, 
we still face a pervasive management challenge matching various 
authorities and timelines in order to accomplish key missions can be 
burdensome even when individual programs are executed efficiently. 
Further, no authority exists that is specifically tailored to allow our 
SOF to rapidly engage where necessary in order to build critical SOF 
capabilities during windows of opportunity that might be fleeting.
                   current special operations efforts
    Since September 11, a key mission of SOF and U.S. Special 
Operations Command (SOCOM) has focused on combating terrorism around 
the world, and that CT fight will not abate anytime soon. SOF will 
continue to work actively to deter, disrupt, dismantle, and defeat al 
Qaeda and its associated forces and affiliates.
    Section 1208, a valuable authority that allows us to enable and 
leverage willing partners to support SOF operations to combat 
terrorism, has produced significant and tangible operational effects 
that greatly impact our efforts to defeat al Qaeda. In today's 
amorphous global threat environment, it is more important than ever 
that the GCCs have this critical tool to rely on the access and 
placement that our forces cannot attain unilaterally.
    The need for persistent engagement around the globe and growth of 
mission requirements have resulted in an unprecedented growth in 
Special Operations Forces--in fact, the largest expansion of SOF 
personnel, force structure, budget and enablers since Vietnam.
    This expansion will help support Admiral McRaven's vision of a 
global SOF network. This informal, global network of international 
Special Operations Forces will allow us to rapidly and persistently 
address regional contingencies and threats to our stability. This type 
of persistent engagement will develop trust, a common operating 
picture, and future cooperation operations against mutual threats. To 
develop this concept, we are excited to see the development and success 
of the supporting Theatre Special Operations Commands. These commands 
are present at each geographic combatant command and help manage the 
SOF elements in that area of responsibility. As we expand these Theater 
Special Operations Commands (TSOC), we hope to better integrate SOF 
efforts across the areas of responsibility to ensure plans and strategy 
development as well as their expertise are available to the geographic 
combatant command I'd like to emphasize that our successes have come at 
a cost. The continuous deployments over the past decade have placed 
extraordinary operational requirements on Special Operators. For 
example, 85 percent of the force has been engaged as front-line 
warriors in Iraq and Afghanistan, and since 2001, we should not forget 
that more than 400 Special Operators have been killed and over 3,000 
have been injured.
                   future of counterterrorism and sof
    Relative to the aforementioned, new defense strategy, the 
Department of Defense will take a strategic approach to security 
cooperation and ensure we have comprehensive and integrated 
capabilities in key regions in order to confront critical security 
challenges.
    Over the past decade, much of the strategic emphasis in security 
cooperation has rightly focused on supporting current operations and 
helping states address internal instability. As we draw down from a 
decade of large-scale conflict, we will place additional strategic 
emphasis on preparing our network of allies and partners to confront 
the evolving threat of al Qaeda and its affiliates.
    To do this, we require security cooperation tools that are 
calibrated to optimally prepare the United States optimally to exploit 
emerging opportunities and counter potential threats- this means 
lowering the barriers to defense cooperation and being prepared to 
leverage opportunities rapidly with like-minded partners. To better 
combat al Qaeda, Congress has granted temporary authorities to the 
Department of Defense. Tools such as the section 1206 Global Train and 
Equip Program--an indispensable and proven authority; section 1203 
Support to Yemen and East Africa; section 1208 Support of Military 
Operations by U.S. SOF to Combat Terrorism Program; and the Combating 
Terrorism Fellowship Program are indispensable to maintain constant 
pressure on al Qaeda and its affiliates worldwide. We will also 
continue to work closely with the State Department and other 
departments and agencies to ensure that the Department of Defense's 
efforts are agile in responding to partners' needs while being 
implemented with effective oversight in a manner that reinforces 
overarching U.S. foreign policy goals.
    As we evolve to respond to the new set of demands, we cannot afford 
to lose sight of what makes our force truly great--the SOF Operator. 
Here we must stick to our principles--namely the first SOF truth--that 
``Humans are more important than hardware.'' There are two key 
attributes of the future SOF operator that will need to be sharpened: 
(1) regional specialization; and (2) the ability to operate 
independently in austere environments. Our best hedge against an 
uncertain future is a well-educated and highly trained special 
operator.
    SOF were designed to conduct operations in hostile, denied or 
politically sensitive areas to achieve national objectives by 
unconventional means. Executing the new strategy will demand the same 
level of regional acumen that SOF has always pursued. To meet combatant 
commander requirements for foreign internal defense, security sector 
assistance and unconventional warfare, SOF will need to continue 
sharpening their proficiency in language and regional expertise so they 
are conversant with the cultural and military history of regions where 
they will be deploying.
    Probably the single greatest thing we could do to prepare our SOF 
for the expanded mission set of the future operating environment is to 
manage SOF talent properly and in a way that incentivizes the 
``indirect action'' career path for the SOF operator. There is a range 
of ways through which to accomplish this goal. A critical component of 
our effort to implement the new strategy will be working with SOCOM to 
develop appropriate Force Management practices to develop the SOF cadre 
needed in the future.
    Equally important is our need to care for the SOF operator. This 
includes providing tailored services for post-deployment that consider 
the unique stresses a career in SOF places on one's family. Admiral 
McRaven has taken strong steps towards these objectives, and we fully 
support his initiatives.
                               conclusion
    We are confident that SOF will provide our national policy leaders 
a steady and established option to engage--consistent with our national 
and defense strategies--with a low footprint and a focus on enabling 
our partners.
    Supporting and relying on these partner nation forces come with 
risk. We wish to close by discussing the difficult trade-offs that we, 
as policymakers, will face in the next decade.
    The most evident risk is to the safety of our personnel. SOF are 
operating in dangerous locations against ruthless enemies where death 
or injury are real possibilities. We also risk being drawn into broader 
fights beyond our narrow CT objectives. We note: It is often difficult 
to draw the line between our CT objectives and regional, ethnic or 
sectarian fights wherein we have limited or no interest in becoming 
involved. There is always the risk of the proverbial ``slippery 
slope''--a gradual increasing of U.S. commitment that outpaces our 
national interest. There is no easy answer and no easy formula for 
deciding where and at what level to engage. There are sometimes risks 
to not doing enough to support a fledgling state, confronted by robust 
international terrorist groups with access to external financing, 
weapons and fighters. We risk allowing terrorist threats to fester and 
grow until they directly threaten us.
    We also risk association with poorly trained and undisciplined 
partners. Some have weak legal systems and demonstrate a poor history 
of respect for the rule of law. AThese partners may make mistakes--or 
operate in ways that we would not fully approve--which may tarnish our 
image, challenge our value sets, and--in some cases--force us to 
disengage. But these are the areas in which our SOF are required to 
work--not in countries with strong and mature defense establishments. 
Our challenge is two-fold: (1) to provide the capabilities to meet 
military challenges; and (2) to do so in a way that respects the rule 
of law and legitimate governments. Our SOF can and will pursue U.S. 
national interests in a collaborative way with key partners, helping to 
counter the evolving al Qaeda threat.
    The Department of Defense is committed to working to build our SOF 
to be the best, most effective force we have and to countering emerging 
threats to the United States and its interests. As the United States 
faces an ever-more dynamic security environment and adaptive threats, 
such as global terrorism, we must develop and support our SOF community 
so that our next decade is even more effective than the last.
    Madam Chairman, Senator Fischer, and members of the subcommittee, 
thank you again for the opportunity to appear before you and testify on 
the Department's perspective on emerging counterterrorism threats. This 
concludes our statement.
    Senator Hagan. Thank you.
    Admiral McRaven.

   STATEMENT OF ADM WILLIAM H. McRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Madam Chairman, Ranking Member Fischer, 
distinguished members of the committee: I appreciate the 
opportunity to come before you today and talk about the 
magnificent work being accomplished around the globe by the men 
and women of SOCOM. I have submitted a formal statement and ask 
that it be included in the record.
    Madam Chairman, this is my first opportunity to address 
this committee since I took command in the summer of 2011. 
Since that time, I'm proud to say that we have continued the 
great work initiated by my predecessor, Admiral Eric Olson. At 
the same time, we have adapted to the changing strategic and 
fiscal environment to keep SOF relevant now and in the future.
    In Afghanistan, we established a new SOF command structure 
which brought the various NATO and SOF elements into alignment 
under a two-star headquarters. This has allowed us to have a 
common view of the enemy and synchronize our SOF to achieve a 
common end state. This change has made SOF even more effective 
than ever before. Partnered with our Afghan SOF, we have 
continued to attrite the enemy leadership while at the same 
time building and training Afghan security forces so that they 
can stand on their own against this determined threat.
    Globally, SOF is in approximately 78 countries around the 
world helping to build partner capacity so that the host 
nations can deal with their own security problems. I recently 
returned from Colombia and the Philippines, where our long-term 
investment with their SOF has dramatically helped change the 
security situation in those countries. I believe that these 
efforts, that is building allied SOF capacity and capability, 
represent the best approach to dealing with some of the world's 
more complex security problems.
    In support of the Secretary's defense strategic guidance, 
SOCOM is working to strengthen these international partnerships 
and to build lasting networks both formally and informally so 
that we or our allies can create a secure environment in 
unstable areas and, if necessary, react to emerging crises 
rapidly and effectively.
    In all cases, those SOF deployed to foreign lands are 
working for the geographic combatant commander, with the 
approval of the chief of mission, and always in support of U.S. 
policy goals.
    Finally, I have made caring for our force and their 
families my top priority. In the past year my command sergeant 
major and I have met with soldiers and their families from 
around the SOCOM enterprise. We have listened to their concerns 
and, with the support of the services, we are aggressively 
implementing programs and plans to help with the physical, 
mental, and spiritual wellbeing of the force. We have a 
professional and moral obligation to take care of our warriors 
and their families and we greatly appreciate the support of 
your committee and other members on the Hill in our efforts to 
take care of these men and women.
    Thank you again for your commitment to the soldiers, 
sailors, airmen, and marines and civilians of DOD, and 
specifically to those great warriors who make up SOCOM. I look 
forward to taking your questions.
    [The prepared statement of Admiral McRaven follows:]
           Prepared Statement by ADM William H. McRaven, USN
    Madam Chairman and distinguished members of the Senate Armed 
Services Committee, thank you for this opportunity to address this 
subcommittee as the Commander of U.S. Special Operations Command 
(SOCOM).
    SOCOM is one of nine Unified Combatant Commands, yet it is distinct 
in that it exercises numerous Service, military department, and defense 
agency-like responsibilities. Under title 10 U.S.C., sections 164 and 
167, it is my legal responsibility to organize, train, and equip my 
force; to build a strategy that supports the goals and objectives of 
the Defense Strategic Guidance; and to provide combat ready forces to 
the President and the Secretary of Defense to meet the challenges of 
today's security environment.
                       soccom strategy--sof 2020
    In January 2012, the Secretary of Defense issued his Defense 
Strategic Guidance (DSG) and the Chairman followed with his Capstone 
Concept for Joint Operations (CCJO). The DSG describes the Joint Force 
of the future as ``agile, flexible, ready'' and possessing global 
reach, thereby directing ``the joint force to capitalize on networks 
and interdependency to maximize effectiveness in deterrence and 
evolving war.'' Building on this imperative, the CCJO envisions a 
``globally postured Joint Force . . . that quickly combine[s] 
capabilities with itself and mission partners across domains, echelons, 
geographic boundaries, and organizational affiliations.'' Special 
Operations Forces are uniquely suited to implement the guidance 
outlined in these documents. Specifically, SOF are ``rapidly deployable 
. . . have operational reach . . . [are] persistent . . . and do not 
constitute an irreversible policy commitment.'' General Dempsey 
concluded his Capstone Document with the statement that military 
success in today's environment is ``about building a stronger network 
to defeat the networks that confront us.''
    We live in a world in which the threats have become increasingly 
networked and pose complex and dynamic risks to U.S. interests around 
the world. These networks are diversifying their activities, resulting 
in the convergence of threats that were once linear. In today's 
environment, this convergence can have explosive and destabilizing 
effects--there is no such thing as a local problem. In the words of 
former Secretary of State Hillary Clinton, ``Extremist networks 
squeezed in one country migrate to others. Terrorist propaganda from a 
cell in Yemen can incite attacks as far away as Detroit or Delhi. A flu 
virus in Macao can become an epidemic in Miami. Technology and 
globalization have made our countries and our communities 
interdependent and interconnected. Today's threats have become so 
complex, fast-moving, and cross-cutting that no one nation could ever 
hope to solve them alone.''
    To address these problems, we must adopt a global perspective. With 
SOF deployed in over 75 countries on a daily basis, I can provide a 
global view of the problem and help link and synchronize global effects 
across geographic boundaries. However, as the SOCOM Commander, with 
some unique exceptions, I do not command and control any forces in 
combat or crisis. I am a ``supporting commander'' to the geographic 
combatant commanders and the Chiefs of Mission (COMs). It is my job to 
provide them the best Special Operations Force in the world. It is 
their job, to employ those forces in support of U.S. policy. Special 
Operations Forces do nothing, absolutely nothing, without the approval 
of the President, the Secretary of Defense, the geographic combatant 
commanders and the Chiefs of Mission--nothing. To best serve the 
interest of the GCCs and the Chiefs of Mission, SOCOM is developing a 
plan to enhance its already global force by networking with our U.S. 
interagency counterparts, and our foreign allies and partners around 
the globe. We aim to provide GCCs and Chiefs of Mission with improved 
special operations capacity and are aligning structures, processes, and 
authorities that enable the network.
                         the global sof network
    Given strategic guidance, increasing fiscal constraints, and the 
networked and dispersed nature of conflict, SOF will play an 
increasingly critical role in the Joint Force of the future. Although 
SOF usually only garner attention for high-stakes raids and rescues, 
direct action missions are only a small part of what we do, albeit a 
very important part. SOCOM will continue to ensure our Nation has the 
best precision strike force in the world. We will not let up on that 
front. However, I'd like to emphasize that, in fact, on any given day 
SOF are working with our allies around the world, helping build 
indigenous special operations capacity so that our partners can 
effectively deal with the threat of violent extremist groups, 
insurgents, and narco-terrorists--themselves. Indeed, SOF focuses 
intently on building partner capacity and security force assistance so 
that local and regional threats do not become global and thus more 
costly--both in blood and treasure.
    Accordingly, with the support of the GCCs and Chiefs of Mission, 
SOCOM is enhancing its global network of SOF to support our interagency 
and international partners in order to gain expanded situational 
awareness of emerging threats and opportunities. The network enables 
small, persistent presence in critical locations, and facilitates 
engagement where necessary or appropriate--all under the authority of 
the GCC and COM.
    Through civil-military support elements and support to public 
diplomacy, SOF directly support interagency efforts to counter violent 
extremist ideology and diminish the drivers of violence that al Qaeda 
and other terrorists exploit. These efforts to prevent terrorist 
radicalization, recruitment, and mobilization are critical to defeating 
this dangerous ideology in the future; neither we nor our partners can 
kill our way to victory in this fight. These efforts require continuity 
and perseverance. Episodic engagement is inefficient and has the 
potential to create animosity due to unmet expectations by the 
governments and populations we are trying to support. Over the long-
run, these proactive activities reduce strategic risk, protect American 
lives, and reduce the need for expensive response to terrorist attacks.
    To this end, using already programmed force structure, SOCOM is 
methodically enhancing the capabilities of the Theater Special 
Operations Commands (TSOCs) based on a multi-year deliberate process 
supported by detailed analysis and war gaming. The goal is to increase 
the capacity and capabilities of the TSOC and their assigned forces to 
the GCCs to conduct full spectrum special operations--ranging from 
building partner capacity (particularly in austere, high-risk or 
sensitive environments) to irregular warfare and counterterrorism.
    In partnership with the GCCs, COM, TSOCs, other U.S. Government 
agencies and partner nations, SOCOM is working to develop opportunities 
to improve our partnership with regional Special Operations Forces. 
This approach was very successful in NATO, with the establishment of 
the NATO SOF Headquarters which allowed U.S. and partner nations to 
share information, improve interoperability and, when necessary, work 
together abroad. While the NATO construct is unique in the world, we 
believe there are other low-key opportunities that may present 
themselves in other regions of the world.
    In addition to the SOF capacity inherent in all GCCs through the 
TSOCs, SOCOM also employs Special Operations Liaison Officers (SOLOs) 
in key U.S. embassies around the world. SOLOs are in-country SOF 
advisors to the U.S. Country Team. They advise and assist partner 
nation SOF and help to synchronize activities with the host nation. 
Currently, there are SOLOs in Australia, Canada, United Kingdom, 
Jordan, Poland, Colombia, France, Turkey, Kenya, and Italy.
    Similarly, as part of the global SOF network here at home, one- to 
three-person Special Operations Support Teams (SOSTs) work with our 
interagency partners in the National Capital Region (NCR). They 
comprise the SOF liaison network that assists in synchronizing DOD 
planning for training, exercises, and operations. Currently, we have 
SOSTs working within 19 U.S. Government departments and agencies.
    Given the importance of interagency collaboration, SOCOM is placing 
greater emphasis on its presence in the NCR to better support 
coordination and decision making with interagency partners. Thus, SOCOM 
began to consolidate its presence in the NCR in early 2012. This is not 
a duplication of effort. We are focused instead on consolidating SOCOM 
elements in the Washington, DC, region under the leadership of the 
SOCOM Vice Commander--who resides in Washington. Specifically, SOCOM-
NCR ensures that the perspectives and capabilities of interagency and 
international mission partners are incorporated into all phases of SOF 
planning efforts. The SOCOM NCR also conducts outreach to academia, 
non-governmental organizations, industry and other private sector 
organizations to get their perspective on complex issues affecting SOF.
    At the SOCOM headquarters in Tampa, the staff will serve as the 
focal point for coordinating information that supports SOCOM 
warfighters. It is here that SOCOM will maintain the global perspective 
on all SOF activities in support of the GCCs and U.S. Chiefs of 
Mission. As such, SOCOM will support operations, intelligence, 
logistics, planning, communications, and provide critical information 
to enable forward deployed SOF to meet mission requirements. SOCOM will 
monitor SOF supporting campaigns, ensure that the Command is satisfying 
GCC theater requirements, maintain the global common operating picture 
for the SOF network, and monitor the readiness and availability of all 
U.S. SOF capabilities. The entire network will be enabled by the 
existing communications infrastructure. However, communication and 
information sharing must facilitate interconnectedness beyond the U.S.-
only realm, and improve partner-nation capacity, interagency 
coordination, and stakeholder situational awareness by providing 
information technology infrastructure and communications services to 
unite U.S. and partner-nation SOF, plus other mission partners. This 
communications infrastructure will leverage existing networks and 
systems to avoid duplication of effort.
    As a whole, the SOF network represents a way to improve the support 
to the GCCs and Chiefs of Mission and to empower a global effort with 
capable allies and partners. Recognizing that we have much to learn 
from each other, working with partner SOF will build mutual trust, 
foster enduring relationships, and provide new opportunities to affect 
shared challenges.
    To this end, the SECDEF's authority to support foreign forces, 
irregular forces, and groups or individuals who support or facilitate 
ongoing military operations to combat terrorism--namely section 1208 of 
the NDAA for Fiscal Year 2005--remains critical to Special Operations. 
The drawdown of forces in Afghanistan will not diminish the need for 
1208 authority. In fact, GCCs' demand for 1208 authority has increased, 
and the authority's utility is recognized as mission essential in 
winning their current fight.
                    preserve the force and families
    A SOF Universal Truth is that ``people are more important than 
hardware.'' We recognize that none of the efforts described in 
preceding paragraphs are possible without having the dedicated, 
professional SOF warriors to bring them to fruition. Hence, it is 
imperative that we do all that we can to preserve the force and care 
for their families. Therefore, to lessen the strain, we are seeking 
improvements in the predictability of SOF schedules--training, 
education, deployment, and rest.
    SOCOM must ensure our SOF warriors and their families are properly 
cared for and that we work to help them reduce the stress they face 
related to high operational tempos. Difficulty also occurs as forces 
reconnect and reintegrate into garrison and family activities. DOD 
provides preventive and responsive counseling, medical, psychological, 
and rehabilitative care to institutionalize the resiliency of our SOF 
warriors and their families.
    Everyone in the fight has been significantly changed by their 
experiences. Providing the treatment our troops need and reducing the 
stigma associated with asking for help is a top priority for all SOCOM 
leaders. For our servicemembers and their families, we are implementing 
programs identified as best practices and aggressively 
institutionalizing education for our Chaplains and Mental Health 
professionals to emphasize prevention-oriented care. Through human 
performance improvement, readiness, and spiritual growth, we hope to 
preserve our forces for the duration of their careers. Recognizing that 
the readiness of many of our servicemembers is inextricably tied to the 
well-being and happiness of their families, we have sought to bolster 
the care afforded to them. Additionally, to increase the predictability 
of servicemembers' time, SOCOM will redouble our efforts to reach out 
to families by opening up communication channels at all levels of the 
command through innovative use of varied media. We are committed to 
sustaining our force and families and will not break faith with our SOF 
family.
    Maximizing SOF readiness also requires an enhanced capacity to 
anticipate and proactively preserve and manage the future force. I am 
implementing an enterprise-wide PERSTEMPO capability that will provide 
commanders increased visibility, fidelity, and ability to manage SOF 
readiness down to the individual servicemember level. Once fully 
implemented throughout the command by fiscal year 2014, SOF commanders 
from the O-5 level and above will have a near real-time common 
operating picture of SOF readiness. This new capability further 
enhances commanders' force management decision making, improves the 
quality of life for the SOF force, and offers promise for maximizing 
force readiness through improved recruitment, retention, and protection 
of investments in SOF personnel and the resources that enable them.
                         acquisition excellence
    Mobility, lethality, intelligence, surveillance, reconnaissance, 
and survivability remain critical SOF enablers for the full spectrum of 
SOF operations. SOCOM's unique acquisition authorities remain critical 
to meeting the rapid, information sensitive and operationally peculiar 
demands of Special Operations. Specifically, SOCOM employs rapid and 
tailored acquisition strategies to modify Service-common equipment, 
enhance commercial items, or--when required--develop, procure and field 
SOF-peculiar equipment and services to respond to global requirements.
    SOCOM will continue its emphasis on equipping SOF operators as a 
system. Development, procurement and fielding of the SOF individual 
equipment system (i.e. individual protection, visual augmentation 
systems, weapons and sights) needs to suit the wide variety of SOF 
tasks and environments. The Tactical Combat Casualty Care system and 
use of Freeze Dried Plasma will combine to help care for wounded 
operators in remote and challenging environments, often at great 
distance from primary care facilities.
    To meet the wide range of SOF missions, SOCOM employs platforms 
that are both versatile and agile. For example, current acquisition 
efforts focus on equipping both manned and unmanned fixed wing assets 
with intelligence, surveillance, and reconnaissance (ISR) capabilities 
suitable for diverse global requirements. The Non-Standard Aviation 
fleet of aircraft supports SOF intra-theater mobility, Aviation Foreign 
Internal Defense, and manned ISR. The SOF fleet of Remotely Piloted 
Aircraft (RPA)--ranging from the manportable RQ-20A Puma to the medium 
altitude MQ-9 Reaper--provides essential ISR capabilities and cutting 
edge sensor and communication technologies. SOCOM's ability to 
efficiently modify service common ISR assets with capabilities such as 
high definition (HD) full motion video (FMV) provides game-changing, 
operational effects at relatively small investment. SOCOM is continuing 
to execute programs to modernize its rotary wing and maritime mobility 
fleets, replacing legacy equipment such as the MH-60 K/L, Mark V Naval 
Special Warfare Rigid Hull Inflatable boat, and SEAL Delivery Vehicle 
in the coming years. On the ground, SOCOM will maintain a family of 
special operations tactical combat vehicles with customizable, mission-
specific payloads. A nonstandard commercial vehicle capability enables 
SOF operators to maintain a low profile among indigenous populations 
while providing necessary mobility and protection.
    Global SOF rely on the SOF Information Environment (SIE) to achieve 
full operational potential. Within the SIE, SOCOM will continue to 
incorporate a SOF Deployable Node (SDN), a family of Wide Band SATCOM 
systems, and increased access to SIE voice, data and video services to 
deployed headquarters and operational elements. Simultaneously, SOCOM 
will continue its efforts to downsize system profiles and footprint 
through engineering efficiencies of common and scalable components 
amongst SDN variants, provide SIE access to tactical wireless users 
through SDN, and focus current efforts on providing SIE access to 
maritime and ground mobility platforms.
    SOCOM's Science and Technology (S&T) Directorate continues to 
pursue technology innovation, and utilizes a Special Operations 
Advanced Technology collaborative process for SOF-centric, S&T 
development. This process allows better synchronization of SOF-related 
technology initiatives with the Department of Defense (DOD) and other 
government agencies to leverage external capital opportunities that 
address SOF capability gaps. S&T's near-term technology development 
efforts are focused on providing SOF operators with all-digital, multi-
spectral visual augmentation systems and advanced novel materials to 
improve protection and survivability for personnel and platforms.
               responsible resourcing and service support
    Despite an increase in operational commitments over the last 
decade, we have been able to sustain our obligation to appropriately 
organize, train, and equip the warriors from whom we ask so much. We 
are aware of current budget uncertainties, and are therefore committed 
to only prudent use of resources provided to us by the taxpayers. I am 
committed to exercising common-sense steps to cost-cutting and cost-
avoidance. The Command has begun to restructure and realign resources 
to support the SOF 2020 vision which reflects the Nation's strategic 
priorities. Currently, we are able to execute the vision I have 
outlined in this document without any increase in either civilian or 
military manpower outside of current programmed growth or additional 
funding. I will continue to manage cost-growth in acquisition programs, 
and implement requirements of the combatant commanders, Executive order 
mandates, and DOD auditability guidance.
    SOCOM has successfully used the Rapid Acquisition Authority to 
source a validated Joint Urgent Operational Needs Statement for 
Intelligence, Surveillance, and Reconnaissance activities. SOCOM will 
rely more heavily on this authority within the future fiscal 
environment.
    The Command's ability to execute rapid acquisition of its materiel 
and service programs is essential to deliver and field critical 
requirements and new technologies. SOCOM's capacity to maintain a 
competitive advantage on the battlefield depends on out-thinking and 
outpacing the enemy in speed, technology, equipment, and 
maneuverability. SOF capabilities are directly related to investments 
we make through our procurement budget.
    SOCOM, like the Services, has seen an extraordinary increase in 
operational tempo. Through advanced technologies, the battlefield has 
become smaller, highlighting a need for continued interoperability 
among the Services and SOF. SOF's reliance on the Services for 
institutional training, installation services and support--particularly 
in forward deployed locations where SOF can only sustain itself for 
short periods of time--remains critical. The Services' support for 
SOF's global persistent presence and annual deployments to over 100 
countries is both vital and very much appreciated.
                               conclusion
    Budget uncertainties which face the DOD and SOCOM are of great 
concern in fiscal year 2013. The SOF network, as a vital tool to 
support the President and the Secretary of Defense's national defense 
strategy, seeks a strong and flexible global network of SOF, U.S. 
Government partners, and partner nations. We are working tirelessly to 
provide SOF capabilities and capacity to GCCs and Chiefs of Mission; 
capabilities and capacities that are supported by the required 
structures, processes, and authorities necessary for success. In the 
immediate future, and as stated by Chairman Dempsey, the ``Joint Force 
2020 must protect . . . against threats that routinely span regional 
boundaries.'' Notably, as presented by former Secretary Clinton at the 
International Special Operations Forces Week in May of last year, 
``Special Operations Forces exemplify the ethic of smart power--fast 
and flexible, constantly adapting, learning new languages and cultures, 
dedicated to forming partnerships where we can work together.'' Your 
support will ensure SOCOM's continued ability to successfully address 
the most challenging security demands of our Nation.

    Senator Hagan. I want to thank all three witnesses for your 
service to our country. So I thank you very much.
    Admiral McRaven, I'm very pleased to hear about the 
attention being paid to the families, especially from a 
physical, mental, and obviously spiritual. I think that's key 
to have our SOF working like they do. Obviously, the families 
are very important.
    What I'd like to do is have a round of 8-minute questions 
and then we can--I would like to go to the closed session 
around 3:20 p.m. if we can.
    I want to ask a question to the panel on Syria. A common 
refrain of administration officials testifying before Congress 
is that our intelligence community does not know enough about 
the Syrian opposition to make sound decisions about which, if 
any, elements the United States should support. However, in 
recent weeks reports have emerged that there are some elements 
in the southern region of the country that are moderate in 
their views and in their intentions. So if the three of you 
could address: Do you agree that the United States should 
provide additional support to elements in Syria that share our 
views and interests? What is the relationship between the Al-
Nusra Front, a Sunni extremist group in Syria, and the al Qaeda 
in Iraq, and do these groups provide support to each other? 
Then to what extent is there a risk that the violence in Syria 
will spill across the border into western Iraq and strengthen 
al Qaeda in Iraq? Secretary Sheehan, if you could start.
    Mr. Sheehan. Thank you. Actually, Senator, I think I'll 
defer to start to Assistant Secretary Chollet, who's our lead 
on this issue.
    Senator Hagan. Okay.
    Mr. Sheehan. I'll take a first crack. Senator, it's an 
excellent question. In terms of a picture of the opposition, 
and we can get into some of this in more detail perhaps in the 
closed session in terms of the intel picture, but as you 
suggest in your question, it is a mosaic, the opposition. There 
are, depending on who you ask and on what day, there are at 
least 10s, if not over 100, different pockets of the 
opposition.
    We are working closely with the opposition. It's an effort 
that our State Department colleagues have been in the lead on 
with the Syrian Opposition Council and the Syrian Military 
Committee. As Secretary Kerry announced several weeks ago, we 
are in the process of providing them more support. We've 
provided them a significant amount of support thus far, over 
$100 million, and we're in the process of fulfilling that 
commitment. It's mainly been on the political side, on the 
civilian side, in training civilians and helping them get 
better governance capacity, in helping their communications 
abilities.
    But the decision that was announced several weeks ago was 
that we would provide nonlethal assistance to the armed 
opposition and we're in the process of implementing that 
commitment. That's mainly in the form of medical supplies and 
food assistance right now.
    But every day we learn more about the opposition. I believe 
today or tomorrow in London Secretary Kerry will be meeting 
with members of the opposition at a G-8 Ministerial meeting, 
but on the margins of that he'll be meeting with them. So we 
every day learn more, and we not only do it in our own 
contacts, but working with our close partners in Jordan and 
Turkey in particular, who have a lot of contacts with the 
Syrian opposition.
    So I think that there are folks we can work with. We're 
very concerned about Al-Nusra, as you mentioned. They clearly 
do not wish us well, and what we have seen is that, although 
they have been in some cases effective on the battlefield, they 
are also losing the hearts and minds of many of the Syrian 
people as they seek to impose their rather rigid ideological 
views on the Syrian people. So we believe that there is an 
opportunity, with our support and the rest of the international 
community's support to the opposition that we are working with, 
to build up the opposition that we want to see achieve a Syria 
that is inclusive, that is tolerant, and that allows the Syrian 
people to meet their aspirations.
    I'll just comment briefly on the spillover because you 
asked about spillover. It's something that we are keenly 
focused on, primarily mainly with our partners in Jordan and 
Turkey because of the significant refugee problems that both 
countries face. In Jordan there is up to 500,000 refugees. It's 
about 10 percent of the Jordanian population right now. So we 
work very closely with those countries to help alleviate their 
immediate refugee concerns, but also work with them as they're 
thinking through what steps would be necessary to ensure their 
stability when the situation gets worse on the ground.
    Senator Hagan. Admiral McRaven.
    Admiral McRaven. Ma'am, I'm not sure there's much I can add 
to that in this forum. I'm certainly--I'd be more than happy to 
talk to you in a little bit more detail in the closed session 
on what we're doing.
    Mr. Sheehan. The same thing, Senator Hagan.
    Senator Hagan. I've also heard that the refugees in Jordan 
are up at 600,000 and they're talking about before the end of 
the summer perhaps going to a million, 1.2 million. I don't 
know what those numbers are, but they certainly seem to be 
aggressive, individuals moving quickly into Jordan. Obviously, 
looking at the size of Jordan, the complications that come with 
that, too.
    Secretary Sheehan, I know you spoke about the situation in 
Mali. What I'd like to know too is what is your assessment of 
the French operation, and then the strength of AQIM, and 
whether the U.S. support to the operation will continue, the 
status and capability of the forces that are deploying to the 
region?
    Mr. Sheehan. Yes, Madam Chairman.
    Senator Hagan. Actually, Secretary Chollet, too.
    Mr. Sheehan. I think the French operation was absolutely 
excellent. They moved very quickly to the region on January 11 
when the AQIM moved south of the Niger River and quickly 
started descending upon the capital in Bamako, which caught 
pretty much everybody by surprise, perhaps even AQIM itself. I 
don't think they expected to go that far that quickly.
    The French reacted very fast. They got forces in there very 
quickly and very rapidly pushed AQIM back across the Niger 
River and took control of the major cities, Timbuktu, Gao, and 
Kidal and others up north, pushing AQIM back up into the 
desert, up into the mountainous area bordering on Algeria, and 
some others may have squirted into the eastern and western 
countries. But mainly they're still hanging out in remote parts 
of Mali.
    So the French were very successful. Now they're shifting 
their focus to tracking down these individuals and trying to 
eliminate them from the battlefield. So I think it's been a 
very good operation. They understand as well as we understand 
that much of al Qaeda's leadership has escaped. They have not 
been killed or captured. But they have disrupted this very 
threatening sanctuary that they had established between mid-
summer last year and January of this year. That was something 
that could not stand and we're very grateful for the French 
taking the lead to doing that.
    Senator Hagan. Let me ask you one question on that, too. 
What in your view is the impact of the restrictions, statutory 
and policy restrictions, that prohibit the United States from 
engaging the armed forces of Mali?
    Mr. Sheehan. I think right now, Madam Chairman, that right 
now we don't need the Malian army per se. The French are 
working with the Malian army in the north, helping them to take 
on their security responsibilities, and it's a very weak army, 
notwithstanding all the aid that we provided them over the last 
5 years or so. It's an organization, because of the coup and 
because of Captain Sanogo and his thugs that are still hanging 
around the margins of this army, it remains to be seen how it 
will evolve and develop into a professional force.
    The EU has taken on the mission of retraining and 
reprofessionalizing them. We have policy restrictions against 
that, and I think the EU is starting to move in that direction 
and we'll see over time how well the Malian army is able to 
coalesce and get its act together. It remains very much to be 
seen.
    In the short term, the next answer after the French will be 
a U.N.-authorized mission coming out of the African-led 
International Support Mission to Mali (AFISMA), the Economic 
Community of West African States (ECOWAS) mission which really 
hasn't been really up to the task. With U.N. blue-hatted 
mission being contemplated in the Security Council now, that 
type of force should be able to take back those cities and 
allow the French to focus its force in the future on the high-
value targets.
    Senator Hagan. Thank you.
    I tell you, I'm going to move to Senator Fischer for her 
questions. Thank you.
    Senator Fischer. Thank you, Madam Chairman.
    I have a question for all three of you gentlemen. Some 
observers have criticized the United States because they think 
we are in too many places. When we're looking at defense budget 
cuts, with sequestration, and with the economy in the shape 
it's in, how do you go about answering those charges that the 
United States may be spread too thin? How would you prioritize 
where we need to be?
    Admiral McRaven. Yes, ma'am, thank you. I'm not sure I 
think we are spread too thin. Right now, on any day of the year 
you will find SOF in somewhere between 70 and 90 countries 
around the world. Some of these are onesies and twosies and 
some of them are 100 or thousands, as is the case of 
Afghanistan.
    I think we have to define and really decide early on what 
we think our U.S. policy is vis a vis building partner capacity 
in our relationships with other nations. We, SOCOM, provide a 
very cost-effective, small footprint, culturally sensitive, 
language-trained force that can work with a number of these 
nations to build their capacity to deal with their own 
problems. I think this is really the thrust, as Secretary 
Sheehan mentioned early on, the thrust of what we in the SOF 
community provide, is an ability to help other nations deal 
with their own problems before we have to surge additional 
forces in to help them, to help them out.
    So I guess it depends on where our U.S. interests lie and 
that really--in my case, I defer to the policymakers on that.
    Senator Fischer. I guess I would ask you about those tools. 
Before you gentlemen comment, if I could ask you, Admiral, 
about the tools that the Secretary mentioned. 1206, it's, I've 
been told, a slow plan approval process, and so it's difficult 
to have implementation happen quickly. Is that an issue when 
trying to work with our partners and you're looking at 2 years 
down the road to get a plan implemented?
    Admiral McRaven. Ma'am, I won't talk specifically to 1206, 
but I will tell you that we have a large number of authorities. 
In order for us to really build a long-term plan and have a 
long-term engagement with any nation, invariably we have to 
piecemeal these authorities together.
    So whether it's 1206 or 1208 or the JSET authorities or the 
GSCF, all of these as we try to look out and say, if you want 
to build a professional military over the next 5 years, how do 
you develop a plan to do that, well, the only way we can 
develop a plan right now is on a year-by-year basis. There are 
some limitations in the authorities we have, and as you 
mentioned in some cases there are delays in the process that 
make some of that problematic.
    Again, I wouldn't focus just on 1206. I think we can 
improve the process on all of our authorities to make us more 
agile in dealing with other countries.
    Senator Fischer. Do our troops have enough time to rest?
    Admiral McRaven. I think they do now, and certainly they 
will more so as we----
    Senator Fischer. What's their deployment schedule? Can you 
speak to that?
    Admiral McRaven. Yes, ma'am, I can. It depends on their 
military operational specialty, their MOS, as we refer to it. 
In some cases you have these very high demand, low density 
MOSs, so folks that are in kind of high demand at every 
location, but we don't have a whole lot of them. So in those 
cases you see some of those folks that are almost on back to 
back rotations. In a lot of cases it is they're forward for a 
period of time and they're back for .8. So we say one to .8, 
which is really unacceptable, and we work hard to try and 
mitigate that as best we can.
    Where we're driving to is to make sure that we can get to a 
one to two or, better yet, a one to three rotation, so that the 
folks back home have time to spend with their families. It gets 
back to preserving the force and the families to make sure that 
they are resilient and that we can improve their physical 
health, their mental health, and their spiritual health, not 
necessarily religious but broader spiritual health, so that 
they are energized when they go back downrange.
    Senator Fischer. Thank you, Admiral.
    Would you two gentlemen like to address the prioritization 
process and also how you view using these tools, whether it's 
1206, 1207, or 1208?
    Mr. Sheehan. Yes, Senator Fischer, I would like to talk 
about 1206 and some of the others. First of all, I would like 
to thank Congress for its wisdom to provide these authorities 
post-September 11. 1206, 1207, 1208 did not exist prior to 
September 11. Without those authorities--they're not perfect, 
but without those authorities I don't think we would have had 
the success we've had globally going against al Qaeda networks.
    1206--if I look at security assistance on a spectrum, on 
one end I'd put FMF, the Cold War, foreign military sales 
programs to provide to a country F-16s, ships, big equipment. 
It's the slowest. It's the most politically sensitive. It's 
more of a political-military relationship and big items, very 
slow.
    On the other end in terms of speed and agility is section 
1208, not a security assistance program, but a program where we 
work at DOD--normally those plans are written up by Special 
Operations staffs in the geographic combatant commands, go 
rapidly through DOD, through the chief of mission for approval, 
and through Washington much quicker. We can turn those around 
very quickly.
    In between is 1206 and then 1207 or GSCF. The faster it 
is--when the State Department has the lead and both State and 
DOD have to concur and coordinate, it just takes a lot longer 
to do. When it's a DOD lead and the State Department only 
coordinates on it, it goes quicker. That's really the bottom 
line. It's just a matter of process. We're getting better. The 
State Department works----
    Senator Fischer. Does that process need to be changed then 
in order for it to respond more quickly to the issues that are 
out there?
    Mr. Sheehan. I think it's a fair question, Senator. Part of 
it is the State Department and DOD committed to each other to 
make it work faster. However, I would opine in this committee 
that I believe that our legislative proposal, 171, that's one 
of Admiral McRaven's important proposals for a SOF network, and 
other changes that we've made that provide more of a DOD lead 
in this authority, would make things more rapid, yet preserve 
the State Department's role in approving at the chief of 
mission level and concurring at the Washington level on all of 
these programs.
    But I think that those type of adjustments to these 
programs would enable us to have more rapid and effective 
programs to do the type of partnership-building that we've 
talked about on this panel.
    Mr. Chollet. I'll just add in the brief time left that I 
concur completely with what Secretary Sheehan said just on the 
process issues. Just going back to kind of the core of your 
question of are we stretched too thin and how we prioritize, I 
think one of the reasons why the Secretary in the new defense 
strategy has put a premium on building partner capacity also 
working with others is that we can leverage the capabilities 
that we uniquely have and better enable those to work with us 
or in some cases carry the primary burden.
    I think Mali is actually a pretty good example of that, 
where the French have stepped up in a big way to take some 
pretty serious action. We have supported them with refueling 
and with logistics and with some intel support, but they are 
carrying the lion's share of the burden.
    Now we and them and our other European allies are working 
with regional players to try to beef up the African forces so 
that over time, under a U.N. helmet authorization, a U.N. blue 
helmet, they can go forward and this can be an African-led 
effort in Mali.
    Senator Fischer. Thank you, gentlemen.
    Thank you, Madam Chairman.
    Senator Hagan. Senator Nelson.
    Senator Nelson. Madam Chairman, I have a number of 
questions, but they need to be done in a closed session because 
of classification.
    I would in the open session just ask you about the fact 
that a British study found that newer converts to Islam were in 
much higher percentages being the ones that were being 
recruited as U.S. citizens into terrorist groups. Any comment 
on that in this session?
    Mr. Sheehan. Senator, I've spent about the last 15 years 
trying to study al Qaeda and what makes an operative. There is 
a phenomenon I've often noticed, and some of this was picked up 
in this study, of the second generation type of adherent, who 
may be newly radicalized, may be more receptive to becoming 
operationalized by the organization. So the British study talks 
a little bit to that. We have seen that in the past, but I'm 
not sure I would say that this is an overwhelming trend. I 
think that it's a little bit too simplistic.
    Having said that, when I was at NYPD working with the 
Metropolitan Police in London, we both tracked that phenomenon 
of the newly recruited either second generation British or 
second generation American citizen and how they were 
radicalized by these extremist groups. So it's an issue that 
domestic folks, FBI, and local police, are very much aware of 
in terms of the radicalization process for those folks.
    Senator Nelson. Is this radicalization in the United 
Kingdom?
    Mr. Sheehan. In the United Kingdom and in the United 
States.
    Senator Nelson. And the United States?
    Mr. Sheehan. Oh, absolutely. Globally.
    Senator Nelson. Did you find in the study a difference 
between the radicalization in the United Kingdom and in the 
United States?
    Mr. Sheehan. I would say that we saw a lot of parallels. 
But the United Kingdom had some differences that actually 
showed the strength of the American system. In the United 
Kingdom. they found that their communities were more isolated 
than in the United States. The United States has an incredible 
capacity to accept minorities, particularly New York City. If 
you drive through Queens and Brooklyn, on every corner you see 
a different minority, but they are very well assimilated. In 
the United Kingdom they had more ghetto-ized immigrant 
communities, and we talked to them extensively about that 
issue.
    Senator Nelson. That's one of the great strengths of our 
country, is that we assimilate people.
    Thank you, Madam Chairman. I look forward to this 
classified session.
    Senator Hagan. Senator McCain.
    Senator McCain. Thank you very much, Madam Chairman.
    I guess my first question for the three witnesses: Is the 
tide of war receding? Mr. Chollet?
    Mr. Chollet. I think it's changing.
    Senator McCain. I'm asking if it's receding.
    Mr. Chollet. I think clearly we pulled back from Iraq. We 
are on the pathway out of Afghanistan.
    Senator McCain. How did things turn out there? Pretty good?
    Mr. Chollet. I think Iraq is more stable today than many 
thought several years ago.
    Senator McCain. Really? You really think that?
    Mr. Chollet. I do.
    Senator McCain. You're uninformed.
    Mr. Sheehan, is the tide of war receding?
    Mr. Sheehan. There's no question in my mind in terms of al 
Qaeda and its affiliates, my principal threat, that we have 
pounded al Qaeda's strategic capability over the last 11 years 
and we continue to do so relentlessly in their primary 
sanctuaries. I would footnote that by saying that al Qaeda has 
shown some resiliency and potential to reestablish strategic 
capability in a few years, but has yet to do so.
    Senator McCain. A few areas, Mr. Sheehan?
    Mr. Sheehan. They have yet to demonstrate strategic 
capability in those new areas as of yet--as of yet, none.
    Senator McCain. Libya?
    Mr. Sheehan. None.
    Senator McCain. None?
    Mr. Sheehan. Very little. As a matter of fact, there have 
been no strategic attacks----
    Senator McCain. I just came from Libya, Mr. Sheehan.
    That's patently false. That is a false statement.
    How about Mali? Do you think that they're going to be able 
to reconstitute themselves once the French leave?
    Mr. Sheehan. Senator, I've been studying al Qaeda for 15 
years----
    Senator McCain. So have I, Mr. Sheehan.
    Mr. Sheehan.--and I know exactly what it takes for them----
    Senator McCain. Mr. Sheehan, I have too. I'm asking you a 
question, and do you believe that once the French are leaving 
do you think that al Qaeda will reconstitute itself in Mali?
    Mr. Sheehan. They will attempt to reconstitute themselves.
    Senator McCain. Do you think they will, since the people, 
and Africa Command, have no logistics capability whatsoever?
    Mr. Sheehan. First of all, they haven't been totally 
defeated yet, so the question will be----
    Senator McCain. But the French are leaving.
    Mr. Sheehan. They are leaving.
    Senator McCain. Yes.
    Mr. Sheehan. We'll see whether AQIM will be able to 
establish a strategic capability from there over the years 
ahead.
    Senator McCain. Did you happen to notice today that al 
Qaeda in Iraq and al Qaeda in Syria have announced their joint 
partnership?
    Mr. Sheehan. Yes, I did, Senator, and we've been tracking 
that relationship. It's a very close relationship they've had 
for quite a long time.
    Senator McCain. I see. In Syria is there an increasing 
radicalization and penetration and increasing influence by al 
Qaeda?
    Mr. Sheehan. We are very concerned about Al-Nusra group, 
which is an al Qaeda affiliate.
    Senator McCain. I'd like to have an answer to the question. 
It's a pretty straightforward question. Is al Qaeda gaining 
traction and significant influence in Syria? It's a pretty 
straightforward question.
    Mr. Sheehan. I would say that marginally, yes.
    Senator McCain. Marginally----
    Mr. Sheehan. It depends on how you measure it.
    Senator McCain. Marginally al Qaeda is gaining more and 
more influence in Syria? Marginally?
    Mr. Sheehan. When I measure al Qaeda in terms of its threat 
to the United States, I measure its strategic threat.
    Senator McCain. The question I asked was: Is al Qaeda 
gaining more and more influence and control in Syria?
    Mr. Sheehan. Al-Nusra threat is increasing its capability 
in Syria.
    Senator McCain. Now, did you recommend or is it your 
personal opinion we should provide arms to the Syrian 
resistance?
    Mr. Sheehan. That's not part of the discussion here.
    Senator McCain. Did you, in your confirmation hearings, 
agree that when asked for your personal opinion, that you would 
respond with your personal opinion?
    Mr. Sheehan. I'm not sure I was asked about that.
    Senator McCain. You're not sure? You didn't pay attention 
at your confirmation hearings?
    Mr. Sheehan. I was not asked that, Senator. If I discussed 
that kind of policy deliberation I would want to do it in a 
closed session.
    Senator McCain. The American people should not know how 
officials of our DOD feel about an issue of slaughter of 70,000 
or more people and millions of refugees.
    Well, let me ask this: Do you believe that there's a great 
risk of both Libya--of both Jordan and Lebanon being 
destabilized with the present course of events as they are 
proceeding?
    Mr. Sheehan. That's not something I track as much, ask Mr. 
Chollet.
    Senator McCain. Okay. Mr. Chollet?
    Mr. Chollet. Yes, I'm worried about that.
    Senator McCain. Would you say that over the last 2 years 
that there has been greater and greater influence by jihadists 
and radical Islamic forces in Syria?
    Mr. Chollet. Over the last 2 years?
    Senator McCain. Yes.
    Mr. Chollet. Yes.
    Senator McCain. As regards to Libya, do you think that we 
are providing sufficient assistance to the Libyans which they 
can pay for in the form of border security, in the form of 
training and equipping their military so that they can gain 
more control over their country, particularly in the eastern 
part?
    Mr. Chollet. Senator, I stated previously that we fully 
support doing more for Libya. Frankly, we were doing more 
before the unfortunate events of last September. There's a 
certain logistical reality which you're well aware of from 
having been there so often, that we don't have a very big 
footprint in the country right now, for good reason, for 
security reasons.
    So some of the good programs that we were doing, for 
example, to try to build up their ministry of defense, some of 
the mentoring that we were doing on the civilian side, have 
stopped dead in their tracks really in the last 9 months. So 
those are programs we hope to build back up. Border security 
has to be a huge priority. Libya is a country the size of 
Alaska and it has borders that have been ungoverned for many 
years. We need to do more about that, no doubt about it.
    Senator McCain. Having just returned from Libya, I can 
assure you that the Libyan Government finds nothing but 
frustration in dealing with this administration. They can pay 
for these things, but as many issues have been raised in ways 
not to assist as, and it isn't all the United States' fault, 
but it clearly is, and the situation in Libya is clearly the 
result of the ``light footprint'' that was part of our policy 
after the fall of Qadafi.
    I'd like to go back to Mali a second. Do you have 
confidence that when the French leave that the situation will 
not deteriorate back to a situation that basically is the same 
as before the French intervened?
    Mr. Chollet. I have some confidence, not high confidence. 
We're in the early stages of this story here. The French want 
to get out by July. The U.N. wants to stand up a force by July. 
Ensuring that that force is capable to deal with the security 
threats, because once the French leave the Malian army's not 
going to be in a position to backfill. So that's why we'll work 
through the U.N. to get a viable peacekeeping force in there 
and to work to help train up the Africans as best we can.
    I think we have a shot, but I wouldn't say that it's high 
confidence.
    Senator McCain. Having met with that African force who 
would be there either under the aegis of the African group or 
the U.N., I hope that you're aware they have no logistics 
capability. They have no C-130s, they have no helicopters, they 
have no way of getting around a country the size of Texas.
    But you're hopeful that they'll be able to take over?
    Mr. Chollet. I am hopeful, but I don't think we're there 
yet, and that's why we have to work hard over the next 2 months 
with our partners, 2 months and beyond, to ensure that as the 
French stand down that we have a sufficient force able to 
backfill to ensure that the gains, the significant gains, of 
the last 2 months don't get lost.
    Senator McCain. In 60 days I find it hard to envision that 
we would train pilots and provide them with helicopters and C-
130s and the equipment, not to mention the ground equipment 
that's necessary for them to be a viable force. They themselves 
told me that they are not capable, not because of manpower, but 
because there's not a single C-130. One of the airplanes they 
had they crashed on the runway.
    Mr. Sheehan. Senator, if I could comment on the situation 
in Mali, right now the ECOWAS force there, AFISMA, is not 
capable at all. What you saw there, and you're accurately 
portraying it, is a completely incapable force. That has to 
change. What will change over the next few months if we're able 
to work it through the Security Council is a U.N. blue-helmeted 
operation, which does have logistics capability, which does 
have LH-1000s that can bring logistical support to it.
    What we need to do in Africa, in Mali, is similar to what 
we have done in Somalia: Not ask the international force to do 
too much. In Somalia, we were successful in organizing and 
helping support a U.N. force, AMISOM, that was capable of 
kicking al Shabaab out of Mogadishu and out of Kismayo, 
Ugandans in Mogadishu, the Kenyans in Kismayo, the Ethiopians 
in the north.
    Now, granted those are much more capable forces than we 
might be able to cobble together for Mali. But we do have a 
model where if we use a U.N.-supported logistical force and 
keep the mission reasonable, in other words, those forces for 
the U.N. mission in Mali won't be asked to take over all of 
Mali. They'll be asked to maintain control of the cities now 
occupied by the French, Timbuktu, Gao, and Kidal.
    In terms of chasing AQIM out of the mountains and going 
after its leadership and the remnant as they try to 
reconstitute themselves, that is going to be a job for a much 
more capable force. The U.N. cannot do that and we shouldn't 
expect them to do that. That will be up to the French, perhaps 
with our support, or other specialized units, perhaps the 
Algerians if we can convince them to become more engaged, and 
we're working with them, that we can track down the al Qaeda 
leadership with much more capable CT forces.
    The U.N. will have a much more modest goal and we think, 
based on our experience in Somalia, a God-forsaken place 2 
years ago, we might be able to achieve some modest objectives 
in Mali with that operation.
    Senator McCain. You might.
    I thank you, Madam Chairman. My time has expired.
    The fact is the reality on the ground is that arms and 
people are flowing freely all across North Africa, many of them 
coming into Syria, a surprising number of Tunisians. The 
situation continues to become more radicalized in Syria as 
80,000 or more people have been massacred while we sit by and 
watch and figure out reasons why we can't intervene. We are 
going to pay a very, very, very heavy price.
    You ought to go to a refugee camp some time, both of you, 
and meet the people there, and the woman who says: ``See all 
these children; they will take revenge on those who failed to 
help them, who failed to help.''
    Senator Hagan. Thank you, Senator McCain.
    Senator McCain. It's been disastrous.
    I thank you, Madam Chairman, for interrupting me.
    Senator Hagan. We are now going to ask any Senators who 
wish to have other questions to submit them for the record, and 
then we will move this. The closed session will be in Senate 
Security, room SVC-217. Thank you, this open hearing is now 
adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
                       security forces assistance
    1. Senator Hagan. Admiral McRaven, it has been reported that you 
are seeking new authorities that would allow you to spend up to $25 
million in U.S. Special Operations Command (SOCOM) operation and 
maintenance funds each year to train, equip, and advise partner nation 
security forces. How would you define the strategic objectives that 
this partner capacity building authority would be intended to serve?
    Admiral McRaven. Since my testimony on April 9, I have had numerous 
meaningful engagements with colleagues throughout the Department of 
State (DOS). Together, we are relooking the Global Security Contingency 
Fund (GSCF) and attempting to identify broader authorities in that fund 
that will help meet Special Operations Forces (SOF) requirements. DOS 
has been very responsive and it is my hope that we can move forward 
together.
    That said, the primary objective is to develop SOF partners better 
capable of detecting and dealing with local and regional threats before 
they threaten U.S. vital interests or require more costly U.S. 
Government action. The secondary goal is to ensure theater special 
operations commands are fully capable of detecting leading indicators 
of conflict and instability, and able to offer national security 
decisionmakers timely mitigation options during crises.

    2. Senator Hagan. Admiral McRaven, what deficiencies in existing 
security force assistance authorities--including both Department of 
Defense (DOD) and DOS authorities--do you believe this new authority 
would address?
    Admiral McRaven. Since my testimony on April 9, I have had numerous 
meaningful engagements with colleagues throughout DOS. Together, we are 
relooking the GSCF and attempting to identify broader authorities in 
that fund that will help meet SOF requirements. DOS has been very 
responsive and it is my hope that we can move forward together.
    However, the following reflects my position prior to the recent 
meetings with DOS officials on the question of deficiencies in existing 
security force assistance authorities.
    Both section 1206 and GSCF were purpose-built to respond to 
emerging opportunities and threats. Therefore, they leave Theater 
Special Operations Commands (TSOC) without reliable authority and/or 
resources to implement their Chief-of-Mission-approved regional 
engagement plans. TSOCs would benefit from a comprehensive authority 
that will help national security decisionmakers detect and potentially 
mitigate emerging threats and instability before they require the use 
of more reactive authorities like 1206 or GSCF.
    Additionally, the current slate of foreign military assistance 
authorities leaves TSOCs unable to plan or implement their unique 
strategies for theater SOF engagement with any budgetary certainty. 
Accordingly, as they develop their plans for partner engagement 
activities, TSOCs are left to patch together several authorities 
(almost universally intended for different purposes), resulting in 
limited effectiveness due to legal, policy, and regulatory constraints.

    3. Senator Hagan. Admiral McRaven, do you believe current DOD and 
DOS authorities could be modified to achieve your objectives?
    Admiral McRaven. Yes, since my testimony on April 9, I have had 
numerous meaningful engagements with colleagues throughout DOS. 
Together, we are relooking the GSCF and attempting to identify broader 
authorities in that fund that will help meet SOF requirements. DOS has 
been very responsive and it is my hope that we can move forward 
together.

    4. Senator Hagan. Admiral McRaven, security force assistance has 
traditionally been the responsibility of DOS. Do you believe such an 
authority for the DOD should be subject to the concurrence of the 
Secretary of State, in addition to the relevant ambassador and 
geographic combatant commander? Why or why not?
    Admiral McRaven. Yes. Unless specifically directed by the President 
or Secretary of Defense, U.S. SOF do not deploy or operate in a country 
without the approval of the respective Chief(s) of Mission and 
combatant commanders. SOCOM sees value in the Secretaries of Defense 
and State jointly formulating an annual list of pre-approved countries 
where such activities could be undertaken. Subsequent approvals 
activities in these countries could be delegated to the assistant 
secretary level. In cases of disagreement, the Departments could 
elevate respective cases for more senior level reviews, to include the 
Secretaries of State and Defense.

    5. Senator Hagan. Admiral McRaven, how would you ensure adequate 
oversight and approval by appropriate civilian officials, including the 
Secretary of Defense, the Secretary of State, Ambassadors, and 
Congress?
    Admiral McRaven. As I've stated in my earlier responses, since my 
testimony on April 9, I have had numerous meaningful engagements with 
colleagues throughout DOS. Together, we are relooking the GSCF and 
attempting to identify broader authorities in that fund that will help 
meet SOF requirements. DOS has been very responsive and it is my hope 
that we can move forward together.
    That said, U.S. SOF do not do anything anywhere in the world 
without the concurrence of the respective Chief(s) of Mission and 
combatant commander(s). SOCOM sees value in the Secretaries of Defense 
and State jointly formulating an annual list of pre-approved countries 
where such activities could be undertaken. In cases of disagreement, 
the Departments could elevate respective cases for more senior level 
reviews, to include the Secretaries of State and Defense.
    Congressional oversight should mirror the oversight Congress 
exercises over SOCOM for authorities such as 1208.

    6. Senator Hagan. Secretary Sheehan and Secretary Chollet, what 
role would your offices have in approving and overseeing activities 
conducted under an authority like the one proposed by Admiral McRaven?
    Mr. Sheehan. As with other authorities managed by SOCOM, we would 
ensure application of the authority supports capacity-building needs 
necessary to respond to near-term contingencies and foster persistent 
relationships with our SOF partners. We would establish oversight and 
implementation policies to ensure the execution of the authority 
focuses on DOD and national security objectives, is adequately 
coordinated with the relevant interagency partners, is fully compliant 
with the law, and that programs are regularly assessed and evaluated.
    Mr. Chollet. If enacted, the authority proposed by Admiral McRaven, 
Commander, SOCOM, as with other authorities used by SOCOM, would be 
managed within Office of the Secretary of Defense for Policy through 
the Office of the Assistant Secretary of Defense for Special 
Operations/Low-Intensity Conflict (SO/LIC), which would establish 
oversight and implementation policies. As a regionally focused 
component, the Office of the Assistant Secretary of Defense for 
International Security Affairs (ISA) would work closely with SO/LIC to 
provide a regional perspective to ensure that implementation focused on 
national security objectives as determined by the Secretary of Defense, 
and in coordination with the relevant interagency partners.

                        acquisition authorities
    7. Senator Hagan. Secretary Sheehan, SOCOM is unique within DOD as 
the only unified command with acquisition authorities and funding. 
Further, the Commander of SOCOM is the only uniformed commander with a 
subordinate senior acquisition executive. Given your Service Secretary-
like responsibilities, how do you exercise oversight of SOCOM's 
development and acquisition programs?
    Secretary Sheehan. My staff and I provide policy and resource 
guidance, as well as appropriate advice, to the Commander, SOCOM in 
order to implement Secretary of Defense and Under Secretary of Defense 
for Policy priorities. I participate in SOCOM's monthly Decision 
Roundtable meeting that oversees program and resource guidance and 
decisions. My staff participates in the Special Operations Capabilities 
Requirements Evaluation Board that validates SOCOM's requirements. My 
staff also participates in budget and acquisition review processes at 
SOCOM and within the Office of the Secretary of Defense (OSD), along 
with congressional budget justification.
    My office also provides senior policy oversight to resolve special 
operations acquisition issues, and adjudicates resourcing and 
acquisition differences between SOCOM and the Services. As the lead 
Defense official for SOF acquisition matters, I represent SOF 
acquisition interests within DOD and before Congress. My office directs 
and provides policy oversight to special operations technology 
development programs that address priority mission areas to meet other 
departmental, interagency, and international capability needs.
    My staff also participates with OSD(AT&L) in the biannual SOF 
Acquisition Summits.

    8. Senator Hagan. Admiral McRaven, given current fiscal challenges, 
how do you ensure SOCOM requirements are adequately vetted and balanced 
against available resources before moving forward with an acquisition 
program?
    Admiral McRaven. Current fiscal challenges have reinforced SOCOM's 
requirements (e.g., capability) vetting process; the resourcing segment 
of SOCOM's Strategic Planning Process; and SOCOM's acquisition process. 
Our SOCOM staff conducts rigorous analysis of all SOF requests along 
with a determination of cost, schedule, and performance risk to planned 
acquisition initiatives. We do this through a rigorous internal process 
administered by the J8 and chaired by the Vice Commander. The 
Requirements Evaluation Board provides a final holistic review and 
assessment of SOCOM capabilities, particularly regarding the 
integration of materiel, force structure, manpower, and military 
construction considerations.
    Validated requirements compete for limited MFP-11 funding in the 
annual Program Objective Memorandum (POM) and Budget Estimate 
Submission. The POM submission aligns with Defense Strategy, allocates 
and synchronizes resources over the Future Years Defense Program and 
sets conditions for effective and efficient budgeting and execution.
    Once funding is approved, the Command's Acquisition Executive (AE) 
and Chief Financial Officer execute the appropriated funds at the 
direction of the Commander in accordance with appropriate regulations 
and guidance. For acquisition programs, the AE provides guidance and 
direction to all acquisition program managers to promote agility, 
responsiveness, and transparency to the SOF enterprise.

                        global employment order
    9. Senator Hagan. Admiral McRaven, it has been reported that you 
are seeking new authorities that would allow you to more rapidly move 
SOF between geographic combatant commands--outside of the traditional 
request for forces process managed by the Joint Chiefs of Staff. If 
true, why do you believe such an authority is necessary?
    Admiral McRaven. When I took command of SOCOM in 2011, I initiated 
a rigorous, deliberate, and comprehensive assessment of SOF. It has 
been informed by the National Security Strategy, the Defense Strategic 
Guidance, and the Chairman's Capstone Concept for Joint Operations. As 
a result, in response to changes in the global security environment and 
in line with national guidance, SOCOM is developing a more agile and 
flexible force, ready to address future security challenges, primarily 
through the provision of greater SOF support to the geographic 
combatant commanders.
    This vision for the future of SOF will be achieved through normal 
DOD processes. To that end, on April 19, 2013, the Chairman, Joint 
Chiefs of Staff issued a planning order (PLANORD) that directs SOCOM to 
develop a campaign plan that ``persistently aligns SOF capability and 
provides SOF support to the geographic combatant commanders' steady-
state requirements and national objectives. The results of the planning 
process must increase requisite flexibility and responsiveness of SOF, 
alone and in conjunction with general purpose forces, for crises and 
theater-shaping activities for full-spectrum operations. This plan will 
not supersede the global force management process. To the maximum 
extent possible, [it will] utilize existing processes to support 
identified requirements.''
    My staff, in conjunction with appropriate stakeholders (to include 
the geographic combatant commands, Theater Special Operations Commands, 
Military Services, other defense agencies, and the interagency) is 
currently developing a comprehensive campaign plan to respond to the 
Chairman's PLANORD. My intent is for this plan to identify future SOF 
requirements for all geographic combatant commands; posture the SOF 
enterprise to fulfill these requirements to the greatest extent 
possible; and outline the necessary authorities that will enable SOF to 
meet theater and national objectives.

    10. Senator Hagan. Admiral McRaven, how would you ensure adequate 
oversight and approval by appropriate civilian officials, including the 
Secretary of Defense, the Secretary of State, ambassadors, and 
Congress?
    Admiral McRaven. Building upon my response to Question #9, the 
SOCOM plan to provide a more flexible and agile force to the geographic 
combatant commanders is aligned with national guidance and will be 
achieved through normal DOD and interagency processes. Additionally, it 
is worth reiterating that unless specifically directed by the President 
or Secretary of Defense, SOF do not deploy or operate in a country 
without the approval of the U.S. Chief of Mission. All SOF missions 
require interagency coordination.

    11. Senator Hagan. Admiral McRaven, if a geographic combatant 
commander, the Joint Staff, an ambassador, or another relevant official 
disagrees with a planned movement of SOF, how would such an objection 
be registered and adjudicated?
    Admiral McRaven. I have no intention to command and control SOF in 
the geographic combatant commanders' areas of responsibility. As I 
stated in my response to Question #9, my vision for the future of SOF 
will be achieved through normal DOD processes. My staff, in conjunction 
with relevant stakeholders (to include the geographic combatant 
commands, Theater Special Operations Commands, Military Services, other 
defense agencies, and the interagency), is currently developing a 
comprehensive campaign plan to identify future SOF requirements for all 
geographic combatant commands; posture the SOF enterprise to fulfill 
these requirements to the greatest extent possible; and outline the 
necessary authorities that will enable SOF to meet theater and national 
objectives. The content of this plan is currently in development with 
our partners both in DOD and with the interagency. However, as directed 
by the Joint Staff, SOCOM's plan will ``increase requisite flexibility 
and responsiveness of SOF'' but ``will not supersede the global force 
management process.''

    12. Senator Hagan. Admiral McRaven, would such an authority only 
apply to forces engaged in training and other engagement activities 
with partner nation forces or could it also apply to special operators 
equipped for combat operations or conducting combat operations?
    Admiral McRaven. The Global Employment Order would only apply to 
training and other engagement activities. Any activities related to 
combat would have to go through the Secretary of Defense for his 
approval.
    Building upon my previous responses, it is also worth reiterating 
that unless specifically directed by the President or Secretary of 
Defense, SOF do not deploy or operate in a country without the approval 
of the U.S. Chief of Mission. All SOF missions require interagency 
coordination and I have no intention to command and control SOF in the 
geographic combatant commanders' areas of responsibility.
    My vision for the future of SOF will be achieved through normal DOD 
processes. My staff, in conjunction with relevant stakeholders, is 
currently developing a comprehensive campaign plan to identify future 
SOF requirements for all geographic combatant commands; posture the SOF 
enterprise to fulfill these requirements to the greatest extent 
possible; and outline the necessary authorities that will enable SOF to 
meet theater and national objectives. The content of this plan is 
currently in development with our partners both in Department and with 
the interagency. However, SOCOM's plan will ``increase requisite 
flexibility and responsiveness of SOF'' but ``will not supersede the 
global force management process.''

    13. Senator Hagan. Secretary Sheehan, what role would you have in 
reviewing and approving the redeployment of SOF, considering your 
Service Secretary-like responsibilities for SOCOM?
    Secretary Sheehan. My office will work closely with Headquarters, 
SOCOM to develop the concept for posturing, deploying, and employing 
SOF best to meet geographic combatant commanders' requirements and 
National Strategic Objectives.
    As with all SOF-related orders, I review and provide my 
recommendation to the Secretary of Defense for the deployment and 
redeployment of SOF. At present there is no specific global employment 
order. SOF posture and deployment will continue to utilize existing 
posture and global force management processes. The employment aspects 
remain under the purview of the geographical combatant commander except 
when otherwise ordered by the Secretary of Defense.

            regional special operations coordination centers
    14. Senator Hagan. Admiral McRaven, you have spoken frequently 
about the need to build a Global Special Operations Network which 
includes partner nation SOF. One element of your plan to achieve such a 
network has been described as a series of Regional Special Operations 
Coordination Centers (RSCC), modeled on the North Atlantic Treaty 
Organization (NATO) Special Operations Headquarters created in 2007, to 
strengthen partnerships and improve the capacity of partner forces. How 
would such coordination centers work in other regions where a 
multilateral framework, like NATO, doesn't exist?
    Admiral McRaven. Ideally, RSCCs will be nested under an appropriate 
pre-existing multinational framework (like NATO), but they need not be. 
Even if such a framework does not exist, the RSCC will bring together 
an international grouping of like-minded partners interested in 
implementing regional solutions to regional problems and thus 
increasing regional interoperability. Every RSCC will be built to suit 
its region and will operate under a mutually agreed charter and/or 
Memorandum of Understanding (MOU) framework. The charter will detail 
the common objectives, structure, and workings of the RSCC. Each 
partner nation will have a role in the RSCC organization but will be 
responsible to its national chain of command. In the case of the U.S. 
personnel, they will report to the Theater Special Operations Command.

    15. Senator Hagan. Admiral McRaven, wouldn't special operations-
specific coordination centers duplicate other existing regional 
coordination centers run by the geographic combatant commands and the 
DOS?
    Admiral McRaven. I do not believe RSCCs would be duplicative 
efforts. First and foremost, they would focus on coordination, 
education, and training of partner nation SOF and SOF-like 
organizations. No matter the country of origin, SOF warriors share a 
unique personality, skill set, and approach to their profession. The 
RSCC would serve as a platform for the development of enduring 
relationships among our partners based on trust, increased 
interoperability, commonality of interests, and reciprocal respect. As 
I've said before, you cannot surge trust among partners at the time of 
crisis. That is simply too late. We must build understanding, 
relationships, and interoperability consistently and over the long-
term.
    Second, what would be unique about the RSCCs is that they would be 
set up in such a way that our partners will have ``skin in the game'' 
by contributing leadership, funding, staff, and other resources. They 
would not be U.S. organizations, but truly multi-national.
    Third, RSCCs would fill the current void of operational-level 
training and education. The RSCC would be geared toward the advancement 
of mid- to senior-level officers and noncommissioned officers, to 
include their government/civilian counterparts. This mid-level training 
and education program better prepares students for senior leadership 
positions and advanced international graduate-level education programs.

    16. Senator Hagan. Admiral McRaven, how would the locations of 
these centers be determined--especially considering the risk of 
upsetting partners who are not selected and sensitivities of many 
countries to a visible presence of SOCOM personnel?
    Admiral McRaven. Each geographic combatant command would have the 
lead responsibility for DOD input into site selection and engagement 
with regional partners. Further socialization would be required with 
DOD offices, DOS regional bureaus, Chiefs of Mission, other interagency 
organizations, and multinational stakeholders to provide a 
comprehensive analysis of RSCC participant and location options. 
Preference would be given to a host nation that is located within the 
specified region and promotes maximum regional participation. Where 
feasible, the RSCC would be nested under a suitable pre-existing 
multinational framework or security cooperation agreement or 
arrangement, but this is not essential.

    17. Senator Hagan. Admiral McRaven, how would such coordination 
centers be funded and manned and would you need new legislative 
authorities to create them?
    Admiral McRaven. In the projected fiscal year 2014 budget 
submission to Congress, the allotment for RSCCs is $14,725,000. These 
funds support the planning, development, socialization, and 
implementation efforts for RSCCs in the U.S. Pacific Command and the 
U.S. Southern Command areas of responsibility. This includes the 
determination and creation of area-specific training and education 
requirements as well as collaboration with subject matter experts for 
coordination and support to multiple interagencies and ministries of 
defense for organizational specific planning efforts. Also included are 
planning, researching, resourcing, and sponsoring of education events 
including the development of a SOF course catalog for global and 
regionally specific training. Additionally, HQs SOCOM will incur costs 
related to manpower, planning, and coordination in support of this 
effort.
    SOCOM will provide manning to RSCCs from within its ranks, 
transferring positions and personnel as necessary. As they evolve, RSCC 
staffs will also include partner nation personnel.
    Currently, SOCOM is working across DOD to determine the current 
authorities that exist to enable RSCC activities. If existing 
authorities are not sufficient, we will explore new legislative 
authorities with our interagency and congressional colleagues.

                        national capital region
    18. Senator Hagan. Admiral McRaven, I understand you have been 
working to establish the SOCOM-National Capital Region (NCR) office 
with the intent of consolidating various SOCOM elements in Washington, 
DC, under the SOCOM Vice Commander to eliminate redundancies and 
provide interagency partners with a focal point for coordination on 
issues with special operations equities. However, the recently passed 
Defense Appropriations Act for Fiscal Year 2013 prohibits further 
spending on this effort until additional justification is given to the 
congressional defense committees. I understand a significant portion of 
the funds spent on this effort to date have been used to hire contract 
personnel. Why do you believe such an office is necessary?
    Admiral McRaven. In compliance with the explanatory report language 
accompanying House Resolution 933, the Department of Defense, Military 
Construction and Veterans Affairs, and Full-Year Continuing 
Appropriations Act, 2013, SOCOM is currently writing a report to 
Congress to address questions such as the one above. Upon completion of 
the report, copies will be distributed to all concerned parties to 
increase understanding and respond to the questions initially posed by 
Members of Congress. In the interim, please see ``SOF 2020: You Can's 
Surge Trust''. This document explains the SOCOM vision for a Global SOF 
Network, and the role of the SOCOM-NCR office within it.

    19. Senator Hagan. Admiral McRaven, will this new office be created 
within SOCOM's current resourcing and manpower levels, including 
contractors?
    Admiral McRaven. The SOCOM-NCR will be comprised of the extant 
Interagency Partnership Program (IAPP), the SOCOM Combating Weapons of 
Mass Destruction-Terrorism Support Program (SCSP), and DC-based J39 
elements. Pursuant to receiving a Secretary of Defense relocation 
waiver under section 8018 of H.R. 933, interagency coordination 
functions formerly performed by the Interagency Task Force (IATF) at 
the headquarters will be transferred to the SOCOM-NCR, and the IATF 
will be disestablished. This initiative is intended to be a resource-
neutral internal reorganization, ensuring there is no duplication of 
effort within the Command. We are requesting no new manpower growth to 
establish the SOCOM-NCR.

    20. Senator Hagan. Admiral McRaven, how is SOCOM responding to the 
requirements of the Defense Appropriations Bill?
    Admiral McRaven. SOCOM is in full compliance with the Joint 
Explanatory report language regarding the SOCOM-NCR initiative. The 
language prohibits using fiscal year 2013 funds until a Secretary of 
Defense waiver and report is submitted to the congressional committees. 
Prior to the fiscal year 2013 appropriation, we were in Phase I 
(Initial Concept Implementation). After passage of the Appropriation 
Bill, we worked with the House Appropriations Committee-Defense staff 
and moved the initiative back to Phase 0 (Administrative Planning and 
Concept Development). Phase 0 can be maintained until the approval and 
reporting requirements of the fiscal year 2013 appropriation language 
is met. Resources in the fiscal year 2014 budget submission is funded 
at the Phase 0 level.
    SOCOM-NCR activities during Phase 0:

    (1)  Completing documentation relevant to the submission of a 
Secretary of Defense waiver and the report to Congress (section 8018 of 
H.R. 933).
    (2)  Providing management, guidance, and operational direction to 
the SOCOM Special Operations Support Teams (SOST), which operates 
within SOCOM's IAPP.
    (3)  Continuing to harmonize with the activities associated to 
SOCOM elements in the NCR. All of these activities are being 
coordinated under the leadership of the SOCOM Vice Commander.

    21. Senator Hagan. Secretary Sheehan, do you support the creation 
of this new office, and if so, what will be its relationship with your 
office?
    Secretary Sheehan. I endorse the concept of an enhanced and 
consolidated SOCOM presence in the NCR and look forward to working with 
the Commander, SOCOM to continue to develop and refine this initiative. 
I believe the SOCOM-NCR presence will effectively consolidate SOF 
functions currently executed in the NCR and serves to deepen 
relationships and collaboration with key interagency, 
intergovernmental, multinational, and non-governmental mission 
partners.
    My office will continue direct communication and cooperation with 
SOCOM to provide policy and resource guidance and advice. I also 
envision a close relationship with SOCOM-NCR personnel to ensure 
accuracy and consistency in the communication of SOCOM initiatives 
based on Department-wide priorities and strategy.

                                 sudan
    22. Senator Hagan. Secretary Chollet, over the past year, public 
reports have suggested that the Government of Sudan has been 
increasingly working with Iran and non-state violent extremists to 
facilitate the flow of weapons into Gaza, and has supported the flow of 
foreign fighters to North Africa. What is your assessment of the threat 
posed by Sudan and their ongoing support to international terrorism?
    Secretary Chollet. We are committed to working with our partners in 
the region to prevent the flow of weapons into Gaza. Iranian attempts 
to export weapons are violations of United Nations Security Council 
Resolution (UNSCR) 1747 (2007) (which was strengthened with additional 
implementation provisions in UNSCR 1929 (2010)) and a threat to 
regional stability.
    As you are aware, the United States has longstanding concerns about 
Sudan's approach to security issues in the broader region. In our 
engagements with the Government of Sudan, we continue to express our 
deep concern about its approach to international and domestic security 
issues, including its approach to the conflicts in Southern Kordofan 
and Blue Nile, continued denial of humanitarian access to civilians 
affected by ongoing conflicts, human trafficking, human rights 
violations, and other governance challenges. Sudan remains on the U.S. 
State Sponsors of Terrorism list, and U.S. policy toward Sudan has not 
changed.
                                 ______
                                 
             Question Submitted by Senator Joe Manchin III
                 assistance to foreign military forces
    23. Senator Manchin. Secretary Sheehan and Secretary Chollet, 
during the hearing you both mentioned that we have had some success in 
rolling back al Qaeda in Yemen and Somalia as a result of our train, 
equip, and advise programs. Can you briefly describe the nature of our 
training, equipping, and advising efforts in Yemen and Somalia and the 
approximate cost of each during fiscal year 2012 and fiscal year 2013?
    Secretary Sheehan. DOD works closely with the Yemeni Government, 
Government of Somalia, and the African Union Mission in Somalia 
(AMISOM) to counter the respective terrorist threats posed by al Qaeda 
in the Arabian Peninsula (AQAP) and al Qaeda-aligned elements of al-
Shabaab.
    Section 1206 ``Global Train and Equip'' and section 1207(n) 
``Global Security Contingency Fund'' authorities have been used to 
train and equip Yemeni forces engaged in driving AQAP from its safe 
havens in Yemen, and Foreign Military Financing (FMF) has been 
instrumental in the reorganization of the Yemeni military. In fiscal 
year 2012, we provided $37.5 million in training and equipment under 
section 1206 and $75 million under section 1207(n). Section 1206 
programs provided equipment to increase the tactical effectiveness of 
Yemen SOF. Section 1207(n) programs provided equipment and training to 
enhance the ability of Yemen's MOI counterterrorism forces to conduct 
operations against AQAP.
    Section 1206 and section 1207(n) authorities have also been 
instrumental in giving AMISOM and regional forces the capabilities and 
effectiveness to drive al-Shabaab from Mogadishu and other strongholds. 
In fiscal year 2012, the United States also provided $18.8 million in 
assistance under section 1206 to Uganda and Burundi for deployments in 
support of AMISOM. On April 10, 2013, DOD also notified Congress of its 
intent to provide an additional $27.6 million in section 1206 support 
to Kenya and Uganda. We provided $41.3 million in training and 
equipment under section 1207(n) to Burundi, Djibouti, Kenya, and 
Uganda. The purpose of the fiscal year 2012 assistance is to improve 
the tactical effectiveness, operational reach, and survivability of 
these partner nation forces conducting counterterrorism operations 
either on their own or as part of AMISOM in Somalia. The fiscal year 
2013 programs will improve intelligence, surveillance, and 
reconnaissance capabilities to support AMISOM's expansion out of 
Mogadishu.
    In addition to DOD's efforts to build Yemeni capacity to conduct 
counterterrorism operations, the DOD, in concert with our European and 
Jordanian partners, is providing advice to the Yemeni military as it 
reorganizes under a unified chain of command under President Hadi. A 
unified, professional Yemeni military will be more effective in the 
fight against AQAP, and it will contribute to greater political 
stability. The Department's advisory support for the reorganization 
began in May 2012 and is funded by a $643,560 FMF case.
    Secretary Chollet. DOD works closely with the Yemeni Government to 
counter the terrorist threat posed by AQAP, the most active and 
dangerous affiliate of al Qaeda today. DOD also works with the 
Government of Somalia and the AMISOM to counter the terrorist threat 
posed by al Qaeda and al Qaeda-aligned elements of al-Shabaab. Our 
train, advise, and equip programs are one of the key reasons that we 
have been successful in countering al Qaeda in Yemen and Somalia. 
Section 1206 and section 1207(n) authority has been used to train and 
equip Yemeni forces engaged in driving AQAP from its safe haven in 
Yemen, and FMF has been instrumental in the reorganization of the 
Yemeni military. Section 1206 and section 1207(n) authority has been 
instrumental in giving AMISOM and regional forces the capabilities and 
effectiveness to drive al-Shabaab from Mogadishu, Merka, and other 
historical strongholds.
    In fiscal year 2012, we provided $37.5 million in training and 
equipment under the section 1206 global train counterterrorism 
capacity-building authority and $75 million under section 1207(n), the 
transitional authority provided by the GSCF legislation made available 
to support Yemen Ministry of Interior (MOI) counterterrorism forces. 
Section 1206 programs provided equipment to increase the tactical 
effectiveness of Yemen SOF. Section 1207(n) programs provided equipment 
and training to enhance the ability of Yemen's MOI counterterrorism 
forces to conduct operations against AQAP.
    In fiscal year 2012, the United States also provided $18.8 million 
in assistance under section 1206 to Uganda and Burundi for deployments 
in support of AMISOM. On April 10, 2013, DOD notified Congress of its 
intent to provide an additional $27.6 million in section 1206 support 
to Kenya and Uganda. The United States also provided $41.3 million in 
training and equipment under section 1207(n), made available to support 
East African countries, including Burundi, Djibouti, Kenya, and Uganda. 
The purpose of the fiscal year 2012 assistance is to improve the 
tactical effectiveness, operational reach, and survivability of these 
partner nation forces conducting counterterrorism operations either on 
their own or as part of AMISOM in Somalia. If executed, the fiscal year 
2013 programs will improve operational and tactical intelligence, 
surveillance, and reconnaissance capabilities to support AMISOM's 
expansion out of Mogadishu.
    In addition to DOD's efforts to build Yemeni capacity to conduct 
counterterrorism operations, the DOD, in concert with our European and 
Jordanian partners, is providing advice to the Yemeni military as it 
reorganizes under a unified chain of command under President Hadi. A 
unified, professional Yemeni military will be more effective in the 
fight against AQAP, and it will contribute to greater political 
stability. The Department's advisory support for the reorganization 
began in May 2012 and is funded by a $643,560 FMF case.
                                 ______
                                 
               Questions Submitted by Senator Deb Fischer
                    global security contingency fund
    24. Senator Fischer. Admiral McRaven, Secretary Sheehan, and 
Secretary Chollet, 2 years ago, at the request of Secretary Clinton and 
Secretary Gates, Congress created the GSCF--a joint program between DOS 
and DOD to utilize security assistance to address national priorities. 
However, I understand that since its creation, the GSCF has experienced 
issues, including a cumbersome implementation process and diverging 
priorities between DOS and DOD. Is the GSCF working as intended and if 
not, do you believe modifications should be made to the GSCF to get it 
back on track?
    Admiral McRaven. GSCF was not intended to be an authority to meet 
the peculiar requirements of SOF, so it is beyond the scope of my 
purview to opine as to whether it is working as intended. Since my 
testimony on April 9, I have had numerous meaningful engagements with 
colleagues throughout the DOS. Together, we are relooking the GSCF and 
attempting to identify broader authorities in that fund that will help 
meet SOF requirements. DOS has been very responsive and it is my hope 
that we can move forward together.
    Mr. Sheehan. Standing up the GSCF has been challenging. This 
authority differs from others in the extent of joint planning and 
shared responsibility for both funding and execution. We have had to 
develop processes and procedures to plan, notify, and execute the 
programs, as well as addressing the logistics of transferring funds 
into GSCF.
    The GSCF is a new model for interagency collaboration that requires 
developing new processes. We recognize that it takes time to establish 
and operationalize new funding structures between two agencies with 
different legal authorities and funds management processes and 
procedures. DOD and DOS have made much progress on these and other GSCF 
issues. DOD remains committed to GSCF as an integrated tool to address 
foreign policy and national security interests.
    Mr. Chollet. From a regional perspective, GSCF's objective--to 
provide the legal authority for DOD and DOS to implement policy that 
enhances strategic effects with partner nations on emergent needs--is 
laudable. The first year has been challenging, but many of the 
difficulties are due to divergent views between the Departments' 
respective authorizing and appropriating committees on how this new 
authority should be implemented.
    As an OSD regional bureau, we jointly chair, with the DOS's 
regional bureaus, the Policy Steering Group to ensure that GSCF 
projects are coordinated with the relevant interagency partners. DOD 
and DOS agree on priority projects. Challenges largely relate to 
implementation, as no other authority requires the same extent of joint 
planning and shared responsibility on funding and execution.
    The GSCF is a new model for interagency collaboration that requires 
new processes, which are still being created and validated. As we 
complete staffing and notification of the first set of GSCF proposals, 
we assess that clarifying the meaning of the terms ``training,'' 
``mentoring,'' and ``advising'' will allow for a more streamlined 
approval process going forward.
    DOD remains committed to the GSCF as a tool to address foreign 
policy and national security interests. We welcome your continued 
support and oversight as we move forward.

    25. Senator Fischer. Admiral McRaven, Secretary Sheehan, and 
Secretary Chollet, in what ways should the authority be revised to make 
it more manageable and effective?
    Admiral McRaven. Since my testimony on April 9, I have had numerous 
meaningful engagements with colleagues throughout DOS. Together, we are 
relooking the GSCF and attempting to identify broader authorities in 
that fund that will help meet SOF requirements. DOS has been very 
responsive and it is my hope that we can move forward together.
    In partnership with DOS, we would like to enhance GSCF flexibility 
in order to shift funding within and between cases. As circumstances 
change, and efficiencies are found during case implementation, such 
flexibility to move funds will be critical to successful outcomes.
    Mr. Sheehan. DOD formally submitted a legislative proposal to 
streamlining congressional notification requirements and allow DOD 
funds to be transferred from all operation and maintenance accounts for 
GSCF programs.
    DOD recommends a single congressional notification per project that 
covers transfer of funds into the GSCF account and intent to implement 
activities using those funds. The current requirement of notifying 
congressional committees of funds transfer, and separately of the 
intent to initiate activities, is duplicative. The combined 
notification would contain detailed information (e.g., name of country, 
source of funds, justification, implementation plan with milestones, 
budget, timeline, completion date). It would also fulfill the 
requirements in section 8004 of the DOS, Foreign Operations, and 
Related Programs Appropriations Act, 2012; section 8069 of the DOD 
Appropriations Act, 2012; and section 8068 of the DOD Appropriations 
Act, 2013.
    Additionally, DOD would like to expand the source of transferred 
funds to the broader Operation and Maintenance account to allow the 
Secretary of Defense more latitude to prioritize amongst competing 
budget requirements.
    Mr. Chollet. From a regional perspective, International Security 
Affairs supports a legislative proposal that aims to make the GSCF more 
effective by streamlining congressional notification requirements, and 
allowing DOD funds to be transferred from any Operation and Maintenance 
account, not just the Defense-wide account. DOD would like to expand 
the source of transferred funds to the broader Operation and 
Maintenance account to allow the Secretary of Defense more latitude to 
prioritize among competing budget requirements.

    26. Senator Fischer. Admiral McRaven, Secretary Sheehan, and 
Secretary Chollet, do you believe the fiscal year 2014 budget request 
of $75 million for the GSCF will be sufficient to meet DOD plans?
    Admiral McRaven. I will defer that answer to Secretary Sheehan, as 
the SOF carve-out is not expected to repeat in 2014.
    Mr. Sheehan. It is too early to tell whether our $75 million 
request for GSCF will be sufficient to cover DOD's share of the fiscal 
year 2014 GSCF projects. The amount requested is comparable to the 
amount transferred in fiscal year 2012 and projected to be transferred 
in fiscal year 2013 to complete the first six GSCF projects.
    Mr. Chollet. It is too early to tell whether the $75 million 
request for GSCF will be sufficient to cover DOD's share of the fiscal 
year 2014 GSCF projects. From a regional perspective, there will likely 
be no shortage of proposals competing for the allocated GSCF funds 
based on emerging security challenges.

    27. Senator Fischer. Admiral McRaven, Secretary Sheehan, and 
Secretary Chollet, will DOD continue its policy of including a SOF 
carve-out in the GSCF, and if so, what level of funding do you plan to 
allocate to the SOF carve-out?
    Admiral McRaven. SOCOM has been told that the SOF carve-out was a 
single year experiment and will not be repeated in 2014. We will assess 
the results of the 2013 carve-out to drive our approach beyond 2014.
    Mr. Sheehan. The SOF carve-out projects are the result a decision 
by both Departments' senior leadership to explore the suitability of 
the GSCF authority to address a set of small-scale, operationally-
driven requirements to meet SOF capacity-building needs. This allows 
for important capacity-building tools, such as advising and mentoring 
and small-scale construction critical to SOF-to-SOF engagement, that 
complement or otherwise facilitate effective employment of the larger-
scale training or equipment delivered.
    The statutory requirement for joint approval of both country 
designations and assistance plans by both the Secretaries of Defense 
and State, when combined with a lack of dedicated appropriation, 
effectively narrows the Departments' focus to projects that are 
national-level priorities that sufficiently justify the transfer of 
funds away from other accounts.
    Mr. Chollet. International Security Affairs is not responsible for 
allocating SOF carve-out funding, but is supportive of the requests 
that have been submitted to date by SOCOM and the Office of the Under 
Secretary of Defense for Policy for countries in ISA's area of 
responsibility.

                    security assistance authorities
    28. Senator Fischer. Secretary Sheehan, in your testimony, you 
referenced ``legislative proposal 171.'' Can you describe this 
proposal?
    Mr. Sheehan. My testimony was intended to highlight a set of 
security sector assistance requirements that current authorities may 
not adequately address. For example, SOF should have the ability to 
build a network of capable, willing SOF partners able to respond to 
near-term contingencies and share the burden of global responsibility 
to address an array of security challenges. This would enable 
persistent engagement with foreign SOF and prioritized SOF-to-SOF 
engagement with our foreign partners. The global security environment 
demands a flexible, agile security assistance authority that can be 
both proactive and reactive. Likewise, the ability to work by, with, 
and through partners with greater placement and access is crucial to 
preventing crises and responding to near-term contingencies. In the 
immediate future, we are working closely with the DOS to identify ways 
to satisfy some of these requirements.

    29. Senator Fischer. Secretary Sheehan, has this proposal been 
shared with DOS, and if so, what changes has DOS requested be made to 
your proposal?
    Mr. Sheehan. We consult with our colleagues in the DOS in a range 
of circumstances to develop future proposals that would establish 
essential capacity-building tools to respond to near-term contingencies 
and foster critical SOF-to-SOF relationships to address a range of 
national security challenges; and identify ways to satisfy some of 
these requirements through existing programs and within existing 
authorities.

    30. Senator Fischer. Admiral McRaven and Secretary Sheehan, both of 
you testified on the importance of being able to provide security 
assistance in a rapid and responsive manner. What impact does a lengthy 
approval process impose on the efficacy of security assistance 
missions?
    Admiral McRaven. In short, we're unable to react to the changing 
conditions and/or take advantage of opportunities as they present 
themselves.
    Persistent instability can most effectively be countered by 
maintaining a persistent presence that anticipates and mitigates 
volatile situations, but can also respond should a crisis occur. A 
streamlined and expedited process to enable GSCF-type missions is 
critical to address emerging security threats in a dynamic and complex 
strategic environment, and ultimately serves to prevent larger military 
operations of a reactive nature.
    Mr. Sheehan. The authorities Congress provided since September 11, 
2001, (e.g., section 1206, section 1207), have been instrumental in our 
fight against al Qaeda. These authorities, however, do not necessarily 
provide DOD with the full complement of tools required to rapidly 
respond to evolving terrorist threats and instability challenges that 
we will face for the foreseeable future. Contracting and procurement 
challenges, and our general inability to work with Non-Ministry of 
Defense partners, continue to hinder our responsiveness. More agile, 
flexible authorities would also allow us to exploit fleeting 
opportunities to provide assistance to our partners.

    [Whereupon, at 3:22 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        THURSDAY, APRIL 18, 2013

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

THE ROLE OF THE DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY ENTERPRISE 
                    FOR INNOVATION AND AFFORDABILITY

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Kay R. 
Hagan (chairman of the subcommittee) presiding.
    Committee members present: Senators Hagan and Fischer.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; and Robie I. Samanta Roy, 
professional staff member.
    Minority staff members present: Thomas W. Goffus, 
professional staff member; and Anthony J. Lazarski, 
professional staff member.
    Staff assistants present: Jennifer R. Knowles and Kathleen 
A. Kulenkampff.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Christopher Cannon, assistant to 
Senator Hagan; and Peter Schirtzinger, assistant to Senator 
Fischer.

      OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRMAN

    Senator Hagan. We will bring to order the Emerging Threats 
and Capabilities Subcommittee.
    Good afternoon. We meet today to receive testimony on the 
health and status of the Department of Defense (DOD) science 
and technology (S&T) enterprise and its contributions to 
developing innovative and affordable systems for the 
warfighter. This hearing will delve deeper into some of the 
important topics that we touched upon last year in our hearing 
on the health and status of the DOD laboratory enterprise.
    Despite the significant budgetary pressures we are facing 
today, DOD should be given credit for trying to preserve, as 
much as possible, the investments in S&T. Nevertheless, these 
budgetary pressures, along with the pending drawdown of our 
forces in combat overseas and the associated decrease in rapid 
fielding requirements and the new defense strategic guidance, 
all are forcing the S&T community to reevaluate the priorities.
    Two key areas of significant concern to me are the 
Department's ability to recruit and retain the best and 
brightest for its S&T workforce--and I know I have spoken to 
some of you about this--especially daunting when you look at 
the sequestration environment that we are in today, and the 
timeliness and affordability of the new weapons systems.
    In order to address and understand some of these complex 
issues and DOD's approach to them, we are pleased to have five 
expert witnesses with us today. Mr. Alan R. Shaffer is the 
Acting Assistant Secretary of Defense for Research and 
Engineering (R&E). I understand that is the second time for an 
extended period of time over the last 10 years, so thank you.
    Dr. Arati Prabhakar is the Director of Defense Advanced 
Research Projects Agency, better known as DARPA. I understand 
this too is your second time serving at DARPA, the first as a 
program manager and the founding director of DARPA's 
Microelectronics Technology Office.
    Ms. Mary J. Miller is the Deputy Assistant Secretary of the 
Army for Research and Technology, also in this position for the 
second time.
    Ms. Mary E. Lacey is the Deputy Assistant Secretary of the 
Navy for Research, Development, Test and Evaluation (RDT&E). As 
I said, welcome back. You are the only witness on this panel to 
date who was at the hearing that we had last year.
    Dr. David E. Walker is the Deputy Assistant Secretary of 
the Air Force for Science, Technology, and Engineering.
    I thank all of you today for your service in the cause for 
our national security. We look forward to your testimony. In 
order for us to have adequate time to discuss a broad range of 
topics--and especially with five witnesses also--I ask that you 
keep your opening remarks to, hopefully, 2 minutes. We are 
going to include your full written statements in the hearing 
record.
    Before we hear from our panel, I want to turn to my good 
friend, colleague, and ranking member, Senator Fischer, for any 
opening remarks she would care to make. Thank you.

                STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Thank you, Madam Chairman, and thank you 
all for being here today. I truly appreciate your taking the 
time to come here and go through this briefing with us and have 
a conversation about the important issues before us.
    I appreciate the innovative structures our military employs 
to conduct cutting-edge research. In my State, the University 
of Nebraska has partnered with the U.S. Strategic Command to 
advance its mission to protect the United States from an attack 
by weapons of mass destruction. General Kehler has noted the 
clear value of this partnership.
    As we prioritize our scarce defense resources, it is 
critical that we continue to invest in advanced research and 
potentially game-changing technologies. The American military 
is the most advanced and effective fighting force in the world. 
We must sustain our investment in the next generation of 
technologies to maintain our technological superiority and stay 
ahead of these developing threats.
    Of course, these investments must be made wisely. I am 
eager to hear from our witnesses on the steps they are taking 
to scrutinize their investments and, in particular, improve 
coordination and eliminate duplicative research.
    The current fiscal environment also demands that defense 
funds be devoted toward warfighting missions and capabilities. 
Past years may have permitted the support of research that had 
only marginal benefit to DOD, but I believe it is critical that 
DOD's S&T funding have a strong and clear benefit to its core 
mission: fighting and winning wars. DOD simply cannot afford to 
foot the bill for projects that are more relevant to other 
departments and agencies.
    This subcommittee has its work cut out for it. Shedding 
non-warfighting research while protecting investments that 
could unlock the next generation of battlefield technology will 
be a complex and difficult task. We need the help of these 
witnesses to thread that needle.
    So, thank you so much for being here.
    Thank you, Madam Chairman.
    Senator Hagan. Thank you, Ranking Member Fischer.
    What I would like to do is--I have had two charts handed 
out and I just want everybody to look. My first question 
actually relates to these talks. Oh, I am sorry. I apologize. I 
am ready for these questions and I am already omitting your 
opening statements. [Laughter.]
    We will pull back on that. I know, I like my charts. 
[Laughter.]
    So, Dr. Shaffer, if you would start first, please.

STATEMENT OF MR. ALAN R. SHAFFER, ACTING ASSISTANT SECRETARY OF 
              DEFENSE FOR RESEARCH AND ENGINEERING

    Mr. Shaffer. Chairman Hagan, Ranking Member Fischer, I am 
pleased to represent the scientists and engineers of DOD, a 
group that conceives, develops, and matures systems early in 
the acquisition process. They work with multiple partners to 
provide the unmatched operational advantage employed by our 
Services' men and women.
    By the way, we like the charts also. [Laughter.]
    As we wind down in Afghanistan, the national security and 
budget environments are changing. We are heading into 
uncertainty. The fiscal year 2014 President's budget request 
for S&T is $12 billion, a nominal increase from 2013's $11.9 
billion.
    However, it is not possible to discuss the budget without 
addressing the impact of the sequester, which takes 9 percent 
from every single program in RDT&E. This reduction will delay 
or terminate some efforts. We will reduce awards. For instance, 
we will reduce university grants by roughly $200 million this 
year alone and potentially reduce the number of new Science, 
Mathematics, and Research for Transformation (SMART) 
scholarship for service program awardees this year to zero. 
Because of the way the sequester was implemented, we will be 
very limited in hiring new scientists this year and for the 
coming several years. Each of these actions will have a 
negative long-term impact to DOD and to national security.
    The President and the Secretary of Defense depend upon us 
to make key contributions to the defense of our Nation. S&T 
should do three things for national security. First, we should 
mitigate the current and emerging threats facing our Armed 
Forces and Nation. Second, we should build affordability and 
affordably enable our current and future weapons systems to 
operate. Third, we should develop technology surprise to 
prevent potential adversaries from threatening us. My written 
testimony highlights specific programs in each of these areas.
    In summary, DOD's R&E program is faced with the same 
challenges as the rest of DOD and the Nation. But our people 
are performing.
    We appreciate the support of Congress to let us continue to 
meet the national security needs of DOD and the Nation. Thank 
you.
    [The prepared statement of Mr. Shaffer follows:]
               Prepared Statement by Mr. Alan R. Shaffer
    Madam Chairman, Ranking Member Fischer, members of the 
subcommittee, I am pleased to be here today on behalf of the scientists 
and engineers in the Department of Defense laboratories, as well as the 
professional systems engineers and developmental test and evaluation 
personnel who work to conceive, develop, and mature systems early in 
the acquisition process. There are over 100,000 scientists and 
engineers performing these functions. These professionals have worked 
together, along with our partners in industry, academia, other 
governmental agencies, and allied partners to develop the capabilities 
and systems that have provided the unmatched operational advantage 
employed by the men and women of our Army, Navy, Air Force, and 
Marines, as well as other deployed U.S. and allied personnel.
    I also represent the Office of the Assistant Secretary of Defense 
for Research and Engineering (ASD(R&E)). Within the Office of the 
Secretary of Defense (OSD), ASD(R&E) is responsible for oversight of 
Department-wide activity from concept to early acquisition. Our Science 
and Technology (S&T) portfolio includes Basic Research, Applied 
Research, and Advanced Technology Development. The Research and 
Engineering (R&E) portfolio includes these budget activities as well as 
Advanced Component Development and Prototypes (ACD&P). ACD&P covers the 
technology transition from laboratory to operational use, and 
investment for prototyping which includes systems engineering and early 
developmental test and evaluation. Taken as a whole, these functions 
define the technical boundaries and possibilities of programs early in 
the Department's acquisition process.
    When we step back and look at the capabilities developed and 
delivered by the Department of Defense research and engineering 
programs during the wars in Iraq and Afghanistan, I would contend that 
the Nation has received a good return on investment. I will cite three 
examples of capabilities developed during the past decade that were 
developed and fielded from our ASD(R&E) programs.

        <bullet> Foreign Comparative Test program identified and tested 
        the first Mine Resistant Ambush Protected vehicle systems, 
        vehicles that provide dramatically greater underbody protection 
        for passengers.
        <bullet> Quick Reaction Fund developed the Persistent Threat 
        Detection System (PTDS) and Persistent Ground Surveillance 
        System (PGSS) both of which are tethered aerostat systems that 
        provide constant surveillance around our forward operating 
        bases.
        <bullet> Rapid Reaction Fund developed and produced the Jungle 
        Advanced Under Dense Vegetation Imaging Technology (JAUDIT), a 
        laser radar system that can map very high resolution topography 
        and identify objects under canopy. The JAUDIT system 
        transitioned to a major acquisition program of record in the 
        Army; renamed Tactical Operational LIDAR (TACOP). As a next 
        generation improvement to JAUDIT, TACOP is deployed 
        operationally in Afghanistan today.

    The Defense Advanced Research Projects Agency (DARPA) and the 
Services have also developed and fielded a myriad of capabilities for 
our warfighters. For instance:

        <bullet> DARPA created and fielded a wide range of highly 
        effective tools including the High Altitude LIDAR Operational 
        Experiment (HALOE), a sensor that delivered three-dimensional 
        views of the battle space to operational and intelligence 
        users, and the Vehicle and Dismount Exploitation Radar (VADER), 
        a radar pod that aided in the tracking of threat vehicles and 
        adversary dismounted personnel.
        <bullet> The Marine Corps Program Manager for Expeditionary 
        Power deployed the Ground Renewable Expeditionary Energy System 
        (GREENS), a portable hybrid photovoltaic/battery power system 
        that contains stackable 1600-watt solar arrays and rechargeable 
        batteries combined to provide 300 watts of continuous 
        electricity while in remote locations--reducing the need for 
        fuel resupply.
        <bullet> The Air Force S&T program delivered Blue Devil Block 
        1, an intelligence, surveillance, and reconnaissance (ISR) 
        asset. Blue Devil began as a response to satisfy multiple Joint 
        Urgent Operational Needs (JUONs) and was delivered to theater 
        in less than 280 days. It is the only ISR asset that integrates 
        both wide and narrow field-of-view high definition day and 
        night sensors. These technologies provide near-real-time 
        information to troops while simultaneously providing forensic 
        information to analysts. The Blue Devil ISR platform has now 
        flown thousands of sorties and saved countless American, 
        coalition, and civilian lives in Afghanistan.
        <bullet> The Army's Clinical and Rehabilitative Medicine 
        Research Program (CRMRP) made great strides in wound repair and 
        organ/tissue regeneration. To date, ten hand transplants have 
        been performed on six patients. CRMRP currently has burn repair 
        technologies in clinical trials with industry partners to meet 
        military needs.

    These examples are only a few of the technologies we provide to the 
forces deployed in theater. These technologies have given our military 
unprecedented protection and situational awareness to address the 
counter-insurgency first we face today. The research and engineering 
community has performed remarkably to provide new and focused 
capabilities to our warfighter over the past decade and will continue 
to provide them into the future.
                     changes in security landscape
    Over the past decade, the Nation and Department have been at war. 
The Department is now entering a new strategic period and the budget 
reflects changes in our mission. The strategic situation was well 
summarized by President Obama in the forward to the Defense Strategy 
``Sustaining Global Leadership: Priorities for 21st Century Defense.'' 
On January 3, 2012, President Obama said in the forward to the 
strategy:

          ``As we end today's wars and reshape our Armed Forces, we 
        will ensure that our military is agile, flexible, and ready for 
        the full range of contingencies. In particular, we will 
        continue to invest in the capabilities critical to future 
        success, including intelligence, surveillance, and 
        reconnaissance; counterterrorism; countering weapons of mass 
        destruction; operating in anti-access environments; and 
        prevailing in all domains, including cyber.''

    On March 15, 2013, Secretary Hagel directed senior leaders to 
conduct a review to examine the choices that underlie the Department of 
Defense's strategy, force posture, investments, and institutional 
management. While Secretary Hagel has directed this review, the 
``Sustaining Global Leadership'' document drove the development of the 
fiscal year 2014 President's budget request just transmitted to 
Congress. The current budget challenges are forcing a review of the 
strategy but the S&T investment is crafted to address the still valid 
strategic challenges.
    Secretary Hagel addressed the National Defense University on April 
3, 2013. In this address, he highlighted the need to invest in 
technology during periods of austerity. He said:

          ``As the military grappled with incredible challenges to 
        morale and readiness after Vietnam it also made the transition 
        to an All-Volunteer Force and protected key investments in 
        technologies like stealth, precision weapons, and platforms 
        like the F-16 and Abrams tank. Even during the 1990s 
        procurement holiday, we invested in satellite guidance and 
        networking systems, as well as remotely piloted aircraft that 
        have been game-changers during the last decade of war. The goal 
        of the senior leadership of this Department today is to learn 
        from the miscalculations and mistakes of the past drawdowns, 
        and make the right decisions that will sustain our military 
        strength, advance our strategic interests, and protect our 
        Nation well into the future.''

    While the future budget situation is uncertain, the emerging 
national security challenges are stressing the Department in ways that 
we have not seen in a number of years. These current challenges need to 
be dealt with, in spite of a declining budget. I will cite five 
emerging security challenges that the United States and our allies be 
prepared to address. They are:

        <bullet> The instability in Syria, a state with weapons of mass 
        destruction that could fall out of state control;
        <bullet> The continued development by North Korea of its 
        nuclear weapons and missile programs;
        <bullet> The emergence of very sophisticated ``anti-access, 
        area-denial'' capabilities in a number of nations that could 
        prevent the freedom of movement and access of the United States 
        and our allies;
        <bullet> The emergence of sophisticated cyber exploitation and 
        attack; and
        <bullet> The existence and increase in sophistication of 
        advanced electronic attack capabilities of some of our 
        adversaries.

    While there are other emerging security challenges, each of the 
five challenges listed have strong technical challenges that should be 
addressed by the entire S&T enterprise.
                   science and technology objectives
    The guidance is clear; the President and the Secretary of Defense 
depend on the S&T community to make key contributions to the defense of 
our Nation. Those contributions can be summarized in the following 
three objectives:

    1.  Mitigate new and emerging capabilities that could degrade U.S. 
(and allied) capabilities
    2.  Affordably enable new or extended capabilities in existing 
military systems
    3.  Develop technology surprise through science and engineering 
applications to military problems

    Each of these three objectives is important and is listed in order 
of priority. Collectively, the Services and Defense Agencies work 
together to address each of these objectives. The first objective is 
aligned with defense of the homeland. The second objective addressees 
DOD's need to make every system we own and buy more affordable. The 
final objective, after we ensure the defense of the homeland and the 
affordability of our current and future systems, is to develop new 
concepts and technologies that create technology surprise. Pursuing 
these objectives form the basis of a new strategy in response to the 
evolving security situation.
    On April 19, 2011, then Secretary of Defense Gates approved seven 
S&T priority areas. These priorities are still valid, and support our 
emerging strategy. While each priority has elements for all of these 
objectives, three of the seven S&T priorities most strongly support 
mitigating emerging threats--Cyber, Electronic Warfare (EW), and 
Countering Weapons of Mass Destruction (C-WMD). One of the priorities, 
Engineered Resilient Systems (ERS), is directly aligned with 
affordability, and the final three focus on developing technology 
surprise--Autonomy, Data to Decisions, and Human Systems.
    A key element of the S&T Defense enterprise are the Priority 
Steering Councils (PSCs) which are groups of Senior Executive Service 
members from each of the Services and Defense agencies with investments 
in a technical area who work together to develop an integrated plan for 
their areas. Each of the seven S&T priorities has a PSC. We will 
describe the groups in more detail later, but these PSCs are 
integrating programs in technical areas across the enterprise.
    A final element of the emerging strategy is to develop a better 
integrated R&E program across the entire Department. The job of OSD is 
to coordinate, integrate, and if possible, optimize the total 
Department-wide program. The components do a good job developing 
Service-unique systems. We want OSD to focus on the technical areas 
where multiple components have a substantial investment and provide 
coordination, integration and if possible, optimization across the 
Department. These technical areas align with areas no one owns but 
everyone uses. This includes space, cyber space, the electromagnetic 
spectrum, communications, and other specialty areas like materials 
science.
Objective 1: Mitigation of Emerging Threat
    For a number of reasons, we are seeing an increase in the type and 
complexity of foreign systems and capabilities that could threaten the 
Department's ability to perform its missions. Examples of the new 
threats include, but are not limited to, cyber threats, advanced 
electronic warfare systems, counter-satellite systems, and 
proliferating short- and medium-range ballistic and cruise missiles. In 
addition, old threats, such as weapons of mass destruction (WMD), 
become more acute when tied to extremist terrorist groups. The R&E 
community must deal with all of these emerging threats. Many of the 
specific emerging concepts are classified, but we can make some general 
comments on how the Department is addressing the challenges. We will 
address several areas.
    (a) Cyber
    The National Cybersecurity Coordinator, Michael Daniel, explained,

          ``The government's senior-most civilian, military, and 
        intelligence professionals all agree that inadequate 
        cybersecurity within this critical infrastructure poses a grave 
        threat to the security of the United States. Most recently, we 
        have seen an increased interest in targeting public and private 
        critical infrastructure systems by actors who seek to threaten 
        our national and economic security.''

    In 2011, we established the Cyber PSC to focus the Department's 
investment. The Cyber team is led by the Technical Director of the Air 
Force Research Laboratory in Rome, New York with representatives from 
the Naval Research Laboratory, U.S. Army Communications-Electronics 
Research, Development, and Engineering Center, the National Security 
Agency, and OASD(R&E). This PSC is attempting to integrate the 
investments of all three Services, DARPA, and others into an integrated 
program. Across the Department, we estimate the investment in Cyber 
related S&T to be roughly $500 million in fiscal year 2014.
    The PSC has focused Cyber S&T investments into six areas:

        <bullet> Foundations of Trust - Establishing foundational 
        authentication, confidentiality, identity, attribution, and 
        authorization services that support secure DOD operational use 
        of cyberspace.
        <bullet> Cyber Resilience - Having the ability to absorb damage 
        and ensure continuity information technology in support of 
        mission operations even in the face of successful and 
        widespread cyber-attacks.
        <bullet> Cyber Agility - Ensuring that systems can adapt and 
        maneuver very rapidly in their configurations or location. By 
        being a moving target in cyberspace, agile operations make 
        successful attacks from our adversaries much more difficult.
        <bullet> Assuring Effective Missions - Allowing commanders, 
        decisionmakers, and operators to evaluate options, tradeoffs, 
        and outcomes to enable the orchestration of cyber elements in 
        support of kinetic and cyber missions.
        <bullet> Cyber Modeling and Simulation - Developing M&S 
        capabilities that are able to simulate the cyber environment in 
        which the DOD operates and enables a more robust measurement, 
        assessment and validation of cyber technologies.
        <bullet> Embedded, Mobile, and Tactical - Focusing on unique 
        cyber security challenges of the Department's weapons platforms 
        and systems beyond wired networking and standard computing 
        platforms.

    I also want to highlight efforts that we are using to accelerate 
cyber as a science. The Cyber Measurement Campaign invests to develop 
new analytical methodologies, models, and experimental data sets to 
establish metrics to measure a system's state of security. 
Massachusetts Institute of Technology Lincoln Labs (MIT-LL) is the 
ASD(R&E) designated study lead for this cross-federally funded research 
and development center collaborative effort to start the campaign, 
determine its direction, and perform initial experiments in the areas 
of resiliency (Phase 1) and moving target technologies (Phase 2). Phase 
1 goals were to demonstrate experiments to measure and quantify 
resiliency with mature research prototypes. Phase 2 is focused on 
moving target technologies, and will be evaluated during this year's 
Terminal Fury exercise at U.S. Pacific Command (PACOM).
    (b) Space
    As with Cyber, the last 5-10 years could be described as an era 
when the United States space constellation has become more vulnerable. 
Electronic jammers present challenges for U.S. global positioning, and 
communications satellites. Both the United States and China have 
demonstrated missiles against low-earth orbiting satellites. Other 
threat capabilities have left the U.S. in a position where we must 
better protect our space capabilities. Again, there are no easy answers 
to deliver capability, so we need S&T. In fiscal year 2014, the 
Department plans to invest approximately $550 million in Space S&T. 
While not all encompassing, our preliminary analysis shows three areas 
do need attention: precision navigation and timing (PNT), enhanced 
communications, and space resiliency. The first two are areas where, 
with S&T, the United States can reduce dependence on our current space 
architecture; the third area will begin the process of providing a new 
architecture.

    1.  Enhancement of Precision Navigation and Timing

    The first area of engagement by the Department includes numerous 
activities to enhance the robustness of PNT. Currently, PNT 
capabilities are delivered primarily through the Global Positioning 
System (GPS), a system vital to numerous missions, ranging from 
conducting precision guided weapon strikes to synchronizing our 
communications networks. In an anti-access/area (A2/AD) denial 
scenario, it is reasonable to assume an adversary will seek to degrade 
or deny our use of GPS. The GPS program of record is pursuing 
modernization to further improve the anti-jamming and secure access of 
the military GPS signals. These vital efforts must continue.
    At the same time, the DOD S&T program is providing alternate means 
to provide PNT for our forces. For example, cross-Service efforts are 
in progress to develop next generation Inertial Measurement Units to 
reduce their inherent drift thereby increasing operational time and 
effectiveness in a GPS-denied environment. Army labs are pursing 
efforts in relative navigation that will enable a combat team to 
determine their position even if only one element of a team knows its 
actual position. DARPA and the Navy are leading efforts to reduce the 
size of atomic clocks to bring GPS-quality precision timing into 
smaller systems. Additionally, we've reinvigorated efforts using non-
GPS external references like ground/terrain features, RF signals, and 
stars--each excelling for certain applications. These near- and far-
term efforts are not intended to replace GPS. Instead they will provide 
robustness in environments where GPS-based capabilities are being 
degraded or denied either by environmental factors or adversary action.

    2.  Enhancement of Military Communications

    Military operations depend on voice and data communications 
networks that have robust reliability that exceeds most civil 
communication infrastructures. Unfortunately, much like PNT, 
sophisticated adversaries could degrade our space-based communication 
networks. The S&T community is working to provide other options for 
secure communications to our operational forces. Robust, cyber-
protected and adaptable networks are needed in all domains, as high-
priority traffic travels in surface, air and space layers to achieve 
reliable connectivity.
    To better understand assured communications, we have matured or 
initiated several efforts, including:

        <bullet> The Battlefield Airborne Communications Network 
        (BACN); is a Rapid Reaction Fund effort that has turned into an 
        enduring podded capability to augment satellite communication, 
        fielded in Afghanistan and headed to Pacific Command.
        <bullet> The SpiderNet/Spectral Warrior program to enable 
        spectrum awareness by network operators while we continue to 
        assess the resiliency and control of space communications 
        assets aimed at offering increased survivability and effective 
        reactions within A2/AD conditions.

    We are conducting a series of reviews with the Services to examine 
the need for alternative means, such as hosted payloads, new orbits, 
and layering of communications pathways across air and ground domains. 
One capability included in the fiscal year 2014 budget is the 
Asymmetric Broadband Command & Control (ABC2) demonstration, an 
Iridium-based `leave-behind' prototype that should assist in portable 
polar coverage in areas that traditionally experience sporadic and 
unreliable communications.

    3.  Enhancement of Space Launch Responsiveness

    Finally, our current space architecture is comprised mainly of 
large satellites that may be vulnerable as some nations have 
demonstrated the capability to shoot them down. Again the S&T program 
should provide options. Recent technology developments, such as high 
resolution, small imaging focal planes, micro-inertial control systems, 
miniaturized thrusters and software programmable telecommunications, 
provide opportunities for DOD to employ low-cost, small satellites, 
ranging in the 10s to 100s of kilograms. When coupled with low cost 
launch systems this could enable an entirely new space architecture.
    We have invested in two Joint Capabilities Technology 
Demonstrations (JCTDs) to examine these concepts. The Soldier-
Warfighter Operationally Responsive Deployer for Space (SWORDS) JCTD 
provides a low cost, quick and predictable launch system for the 
Combatant Commanders and is capable of responding to urgent requests 
for augmentation of imagery or communications support. The Kestrel Eye 
JCTD provides the capability to deploy multiple imaging satellites to 
provide near-real-time situational awareness to the ground component 
warfighter. The major benefit of Kestrel Eye is the ability of the 
satellite to be tasked directly by the lowest echelons of command. This 
benefit is achievable since the satellite is expected to have a low 
per-unit cost (<$1.5 million) in production. With this low cost, 
sufficient numbers of satellites could be made and deployed to provide 
assured access, on-demand to the warfighter. Coupled together, these 
two JCTDs provide a glimpse of the future of affordable responsive 
space.
    While constellations of small satellites cannot completely replace 
our need for the main-line Defense and Intelligence spacecraft, our 
ability to rapidly launch and, if necessary, quickly replenish 
constellations of small satellites to maintain essential warfighting 
capabilities could deter potential adversaries.
    (c) Electronic Warfare/Electronic Protection
    The third emergent threat area is electronic warfare (EW) and 
electronic protection (EP). Simply put, the convergent maturation of 
multiple technologies has resulted in significantly new EW 
capabilities. The technologies include:

        <bullet> Digital electronics
        <bullet> New microelectronics providing increasing bandwidth, 
        reliability, and agility of sensing systems including radar
        <bullet> Digital/analog converters
        <bullet> Photonics

    These technologies can, through direct adaptation, provide 
potential adversaries capabilities that, in some case, could present 
operational challenges to U.S. forces and systems. Such developments, 
combined with longer range stand-off weapons and sheer numbers of 
jammers and decoys, represent a substantially different challenge for 
our forces, which for decades have routinely enjoyed virtually 
uncontested dominance in the use of the electromagnetic spectrum. If 
left uncontested, this situation could result in circumstances that 
negate the value of some of our most expensive and sophisticated 
sensors and weapons.
    As with cyber, the Department established the EW PSC, led by the 
Air Force with senior leaders from all the Services and OSD to guide 
and focus Departmental investments in EW. The EW PSC has been meeting 
to aggressively address the threats with a roadmap for coordinated 
development of EW capabilities. Within ASD(R&E) our Electronic Warfare 
and Countermeasures Office, in conjunction with the Research, 
Development and Acquisition (RDA) Task Force, initiated several efforts 
to regain U.S. dominance of the electromagnetic spectrum.
    New emphasis is being placed on research and development to regain 
U.S. electronic component superiority to mature the next generation of 
electronic and photonic components with performance exceeding that of 
commercial off-the-shelf (COTS) devices and to demonstrate these 
components in EW systems. To augment a substantial on-going EW S&T 
investment, the Department launched a pilot effort in fiscal year 2013 
to explore technologies that are essential to the superiority of future 
U.S. EW systems. EW S&T research, at the component and system 
techniques levels, is vital to the development of new, modern 
electronic attack and protection technologies for the future. Hand-in-
hand with those key developments will be having the advanced testing 
equipment to facilitate the development of future EW systems.
    Test capabilities should adapt to the reality of adversary sensors 
and weapons systems with advanced electronic components. In fiscal year 
2014, the Department has increased investment by $480 million over the 
Future Years Defense Program to provide major upgrades of our testing 
facilities to include advanced radar sensors to represent the digitally 
reprogrammable systems our potential adversaries are fielding. Not only 
do we need to test against advanced sensors but also we anticipate 
enemy weapons systems will be networked with sophisticated command and 
control functions. Upgrades to our test facilities will provide our 
advanced platforms with the signal densities from multiple netted 
sensors that they would expect to encounter in combat. These upgrades 
are not exclusive to open air ranges, although, that represents a 
significant investment. We are upgrading laboratory and anechoic 
chamber capabilities to the point that we will be able to employ 
electronic attacks and EP in software in the lab with threat 
representations validated by the intelligence community. As testing 
progresses through the lab, to the chamber, and finally to open air 
testing, we will progressively insert hardware in the loop while 
maintaining consistency in the signal environment.
    (d) Counter Weapons of Mass Destruction
    The final PSC in the emerging threat area, C-WMD, is focused on 
advancing the Department's ability to locate, secure, monitor, tag, 
track, interdict, eliminate, and attribute WMD weapons and materials. 
In fiscal year 2014, the Department plans to invest approximately $87 
million in C-WMD. This investment only represents the funding aligned 
with finding loose fissile material. The Department recently concluded 
an interagency planning effort to define a robust S&T program to 
establish the science, technology base, and intellectual capabilities 
needed to support current and future C-WMD operations. Since 2011, the 
effort has been narrowly focused on finding and following nuclear 
materials. However, the products produced by the PSC to identify threat 
signatures and alternate ways of thinking about C-WMD, have broad 
applications across the nuclear, chemical and biological domains. The 
Defense Threat Reduction Agency (DTRA) is the principal research agency 
in this domain and has support from all of the Military Departments and 
several Defense Agencies in performing and supporting relevant 
foundational research. Because DTRA is also a combatant support 
command, there is strong connectivity between the technical and 
operational challenges for this important mission. The DOD S&T program 
coordinates and collaborates with critical stakeholders, including the 
National Nuclear Security Agency, the Department of Homeland Security, 
and the Department of Health and Human Services. We also work closely 
with international partners in areas of mutual interest.
    The S&T support in C-WMD ranges from fundamental research in the 
physical and biological sciences to more applied research for 
mitigating the WMD threat. The latter includes technologies for 
actively countering WMD weapons, sensors and personnel protection for 
chemical, biological, radiological, and nuclear (CBRN) threats, 
modeling and simulation of WMD effects, and medical countermeasures 
against chemical and biological threats. DOD S&T also develops tools 
for use in reach-back response to chemical, biological, or nuclear 
hazards. Technically, S&T continues to improve our detection and 
advanced sensors, both active and passive, and novel combinations of 
acoustic, radio-frequency, optical, and infrared sensing that may 
provide definitive detection and characterization and network analysis.
Objective 2: Affordability Enables New or Extended Capabilities into 
        Existing Military Systems
    The second objective focuses on affordability, which includes 
affordability of new systems and their life-cycle upgrades, 
interoperability between existing platforms, and design and prototyping 
of new systems. All levels of leadership in the Department clearly 
understand the need to be thoughtful about each and every dollar we 
request and to carefully assess and justify the criticality of every 
item in our budget. As the Department shapes its future plan to reflect 
fiscal realities, it will continue to focus on efficiency and 
affordability in everything we do. Acutely aware of budget pressures, a 
key piece of our strategy is to make the most of our shrinking 
portfolio with the Better Buying Power Initiative. Our approach has 
been to maximize our investment dollars by improving design 
capabilities and making the transition of technologies to acquisition 
programs more effective and timely.
    (a) Engineered Resilient Systems
    One area where the Department has specifically focused attention on 
S&T to improve efficiency has been on the design process itself. As 
stated previously, one of our seven S&T priorities is ERS; an S&T 
objective that organizes work across the Department focused on 
rethinking the way we design and develop systems and to explore new 
concepts, tools, and processes to allow complex design to occur faster, 
smarter, and more cost-effectively.
    The Department's investments in ERS form the bridge between S&T and 
future engineering and test capabilities that aim to make our 
warfighting systems more affordable and interoperable. In fiscal year 
2014, the Department plans to invest roughly $470 million in ERS. The 
S&T investment in ERS is focused on infrastructure, information, design 
and decision support tools, and knowledge environments that:

        <bullet> Increase the speed of system development
        <bullet> Improve effectiveness of fielded systems
        <bullet> Minimize lifecycle costs

    S&T efforts include integrating physics-based models with 
acquisition, quantifying the effects of architecture changes on system 
cost and performance, and automating trade-space analyses. ERS will 
leverage Department investments in human systems and data to decisions 
(D2D) to improve knowledge management and training during the entire 
lifecycle. By 2022, the goal of ERS is to achieve:

        <bullet> A 75 percent reduction in the time to complete systems 
        by reducing rework;
        <bullet> A 100-fold increase in the number of parameters and 
        scenarios considered in setting requirements prior to Milestone 
        A;
        <bullet> Quantified adaptability to changing mission 
        requirements; and
        <bullet> Integrated producibility and lifecycle concepts across 
        acquisition

    The Director of the U.S. Army Engineer Research and Development 
Center leads the ERS initiative with support from all the components. 
The ERS lead monitors existing S&T programs, progress toward ERS goals, 
and identifies gaps in the S&T portfolio related to ERS.
    (b) Systems Engineering InitiativeS
    Within the office of ASD(R&E), DASD (Systems Engineering) and DASD 
(Developmental Testing and Evaluation) perform additional functions 
mandated by the Weapon Systems Acquisition Reform Act of 2009. Each of 
these offices has considerable influence on acquisition success by 
ensuring that large acquisitions programs are properly planned, include 
appropriate engineering efforts to map requirements into technical 
specifications, realize those specifications in product and 
sufficiently test those products throughout their development. Both of 
these offices have undertaken significant initiatives to address 
acquisition affordability by ensuring better technical planning even 
earlier in the acquisition lifecycle--by engaging programs at the pre-
milestone A stage.
    The ASD(R&E) Systems Engineering office has led the Department's 
implementation of development planning, increasing early acquisition 
program planning and enabling the Department to make more informed 
early investment decisions based on a better understanding of technical 
risks and opportunities. DASD(SE) established the Development Planning 
Working Group (DPWG) in fiscal year 2011, involving key requirements 
and acquisition stakeholders from across the Military Departments, OSD 
and the Joint Staff to ensure a common understanding and consistent 
implementation of development planning across the Department. The DPWG 
has been effective in developing clear guidance on early phase 
technical planning, providing sponsors and programs with a roadmap of 
how to better formulate and execute effective program plans from a 
program's beginning. With direct support to pre-major defense 
acquisition program, DASD(SE) has helped establish programs with 
realistic requirements, shape technical strategies, and support a 
robust Analysis of Alternatives (AoA) process that assesses technical 
risks in areas such as reliability, maintainability, manufacturing, and 
schedule. DASD(SE) has worked directly with program offices to develop 
their Systems Engineering Plans, shape the Technology Development (TD) 
phase technical approach, and review the program's draft requirements, 
enabling informed requirements trade decisions that balance cost and 
performance and properly manage technical risks. By engaging programs 
early through development planning, DASD(SE) has helped to make the 
Department's senior leadership more informed about early acquisition 
investment decisions and more effective in planning and executing 
programs.
    (c) Developmental Test and Evaluation Initiatives
    The DASD(DT&E) office has initiated an effort, entitled ``shift 
left'' designed to engage acquisition programs earlier in the life 
cycle, thereby ensuring a better understanding of program technical 
risks and opportunities before major milestone decisions. The basic 
premise of ``shift left'' is to find and fix problems before entering 
production. This should save money. There are three key focus areas to 
the ``shift left'' concept: earlier mission context, earlier 
interoperability testing, and earlier cyber security testing. Improved 
DT&E moves beyond the traditional technical focus to include testing in 
the mission context to characterize capabilities and limitations. 
Robust DT&E should also include all of the elements of interoperability 
and cyber security testing that previously was not tested until late in 
the acquisition life cycle.
    DASD(DT&E) will focus attention on these areas and work with the 
Program Manager, Chief Developmental Tester, and Lead DT&E Organization 
to address these issues when they assemble the Test and Evaluation 
Working Integrated Product Team (WIPT) and write the Test and 
Evaluation and Master Plan. In the areas of interoperability and cyber 
security, DASD(DT&E) is working with all stakeholders to insert needed 
testing early and define the right way to oversee these processes. It 
is important that we be clear in our intent: our objective is to 
establish processes to oversee the developmental testing activities 
that support certification, not oversee the certification process. 
Simply put, DASD(DT&E) is working hard to improve the Service 
developmental testing functions.
    (d) Data Reuse
    The final specific area I would like to highlight is enhancing 
affordability through data reuse, led by the Defense Technical 
Information Center (DTIC). DTIC has the responsibility to develop, 
coordinate, and enable a capability to store, reuse, and apply 
technical information, data, and knowledge. DTIC has made tremendous 
strides in the past several years to evolve from a library function to 
an information exchange function, and in so doing has increased their 
support of the entire DOD R&E program. In this role, DTIC fosters 
information exchanges, empowers innovators with greater efficiency, 
effectiveness, and agility that supports accelerating the delivery of 
warfighting technology. The fiscal year 2014 budget request for DTIC is 
$56 million.
    DTIC connects scientists, engineers, researchers and warfighters by 
enabling the R&E community to build on past work, collaborate on 
current challenges, avoid duplication of effort, accelerate fielding 
solutions at reduced costs, aid decision makers, and support management 
of the S&T Enterprise. DTIC registered 6,857 new users and supported 
3,771 average monthly active users in 2012. These new and returning 
users have increased usage of DTIC collections by 20 percent.
    Bringing together the mix of performers in the lab, operational, 
and acquisition communities can pose technical and cultural challenges. 
Colleagues are separated by geographical and organizational structures. 
DTIC's information sharing efforts extend beyond official reports, to 
include researcher provided insights, areas for questions and answers, 
industry capabilities, and communication of DOD strategies and 
opportunities to industry. DTIC works to break down barriers by 
providing tools to support organization-to-organization connections and 
person-to-person interactions. Tools like DOD Techipedia hold an online 
electronic encyclopedia of knowledge and provide a platform where 
organizations can share information on challenges and needs. The 
Acquisition, Technology and Logistics community uses DOD Techipedia to 
support management of Major Defense Acquisition Programs (MDAP). 
Another recently developed tool is called DOD TechSpace, a tool similar 
to Facebook, which allows teams to connect on work issues, share ideas, 
and link to experts.
    To support our diverse stakeholder community, DTIC ensures 
appropriate users have easy access to relevant content while protecting 
sensitive data through information security, cyber security, and 
intellectual property safeguards. In support of the Better Buying Power 
initiative, DTIC develops tools to analyze and visualize Independent 
Research and Development (IR&D) investments for DOD decisionmakers to 
strategically invest scarce resources.
Objective 3: Development of New Capabilities (Technology Surprise)
    While the Department's S&T program is mitigating emerging threats 
and striving for greater affordability, completing just these two 
objectives is not satisfactory by itself. If all we do is react, the 
Department does not lead change. A critical component in the 
Department's ability to develop new capabilities is its investment in a 
wide range of basic research and applied research in new areas that 
have the potential to transition into major new technologies and 
capabilities. DARPA lives in this space. Objective 3 tends to be mid- 
to long-term focus and includes areas like quantum sciences, synthetic 
biology, engineered nano-materials, and many others.
    I will start with the Department's investment in basic research, 
move through three PSCs that are focused on new capabilities (autonomy, 
D2D and human systems), discuss a special area, medical science, and 
then close with a new effort, to be hosted at DTIC, to better provide 
for technology watch/horizon scanning of emerging technical areas.
    (a) Basic Research
    The Department's Basic Research program has a longstanding history 
of investing in multidisciplinary and transformative research by 
leading scientists and engineers. The strength of its program is its 
ability to invest in research areas that have been identified as a 
priority to the DOD. The fiscal year 2014 President's request of $2.2 
billion with actual real growth compared to inflation, highlights the 
importance and strong investment that the DOD places in its basic 
research program. This investment supports literally hundreds of 
individual grants.
    While the Department invests heavily in traditional basic research 
areas like chemistry and material sciences, the Department also 
actively examines and assesses the global scientific landscape to 
identify emerging scientific research areas that may develop into 
gamechanging technologies in the future. Some of these areas that we 
are focusing on for the future include:

        <bullet> Synthetic Biology, where novel products in diverse 
        areas such as bio-fuels, bio-sensors, vaccines, programmable 
        devices, and high-strength materials.
        <bullet> Quantum Information Science, whose applications might 
        lead to new forms of secure communications, greater precision 
        in the measurement of time and location, and simulation leading 
        to development of new classes of materials.
        <bullet> Cognitive Neuroscience, where increased understanding 
        of brain function can inform researchers about human learning, 
        decisionmaking, effective training methods, and the effect of 
        stress, sleep, and post-war trauma on our military personnel.
        <bullet> Understanding Human and Social Behavior, which can 
        further our understanding of how individuals, groups, and 
        nations work to enhance strategic and tactical decision making, 
        improve immersive training and mission rehearsal, and 
        facilitate cross-cultural coalition building.
        <bullet> Novel Engineered Materials, such as superconductors, 
        metamaterials, plasmonics and spintronics, which can be 
        designed to provide novel coatings, self-healing properties, 
        energy efficiency, and improved detection and computational 
        capability to existing materials.
        <bullet> Nanoscience and Nanotechnology, where increased 
        understanding of material properties at the nano-scale can open 
        doors to new classes of electronics and sensors, chemical 
        catalysts, high-strength materials, and energetic properties.

    In fiscal year 2014, we are migrating the Historically Black 
Colleges and Universities and Minority Institution (HBCU/MI) program 
back to an OSD budget line, and re-categorizing the investment as basic 
research. The HBCU/MI research and education program strives to build 
the capacity of HBCU/MI to perform world-class research, as well as to 
involve students in that research to foster their interest in pursuing 
careers in science, technology, engineering, and mathematics (STEM) 
disciplines. As part of our administration of that program, we 
continually look for ways to increase the participation of HBCU/MI and 
ensure that we involve these institutions in activities of mutual 
benefit to them and DOD. Among our efforts during this past year was a 
very successful workshop where we brought together HBCU researchers 
from over 30 universities and their technical counterparts in the DOD 
research offices in a forum that allowed the researchers to talk about 
their research and understand DOD research priorities. We also seek to 
ensure that the research and education role of HBCU/MI is recognized as 
an integral part of the Department's larger research agenda by taking 
into account HBCU/MI viewpoints and capabilities as we develop 
initiatives and address challenges for the longer term. In fiscal year 
2014 we plan to increase our HBCU/MI's investment to support the 
development of Centers of Excellence at HBCU/MI around cutting-edge 
research areas, such as cyber-security, autonomy, and D2D.
    Since its inception in 1992, the DOD HBCU/MI program has funded 
over 750 research and education grant awards, including awards for 
investigator-initiated research and awards to acquire equipment and 
instrumentation. More than 160 HBCU/MIs received these awards, which 
totaled over $350M. The 150 funded HBCU/MI included 75 percent of the 
designated HBCUs (76 out of 103) and about 85 percent the Tribal 
Colleges and Universities (30 out 35), with most of the remaining 
awards going to Hispanic-Serving Institutions.
    (b) Autonomy
    Autonomous technologies enable DOD warfighting systems to function 
with greater independence from human interaction and with reduced 
response times in stressed environments. The true value of autonomy is 
not to provide a direct human replacement, but rather to extend and 
complement human capability with autonomous systems. The Department's 
fiscal year 2014 S&T investment in autonomy is approximately $300 
million and focuses on developing systems that perform complex military 
missions in dynamic environments with the right balance of warfighter 
involvement. Such autonomous systems can extend warfighters reach via 
unlimited persistent capabilities, offer warfighters more options and 
flexibility to access hazardous environments, and react at speeds and 
scales beyond human capability.
    To implement autonomous capabilities, the Department has 
established four technical autonomy focus areas: Human and Agent System 
Interaction and Collaboration (HASIC); Scalable Teaming of Autonomous 
Systems (STAS); Machine perception, Reasoning and Intelligence (MRI); 
and Test, Evaluation, Validation, and Verification (TEVV) and has 
developed a capability development roadmap for each area.
    Additionally, the Department established the Autonomy Research 
Pilot Initiative (ARPI), an initiative that will facilitate a 
coordinated S&T program guided by feedback from operational experience 
and evolving mission requirements. This program engages multiple 
Department laboratories on an internal, inter-service competition of 
autonomy-related applied research topics conducted by government 
scientists and engineers. The ARPI source selections are ongoing for 
the work to be performed in fiscal year 2014-2016.
    Through the ARPI, the Department will allocate approximately $15 
million for up to 3 consecutive years, totaling up to $45 million. 
Advancement of technologies from investments in the four technical 
areas will result in autonomous systems that provide more capability to 
warfighters, lessen the cognitive load on operator/supervisors, and 
lower overall operational cost. In addition, these investments will 
facilitate harnessing the potential of autonomous systems and 
strengthening mission effectiveness while maintaining fiscal 
responsibility and optimizing interoperability across space, air, 
ground, and maritime domains.
    (c) Data to Decisions
    The second area to develop new capabilities is D2D which brings in 
elements of ``big data,'' data analytics, graph theory, and other 
emerging concepts in the knowledge domain. The 2012 National Security 
Strategy states that ``for the foreseeable future, the United States 
will continue to take an active approach to countering [threats] by 
monitoring the activities of non-state threats worldwide[.]'' D2D seeks 
science and applications to reduce the time and manpower associated 
with the analysis of large data, leading to actionable data. In fiscal 
year 2014, the Department plans to invest approximately $535 million in 
D2D. Investments in this new research priority area provides tools and 
insight into the widely available data to discover patterns and trends, 
analyze potential outcomes, and prevent strategic surprise. As a cross-
cutting and enabling priority area, the research foundations of 
mathematics, statistics, and computational methods within D2D area are 
relevant across many of the missions and business areas within the DOD 
to include intelligence, operations, logistics, and personnel and 
readiness.
    For intelligence data, challenges persist in analyzing the 
increasing amount of information resulting from improved sensor 
performance and the widely available and relevant open source 
information to support analysis and decision making. With this 
abundance of data, the need to discover and identify patterns, such as 
threat signatures, in complex, incomplete, imprecise and potentially 
contradictory large data sets has become a critical issue in 
decisionmaking processes within the DOD. It is beyond the abilities of 
humans to read and assimilate such large data sets and create 
comprehensive analytic products that leverage them. Said another way, 
as the amount of data grows, extracting actionable information, and 
fusing these results with relevant contextual or situational 
information to inform effective and timely action becomes progressively 
more challenging.
    Some commercial technologies, such as cloud computing, are maturing 
and are widely available, but the development and use of data analytics 
to support DOD missions and business areas requires further research 
and development to exploit these advancements. Additionally, the unique 
challenges of the military tactical environment as well as the time and 
manpower constraints of tactical missions complicates adaptation of 
this technology as well as the development of data analytics to support 
mission requirements. On a much broader level, the foundations of D2D 
research can be used across many mission and business areas within the 
DOD to use data more effectively to save time and manpower costs.
    (d) Human Systems
    Human Systems research is focused on maximizing warfighter 
performance through focused and strategic research investments. The 
Department's primary focus has been to foster true synchronization 
between the hardware, software, and human elements of warfighter 
systems. This synchronization will enable effective and efficient 
mission performance, training, and warfighter selection, as well as 
affordable and effective equipment to support and conduct military 
operations. In fiscal year 2014, the Department plans to invest 
approximately $270 million in human systems.
    The Department's Human Systems research is focused on three 
research areas: Personnel and Training, Human System Interfaces, and 
Biology-based Innovation. The research area of Personnel and Training 
focuses on improving warfighter training so that they are not using 
yesterday's technology, methods, and strategies. The training must 
address evolving mission complexities and dynamics. The Department has 
made substantial progress in developing tailored training approaches, 
mission essential competency development, fleet synthetic training, 
intelligent adaptive training and enhanced cognitive competencies.
    The research area of Human Systems Interfaces is addressing the 
problem that most of the Department's current operating systems are 
rigidly data-centric vice flexibly information-centric. Research in 
this area is addressing these challenges with the realization that data 
quantity will continue to increase nonlinearly. Substantial progress 
has been made in human interaction with autonomous system and command 
and control decisionmaking.
    In summary, the human sciences provide guidance on how to modify 
techniques, tactics, and procedures to achieve desired goals without an 
expensive materiel solution. Human systems research can provide tools 
for decisionmakers to evaluate whether non-materiel solutions or 
modified materiel-solutions can meet desired requirements at lower 
cost.
    (e) Medical Research and Capability Development
    A somewhat specialized area of investment in S&T is defense medical 
research. The Department's research efforts in the biomedical arena 
reflect the focus on taking care of our people throughout the full 
spectrum of operations to include prevention of injury and disease both 
in garrison and on the battlefield, diagnosis and treatment at the 
point of injury, delivery of world-class medical care both en route to, 
and within medical treatment facilities and rehabilitation. Over the 
past decade, we have made remarkable progress in research areas aimed 
at minimizing bleeding and preventing hemorrhagic shock. The major 
investments in medical research; however, focus on acquiring a better 
understanding of the underlying cellular mechanisms and functional 
impacts associated with traumatic brain injury (TBI), particularly 
those characterized as mild TBI or concussion. For the battlefield 
commander, it is important to quickly assess the extent of this injury 
after a blast or blunt head trauma, in order to get prompt and 
appropriate medical care for the warfighter. To this end, the 
Department's investment has led to the development of a high definition 
fiber tracking method for use with existing magnetic resonance imaging 
(MRI) scanners to assess brain tracts for damage with much greater 
sensitivity than ever before. Complementing this new imaging capability 
is the development of a blood test for TBI to determine if brain cells 
are physically damaged after a traumatic event. This test is now in 
pivotal clinical trials for approval by the FDA and if successful, this 
test is expected to be the first objective diagnostic test for the 
presence and extent of TBI that may become part of the gold standard by 
which this condition is diagnosed. With regard to brain functional 
assessment, the Department's research efforts have led to a novel 
method for assessment of brain injury that is based on eye tracking 
metrics. This technology will also benefit the operational community by 
enabling assessment of performance degradation due to stress and 
fatigue.
    Finally, and quite amazingly, we are now deploying servicemembers 
back into theater with ruggedized prosthetic legs that can withstand 
the rigors of the combat environment while dramatically improving 
agility. These new legs allow the user to move rapidly across uneven 
terrain with improved efficiency. The Department is capitalizing on 
advances in understanding neuromuscular control to allow users to more 
naturally control prosthetic devices by harnessing nerve signals from 
the brain and linking them to the device. Although most of the 
investment in prosthetics has focused on the lower extremities, 
significant progress has been made in the development of a prosthetic 
arm that mimics the natural function of the human arm. Future 
investment will focus on reducing the weight and increasing the degrees 
of freedom in the motions that can be achieved by these prosthetic 
arms. Many of the Department's advances in rehabilitation are improving 
the quality of life of amputees in the civilian population as well.
    Important to the development of injury prevention measures, is the 
knowledge and understanding of the mechanisms and forces involved in 
creating the injury. To this end, our S&T research program has 
developed a small, lightweight, multiple axis accelerometer/pressure 
blast injury gauge that is worn by the warfighter and is capable of 
storing the pressure and force profile of their exposure. This 
information, combined with associated medical symptoms, will aid in 
modifications of future designs of the warfighter's protective gear. 
These gauges are currently deployed.
    (f) Technology Watch/Horizon Scanning
    In the fiscal year 2014 budget, we have a new low-cost, but high-
risk effort to apply advanced data analytics to try to isolate and 
identify emerging ``hot'' science and technology areas. This type of 
approach is fairly well defined in industry for short-term financial 
prediction. We believe, but no one has proven, that the same non-
parametric methods will apply to technology watch/horizon scanning. We 
will ask for industry bids to offer their software and modified for our 
purposes, then host the application at DTIC, for all DOD users to be 
able to access.
    This is a high-risk initiative to bring emerging data analytics to 
bear on identifying significant changes in the global technology 
landscape. This effort will leverage a range of algorithms and data 
streams to provide both leadership and program managers more insight 
into evolving technical capabilities worldwide.
                  s&t infrastructure and human capital
    In order to execute programs that are designed to solve problems, 
an effective R&E enterprise must plan for and maximize its employment 
of people, facilities, and planning processes.
1. People
    Within the R&E functional areas, we have to both shepherd today's 
workforce, as well as develop the future workforce. Over the past 
several years, we have seen some initiatives that have increased our 
flexibility for hiring people--this has helped.
    While previous legislation has helped with recruiting new talent, 
we have also made gains in the acquisition workforce due in part to the 
hard work of the Acquisition Career Field functional managers, three of 
whom reside in ASD(R&E)--Science and Technology, Systems Engineering, 
and Test and Evaluation. The Department's responsible officials for 
each are the Director, Defense Laboratories; the Deputy assistant 
Secretary of Defense for Systems Engineering; and the Principal Deputy 
Assistant Secretary of Defense for Developmental Test and Evaluation. 
While we have made progress, I am concerned that the current budget and 
sequestration pressures will make retaining this workforce difficult.
    (a) Science and Technology Workforce
    As part of the strategic workforce planning initiative, the 
Department has completed two assessments of its Scientist and Engineer 
(S&E) workforce this year--the Science and Technology (S&T) Functional 
Community assessment and the Technical Workforce of the Science and 
Technology Reinvention Laboratories (STRLs) assessment. The S&T 
Functional Community assessment focused on the mission critical 
occupation of Computer Scientists indicated that there is increasing 
demand across the Department for highly-skilled and highly-trained 
individuals in emerging fields like cyber research, quantum computing, 
and artificial intelligence. The assessment also found that many of the 
skills necessary for the Department are best cultivated in-house 
because of the high degree of specialization needed and multi-
disciplinary requirements. The SMART program (Science, Mathematics, and 
Research for Transformation) was identified as a critical tool for 
successfully attracting, training, and preparing the future workforce. 
Using SMART, we have been able to compete for very high-quality talent.
    The Technical Workforce of the STRLs assessment examined the more 
than 37,000 scientists and engineers working in the STRLs. The 
assessment emphasized the successes of greater flexibilities for STRL 
directors that legislative changes have produced, particularly Direct 
Hiring Authority (DHA). DHA, which is available on a limited basis only 
for individuals with advanced degrees, has reduced the average hiring 
timeline from nearly 100 days to just under 30 days. This flexibility 
was identified as critical to hiring the most talented scientists and 
engineers in an extremely competitive market. Attrition due to 
retirement has been identified as potentially impacting the ability of 
the STRLs to maintain the critical skills and competencies necessary to 
fulfill their mission. The assessment concluded that the ability of 
STRL directors to be flexible and adaptive in the management of their 
respective workforces is a key component to maintaining the scientific 
and technical excellence across the STRLs.
    (b) Systems Engineering Workforce
    The scope of the DOD engineering enterprise represents a remarkable 
investment of human capital. The Department, with its Services and 
Agencies, is one of the largest engineering enterprises in the world, 
with a nonconstruction engineering civilian workforce made up of nearly 
76,000 engineers. The DASD(SE) serves as the Department's Functional 
Leader for the technical subset of the Defense Acquisition Workforce, 
which includes the Systems Planning, Research, Development and 
Engineering (SPRDE) (about 39,000 civilian and military) and 
Production, Quality and Manufacturing (about 9,000 civilian and 
military) career fields.
    Today's DOD weapons, combat systems, and technical activities 
provide unprecedented capabilities to the Department and presents 
engineering challenges to the Department's engineering workforce. The 
Department has responded to these challenges, growing the SPRDE 
workforce 3.5 percent per year from 34,537 at the end of fiscal year 
2008 to 39,807 at the end of fiscal year 2012. A strong government 
technical workforce balances the Department's partnership with industry 
by providing greater capability for the government to manage complexity 
and exercise technical judgment required to conceive, manage, invest in 
and oversee development of advanced weapon systems. In view of the 
programmed out-year weapons, combat systems and engineering 
initiatives, this workload, and the Department's need for world class 
engineering talent, is expected to continue well into the future. This 
environment will place greater pressure on the Department's ability to 
meet this continued demand for a multi-disciplined engineering 
workforce and adequately support increased program requirements.
    The Department's engineering community has evolved over time to 
stay relevant to emerging defense challenges and, while systems 
engineering has always been an essential function, it becomes even more 
critical in a fiscally constrained environment. However, 12 percent of 
the SPRDE workforce is eligible to retire immediately. Many of the 
potential retirees will be those in senior and key lead SE positions on 
major defense acquisition programs. This highlights not only the 
potential loss of experienced SE workforce members, but also increases 
performance risks in programs and further highlights the need for the 
Department to continue support to maintain our engineering workforce as 
a national asset and critical function in support of the warfighter. 
DOD leadership is committed to further strengthening the systems 
engineering capability and capacity to assure there is a pipeline of 
qualified workforce members to serve current and future programs.
    (c) Developmental Test and Evaluation Workforce
    The DASD(DT&E) is the senior official responsible for the T&E 
Career Field in the acquisition workforce. DASD(DT&E) has also made 
significant progress in strengthening the T&E workforce, including 
revising the core education requirements to advance technical 
proficiency within the T&E profession, and the annual review to update 
the Defense Acquisition University T&E curriculum to enhance the T&E 
workforce's ability to meet tomorrow's challenges.
    The current T&E acquisition workforce is 6,838 government and 1,765 
military personnel for a total workforce of 8,603. The T&E workforce 
has increased from 7,420 in 2008 to our current level of 8,603. We 
continue to monitor impact of the budget pressures on the T&E workforce 
by providing assessments of the T&E workforce in future DT&E Annual 
Reports to Congress. The assessment will look at the ability to 
attract, develop, retain, and reward T&E experience to meet the needs 
of DOD.
    (d) Science, Technology, Engineering, and Mathematics (STEM)
    In addition to taking care of today's workforce, the ASD(R&E) has 
responsibility for the S&E workforce of tomorrow. The Department 
depends on over 100,000 S&E as well as other STEM professionals. In 
2011, we established the STEM Executive Board which provides strategic 
leadership to the Department's STEM initiatives. The Board is comprised 
of Senior Executive Service-level representatives from the Services; 
USD Personnel and Readiness; Intelligence; and representatives of key 
acquisition components, and provides strategic coordination of DOD's 
STEM investments. Specifically, the STEM Strategic Plan and 
Implementation Plan align the Department's investments with DOD STEM 
workforce requirements and with administration STEM guidance, including 
robust, on-going impact assessments.
    The future of the Department's STEM workforce depends on a robust 
education system that provides diverse pathways into STEM to meet the 
Department's mission. Numerous studies in recent years have called our 
attention to the need to improve STEM skills of U.S. students, who have 
fallen behind other nations. Through basic science workshops, increased 
funding for university research and other dedicated STEM programs, we 
are trying to stay connected to universities.
    Within the ASD(R&E) portfolio, we have the National Defense 
Education Program (NDEP). This program supports the scholarship-for-
service Science, Mathematics, and Research for Transformation (SMART) 
program, which provides financial support for undergraduate and 
graduate degrees in 19 STEM fields that are critical to the 
Department's future. Under SMART, we have attracted over 1,500 top 
quality researchers. To date over 700 students have completed their 
degrees and entered the DOD workforce. Of these, 82 percent remain 
employed in the DOD beyond their service commitment. We continue to 
make use of the SMART program to improve our workforce.
2. Facilities
    As part of a much larger Office of Science and Technology Policy 
led effort to assess the overall status of infrastructure at our 
government labs dedicated to national security, the Department is 
currently conducting an assessment of Defense Laboratory facilities in 
order to more quantitatively and comprehensively evaluate the current 
state of DOD Laboratory facilities. The Department is also examining 
the process of how the Services currently prioritize military 
construction projects and how Laboratory projects are evaluated in this 
context. There are general concerns both within and outside the 
Department that Laboratory facilities are underfunded relative to the 
non-lab infrastructure in the Services. We are in the process of 
determining quantitatively if this is true. Without quantitative 
evidence, it is impossible to develop proper solutions that adequately 
address any problems.
    Through this study, the Department will also be able to quantify 
the nature and scope of deficiencies at the Laboratories and the 
potential costs of rectifying them. Anecdotal evidence suggests that 
Laboratories' sustainment, restoration, and modernization efforts lag 
those of the rest of the Department, but by how much and to what extent 
is unclear. The successful uses of the expansion of minor military 
construction authorities to Laboratories suggest that there are indeed 
gaps, and the Department is committed to eliminating them. With a more 
accurate understanding of any gaps and their size, the Department can 
take the necessary steps to ensure that our Laboratories' facilities 
remain state-of-the-art and capable of supporting today's mission and 
future requirements.
    In addition to quality laboratories, the Department also needs 
high-quality test facilities. Planned T&E infrastructure upgrades have 
been partitioned between System Integration Laboratories (SIL), 
Installed System Test Facilities (ISTF), and Open Air Ranges (OAR) 
investment to provide a capability mix that effectively supports 
technology experimentation and design performance verification testing. 
This investment benefits S&T through providing more modern and 
representative test facilities. Planned upgrades are focused in three 
investment areas. First and foremost, the Department is improving its 
System Integration Laboratories at Eglin Air Force Base, FL and Naval 
Air Station Point Mugu, CA to allow programming of flight test mission 
data files and EW libraries to reflect foreign integrated air defense 
systems (IADS) threats. As mentioned earlier, the Department is 
upgrading our next-generation EW emulators to mimic modern IADS and 
finally, we are upgrading open-air ranges to better iterate live-
virtual demonstration exercises.
    We are also very interested in enhancing our cyber test facilities. 
The increasing demand for cyber test, training, and experimentation 
will challenge our capabilities and capacity of our cyber ranges. We 
have transitioned the National Cyber Range (NCR) from DARPA to the Test 
Resource Management Center (TRMC), where we will operationalize its 
capability to support test and training. The Department will continue 
investment in this critical infrastructure to increase both capacity 
and capability for cyber training, testing, and experimentation. Once 
operational and accredited for the required level of classification, 
the NCR will have increased capacity, with standard services, more 
efficient sustainment of capability, and fail-over capability to 
improve Cyber R&D.
3. Department R&E Planning Process
    A key strength of DOD's S&T Enterprise is its substantial emphasis 
on coordinated research planning. The Department's S&T components 
devote great care and attention to ensuring that DOD's research 
investments are well planned and coordinated. In these challenging 
budgetary times, it is important to strengthen these efforts to ensure 
that we receive the utmost value from our investments in science and 
technology.
    The overarching framework of the Department's S&T joint planning 
and coordination process is called Reliance 21. We are resurrecting and 
enhancing Reliance 21, a process with roots that go back several 
decades, which has undergone continual renewal and refreshment as 
circumstances evolved. The Reliance 21 framework is led by an S&T 
Executive Committee (ExCom) that embraces the major Departmental S&T 
organizations, including the Military Services and DARPA who sit at my 
side at this hearing today. The S&T ExCom, and the S&T Deputies 
Committee that serves as its primary operating arm, meet several times 
per month to coordinate both strategically and at a tactical level to 
harmonize resources and coherently address emerging challenges. Once 
every year, the 3-star and 2-star members of the S&T ExCom conduct an 
intensive multi-day planning exercise of the Department's out-year 
research investments, to ensure proper attention to potential gap 
areas, and to minimize unwarranted overlaps. This event is conducted in 
close coordination with the future requirements specialists of the 
Joint Staff.
    Underpinning the S&T ExCom leadership is an ecosystem of technical 
groups known as Communities of Interest (CoI) and S&T Priority Steering 
Councils (PSCs). There are 18 of these groups that span almost all of 
the cross-cutting areas of science and technology in the Department. 
Examples of such areas include Advanced Electronics, Sensors & 
Processing, and Cybersecurity, among many others. These groups are 
populated by the Department's subject matter expert leaders drawn from 
the Services, Defense Agencies, and from OSD. The subject matter 
experts often have decades of experience in the Defense S&T research 
enterprise and are an asset in DOD's efforts to generate technology 
surprise and rapidly convert that surprise into operational 
capabilities. Fundamentally, the subject matter experts guide and 
coordinate the portfolios of research investments in each of the CoI 
and PSC areas. They do this primarily through development of research 
roadmaps and investment plans. The roadmaps are used extensively to 
guide long-term budget decisions and to influence near-term investment 
decisions in each of the components. The CoIs and PSCs also provide 
forums for developing younger staff and for maintaining technical 
awareness of S&T developments both inside and outside DOD. Each year, 
roughly half of the PSCs and CoIs brief the health, direction, and 
connectedness of the programs in their portfolio.
    In addition to this coordinated approach across the Department, we 
have taken steps to better leverage Industry's Independent Research & 
Development (IR&D) for which DOD reimburses industry approximately $4 
billion annually. IR&D projects are a critical source of technology 
innovation for DOD. Under the Better Buying Power initiative, ASD(R&E) 
was charged to reinvigorate IR&D. The key challenge identified was 
communication--industry wanted information about Department investment 
priorities to help them better plan their IR&D projects, and DOD 
planning was hampered by limited insight into industry IR&D projects. 
The Defense Innovation Marketplace website 
(www.defenseinnovationmarketplace.mil) was developed to provide a one-
stop-resource for Department priorities so industry could better align 
their R&D investments. Industry can also securely share IR&D projects 
with the government, allowing S&T and acquisition program managers to 
leverage this data to inform future program planning.
                           budget priorities
1. DOD S&T Trends
    The fiscal year 2014 President's budget request (PBR) for S&T is 
$11.98 billion, which represents a nominal growth from the fiscal year 
2013 PBR of $11.86. For R&E, the fiscal year 2014 PBR is $24.04 
billion, which is a 2.6 percent decline from the fiscal year 2013 PBR 
of $24.27 billion. This is because the budget category of Advanced 
Component Development and Prototypes declined 4.47 percent, in real 
buying power. See table:
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    We must continue to balance the investment with all our partners 
across Acquisition, Technology and Logistics. We also recognize R&E 
provides lower cost options which become more important during budget 
austerity. The fiscal year 2014 President's budget represents a 
strategic choice made by the Department to preserve, to the greatest 
extent possible, technology-based options for the future. While we 
expect continued pressure on the S&T and R&E budgets over the next 
several years, it is significant to note that there is recognition of 
the value of preserving future options--a characteristic of R&E. Taking 
a longer term view, the chart below shows the actual S&T investment in 
constant year 2013 dollars, since 1962. The budget request for S&T has 
been largely flat since about 2003. This highlights another key 
characteristic of a healthy S&T program: long-term stability. It is 
important to not have big fluctuations in R&E funding from year to year 
so as to maintain a stable workforce.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Another macro trend we see in the DOD S&T budget is highlighted in 
the next chart. Since the fiscal year 2008 President's budget request, 
we have made a conscious choice to focus more of the investment to the 
Services, in relation to Defense agencies and the Office of the 
Secretary of Defense. We still have an investment of $5.48 billion in 
the Defense agencies and the Office of the Secretary of Defense for S&T 
in fiscal year 2014, but this is down from a figure of $6.09 billion as 
recently as fiscal year 2010. Much of these funds were with programs 
that devolved to the Services.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Finally, the chart below displays the S&T investment by major 
components. Investment in S&T for the three Services is between $2.0 
and $2.2 billion and DARPA remains the single largest investment with 
$2.8 billion in fiscal year 2014. The other components make up a much 
smaller piece of the S&T portfolio.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The fiscal year 2014 S&T budget also supports White House 
priorities in the areas of advanced manufacturing, robotics and 
autonomous systems, cyber security, hypersonics, and electronic warfare 
described in earlier sections.
2. ASD(R&E) Portfolio
    Shifting focus from the overall DOD S&T to the ASD (R&E) investment 
portfolio, the fiscal year 2014 S&T budget of $738 million is 5.5 
percent higher than fiscal year 2013 budget of $700 million. The fiscal 
year 2014 budget reflects a significant change in major investments 
that align to the defense strategy, DOD S&T priorities and OMB 
priorities described above. These fiscal year 2014 S&T investment 
changes include:

        <bullet> Termination of five existing programs/program elements 
        to create a new $45 million 6.2 Applied Research for the 
        Advancement of S&T Priorities Program to focus on the seven S&T 
        priorities, applied research projects, concept explorations, 
        and technology solutions for future military needs. In fiscal 
        year 2014, this new program will support the aforementioned 
        autonomy pilot and acceleration of engineered resilient 
        systems. The remaining funds will be competitively allocated to 
        the other PSCs generated proposals. All funding in this program 
        will be executed by the components.
        <bullet> Transfer of responsibility and $16 million in funding 
        for the Historically Black Colleges/Minority Institutes program 
        from Army to OSD consistent with the National Defense 
        Authorization Act for Fiscal Year 2012 including realignment of 
        additional $15 million for Centers of Excellence.
        <bullet> Realignment of $13.8 million in the Emerging 
        Capabilities Technology Demonstration program to address 
        developmental prototyping.
        <bullet> Realignment of $60 million from three existing 
        programs for the standup of a new Strategic Capabilities Office 
        (SCO) responsible for analyses of emerging threats with 
        emphasis on innovative and architecture-level concepts, 
        intelligence concepts, red teaming, and conducting disruptive 
        technology demonstrations.
        <bullet> Realignment of $130 million for the Advanced 
        Innovative Technologies Program to accelerate a land-based 
        prototype of an electromagnetic railgun for improved theater 
        missile defense capability. This program is not S&T, but ACD&P.
                         legislative proposals
Prize Authority
    The Defense Budget Priorities and Choices guidance, issued in 
January 2012, calls for ``cutting-edge capabilities that exploit our 
technological, joint, and networked advantage.'' Extending the 
authority for Prizes for Advanced Technology Achievements, requested by 
this proposal, will allow the Department to continue the cutting-edge 
technology prototyping that results from the prize challenges. 
Partnerships created under this legislation also strengthen the ties of 
the Department with industry and universities. Prize competitions are 
unlikely to replace the traditional acquisition process in the DOD, but 
for specific technology problems, it is a method that has demonstrated 
to be tremendously useful for stimulating and incentivizing a broad 
spectrum of individuals to offer solutions to problems of significant 
interest to our Nation's warfighters.
SMART
    The Science, Mathematics, and Research for Transformation (SMART) 
is a Scholarship-for-Service program designed to produce the next 
generation of DOD S&T Leaders as our current workforce is aging and 
eligible to retire. The program accomplishes this goal by providing 
support to undergraduate and graduate students for their educational 
expenses in exchange for service in our DOD facilities. This program 
matches the SMART scholars with DOD laboratories and other Defense 
agencies where mentors transfer their STEM knowledge to the students 
and introduce them to the DOD culture beginning with internships and 
culminating in full-time employment at those facilities. The Department 
is asking for a revision of the SMART legislation that would create 
three major benefits; (1) increased flexibility to administer the 
program, (2) reduced stipends to make them more consistent with other 
Federal scholarship-for service programs, and (3) removal of the 
restriction that only U.S. citizens can participate in the program.
Software Licensing
    The DOD develops significant quantities of computer software in a 
variety of areas such as modeling and simulation, training, and command 
and control. A legislative proposal has been prepared to allow the DOD 
to protect its software and to facilitate the license process for 
transfer to commercial firms. In the course of that licensing action, 
it would be protected from release to the general public in response to 
a Freedom of Information Act request for up to 5 years providing the 
commercial licensing partner adequate time to develop the product, 
prepare user documentation, and deploy to both military and commercial 
markets. At the same time the commercial firm's investment of funds to 
underwrite these product activities is protected from undue 
competition. The request is for a 5 year limit on this pilot program. 
This provides adequate time for DOD to develop data that would justify 
a future request for extension, modification, or cancellation of this 
authority.
                                summary
    I would be remiss if I did not mention the impact of sequestration. 
At the macro level, the reduction to S&T investment is roughly $1 
billion in fiscal year 2013. Since in many cases, the work in S&T is 
sequential, the work planned for fiscal year 2013 will be deferred to 
fiscal year 2014--and reduces the work planned in fiscal year 2014 by 
that same $1 billion. Some of this reduction will be seen at our 
government labs, but other impacts will be seen in government and 
universities. For example, we expect the total investment in 
universities to decline by about $250 million.
    In closing, I am proud to say our R&E enterprise is delivering 
capability and value for the Department and Nation. I would also like 
to thank Congress for your continued support of the S&T program of the 
Department of Defense. As we enter a new strategic era, it is important 
to examine all Department investments. It is just as important to 
understand the value of investments like R&E that strengthen the 
overall capabilities of the Department. With your support of the fiscal 
year 2014 President's budget request for RDT&E, you will allow our 
community to continue to deliver future capabilities for the 
Department.

    Senator Hagan. Thank you.
    Dr. Prabhakar.

 STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Prabhakar. Thank you, Madam Chairman and Senator 
Fischer. It is really a pleasure to be here with you today.
    DARPA's objective is a new generation of technology for 
national security, and to realize this new set of military 
capabilities and systems is going to take a lot of 
organizations and people. But DARPA's role in that is to make 
the pivotal early investments that change what is possible, 
that really lets us take big steps forward in our capabilities 
for the future.
    So today, that means that we are investing in a host of 
areas. We are building a future where our warfighters can have 
cyber as a tactical tool that is fully integrated into the 
kinetic fight. We are building a new generation of electronic 
warfare that leapfrogs what others around the world are able to 
do with widely, globally-available semiconductor technology. It 
means we are investing in new technologies for position 
navigation and timing so that our people on our platforms are 
not critically reliant, as they are today, on the Global 
Positioning System. We are investing in a new generation of 
space and robotics, advanced weapons systems, new platforms. 
Beneath all of that, we are building a new foundational 
infrastructure of emerging technologies in different areas of 
software and electronics and material science, but also today 
new technologies that are emerging from the biological 
sciences.
    Now, with all of that together, if we are all successful, 
our aim is to create for our future commanders and leaders real 
options, powerful options, for whatever threats our Nation 
faces in the years ahead. That work is the driver behind all of 
our programs. It is the reason that the people at DARPA run to 
work every morning with their hair on fire because they know 
that they are part of a mission that really does matter for our 
future security as a country.
    I really want to thank this subcommittee for the work that 
you have done to support us in many ways, including flexible 
hiring authorities as well as budget support. That has been 
essential in our ability to do our work.
    I look forward to taking your questions, along with my 
colleagues.
    [The prepared statement of Dr. Prabhakar follows:]
               Prepared Statement by Dr. Arati Prabhakar
    Chairman Hagan, Ranking Member Fischer, members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I am Arati Prabhakar, Director of the Defense Advanced Research 
Projects Agency (DARPA).
    Three major factors drew me back to DARPA last summer after 19 
years in other roles. The first was DARPA's disproportionately large 
impact on our current national security and technology capabilities. 
The second was the challenge of driving the technologies that will be 
cornerstones of our national security in the complex world we face in 
the years ahead. The third was the privilege of leading this unique 
agency, filled with people who come to work each day in vigorous 
pursuit of our important mission.
    Today I'd like to tell you about each of these aspects of DARPA. I 
will include a discussion of our objectives and strategies, specific 
areas of investment, and our budget in the President's fiscal year 2014 
request.
    The starting point for our discussion today is the future security 
of the United States. We all understand the world is complex and 
changing in ways that will pose new threats to our national security. 
We all understand that resources will be constrained as we reshape 
defense budgets. But U.S. security capabilities must remain second to 
none despite these uncertainties and pressures. New technology has 
consistently created better options for our leadership--and better 
security outcomes for our Nation. Today, it is vitally important to 
continue to focus on the technology investments that will lead to a new 
generation of national security capabilities for our future. This 
commitment is reflected in the President's budget request for DARPA in 
fiscal year 2014.
    Before turning to DARPA itself, I'd like to set the context for our 
Agency in our Nation's research and development (R&D) efforts. DARPA is 
a projects agency, and we accomplish our objectives through deep 
engagement with companies, universities, Department of Defense (DOD) 
and other labs. Our success hinges on having a healthy U.S. R&D 
ecosystem. Within DOD Science and Technology (S&T) efforts, our role is 
to invest in high-payoff opportunities that often require taking 
significant risk. We work closely with our colleagues in the Service 
S&T organizations, sometimes building on their early research and 
drawing on their technical expertise, and often relying on them to help 
us transition successful results to military use.
                             darpa's impact
    DARPA's recent transitions won recognition last fall when then-
Secretary of Defense Leon Panetta gave the Agency the Joint Meritorious 
Unit Award, recognizing numerous contributions for the war effort. The 
award singles out the ``creative intellect and keen expertise'' that 
delivered ``innovative cutting-edge technology to save lives and 
improve mission success amidst constantly evolving threats.'' 
Responding to urgent needs from troops on the ground, DARPA created and 
fielded a wide range of highly effective tools. These included a system 
that delivered three-dimensional views of the battlespace to 
operational and intelligence users, a radar pod to track threat 
vehicles and dismounted personnel, a radio system capable of 
interoperable communications and large data transmissions, a detection 
system that assesses blast exposure and medical risk to personnel, and 
a framework for the analysis of large amounts of data that provided 
unique and valuable insights to help answer key strategic and 
operational questions.
    DARPA program managers, staff, and our partners were all excited to 
receive this recognition for what we work towards every day: creating 
new technological solutions and transitioning them into practice.
    Because DARPA's enduring mission is to change the game in our favor 
when it comes to U.S. security capabilities in a rapidly shifting 
global context--and to do that by creating surprise for our adversaries 
and preventing surprises to our own forces--our warfighters long have 
depended upon many military systems that originated in earlier DARPA 
work. Aircraft with stealth capabilities, unmanned aerial vehicles 
(UAVs), night vision for our warfighters who now essentially ``own the 
night'' largely because of infrared imaging, the seemingly omnipresent 
global positioning satellite (GPS) capabilities for navigation and 
precision guided weapons, an arsenal of advanced communications and 
computing capabilities, and advanced intelligence, surveillance, and 
reconnaissance (ISR) are all well known and publicized examples. The 
list goes on and on, and it includes revolutionary changes in how the 
world thinks about important areas of science and technology, including 
information technology and materials science. The list also includes 
some elegant and important advances that do not get public attention by 
the nature of their applications. Simply put, our military has taken 
DARPA-initiated advances and used them to change warfighting 
dramatically. This is how we keep the scales tipped in our direction.
looking to the future: technologies for the next generation of national 
                                security
    Today, as the Nation moves to the end of the active engagements of 
the last many years, it is time to look ahead and ask the fundamental 
questions for DARPA's mission. How do we create highly effective 
options for our future leaders in the face of the national security 
challenges of the coming decades? How do we dramatically change 
warfighting, once again changing the game in our favor faster than 
others can respond? How will we deter and defeat the many kinds of 
threats that many kinds of actors around the globe will attempt?
    DARPA's new framework, captured in a document transmitted to this 
committee recently along with the President's fiscal year 2014 budget 
request, describes how we think about this all-important question. 
``Driving Technological Surprise: DARPA's Mission in a Changing World'' 
places great importance on the rapidly changing context in which our 
military leaders, warfighters, and DARPA now are operating. It explains 
how we anticipate, explore, and achieve the concepts and technology on 
which the Nation's future deterrent and defense capabilities depend. I 
will draw in part on that framework in my testimony.
    The United States has seen great change that has affected our 
civilian and defense capabilities, positioning, and plans that 
challenges us every day. There is nothing new about needing to deal 
with changes in our adversary's capabilities. That is a big part of the 
history of armed conflict and its prevention or successful execution.
Today's Environment and DARPA's Strategic Objectives
    But today's environment is different from the past. First, the 
Nation faces complex security challenges. Some are very real and some 
are potential in nature--but all demand viable options for our Nation's 
leadership. We are finishing a counterinsurgency operation and building 
local security capabilities in Afghanistan. An array of diplomatic, 
intelligence, and possible military measures must be ready if needed to 
address nuclear uncertainties posed by Iran and North Korea. Our 
government and private networks deal with the growing onslaught of more 
capable and frequent cyber-attacks from many sources on an ongoing 
basis. Potential adversaries are deploying sophisticated capabilities 
to contest our ability to project military power. A look into the 
future only adds uncertainty. The proliferation of nuclear, chemical, 
and biological weapons of mass destruction or terror; the flare-up of 
tensions among nations in hot spots around the world; growing pressures 
in the urbanizing developing world; and the globalization of technology 
and new R&D are all trends we can see.
    This shifting, unpredictable national security environment demands 
a wide range of capabilities for the future and the agility to both 
anticipate and respond to whatever comes.
    I want to underscore a point: the technology base upon which our 
military systems are critically reliant is highly globalized. This 
introduces potential vulnerability in both the assurance of supplies 
and the security of the supply chain. At the same time, other players 
have the same access to this supply of highly capable components, and 
many have used them to quickly develop weapons systems with highly 
advanced capabilities. This pattern of globalization, wide 
availability, and growing vulnerability pervades most of the core 
technologies upon which our defense systems rely. Our challenge is to 
create an edge for U.S. national security purposes in this environment.
    The second significant factor driving our objectives going forward 
is the possibility of a change in public investment for national 
security. Because DARPA's prime directive is to prevent strategic 
surprise and enable our superiority, we must consider what will be 
required to meet the Nation's security needs even in these 
circumstances.
    The uncertainties we face--threat uncertainties and fiscal 
uncertainties--do not change the fact that the Nation relies on DOD to 
deter war and protect the security of our country, and DARPA's role 
here is vital.
DARPA's Approach
    Our first two primary objectives are:

    (1)  Demonstrate breakthrough capabilities for national security, 
and
    (2)  Catalyze a differentiated and highly capable U.S. technology 
base--critical to achieving the first objective.

    Several approaches shape our thinking as we attack the need for 
breakthrough capabilities for national security:

    (1)  Game-changing new systems technologies. Today's warfighters 
rely on systems from aircraft to navigation to communications that 
trace their history to earlier DARPA work. Looking ahead, some of these 
may become vulnerabilities as sophisticated adversaries also understand 
how crucial these systems are to warfighting. So, DARPA seeks to create 
the next generation of new capabilities that once again changes the 
game in our favor faster than others can respond.
    (2)  Layered, multi-technology warfighting concepts. Modern 
warfighting is too complex for a single new capability to deliver 
sustained superiority across a variety of scenarios. But combining 
multiple technology advances by layering and integrating them can lead 
to a revolution in capabilities. Looking ahead, we can imagine 
coordinated local position, navigation, and timing (PNT); adaptive 
electronic warfare; manned and unmanned systems working in harmony; 
tactical cyber effects; and advanced ISR--all woven together in ways 
that create decisive surprise in tomorrow's conflicts.
    (3)  Adaptable systems and solutions. While military technology and 
weapon systems have continued to evolve and mature over time, our 
military engagements of the last 20 years have been fought with systems 
developed largely for Cold War scenarios. Our warfighters have had to 
adapt for the realities on the ground. Today when we consider future 
engagements, we can more readily imagine a host of diverse environments 
and adversaries. In an uncertain world, adaptability is critical. We 
won't always know what we will need for tomorrow's battle, and our 
adversaries will change their tactics and technologies over time. So 
systems that can be readily upgraded and adapted in real time to 
changing surroundings and conditions will play an important role.
    (4)  Innovation to invert the cost equation. Today we seek to use 
innovation to radically invert the cost dynamic. How can we impose more 
cost on our adversaries and less on ourselves, thereby increasing our 
deterrent? Can innovative systems architectures, autonomy, 
adaptability, and new processes offer new possibilities? These 
approaches may allow us to reinvent development, production, logistics, 
operations, and maintenance in ways that radically change the cost 
equation.

    Two themes shape our efforts to catalyze a differentiated and 
highly capable U.S. technology base:

    (1)  Exploiting and transcending commercially available 
technologies. We seek to be the best user of globally available 
technologies--to use them with greater creativity to solve problems 
more quickly, efficiently, and flexibly. This means novel systems 
architectures as well as integrating specialized niche technologies 
with commercially available components to create unique solutions.
    (2)  Catalyzing new national technology capabilities. Entirely new 
technologies open the door to national security applications that can't 
even be imagined beforehand. We recognize that many of these 
technologies will also globalize. But the time advantage to the United 
States, if we pursue them first, can be substantial and make all the 
difference. We approach this challenge in several ways:

                <bullet>  Exploring new technology possibilities from 
                fertile basic and interdisciplinary research. 
                Universities, government labs, and private R&D 
                organizations are bubbling with intriguing new research 
                across many disciplines and new interdisciplinary 
                fields. Some hold the seeds for the next technology 
                revolution. We actively search for these promising 
                activities and explore where these new insights might 
                lead.
                <bullet>  Building foundational technology 
                infrastructure and communities. DARPA has a long 
                history of building technology infrastructure that 
                becomes the foundation for wide arrays of applications. 
                Today, we are using the same approach in new fields. 
                Our programs create the tools, techniques, and 
                communities that scale well beyond the period of our 
                investment.
                <bullet>  Demonstrating the new capabilities that 
                technology enables. Changing minds about what's 
                possible rarely happens just through writing papers and 
                reports. Projects that build prototypes show how 
                technical breakthroughs enable new capabilities.
The President's Fiscal Year 2014 Budget
    The President's fiscal year 2014 budget proposal for DARPA is 
$2.865 billion. This is on par with the $2.817 billion originally 
budgeted for DARPA in fiscal year 2013, but has now been reduced to 
$2.785 billion following congressional action. The fiscal year 2013 
budget has been further reduced by approximately $223 million as a 
consequence of sequestration.
    Before discussing our fiscal year 2014 plan, let me explain our 
fiscal year 2013 status under sequestration. As I'm sure you know, 
sequestration is having a significant effect on our work during this 
fiscal year. At DARPA, we have prioritized within each Program Element 
to execute cuts as intelligently as possible, but with cuts of this 
size there are real consequences. We are projecting up to 14 days of 
furloughs for our civilian government employees, and we are delaying or 
eliminating programs as a result of the 8 percent cut in each Program 
Element. While the planned furlough days are of course a financial 
concern for our employees, our people are also deeply frustrated they 
will not be allowed to do their jobs on these days. This unfortunate 
message makes it that much harder to recruit and retain the stellar 
individuals we need to accomplish our mission. Programs across the 
Agency are affected by the sequestration cuts. Two examples include 
Plan X and the Microtechnology for Positioning, Navigation and Timing 
(microPNT) program. Plan X, which aims to integrate cyberwarfare and 
kinetic fighting, is being cut by 43 percent in fiscal year 2013, 
delaying its start by 5 months. The microPNT program, which is 
developing the capability for precise, self-contained PNT in severe 
environments, will see a 9 percent cut, delaying testing with the Air 
Force and driving additional schedule extensions.
    Looking forward, the proposed fiscal year 2014 budget would provide 
us with resources to address or--in some cases, begin to address--our 
essential programs. I'd like to highlight a number of areas that range 
from particular military systems to broader, enabling technologies.
    Cyber foundations for a scalable new trajectory: DARPA's cyber 
programs tackle two aspects of this broad challenge that are redefining 
the rules of warfighting. One is to create the capabilities that will 
allow us to move beyond today's ``detect and patch'' approach to a more 
fundamental defense of our cyber systems. We aim to provide 
cybersecurity and survivability solutions that enable DOD information 
systems to operate correctly and continuously even when attacked. The 
second aspect focuses on cyber effects in tactical warfighting 
scenarios. We can readily imagine a future in which cyber warfare is 
fully integrated with kinetic warfare. DARPA's cyber offense efforts 
aim to create the tools that bridge these domains, for example, by 
providing simulations of cyber effects, battle-damage assessments, and 
layers of authority and control.
    Cost-effective space systems in a newly contested environment: 
Unsustainable cost growth has materially affected the development of 
future U.S. capabilities in the all-important environment of space upon 
which DOD, the intelligence community, and commercial sectors rely. 
DARPA is tackling these challenges by focusing on affordable routine 
access, agile systems development at lower cost, survivable and 
resilient systems, disaggregated and simplified systems, and a holistic 
approach to space situational awareness. For example, one DARPA effort 
is striving to drive the cost of space access down to $1 million per 
launch and increase the tempo to single-day turnarounds. Creatively--
and ambitiously--another program is exploring cooperatively harvesting 
and reusing valuable retired satellite components to build an entire 
new space system in geosynchronous orbit. If successful, this would be 
a major contribution to achieving the goal of reducing today's overall 
satellite system cost by 90 percent.
    Air Dominance: Our forces have had the upper hand in air combat for 
many years now. But as others use globally available technologies to 
build new and sophisticated systems, resting on our laurels would be a 
dangerous course. With the support and endorsement of the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, Frank 
Kendall, DARPA has teamed with the Air Force and Navy to study the 
challenges of air dominance for the next generation. The working group 
is investigating how we can build on our current capabilities with new 
technologies and concepts, inverting the cost equation to force future 
adversaries to spend much more to counter than we do to field and 
employ. The team is taking a broad, integrated approach, looking at 
electronic warfare and sensing across the electromagnetic spectrum, 
communications and networking, space, cyber, weapons, and platforms. We 
anticipate this study effort will lead to new initiatives, with the 
ultimate goal of ensuring the United States continues its air 
superiority in the 2020-2050 timeframe.
    Countering Weapons of Mass Destruction (WMD): We are pursuing 
efforts to increase efficacy and accelerate the timeline for bioweapon 
threat response, including novel techniques that will enable the human 
body to directly manufacture its own vaccines, bypassing traditional 
vaccine manufacturing processes that can take months. In addition, we 
are studying current challenges in countering chemical and nuclear WMD 
threats. For example, we are investigating a defense-in-depth approach, 
combining novel detection methods and big data intelligence analytics 
to achieve a more robust, layered solution. We are also looking into 
new medical countermeasures for increasing the survivability of victims 
of acute radiation poisoning.
    Position, navigation, and timing (PNT) capabilities beyond our 
critical reliance on GPS: DARPA's recent programs in PNT originally 
sought to take GPS-like capability to the places where GPS currently 
does not operate, such as indoors, underwater or underground. As 
concerns surfaced about our critical dependence on GPS, those initial 
investments are starting to create GPS alternatives, as well as new 
enablers for future military systems. We have developed micro-PNT 
technologies and are transitioning them to use. We are developing new 
inertial measurement units and clocks that use atom interferometry for 
very long duration missions, as well as techniques that use available 
signals--from television, radio, cell towers, or even lightning--to 
augment or replace the location information that GPS currently 
provides. In keeping with the drive for adaptability, our new approach 
to full navigation systems integration could provide rapidly 
configurable solutions for the many types of platforms that require 
advanced PNT.
    Electronic warfare (EW) to counter and move beyond adversaries' 
advancing capabilities: We face important challenges as we seek to 
protect our assets and deploy EW capabilities. Not the least of these 
is the reality that 90 percent of the electronics needed in an EW 
system can now be bought commercially. DARPA is attacking these 
challenges. For instance, DARPA is developing a new architecture for 
the radar antenna arrays with which ships and planes transmit and 
receive radar pulses. The goal is to make them in modular fashion, 
obviating the need for unique designs for each new application and 
permitting new and multiple modes of use. This has the potential to 
drive future radar costs down significantly, while simultaneously 
improving performance. Another challenge, and there are many, is that 
the system performance of many radios and radar units is constrained by 
the performance limits of electronic components inside those units. 
DARPA aims to drive technology capabilities well beyond commercial 
specifications and to extend important electronic components to 
performance regimes unreachable by commercial technology.
    Engineering biology tools to engineer microorganisms for materials 
with new properties: Engineering biology is emerging as a new field as 
researchers across multi-disciplinary labs have started to design and 
construct genetic pathways, networks, and systems to harness the 
powerful synthetic and functional capabilities of biology. We can see 
the potential to develop new and transformative materials, sensing 
capabilities, and therapeutics. But synthetic biology today is still a 
multi-year, ad hoc, trial-and-error process constrained to a limited 
number of simple products. DARPA's investments in the Living Foundries 
program are developing the tools and technologies to create a new 
engineering practice, speeding the biological design-build-test cycle 
and the rate at which we realize novel products and capabilities. 
Drawing upon and building on the research base, these efforts will 
begin to create the foundational infrastructure for engineering 
biology. Some of the first outputs may include new materials and 
medicines such as antifungals, lubricants, and energetic materials. 
Beyond these are a new generation of products with properties we can 
only imagine today.
    Big data capabilities to draw insight from multiple data sources: 
Exponential improvements in computing power, network bandwidth and 
storage density combined with ever more pervasive sensing and 
measurement technologies give us enhanced tools for drawing information 
and insights from massive, heterogeneous data sets. In the national 
security realm, harnessing big data offers special challenges. National 
security often involves actors with a vested interest in remaining 
unobserved. Data sets may be corrupted, incomplete, or disaggregated to 
the point that sophisticated technologies are required for cleanup. 
Data sets may be multimodal, real time-streamed, or on a scale for 
which storage isn't feasible and requires new processing approaches. 
Moreover, in many national security applications, inferences must be 
drawn, relationships deduced, or anomalies detected working solely from 
data sets that are weak proxies for the underlying quantities of 
interest. The varied ways in which data are gathered pose challenges in 
fusion. While the cost of investigating false alarms is often high, the 
consequences of a missed detection are even greater. These challenges 
are being addressed across DARPA's big data portfolio. The effort 
begins at the basic science level and also addresses fundamental 
computational issues such as novel algorithm design, natural language 
processing, and architectures for efficient processing of streamed 
data. At the other end, DARPA is working closely with national security 
agencies on operational data to ensure continuous transition of tools 
as programs progress.
    Brain function research: DARPA plans to build on its past and 
ongoing research to help advance a new understanding of brain function 
to treat injury, create new brain-machine interfaces, and inspire new 
algorithms and hardware. Earlier this month the President announced an 
initiative to revolutionize our understanding of the human brain. 
DARPA's brain function research will play an important role in the 
initiative, with the goal of understanding the dynamic functions of the 
brain and demonstrating breakthrough applications based on these 
insights. DARPA aims to develop a new set of tools to capture and 
process dynamic neural and synaptic activities, and explore ways to 
dramatically improve the way we diagnose and treat warfighters who are 
suffering from post-traumatic stress, brain injury and memory loss.
    I want to note that we pursue technologies like these because of 
their promise, but we understand that in this pursuit, we might be 
working in areas that raise ethical, legal, security, or policy 
questions. Here, our job is twofold. We must be fearless about 
exploring new technologies and their capabilities; this is our core 
function and our Nation is best served if we push these frontiers ahead 
of other countries. At the same time, we must raise the broader 
societal questions and engage those who can address them. We ensure our 
work adheres to laws and regulations. In new and uncharted territory, 
we reach out to a variety of experts and stakeholders with different 
points of view. In many instances, technology solutions can be part of 
the answer to new concerns. But we recognize that at their heart, these 
are societal questions that require a broader community be engaged as 
we explore the technological frontier.
    A wide array of other DARPA programs also reflects our investment 
approaches for breakthrough systems and technologies. They include 
programs in maritime and undersea systems, hypersonics, communications, 
ISR, robotic systems, innovative manufacturing technologies, adaptable 
sensor systems, and unconventional computing platforms. More broadly, 
we also invest in early-stage research efforts across physics, 
materials science, mathematics, and interdisciplinary fields with the 
potential for future technological applications. The President's fiscal 
year 2014 budget includes funding for this critical work.
                    keeping darpa robust and vibrant
    To accomplish our vital mission, it is essential that we keep DARPA 
robust and vibrant. So our third objective is to ensure a highly 
functional environment and the foundation for a strong culture.
    With just 210 government employees we carry out 250 programs across 
5 technology offices. How is this possible? In addition to having a 
cadre of very capable support functions and contractors, we rely 
heavily on active engagement with the technical community and users, as 
I emphasized earlier. Our success hinges on our ability to work with 
tiny companies to universities and major contractors to labs of every 
stripe. It hinges on our relationships with and the work of the users 
of our results across DOD.
    DARPA's program managers are the core of our organization, and they 
are stellar. Each is a leader who brings to DARPA an adventurous spirit 
and a deep conviction that his or her technology vision will change the 
world. They come to DARPA because this is the place that gives them the 
opportunity to take breakthrough technologies to fruition. Our program 
managers generally serve 3- to 5-year terms, leading to a constant flow 
of new people and fresh views.
    That is why our hiring authorities are so important to us. DARPA 
uses a dynamic mix of hiring and retention authorities enabling the 
Agency to continue to hire and retain the Nation's most qualified 
technical experts from industry, academia, and the private sector with 
speed and flexibility not allowed by standard civil services processes. 
Moving forward, maintaining and fostering a robust and vibrant DARPA 
hinges on our continued ability to recruit and retain the people who 
will meet the challenges of an ever-changing threat environment.
    I would like to thank the subcommittee for its continued support of 
DARPA's hiring authorities. It has been enormously helpful to us, and 
we simply could not attain our high caliber staff without it.
  from basic science to military advantage: how a clock could make a 
                               difference
    Let me conclude with a specific example of how we do our work--one 
of the numerous individual efforts underway in our portfolio today.
    Earlier in my testimony I cited our important work on position, 
navigation, and timing systems as we strive to develop capabilities 
beyond what GPS systems offer us today. Position and time is oxygen for 
our warfighters, but GPS signals can be degraded or denied by 
adversaries who aim to jam or spoof our signals.
    One of our novel PNT approaches captures how DARPA's ability to 
think outside the box, and our constant search for new ideas and 
surprises, can lead to the hard-nosed practical solutions we must have 
for technological superiority in national security.
    Frequency and timing devices are essential components in modern 
military systems. The stability and accuracy of these devices affect 
the performance of communication, navigation, surveillance, and missile 
guidance systems. Atomic clocks are at the core of many of these 
systems, either directly or by synchronization with a master clock.
    DARPA is now building on exquisite Nobel Prize-winning science 
conducted in the mid-1980s that enlisted lasers to cool and trap atoms, 
and work from the late 1990s to precisely read out these atomic states. 
Although it was far from apparent then, these fundamental physics 
discoveries, and the basic science work that followed over the next two 
decades, now holds the promise of allowing DOD to develop a 
dramatically improved atomic clock device.
    But the best atomic clocks operate only in lab environments--large 
rooms with scientists to tend their complicated laser systems. That 
severely limits practical applications. Still, DARPA recognized the 
promise that timekeeping-related advances held for military uses. So we 
aimed to develop simpler clock architectures based on the initial Nobel 
Prize research and related work that would still meet our needs.
    That is much, much easier said than done, of course. After some 
very hard work by a very talented team, we are now developing a 
shoebox-sized optical atomic clock that offers dramatic reductions in 
size, weight, and power requirements. It aims for unheard of accuracies 
for a device of its size (within one billionth of a second over the 
course of a year). The payoffs will be huge if we are successful: 
secure data routing, communication systems that are insensitive to 
jamming, high-resolution coherent radar, and more reliable and robust 
global positioning. An accurate local clock would be one critical 
enabler of continued operation of military systems in the absence of 
GPS.
    If successful, in combination with other technologies we are 
working on, this new clock developed under the QuASAR program will lead 
to a new set of PNT technologies--a pillar of the next generation 
capabilities that DARPA is building. In short, this device, along with 
the many other technologies we are driving, can transform war fighting 
for our future needs. That would be a true game-changer--and that, 
after all, is what DARPA is all about: changing the game in our 
Nation's favor.
    Thank you for your support of DARPA, and for allowing me to testify 
before you today. I look forward to your questions.

    Senator Hagan. Thank you.
    Ms. Miller.

STATEMENT OF MS. MARY J. MILLER, DEPUTY ASSISTANT SECRETARY OF 
              THE ARMY FOR RESEARCH AND TECHNOLOGY

    Ms. Miller. Chairman Hagan, Ranking Member Fischer, thank 
you for this opportunity to discuss the Army's S&T program for 
fiscal year 2014.
    Over the course of these past 12 years of war, the world 
has seen firsthand the value and impact that technology brings 
to the battlefield and how capabilities enabled by technology 
are critical to the soldiers and their success.
    As a recent example, research done at the Night Vision and 
Electronics Systems Directorate in ground-penetrating radar 
resulted in the Husky Mounted Mine Detection System used widely 
in both Iraq and Afghanistan to detect improvised explosive 
devices. This system is now becoming an Army program of record.
    However, given the current budget environment, the Army has 
initiated a comprehensive strategic modernization strategy to 
better facilitate informed decisions based on long-term 
objectives. The role of the S&T enterprise is to research, 
develop, and demonstrate high payoff technology solutions for 
hard problems faced by the soldiers in ever-changing, complex 
environments, solutions that are both affordable and versatile.
    As good stewards of the taxpayers' dollars, it is critical 
that we use finite Government resources to maximize development 
of technologies to meet Army-unique challenges and constraints. 
It is important that we complement what the private sector is 
already developing and that we leverage the work being done by 
our sister Services, national labs, academia, and partner 
nations. Most importantly, our investments today must translate 
into capabilities that we successfully field to the Army of the 
future.
    It goes without saying that the underpinning of all Army 
S&T efforts is a strong research program that builds an agile 
and adaptive workforce and technology base to be able to 
respond to future threats. Investments in S&T are a critical 
hedge to acquiring technological superiority with revolutionary 
and paradigm-shifting technologies. This includes the 
development of the next generation of Army scientists and 
engineers. Investing wisely in people with innovative ideas is 
our best hope for new discoveries to enable the Army of the 
future.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Miller follows:]
                Prepared Statement by Ms. Mary J. Miller
    Madam Chairman, Ranking Member Fischer, and distinguished members 
of the subcommittee, thank you for the opportunity to discuss the 
Army's Science and Technology (S&T) Program for fiscal year 2014.
    Over the course of these past almost 12 years of war, the world has 
seen first-hand the value and impact that technology brings to the 
battlefield and how capabilities, enabled by technology, are critical 
to our soldiers and their success. The U.S. Army depends on its S&T 
Enterprise to research, develop, and demonstrate high pay-off 
technology solutions for hard problems faced by soldiers in ever-
changing, complex environments against an increasingly diverse set of 
threats. Uncertainty and complexity are at the heart of the Army's 
challenges. The Army of the future requires solutions that are both 
affordable and versatile and relies on the S&T community's 
contributions to ensure that they remain the most capable in the world. 
We are grateful to the members of this committee for your sustained 
support of our soldiers, your support of our laboratories and centers 
and your continued commitment to ensure that funding is available to 
provide our current and future soldiers with the technology that 
enables them to defend America's interests and those of our allies 
around the world.
    To ensure our effectiveness in meeting the Army's needs, the S&T 
Enterprise must remain innovative and agile, staffed with scientists 
and engineers who can develop solutions for identified problems while 
understanding the constraints that Army operations require. The 
overarching vision for Army S&T is to foster innovation, maturation, 
and demonstration of technology that provides increased capability to 
the warfighter. Our mission includes the transition of both the 
understanding and knowledge acquired while developing technology 
solutions as well as the materiel. While the very nature of S&T puts 
our focus clearly on providing capabilities for the future, we continue 
to exploit opportunities to transition solutions to the current force.
                                strategy
    As the war in Afghanistan draws down and budgets decline, it is 
clear that we, the Department of Army, have some significant choices to 
make. We are facing an environment in which we have procured a lot of 
military equipment over the past decade. Systems such as the Mine 
Resistant Ambush Protected (MRAP) vehicles, which proved to be so 
valuable to saving the lives of soldiers in both Iraq and Afghanistan, 
will now join the ranks of the Abrams, Bradley, and Stryker as a part 
of our Army combat capability. The Army is assessing which urgently 
fielded war-time systems will come back and join the ranks of formal 
programs of record as a part of our enduring Army capability. These 
decisions will, by necessity, impact the Army strategy for future 
investment and research.
    This is not the only impact, however. The National Military 
Strategy and its focus on operations in the Pacific Rim adds another 
level of complexity. As we expand our focus from the current fight to 
prepare for the future, we find ourselves in a situation where we may 
face a more capable enemy in an environment that is much more contested 
and complex. Our recent experiences, while challenging, have been 
against a less technically astute enemy. Our focus has been on 
mitigating those threats to the troops. The next fight may well be 
against a near-peer capability--one for which we have not fully 
prepared. We intend to avoid the old adage that we always prepare to 
fight the last war. We are investing now to understand our potential 
vulnerabilities and in developing capabilities that will help us be 
prepared for a more technically savvy opponent.
    Given the current budget environment and prospects for funding in 
the future, it has become even more important than ever that we clearly 
understand our current capabilities and what we need in the future as 
we face ever evolving threats. With that in mind, the Army has 
initiated a comprehensive investment and modernization strategy to 
better facilitate informed decisions based on long-term objectives in a 
resource constrained environment.
    The Army traditionally plans and budgets through the Program 
Objective Memorandum (POM) process. This 5 year look allows us to 
project with a fair level of certainty what we are doing in the next 
few years, but it does not lend itself well to making decisions with an 
understanding of how those same decisions impact the Army of the 
future. The desire to look more holistically across the lifecycle of 
programs and to facilitate better decisions was a key driver to 
establishing a new process within the Department of the Army.
    To that end, the Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology (ASA(ALT)) has initiated the Long-Range 
Investment Analysis (LRIA) process where the Army looks out 30 years 
beyond the POM at the equipping and sustaining needs of the Programs of 
Record (PoRs). This longer-term approach covers the entire acquisition 
lifecycle, to include sustainment. With the renewed emphasis on 
assessing the impacts of near-term investment decisions on the life-
cycle costs and desired capabilities of PoRs, it is increasingly 
important to have a sustainment strategy that is synchronized with the 
modernization strategy. It is essential to align S&T investments to 
support these PoRs and to understand where we can capitalize on 
opportunities for insertion of new, more affordable capability.
    The LRIA feeds well into the ASA(ALT)'s desire for a more strategic 
modernization plan. This approach to modernization includes an 
awareness of existing and potential warfighting gaps, an understanding 
of emerging threats, knowledge of state-of-the-art commercial, 
academic, and government research, as well as a clear appreciation for 
the competing needs of limited resources.
    I recognize that projections of this length are rarely accurate. 
However, going out 30+ years requires us to think beyond the easy 
answer of just doing what we are doing now but for a bit longer. It 
forces a new look at what else might need to happen. The world of 2040-
2045 is clearly NOT going to look like the world of today. The threats 
we face and capabilities needed to address those threats may in fact 
look very different than what we have fielded today. To prepare for an 
uncertain future requires an approach to modernization that includes an 
awareness of existing and potential threats, an understanding of peer 
nation capabilities, knowledge of state-of-the-art commercial, 
academic, and government research, as well as a clear understanding of 
competing needs for limited resources. This is done through close 
collaboration with the Office of the Secretary of Defense (OSD) and the 
Intel Communities to not only assess foreign systems that we see under 
development but to conduct a technology watch that can provide 
indicators on what foreign countries are investigating that may become 
our next set of threats. This exercise challenges us to look at those 
eventualities.
    This new way to approach our planning has put rigor into the 
analysis and forces the communities who pay for the development of 
materiel and the long-term sustainment of materiel to work together to 
maximize the Army's capabilities over time. From an S&T perspective, it 
clearly starts to inform the community as to when technology is needed 
for insertion as part of a planned upgrade. It also cues us as to when 
to start investing for replacement platforms. A great example of that 
is our aviation portfolio where we are conducting the S&T underpinnings 
of the next PoR planned to replace both the AH-64 Apache and UH-60 
Blackhawk. The Army S&T community has already initiated the Joint 
Multi-Role Technology Demonstrator (JMR TD) effort as the foundation 
for the Army's Future Vertical Lift (FVL)-Medium PoR. This demonstrator 
program will create two flying prototypes that will help inform 
requirements for the FVL-Medium as well as define what should be asked 
for within the Request for Proposal. The S&T tech demo is being well 
coordinated with Program Executive Office (PEO) Aviation and the 
Aviation Center of Excellence at Fort Rucker to ensure that we are 
working a solution that will fit and inform the Army's needs.
    Aside from the obvious benefit achieved by laying out the Army's 
programs and seeing where we may have generated unrealizable fiscal 
challenges, this 30 year look has reinvigorated the relationships and 
strengthened the ties between the S&T community and their PEO partners. 
We have had significant engagements over these past 7 months--working 
to identify technical opportunities and the potential insertion of new 
capabilities across this 30-year timeframe.
Goals and Commitments
    There are some persistent (and challenging) areas in which the Army 
invests its S&T resources to ensure that we remain the most lethal and 
effective Army in the world. The challenges include the obvious (we 
need better force protection) to the less obvious (retrograde). All are 
consistent, however, with the message that we have gotten from the 
Training and Doctrine Command over the past decade. These are 
challenges that remain ever relevant to the Army and its ability to win 
the fight. The S&T community is committed to addressing these 
challenges which include:

        <bullet> Enabling greater force protection for soldiers, air 
        and ground platforms, and bases (e.g., lighter and stronger 
        body armor, helmets, pelvic protection, enhanced vehicle 
        survivability, integrated base protection)
        <bullet> Ease overburdened soldiers in small units (e.g., 
        lighter weight multi-functional material)
        <bullet> Enabling timely mission command and tactical 
        intelligence to provide situation awareness and communications 
        in ALL environments (mountainous, forested, desert, urban, 
        jamming, etc.)
        <bullet> Reduce logistic burden of storing, transporting, 
        distributing and retrograde of materials
        <bullet> Create operational overmatch (enhance lethality and 
        accuracy)
        <bullet> Achieve operational maneuverability in all 
        environments and at high operational tempo (e.g., greater 
        mobility, greater range, ability to operate in high/hot 
        environment)
        <bullet> Enable ability to operate in Chemical, Biological, 
        Radiological, Nuclear, and Explosives (CBNRE) environment
        <bullet> Enable early detection and treatment for Traumatic 
        Brain Injury (TBI) and Post-Traumatic Stress Disorder (PTSD)
        <bullet> Improve operational energy (e.g., power management, 
        micro-grids, increased fuel efficiency engines, higher 
        efficiency generators, etc.)
        <bullet> Improve individual and team training (e.g., live-
        virtual-constructive training)
        <bullet> Reduce lifecycle cost of future Army capabilities

    In addition, to these enduring challenges, the S&T community 
conducts research and technology that impacts our ability to maintain 
an agile and every ready force. This includes efforts such as 
establishing environmentally compatible installations and materiel 
without compromising readiness or training, leader selection 
methodologies, new test tools that can save resources and reduce test 
time and methods and measures to improve soldier/unit readiness and 
resilience.
S&T Portfolio highlights
    To be able to address the needs of the Army of the future, the S&T 
Enterprise must maintain a balanced investment--one that ensures the 
growth and development of innovative S&Es and the pursuit of critical 
technology that will ensure the Army remains preeminent in the world. 
Currently the portfolio includes about 20 percent in far-term, basic 
research for discovery and understanding of phenomena; 40 percent in 
mid-term, applied research for laboratory concept demonstrations (proof 
of concept); and 40 percent in near-term, advanced technology 
demonstrations of subsystems and components in a relevant environment 
(experimentation).
    Our S&T program request for BA1-3 for fiscal year 2014 is $2.205 
billion--a 0.2 percent decrease from our fiscal year 2013 request. BA3 
programs decrease by $8.6 million, BA1 programs decrease by $7.3 
million and BA2 programs increase by $11.2 million.
    In fiscal year 2014 the Army is placing increased emphasis in 
research areas to support the Army's role in the National Military 
Strategy, such as vulnerability assessments, Anti-Access/Area Denial 
(A2/AD) technologies and long-range fires. We are mindful however that 
the Army will continue to be called on for missions around the globe. 
The Army is currently deployed in 160 countries conducting missions 
that range from humanitarian support to stability operations to major 
theater warfare.
    The efforts of the S&T Enterprise are managed by portfolio to 
ensure maximum synergy of efforts and reduction of unnecessary 
duplication. There are currently six portfolios. Three are platform 
specific portfolios: Soldier, Ground, Air; the other three are enabling 
technology portfolios: C\3\I, Innovation Enablers, and Basic Research. 
Each affords the Army with unique capability. To facilitate this broad 
spectrum of capabilities, we are creating a culture of affordability 
and from a technology perspective have increased our focus on reducing 
lifecycle costs.
                           soldier portfolio
    The soldier portfolio is broad in nature--it extends from research 
in enhancing soldier performance to improved soldier equipment to new 
medical treatments. This portfolio touches all of the challenges listed 
above in some capacity. Focus areas include achieving technical 
advances based on future threats and environments in force protection, 
lethality, mobility, leader development, training, combat casualty care 
and rehabilitation medicine, as well as psychological and physical 
health treatments. In fiscal year 2014 we are requesting $376.7 million 
for our soldier portfolio.
    The efforts in this portfolio are designed to address future threat 
environments while maximizing the effectiveness of Squad performance as 
a collective formation. They result in state of the art changes to 
equipment and training tools and inform changes to policies, personnel 
selection and classification, and individual and collective training.
    Major initiatives include the integration of lethality assets, 
individual protection, and dismounted soldier power. In the coming 
years, improving mission performance in a complex and dynamic 
environment will rely on improving the integration of cognitive and 
physical performance with emerging technology solutions leading to the 
advancements necessary to reduce the soldier's load. Successful recent 
efforts include a collaborative effort with PEO soldier to improve the 
form and fit of the Improved Outer Tactical Vest (IOTV) for female 
soldiers. The existing IOTV designs were cut for a standard male and 
impeded the ability for female soldiers to operate weapons and 
equipment effectively. The S&T community assessed the needs of the 
female soldiers and as a result developed better waist and torso 
adjustment straps and less bulky collar and throat protection.
    In keeping with our holistic approach to Army challenges, research 
will address the entire chain of services and technologies which touch 
our soldiers and squads from pre-deployment to mission capabilities 
needed on the battlefield to their return to civilian life. Pre-
deployment and return to civilian life research includes important 
areas such as Post Traumatic Stress Disorder (PTSD) and Traumatic Brain 
Injury (TBI) which continue to be a source of serious concern. The U.S. 
Army Medical Research and Materiel Command (MRMC) has ongoing efforts 
to address these devastating conditions. Basic research efforts include 
furthering our understanding of cell death signals and neuroprotection 
mechanisms, as well as identifying critical thresholds for secondary 
injury comprising TBI. When cells die they release signals in the form 
of proteins. These proteins can be measured using different biological 
assays, which can tell you what type of response a cell has mounted 
against different types of injuries to include TBI, so you can quantify 
the level of injury.
    We are also focused on investigating selective brain cooling and 
other nontraditional therapies for TBI, and identifying ``combination'' 
therapeutics that substantially mitigate or reduce TBI-induced brain 
damage and seizures for advanced development and clinical trials. We 
have had some recent successes in this area, including completion of a 
Food and Drug Administration effectiveness study on a candidate 
neuroprotective drug for treatment of TBI and completion of a pivotal 
trial for a bench-top assay for use in hospitals for the detection of 
TBI.
    Research in the area of personnel selection, classification and 
training must also be looked at in light of future threats and evolving 
mission scenarios such as cyber and robotic interactions. Technologies 
which support future mission capabilities needed on the battlefield 
include efforts to reduce chronic conditions which may result from 
load-related injuries. Material and equipment design efforts focus on 
innovative decision and mission planning tools and the integration of 
individual and squad weapons, weapon sights, munitions and fire control 
while mitigating cognitive and physical burden on the increasingly 
complex battlefield. Finally, we are working on new materials and 
modular armor designs to optimize individual protective equipment to 
fully consider survivability in relation to mobility, lethality, and 
other aspects of human performance. This work is aligned with PEO 
soldier's planned Soldier Protection Systems PoR which affords many 
opportunities for technology transition out of the S&T community.
                            ground portfolio
    The Ground portfolio includes technologies for medium- and long-
range munitions and missiles; directed energy weapons; combat and 
tactical vehicle; unmanned ground systems; countermine and counter 
Improvised Explosive Devices (IED) detection and neutralization; and 
base protection technologies. As with the soldier portfolio, the ground 
portfolio addresses a number of the Army's enduring challenges 
including force protection, improved mobility and overmatch, increased 
operational energy and reduced life cycle costs. In fiscal year 2014 we 
are requesting $607.1 million for our Ground Portfolio.
    The Ground Portfolio has shifted to focus on developing A2/AD 
through Long-Range Fires and Counter Unmanned Aircraft technologies. 
S&T is focusing on advanced seeker technologies to enable acquisition 
of low signature threats at extended ranges, along with dual pulse 
solid rocket motor propulsion to provide longer range rockets and 
extend the protected areas of air defense systems. We also continue to 
develop Solid State High Energy Lasers to provide low cost defeat of 
rockets, artillery, mortars, and unmanned aircraft.
    Also as part of A2/AD, we have increased funding for evaluation of 
austere ports of entry and infrastructure to better enable our ability 
to enter areas of conflict. We are maintaining technology investments 
in detection and neutralization of mines and improvised explosive 
devices (IED) to ensure freedom of maneuver.
    In the past, we have designed vehicles with little consideration 
for accommodating soldiers who have to operate in them. Now we are 
beginning to explore ways to design vehicles around soldiers. 
Increasing protection levels of the platforms means impacting interior 
volumes reducing mobility, maneuverability, and freedom of movement for 
occupants, and leads to heavier platforms. The ongoing Occupant Centric 
Survivability (OCS) effort provides the mechanism to develop, design, 
demonstrate, and document an occupant centered Army ground vehicle 
design philosophy that improves vehicle survivability, as well as force 
protection, by mitigating warfighter injury due to underbody IED and 
mine blast, vehicle rollover, and vehicle crash events. This design 
philosophy considers the warfighter first, integrates occupant 
protection technologies, and builds the vehicle to surround and support 
the warfighter and the warfighter's mission. To this end, we are 
developing an OCS concept design demonstrator, as well as, platform-
specific demonstrators with unique occupant protection technologies 
tailored to the platform design constraints. Subsystems and components 
designed and evaluated by this effort may transition to current and 
future ground vehicle Programs of Record. This focused effort will 
facilitate the development and publication of standards for occupant 
centric design guidelines, test procedures and safety specifications.
    Armor remains an Army-unique challenge and we have persistent 
investments for combat and tactical vehicle armor, focusing not only on 
protection but affordability and weight. We continue to invest in armor 
technologies to meet the Ground Combat Vehicle's (GCV) objective 
protection requirements. Armor formulations developed at the Army 
Research Lab (ARL) and matured at the Tank Automotive Research 
Development and Engineering Command have transitioned and been offered 
to the GCV vendors. In addition to the continued emphasis on lighter, 
more capable armor solutions, we are beginning to develop an 
architecture standard to enable the integration of active protection 
technologies onto ground vehicles, reducing the need for as much heavy 
armor plating.
    We continue to develop technologies to increase available power to 
ground vehicles and improve fuel efficiency. Additionally, we are 
maturing architecture standards to manage electrical power and data, 
providing industry a standard interface for integrating communications 
and sensor components to ground vehicles.
                             air portfolio
    The Army is the lead service for rotorcraft, owning and operating 
over 80 percent of the Department of Defense's vertical lift aircraft. 
As such, the preponderance of rotorcraft technology research and 
development takes place within the Army. The Air portfolio addresses 
many of the same challenges as the ground portfolio and its key 
initiative, the JMR TD program, is focused on addressing the A2/AD need 
for longer range and more effective combat profiles. Our vision for 
Army aviation S&T is to provide the best possible aviation technology 
enabled capabilities to deliver soldiers, weapons, supplies, and 
equipment where they are needed, when they are needed. For fiscal year 
2014 we are requesting $162.6 million for our Air Portfolio.
    In order to provide soldier support over future Areas of Operation 
(AO) that may be 16 times larger than current AOs, the Army needs a 
faster, more efficient rotorcraft, with significantly improved 
survivability against current and future threats. Operating in 
conditions of 6,000 feet and 95 degrees (high/hot), this aircraft will 
need to transport and supply troops while providing close air support 
and intelligence, surveillance, and reconnaissance capabilities.
    As I mentioned before, a major effort currently underway within S&T 
is technology development for the Department of Defense's next 
potential ``clean sheet'' design rotorcraft--the JMR aircraft. Three 
different configurations of JMR aircraft have been designed--a 
conventional helicopter, a large-wing slowed rotor compound helicopter, 
and a tilt rotor helicopter. We are investigating various design 
excursions to fully explore the size and environmental characteristics 
of interest to the DOD including shipboard operations. As part of the 
JMR TD program, an industry/government Configuration Trades and 
Analysis effort (including Operations Analyses to assess concept 
effectiveness), is nearing completion. Four contracts were 
competitively awarded to assist in defining the trade space for Phase 1 
of the JMR TD, Air Vehicle Demonstration. Two of the contractors will 
be downselected for the Phase 1 awards in September 2013, which will 
include the design, fabrication, and test of two flight demonstrator 
vehicles, with first flights to occur in the fourth quarter of fiscal 
year 2017. The JMR TD objectives are to validate critical aircraft 
configurations, technologies and designs at the vehicle system level, 
and demonstrate vertical lift capabilities superior to those in the 
current fleet. Phase 2 of the JMR TD is focused on assessing Mission 
Systems Effectiveness. Six contracts have been awarded to conduct these 
trades. The overall JMR TD effort will use integrated government/
industry platform design teams and exercise agile prototyping 
approaches.
    One of the biggest causes of aircraft loss comes from accidents 
while operating in a Degraded Visual Environments (DVE). To address 
this, we are currently conducting a synchronized, collaborative effort 
with PEO Aviation and the S&T community to define control system, 
cueing, and pilotage sensor combinations which enable maximum 
operational mitigation of DVE. This effort will result in a prioritized 
list of compatible, affordable DVE mitigation technologies, and 
operational specification development that will help inform future Army 
decisions. This program is tightly coupled with the PEO Aviation 
strategy and potential technology off-ramps will be transitioned to the 
acquisition community along the way, when feasible.
    Unmanned systems have a potentially broad impact on how the Army 
conducts close air support. Army S&T is focused on improving the 
capability of unmanned systems to be a force multiplier through the 
introduction of unmanned and teaming operations technologies with the 
potential to offer game changing future capabilities. Efforts include 
advancing human systems interface and algorithms for synergistic and 
intelligent manned unmanned teaming, and image/data processing 
algorithms to allow objective driven perception. In fiscal year 2014 we 
plan to initiate a new applied research program to develop micro/small 
scale unmanned air systems. This new effort will allow for the 
transition of technology from the Micro-Autonomous Systems Technology 
Collaborative Technology Alliance basic research effort.
    While many of our rotorcraft research efforts are focused on the 
development of technology for transition to new platforms in 2025 and 
beyond, we are also maintaining an investment to keep the current fleet 
effective. One recent transition success has been the Advanced 
Affordable Turbine Engine (AATE), a 3,000 shaft horsepower engine with 
25 percent improved fuel efficiency, and 35 percent reduced lifecycle 
costs. In fiscal year 2013, final bench testing will be completed and 
the AATE program will transition to PM Utility for Engineering and 
Manufacturing Development under the Improved Turbine Engine Program, 
which will re-engine our Blackhawk and Apache fleet.
                            c\3\i portfolio
    The C\3\I portfolio provides enabling capability across many of the 
challenges, but specifically seeks to provide mission command and 
tactical intelligence--working to ensure soldiers from the sustaining 
base to the tactical edge have trusted and responsive sensors, 
communications, and information adaptable in dynamic, austere 
environments to support battlefield operations and non-kinetic warfare. 
For fiscal year 2014 we are requesting $320.0 million for our C\3\I 
Portfolio.
    New efforts in this portfolio include development of secure 
wireless personal area networks for the soldier. We are also re-
investing in Electronic Warfare (EW) vulnerability analysis to perform 
characterization and analysis of radio frequency devices to develop 
detection and characterization techniques, tactics, and technologies to 
mitigate the effects of contested environments (such as jamming) on 
Army C\4\ISR systems.
    Given the potential challenges that we face while operating in a 
more contested environment, we are placing additional emphasis in 
assured Position, Navigation and Timing, developing technologies that 
allow navigation in Global Positioning System (GPS) denied/degraded 
environments for mounted and dismounted soldiers and unmanned vehicles 
such as exploiting signals of opportunity. Improvements will be studied 
for high sensitivity GPS receivers that could allow acquisition and 
tracking under triple tree canopy, in urban locations, and inside 
buildings, which is not currently possible. We are developing an Anti-
Jam capability as well as supporting mission command with interference 
source detection, measurement of signal strength, and locating 
interference sources, enabling the Army to conduct its mission in 
challenging electromagnetic environments.
    The C\3\I Portfolio also houses our efforts in cyber, both 
defensive and offensive. Defensive efforts in cyber security will 
investigate and develop software, algorithms and devices to protect 
wireless tactical networks against computer network attacks. Effort 
includes technologies that are proactive rather than reactive in 
countering attacks against tactical military networks.
    We are developing sophisticated software assurance algorithms to 
differentiate between stealthy life cycle attacks and software coding 
errors and design and assess secure coding methodologies that can 
detect and self correct against malicious code insertion. We are also 
investigating theoretical techniques for improvements in malware 
detection that can detect malware variants incorporating polymorphic 
and metamorphic transformation engines. We will research and design 
sophisticated, optimized cyber maneuver capabilities that incorporate 
the use of reasoning, intuition, and perception while determining the 
optimal scenario on when to maneuver, as well as the ability to map and 
manage the network to determine probable attack paths and the 
likelihood of exploitation. Additionally we will investigate 
dynamically and efficiently altering tactical network services, ports, 
protocols and systems to inhibit red force ability to perform malicious 
network reconnaissance to determine location of critical networking 
services.
    On the offensive side of cyber operations, we will develop 
integrated electronic attack (EA) and computer network operations (CNO) 
hardware and software to execute force protection, EA, electronic 
surveillance (ES) and signals intelligence missions in a dynamic, 
distributed and coordinated fashion, resulting in the capability to 
engage a multitude of diverse multi-node, multi-waveform, multi-
platform and cyber (internetworked computers) targets while maximizing 
overall network efficiency and effectiveness, and preserving blue 
force/noncombatant communications.
    We will demonstrate protocol exploitation software and techniques 
that allow users to remotely coordinate, plan, control, and manage 
tactical EW and Cyber assets; develop techniques to exploit protocols 
of threat devices not conventionally viewed as Cyber to expand total 
situational awareness by providing access to and control of adversary 
electronic devices in an area of operations.
                          innovation enablers
    The Innovation Enablers portfolio includes many of the activities 
that are not directly tied to programs of record, yet enable the Army 
to be successful. It is within this portfolio that we conduct the 
research that helps to ensure that we have training ranges upon which 
our soldiers can train as they fight, support our High Performance 
Computing Centers which facilitate highly complex research and system 
design, and conduct Technology Maturation Initiatives that partner the 
S&T community directly with PEOs to conduct experimentation that not 
only informs realistic requirements but also drives down programmatic 
risk. For fiscal year 2014 we are requesting $302.0 million for our 
Innovation Enablers Portfolio.
    Under this portfolio we focus on many of those technologies which, 
while not specific to warfighter functions, are essential to ensuring 
that warfighters can conduct their missions. As the largest land-owner/
user within the DOD, it is incumbent upon the Army to be good stewards 
in their protection of the environment. Within this portfolio, we 
develop and validate lifecycle models for sustainable facilities; 
create dynamic resource planning/management tools for contingency 
basing; develop decision tools for infrastructure protection and 
resiliency; and assess the impact of sustainable materials/systems This 
includes the development of geo-environmental intelligence/advanced 
sensing capabilities and predictive computational tools for fate, 
transport and effects of existing and emerging chemicals and materials 
used by the Army as well as new formulations for munitions and 
obscurants that have minimal environmental impacts. We also focus on 
developing sustainable and environmentally friendly practices that not 
only reduce or eliminate soldier exposure to hazardous and carcinogenic 
materials but also minimize environmental impacts during maintenance 
and depot activities such as painting and plating.
    In addition, we conduct blast noise assessment and develop 
mitigation technologies to ensure that we remain ``good neighbors'' 
within Army communities and work to protect endangered species while we 
ensure that the Army mission can continue. Ensuring current and future 
use of the Army's training ranges will become even more important as 
they will be where soldiers get their experience, vice deployment in 
theater. As a result, we are even developing planning and response 
tools to determine impacts on mission critical natural infrastructure 
and adaptable training land configuration technologies to ensure our 
soldiers are given maximum access to training ranges and lands. This 
supports the Army's ability to address evolving mission requirements 
while protecting our current resources.
                             basic research
    Underpinning all of our efforts and impacting all of the enduring 
Army challenges is a strong basic research program. The vision for Army 
basic research is to advance the frontiers of fundamental science and 
technology and drive long-term, game-changing capabilities for the Army 
through a multi-disciplinary portfolio teaming our in-house researchers 
with the global academic community. For fiscal year 2014 we are 
requesting $436.7 million for Basic Research.
    Two high pay-off areas of research investment are Neuroscience and 
Materials Science. Neuroscience is a high priority research area--
understanding the brain's structure and function is a top foundational 
research theme for the Obama administration and the National Academies. 
The Army is leveraging the opportunities afforded by the large medical 
research base in neuroscience to move neuroscience from the bench to 
the battlefield. Making this transition will enable a broad range of 
scientific discoveries that fundamentally shift how we understand how 
the brain (and thus soldiers) works.
    A new area of promising research is our effort in Multi-scale 
Modeling of Materials. The goal of this research is to realize the 
capability to design materials at the atomic level to provide the exact 
properties we need for an end product. In other words, we plan to 
demonstrate a comprehensive ``materials by design'' capability for 
electronic and protection materials. The pay-off could be protection 
materials with one-third savings in weight of current systems, and 
batteries with triple the energy density, 30 percent longer lifetimes, 
and 20-30 percent more efficiency all at a lower cost.
    Another new area of basic research investment in fiscal year 2014 
is Cyber Security, where we are standing up a Cyber Security 
Collaborative Research Alliance (CRA), a competitively selected 
consortium, to advance the theoretical foundations of cyber science in 
the context of Army networks. This CRA consists of academia, industry 
and government researchers working jointly with the objective of 
developing a fundamental understanding of cyber phenomena so that laws, 
theories, and theoretically grounded and empirically validated models 
can be applied to a broad range of Army domains, applications, and 
environments. The overarching goals of cyber security are to 
significantly decrease the adversary's return on investment when 
considering cyber attack on Army networks, and minimizing the impact on 
Army network performance related to implementing cyber security. The 
CRA research creates a framework that effectively integrates the 
knowledge of cyber assets and potential adversary capabilities and 
approaches, and provides defense mechanisms that dynamically adjust to 
changes related to mission, assets, vulnerability state, and defense 
mechanisms.
    We had a number of technology spin-offs and transitions from basic 
research this past year. An example is in Helmet Mounted Displays. A 
researcher from the Institute for Creative Technologies, an Army funded 
University Affiliated Research Center, created a game-changer in the 
world of virtual reality (VR) headsets by providing a 3-D, wide field 
of view, tracking enabled VR headset at a cost of $300 (in contrast to 
an Army Helmet Mounted Display device that costs $70,000). The VR 
device called Oculus Rift won Wired Magazine's best of the Consumer 
Electronics Show (CES) 2013 and the Electronic Entertainment Expo (E3) 
best of award. Oculus Rift disrupts the supply chain and creates the 
option for a low cost tool developed by Army-sponsored research that 
the Army will leverage for training. The hope is that the Oculus Rift 
will be the first of many commercial applications that will be 
incorporated into our Army systems--increasing competition and 
decreasing costs.
                       cross-portfolio activities
    Across all of our portfolios, we maintain our focus on power and 
energy. As we develop technology enabled capabilities, we work to 
reduce the burden in both weight and logistics that comes from 
increased energy consumption by the increasing amount of electronic 
equipment we need in our operations. The Army modernization investment 
in operational energy provides efficient, reliable and maintainable 
systems that increase capabilities and maintain dominance. Our 
objectives are to improve efficiency and reduce consumption while 
increasing functionality and developing smart energy-saving designs. 
Our existing programs are integrated with, and complementary to, the 
operational energy strategy of the Assistant Secretary of the Army for 
Installations, Energy, and the Environment. In the fiscal year 2014 
budget request we have, interspersed among our portfolios, $145.3 
million for power and energy projects, in addition to efforts such as 
efficient vehicle design and light weight materials which also impact 
the Army's energy usage.
    The Army continues to make use of the Rapid Innovation Fund, 
established by Congress in fiscal year 2011. We are currently funding 
48 efforts in a variety of areas and have an additional 43 proposals 
under review. I believe that this initiative is providing value to the 
Army and opening up more collaborative opportunities for small and 
nontraditional businesses, and we plan to solicit further proposals for 
fiscal year 2013 in the near future.
    The Army Small Business Innovation Research Program (SBIR) program 
is another way the Army gets access to innovative ideas and products. 
The SBIR program is designed to provide small, high-tech businesses the 
opportunity to propose innovative research and development solutions in 
response to critical Army needs. In fiscal year 2011, the Army SBIR 
office generated 139 topics based on inputs from laboratories, the Army 
Training and Doctrine Command and the Program Executive Officers (PEO). 
In response to these topics, small businesses submitted over 3000 
proposals. The Army SBIR office approved more than 600 Phase I and 
Phase II awards. Since 2000 there have been 575 Phase III Army SBIR 
projects put under contract for a total obligated value of $1.4 billion 
(Phase III SBIRs are Phase II projects that have been picked up by 
either the government (PEO/PM) or industry).
                      the s&t enterprise workforce
    Without the world-class cadre of over 12,000 scientists and 
engineers and the infrastructure that supports their work, the Army S&T 
enterprise would be unable to support the needs of the Army. To 
maintain technological superiority now and in the future, the Army must 
maintain an agile workforce. Despite this current environment of unease 
within the government civilian workforce, I'm proud to say that in 
2012, the Army was recognized by Thompson Reuters as one of the Top 100 
Global Innovators, with over 300 patents documented in the previous 3 
years. We have an exceptional workforce. But we must continue to 
attract and retain the best science and engineering talent into the 
Army Laboratories and Centers and this is becoming more and more 
challenging. Our laboratory personnel demonstrations give us the 
flexibility to enhance recruiting and afford the opportunity to reshape 
our workforce, and I appreciate Congress' continued support for these 
authorities. With one exception (the Army Research Institute (ARI) for 
the Behavioral and Social Sciences), all of our laboratories and 
centers are operating under this program (ARI was never designated a 
Science and Technology Reinvention Laboratory and given its small size, 
has not sought to enter into a demo system). These initiatives are 
unique to each laboratory, allowing the maximum management flexibility 
for the laboratory directors to shape their workforce and remain 
competitive with the private sector.
    In terms of infrastructure, we completed a survey of our laboratory 
infrastructure and find that it is aging, with an average approximate 
age of 50 years. However, we do acknowledge that much of the Army is in 
a similar position. Despite this, we continue to make improvements to 
our infrastructure at the margins, and where possible we have used 
military construction, through your generous support, Defense Base 
Realignment and Closure Commission, and unspecified minor construction 
to modernize facilities and infrastructure. This is not a long-term 
solution. While the authorities that you have given us have been 
helpful, they alone are not enough, and we are still faced with the 
difficulty of competing within the Army for scarce military 
construction dollars at the levels needed to properly maintain world-
class research facilities. This will be one of our major challenges in 
the years to come and I look forward to working with OSD and Congress 
to find a solution to this issue.
    Army S&T enterprise cannot survive without developing the next 
generation of scientists and engineers. We are lucky to have an amazing 
group of young scientists and engineers to serve as role models for the 
next generation. Last year, Dr. Maria Urso, a researcher at the U.S. 
Army Research Institute of Environmental Medicine's Military 
Performance Division at Natick Soldier System's Center in Natick, MA, 
was named by President Obama as one of the Nation's Outstanding Early 
Career Scientists. She received the award for her scientific 
contributions in the area of cellular mechanisms of musculoskeletal 
injury and repair and for her incredible service to both military and 
civilian communities. The Presidential Early Career Awards for 
Scientists and Engineers are the highest honor bestowed by the U.S. 
Government on science and engineering professionals in the early stages 
of their independent research careers, and we are lucky to have 
researchers like Dr. Urso to mentor the next generation.
    The Army S&T Enterprise contributes to the future success in 
Science, Technology, Engineering, and Math (STEM) education through the 
Army Educational Outreach Program (AEOP) which is comprised of 17 
outreach efforts, either through direct oversight or through active 
participation. In the 2011-2012 academic year AEOP was able to place 
less than half of the student online applicants, engaged nearly 53,000 
students as well as 835 teachers, involved 17 Army laboratories or 
installations, and 111 universities or colleges and utilized the 
experience and personal commitment from many of our Army scientists and 
engineers. Mostly executed under the Army Educational Cooperative 
Agreement (COA) which brings together government and a consortium of 
organizations working collaboratively to further STEM education and 
outreach efforts nationwide, AEOP provides a cohesive and coordinated 
approach to STEM education across the Army. Major accomplishments in 
fiscal year 2012 included ongoing annual in-depth evaluative 
assessments of seven programs and recommendations for evidence-based 
program improvements. We completed a marketing campaign that 
centralized all the individual programs into a single branding to 
leverage resources as well as promote a continuation of Army STEM 
experiences that work together to build a highly competitive STEM 
literate talent pool for Army scholarship and workforce initiatives. We 
continue to enhance the online, comprehensive application tool located 
on the AEOP website which will be complete in fiscal year 2013. The 
application tool will provide important data that assess attitudes, 
motivation, qualifications, and experiences that gauge program 
effectiveness. The website and the online application tool as well as 
the COA will work together to provide a coherent and coordinated 
approach to address the STEM workforce shortfall throughout the Army. 
For fiscal year 2014, we are concentrating on further program 
assessment, implementing evidence-based program improvements, 
strengthening additional joint service sponsored efforts, and 
identifying ways to expand the reach and influence of successful 
existing programs by leveraging partnerships and resources with other 
agencies, industry and academia.
    Finally, we are increasingly mindful of the globalization of S&T 
capabilities and expertise. Our International S&T strategy provides a 
framework to leverage cutting edge foreign science and technology 
enabled capabilities through Global S&T Watch, engagement with allies 
and leadership initiatives. Global Science and Technology Watch is a 
systematic process for identifying, assessing, and documenting relevant 
foreign research and technology developments. The Research, Development 
and Engineering Command's International Technology Centers (ITCs) and 
Medical Research Materiel Command's OCONUS laboratories identify and 
document relevant foreign S&T developments. We also selectively engage 
our allies when their technologies and materiel developments can 
contribute to Army needs and facilitate coalition interoperability. 
These bilateral leadership forums with Israel, Canada, Germany and the 
United Kingdom provide both visibility of and management decisions on 
allied developments that merit follow-up for possible collaboration.
                                summary
    The underpinning all of Army S&T efforts is a strong research 
program that builds an agile and adaptive workforce and technology base 
to be able to respond to future threats. Investments in S&T are a 
critical hedge in acquiring technological superiority with 
revolutionary and paradigm-shifting technologies. This includes the 
development of the next generation of Army Scientists and Engineers.
    Investing wisely in people with innovative ideas is our best hope 
for new discoveries to enable the ``Army of the Future.''
    In this fiscally constrained environment, we will emphasize S&T 
areas that address truly Army-unique challenges and leverage everything 
else. We will collaborate across the Services, National Labs, academia, 
industry and partner Nations, to solve common challenges. As good 
stewards of the taxpayers' dollars, it is critical that we use finite 
government resources to maximize development of technologies to meet 
Army-unique challenges and constraints, and it is important that we 
complement what the private sector is already developing. Most 
importantly, our investments today must translate into capabilities we 
successfully field to the Army of the future.
    As the ASA(ALT) said in her February 28, 2013 testimony to the 
House Armed Services Committee on Sequestration `` . . . the Army will 
provide soldiers with the best equipment available as needed; their 
sacrifice deserves no less. All equipping programs and priorities will 
be negatively affected by the application of sequestration. Likewise 
the defense industrial base will be adversely impacted and critical 
skill sets will be lost.'' These words apply equally to the Army's S&T 
program--forcing us to take a hard look at our investments and undoing 
much of the work that we have set in place to increase our 
efficiencies.
    This is an interesting, yet challenging, time to be in the Army. 
Despite this, we remain an Army that is looking towards the future 
while taking care of the soldiers today. I hope that we can continue to 
count on your support as we move forward, and I would like to again 
thank the members of the committee again for all you do for our 
soldiers. I would be happy to take any questions you have.

    Senator Hagan. Thank you.
    Ms. Lacey.

 STATEMENT OF MS. MARY E. LACEY, DEPUTY ASSISTANT SECRETARY OF 
    THE NAVY FOR RESEARCH, DEVELOPMENT, TEST, AND EVALUATION

    Ms. Lacey. Good afternoon, Madam Chairman Hagan, Ranking 
Member Fischer. It is an honor to appear here today before you 
to discuss the Navy's research and development (R&D) 
enterprise.
    In the year since I last appeared, we as a department have 
performed an extensive strategic review of our RDT&E resources, 
and the Secretary has established a corporate board to provide 
strategic oversight to our RDT&E investments and priorities and 
to further embed into our day-to-day business the urgency and 
flexibility we honed during a decade of a wartime posture.
    Sequestration decreases our RDT&E accounts $1.5 billion in 
fiscal year 2013. This impacts all 282 program elements within 
the account. In S&T, we expect to place 300 less grants and 
cancel up to half of our new start functional naval capability 
projects. In development, we will delay most programs by about 
3 months.
    The Navy has historically made deliberate and measured 
investments to ensure stability and the right capacity within 
the organic technical workforce. Section 219 of the 2009 
National Defense Authorization Act (NDAA) has proven invaluable 
to maintaining the health of our Navy labs, warfare, and 
systems centers. The Navy has used section 219 authority to 
refresh the technical capabilities of our workforce while 
enabling innovation. We are also placing greater emphasis on 
technical discipline on approaches that change the cost 
equation with things such as automated testing, open 
architecture, and corrosion prevention.
    Investment in our workforce is critical, but it must be 
coupled with an appropriate investment in infrastructure. Based 
on the direction of this subcommittee, the Navy has expanded 
our ongoing test and evaluation infrastructure capabilities 
look to include our R&D enterprise. We are about halfway 
completed in our initial data gathering and we will use that in 
the future to make some strategic investment in our facilities.
    In these exceptionally challenging technological and 
budgetary times, our goal continues to be to provide our 
sailors and marines with technically superior capabilities. We 
can ensure this through disciplined processes focused on 
affordability executed by a skilled workforce with technical 
capabilities second to none.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Ms. Lacey follows:]
                Prepared Statement by Ms. Mary E. Lacey
                              introduction
    Madam Chairman and distinguished members of the subcommittee, it is 
an honor to appear before you today to report on the efforts of the 
Department of Navy (DON) Science and Technology (S&T) Laboratory 
Enterprise. Its ultimate goal is to develop and rapidly deliver 
innovation to our warfighters more efficiently through the effective 
use of the technological resources of our Nation within the commercial 
sector, Federally Funded Research and Development Centers (FFRDCs), 
University Affiliated Research Centers (UARCs), and our Naval 
Laboratories and Warfare Centers.
    The military dominance of the United States and U.S. Naval Forces 
in particular, is closely coupled to technical superiority of our 
military equipment and systems. With the future budget challenges we 
must continue to encourage the creativity of our scientists and 
engineers to meet the challenges of our adversaries while focusing on 
the affordability of our current and future weapon systems and 
platforms. I would like to thank the committee for your continued 
support of our Nation's science and engineering base who continue to 
provide new and improved affordable warfighting capabilities to sustain 
the technology leadership our sailors and marines enjoy.
    In the year since I last appeared before you the DoN has performed 
an extensive strategic review of our research, development, test, and 
evaluation (RDT&E) resources to move the possibilities offered by 
science and technology into practical applications executed through 
engineering to benefit our Navy and Marine Corps. This includes ongoing 
reviews of the RDT&E accounts; focused efforts by DoN leadership to 
accelerate game-changer technologies into fieldable systems, 
collaboration with the Assistant Secretary of Defense for Research and 
Engineering on efforts to improve communications and collaboration 
between the Industrial base and our technical community through the 
Defense Innovation Marketplace, and ongoing efforts of the Naval 
Laboratory Center Coordinating Group (NLCCG) to invest in the technical 
capabilities of in-house technical workforce and their critical 
infrastructure. The technological threats to the Navy and Marine Corps 
are constantly changing. The anti-access/anti-denial (A2/AD) 
capabilities of our potential adversaries are one example of the 
constantly changing threat environment that impacts the ability of our 
forces to maintain technological superiority. The Navy has come a long 
way over the last few years in achieving balance in our technical 
workforce and infrastructure to ensure technical capabilities critical 
to the Navy are maintained in our Naval Laboratories and Warfare 
Centers. There still remain many significant challenges, including an 
examination of how best to utilize FFRDCs and UARCS to address the 
challenges ahead but we continue to make strides in understanding the 
full strategic potential of our national resources to affordably 
deliver game changing technologies to the DoN.
Strategic reviews
    To ensure the future technological superiority of our Fleet and 
Force it is critical that prudent DoN RDT&E investments provide combat 
effectiveness, affordability and improved reliability and 
maintainability in our current and future weapon systems. With 
increasing fiscal pressure, it is imperative that the DoN ensure its 
RDT&E investments: target the correct warfighter missions, are aligned 
across all RDT&E accounts, and expeditiously transition required 
technologies to Fleet and Force operators.
    The RDT&E Corporate Board provides governance of the Department of 
the Navy's (DoN) RDT&E investments and activities of RDT&E (Budget 
Activity 1-7) portfolios, programs, and priorities. It will ensure the 
Department's RDT&E budget and execution decisions support near- and 
long-term acquisition programs. Additionally, the Corporate Board 
provides advice and assistance in developing policies for rapid 
technology transition by reviewing transition processes that move S&T 
projects into acquisition RDT&E programs of record, including Rapid 
Fielding Efforts (e.g., CNO Speed-to-Fleet).
    We have recently initiated our second rounds of review of DoN RDT&E 
investments. Our focus is to ensure we are effectively balancing 
tactical and strategic requirements against our current and future 
technical capabilities. We want to shift our decisions from reactive 
and stovepiped to a broader holistic approach where decisions are made 
at the appropriate level to ensure the wisest use of our resources and 
intellectual capital. Through the rigor of review, the DoN is looking 
for game changers. These are innovations that effectively integrate 
technology with policy and business to deliver real solutions for our 
sailors and marines. The basic concepts of Integration and 
Interoperability cause us to look across the kill-chain to see how 
systems really work together.
    From these reviews, we will have some tactical course corrections 
that will properly align RDT&E projects in a more accurate budget 
activity. With the RDT&E investments properly characterized, the RDT&E 
Corporate Board can start to address the strategic direction of the 
appropriation to foster sharing of technological developments across 
warfare areas; orderly transition of innovation (e.g., disruptive 
technologies); and future business/policy/technology game changers like 
Open Architecture and Automatic Test and Re-Test. Two current areas of 
emphasis in the RDT&E portfolio are directed energy weapons and non-
acoustic anti-submarine warfare.
    Directed energy weapons offer the Navy game-changing capability in 
terms of speed-of-light engagement, deep magazines, multi-mission 
functionality and affordable solutions. High-energy laser weapons are 
extremely affordable due to their very low engagement costs (low cost 
per shot), which is critical in the current fiscal environment. High 
energy laser weapons are capable of deterring asymmetric threats, 
including swarming small boats, UAVs, and other low-cost, widely 
available weapons. The Navy continues to invest in rapid fielding 
initiatives and technical demonstrations to introduce these new 
technologies to the Fleet and develop future capabilities. The Navy 
maintains a broad portfolio of directed energy weapons programs 
comprising shipboard, airborne, and ground-based systems. Recent Navy 
investments in laser technology includes the first high-energy laser 
aboard a moving Navy surface combatant, the Maritime Laser 
Demonstration; the Mk38 Tactical Laser System also demonstrated against 
small boats as well as other targets; while the LaWS (Laser Weapon 
System) demonstration successfully countered remotely piloted drones 
from USS Dewey in 2012. As part of a CNO-directed demonstration 
program, the Navy intends to install a prototype LaWS aboard USS Ponce 
(AFSB 1), which is currently forward deployed to the 5th Fleet AOR. 
This demonstration, which will begin in fiscal year 2014, is the latest 
in a series of technical maturation efforts designed to provide an 
operational laser to the fleet.
    A key to future Navy warfighting capabilities is the rapid 
development, prioritization, and deployment of Non-Acoustic Anti-
Submarine Warfare capabilities. This can be accomplished through 
efficient technology transitions, acquisition, and management across 
the Navy Enterprise and coordination with the U.S. Intelligence 
Community. Aside from the development and fielding of Non-Acoustic 
Anti-Submarine Warfare capabilities and/or systems, the DoN must also 
plan for the employment of these same types of capabilities by our 
adversaries. The DoN must be cognizant of this emerging threat and must 
understand the operational vulnerabilities and thus guide the 
development of mitigation strategies and capabilities.
Workforce and Infrastructure
    As the Deputy Assistant Secretary of the Navy for Research, 
Development, Test, and Evaluation, I have oversight responsibility to 
the Assistant Secretary of the Navy for Research, Development, and 
Acquisition for all RDT&E accounts, systems engineering and overall 
stewardship responsibilities for the Naval Laboratories and Warfare 
Centers. The DoN has 15 activities that compose the In-house research 
and development capacity. It is comprised of the Naval Research 
Laboratory (NRL) and 14 Warfare and Systems Centers aligned to 3 
Systems Commands: Naval Sea Systems Command (NAVSEA), Naval Air Systems 
Command (NAVAIR), and Space and Naval Warfare Systems Command (SPAWAR). 
The Navy's principal Laboratory, the Naval Research Laboratory (NRL) 
was created by Congress in 1923. Over half of the work NRL performs is 
fundamental science and technology, nearly all in partnership or in 
collaboration with academia and researchers in other government 
laboratories and activities. The Warfare and Systems Centers, while 
being involved in basic science, play most strongly in technology and 
engineering, often in partnership with industry, and government program 
offices. They too have long histories, some dating back to the 1800s, 
and were created to respond to a specific threat or technological 
challenge. The NLCCG is our principal coordinating body for our in-
house activities. The group has been very active over the last year in 
meeting the challenges I set before them to define core technical 
capabilities and to determine how to optimally integrate all these 
capabilities to meet the affordability challenges of today's platform 
and systems acquisition while planning integrating and delivering 
transformational technologies for the Navy-After-Next. Their focus was 
to:

        <bullet> Align processes for the work we accept from customers;
        <bullet> Establish common processes for measuring the technical 
        health of our workforce;
        <bullet> Establish Department of Navy wide definitions for core 
        capabilities and competencies; and
        <bullet> Ensure consistency and transparency in program costing 
        practices to ensure we make every dollar count within the Navy 
        Working Capital Fund model.

    The Naval Laboratories and Warfare Centers constitute a diverse, 
highly skilled workforce of over 43,000 employees with over 24,000 
scientists and engineers. Among the scientists and engineers over 8,000 
hold advanced degrees in science, engineering, or mathematics. The Navy 
continues its efforts to revitalize and maintain the technical 
capabilities of the acquisition workforce by hiring over 2,000 
technical personnel at the Warfare centers in the technical career 
fields of Systems Planning, Research, Development and Engineering, Test 
and Evaluation (T&E), Information Technology (IT) and Production, 
Quality, and Manufacturing.
    The DON DT&E Self-Assessment Report for 2012 showed that our T&E 
workforce continues to be adequately structured to support the needs 
and demands of our acquisition programs. Continuous process improvement 
efforts resulted in significant gains this past year for our T&E 
workforce with slight growth in numbers, continuation of organizational 
alignment efforts, enhanced T&E training opportunities and enhanced T&E 
awards. At the leadership level, DON continues to use the Gate review 
process to monitor the activities and progress of acquisition programs, 
to include T&E. Naval Systems Commands and affiliated Program Executive 
Offices/Program Management Offices continue to structure their 
organizations to meet workload demands and provide for the overall T&E 
competency expertise. DON continues to work close with the Office of 
the Secretary of Defense (OSD) to address acquisition reform 
initiatives, workforce improvement efforts, and T&E efficiency and 
effectiveness mandates.
    The Department of Navy was honored to receive the 2012 Top 100 
Global Innovator Award from Thomson Reuters which identified the Navy 
as one of the world's most innovative organizations. The Navy was the 
top ranked government organization granted this award that is based on 
the objective criteria of overall patent volume, patent grant success 
rate, global reach of the portfolio and patent influence as evidenced 
by citations. In addition the Navy continues to be recognized by the 
Institute of Electrical and Electronics Engineers and the industry 
based Intellectual Property Intelligence Quotient patent board as a top 
10 performer in innovation worldwide.
Section 219
    The DoN has historically made deliberate and measured investments 
to ensure stability within the organic workforce. During this period of 
refreshing our workforce, section 219 of the NDAA for Fiscal Year 2009 
has proven invaluable to maintaining the health of the Navy Labs, 
Warfare and Systems Centers. The Naval Innovative Science and 
Engineering (NISE) program grew to nearly $100 million in fiscal year 
2012. The NISE investments have been critical in refreshing aging 
infrastructure through investments in updating and creating new 
technical facilities. The NISE program has allowed the Navy Labs, 
Warfare and Systems Centers to revitalize and refresh the technical 
capabilities of the workforce through training and the support of 
advanced degrees and certifications. NISE programs have provided 
breakthrough research and been responsible for the maturation and 
transition of technology to the warfighter and programs of record. The 
NISE has encouraged cross-organizational multi-disciplinary projects 
that include partnerships with academia and industry. Finally, the NISE 
program has allowed the Navy to recruit and retain top technical talent 
in support of the Fleet. We want to thank you for extending the sunset 
clause until 2016. We would encourage you to make this a permanent 
authorization.
Science, Technology, Engineering and Mathematics
    Our ability to support the warfighter depends on our ability to 
sustain a Science, Technology, Engineering, and Mathematics (STEM) 
workforce--with Discovery and Innovation investments supporting STEM 
outreach from kindergarten through post-doctoral education. One of our 
greatest challenges involves our concern that the number of U.S. 
citizen STEM graduates will not keep up with future U.S. demand or with 
international competition for the same talent.
    Our investments seek to increase diversity and numbers of students 
pursuing STEM degrees. Areas of emphasis include: (1) freshman and 
sophomore STEM retention in college; (2) hands-on STEM programs in 
urban and rural middle schools; (3) teacher training in naval-relevant 
fields of study; and (4) mission-critical graduate student and post-
doctoral support. Programs incorporate naval content, metrics to 
measure impact, and coordinate with other Federal STEM programs. 
Further, programs are selected based on potential for growth and 
geographic expansion, as well as ability to serve underrepresented 
student populations. We are in the process of developing a 
comprehensive metrics and evaluation plan for all STEM programs, which 
measures not only numbers of students and teachers, but assesses our 
ability to fulfill naval requirements.
    Our investment in our workforce is critical but so too is our 
investment in our infrastructure. The Naval Infrastructure Capabilities 
Assessment (NICAP) initiative started in fiscal year 2010 at NAVAIR. 
Based on the direction of this subcommittee, DoN expanded it in fiscal 
year 2012 to include all RDT&E capabilities at the Warfare Centers. The 
expanded NICAP initiative will collect a limited amount of readily 
available data and is expected to be complete by the end of this fiscal 
year. In March of this year, we began the initial collection of 
information at NAVAIR, NAVSEA, and SPAWAR. Because each of the SYSCOMs 
use a different taxonomy to classify and manage their RDT&E 
capabilities, we believe that there will be some challenges in 
correlating the data and do not expect to be able to conduct a full 
comparative analysis across all of our mission areas. As such, there is 
a strong possibility that we will have to revisit the data in fiscal 
year 2014 to address areas where there are disconnects in the data 
provided and to implement additional tools to make the data more 
consistent.
    The NICAP review initiative captures the ``AS-IS'' capability 
baseline to enable the integrated assessment of the RDT&E capabilities 
across the Department of Navy. Initial areas of focus include 
capability distribution, capability integration, capability alignment, 
capability availability and capability sustainment requirements. The 
NICAP provides dynamically-generated assessment views, statistical and 
tabular reports supporting each of the five major objective areas. 
These views and reports enable the comparative assessment of the 
current Naval RDT&E capability baseline and relevant supporting 
analyses for emerging infrastructure reviews.
    When completed, NICAP will have captured and base lined technical 
information on hundreds of buildings with more than 500 different 
capabilities spread across 68 different geographical locations of our 
14 Laboratories and Warfare Centers. The depth and the breadth of their 
capabilities is exceptional; in spite of some of the less than ideal 
conditions our scientists and engineers must perform their work.
    The authority for unspecified minor construction up to $4 million, 
under 10 U.S.C. Sec. 2805, continues to hold significant potential for 
the revitalization of Naval Laboratories and Warfare Centers. We have 
initiated the review and approval process for our first use of this 
authority at NRL. As our program begins to gain strength, we anticipate 
it becoming a valuable resource.
    Balancing the infrastructure needs of our laboratories with the 
needs of the fleet and our warfighters will always be a challenge. With 
the current constrained budget environment, the minor construction 
authority granted under section 2805 becomes even more important to the 
revitalization of our technical infrastructure.
Improving processes to improve effectiveness
    Similar to the challenge we face to maintain excellence in our 
technical workforce and infrastructure is the requirement to continue 
to push for technological innovation within the framework of 
affordability. The Navy's is aggressively pursuing Integration and 
Interoperability (I&I) with the goal of maintaining technical and 
operational cohesiveness across mission areas in a fiscally-constrained 
environment while increasing the overall capability for the warfighter.
    Front end assessments based on operational evaluations that include 
the integration and interoperability of multiple systems ensure 
accuracy in determining capability gaps that will lead to better 
acquisition decisions to provide readiness of the Fleet. The overall 
objective is to produce a data informed Warfighting Capability Plan as 
part of the PPBS to eliminate financial waste, increase competition, 
and procure more relevant products. As part of this plan, the I&I 
initiative is not limited to just material solutions, but is evaluating 
probable solutions across the Doctrine, Organization, Training, 
Materiel, Leadership, Personnel, Facilities and Policy spectrum. This 
approach takes a holistic viewpoint across domains and functionalities 
to ensure coordination and collaboration. This is in part being 
accomplished by modifying the Systems Engineering Test Review and Gate 
Review Requirements to identify problems early in the development 
process and thus drive for better success in the production of 
integrated and interoperable systems while gaining more pre-Milestone B 
trade space. The I&I initiative is bringing to light the organizational 
requirements that must be satisfied to successfully implement this 
approach.
    The Department of Navy (DoN) acquisition leadership continues to 
promote the adoption of Open Systems Architecture (OSA) to support 
innovation, reduce the time needed to integrate improved technologies 
(cycle time), and lower systems' lifetime (total ownership) costs. On 
November 26, 2012, the Assistant Secretary of the Navy (Research, 
Development, and Acquisition), Mr. Sean Stackley signed out an updated 
Naval OSA Strategy. This strategy outlines an aggressive 4-year plan 
for business and technical changes. The result of executing the 
strategy will be affordable, open platforms (ships, airplanes, 
submarines, etc.) which will readily accommodate OSA-crafted modular 
systems (weapons, sensors, control systems, etc.). The strategy update 
addresses tightly coupled legacy systems and includes time and tools to 
evolve those to an OSA. The Naval OSA Strategy complements Better 
Buying Power 2.0 (BBP 2.0), recently issued by the Under Secretary of 
Defense (Acquisition, Technology, and Logistics), Mr. Frank Kendall. 
BBP 2.0 and Naval OSA continues the pursuit for greater efficiency and 
productivity in defense spending and are focused on total ownership 
costs across the lifecycle by emphasizing reuse, measurements, 
modularity, and reducing redundancy. Competition, using the 
Government's intellectual property and data rights, and breaking 
vendor-lock are key attributes of both Naval OSA and BBP 2.0.
    With the ramp down of Urgent Operational Needs Statements (UONS) 
the Navy is incorporating the best of breed resources and techniques 
from exemplar programs such as OSD's Quick Reaction Fund (QRF) and 
Rapid Innovation Fund (RIF) as well as the Navy's CNO's Speed to Fleet, 
Tech Solutions, Technology Insertion for Program Savings (TIPS), 
SwampWorks, Future Naval Capability (FNC), and Rapid Technology 
Transition (RTT) into our core programs. Institutionalizing these 
techniques will result in more affordable, rapid fielding of innovative 
capability to the Fleet.
    The defense industrial base is a critical component of the Navy's 
S&T strategy. As part of the Department's Better Buying Power's 
initiative to incentivize productivity and innovation in industry and 
government, the Navy is leveraging the OSD developed Defense Innovation 
Marketplace website (www.DefenseInnovationMarketplace.mil). The website 
allows for a one-stop-resource to keep industry and academia apprised 
of critical department and Navy S&T and acquisition information. These 
materials allow industry to better align their independent research and 
development (IR&D) efforts, providing Navy personnel stronger 
connection to projects with potential leverage for current programs and 
future planning. The Marketplace search functionality (now in Beta test 
phase) will enhance the continued communication between government and 
industry, as Navy acquisition community will be able to stay informed 
about industry's IR&D efforts. The Navy's continues to make good use of 
the DOD's Manufacturing Technology Program (ManTech) for industrial 
preparedness. As an example the Navy's ManTech portfolio contains 70 
projects aimed at cost reduction efforts of the Virginia-class 
submarine with a potential for savings in of $25 million/hull.
    The DoN continues to pursue partnerships with academia and industry 
as a critical part of our strategy to provide a cutting technological 
edge to the fleet. Work for Private Parties (WFPP) authorities in 
conjunction with Other Transaction Authority (OTA) and other technology 
transfer authorities provide a variety of tools that the Navy has 
successfully applied for affordable and effective technology 
development and fielding. The DoN continues to utilize its Cooperative 
Research and Development Agreements (CRADAs) authority. A CRADA allows 
partners (government and non-Federal) to save money and valuable time 
in achieving mutually desirable results. A non-Federal partner can 
provide facilities, equipment, personnel, and funding to the CRADA. DoN 
uses its CRADA authority to strengthen the U.S. industrial base and the 
transfer and acceptance of commercial off-the-shelf technology for 
government. DoN has entered into 3,262 CRADAs since 1989. These CRADAs 
directly support ongoing research projects at the DoN laboratories. 
There were 192 CRADAs signed in fiscal year 2012 as well as 
modifications to a number of existing CRADAs.
                                summary
    With all the technological and budgetary challenges we face our 
goal remains the same: to ensure our sailors and marines are armed with 
technically superior capabilities. We can ensure this continues through 
disciplined processes focused on affordability, executed by a skilled 
workforce with technical capabilities second to none who perform state-
of-the-art science and engineering in facilities that enable creativity 
and innovation. We have made great strides over this last year and we 
look forward to the continuing challenges. Thank you for your continued 
support and the opportunity to appear before you today.

    Senator Hagan. Thank you.
    Dr. Walker.

STATEMENT OF DR. DAVID E. WALKER, DEPUTY ASSISTANT SECRETARY OF 
     THE AIR FORCE FOR SCIENCE, TECHNOLOGY, AND ENGINEERING

    Dr. Walker. Chairman Hagan and Ranking Member Fischer, I am 
pleased to have the opportunity to provide testimony on the 
2014 Air Force S&T program.
    As our Chief of Staff, General Welsh, recently stated in 
his vision for airmen, our Service is fueled by innovation. The 
Air Force's single, fully-integrated S&T program and our 
outstanding scientists and engineers are truly at the forefront 
of this innovative spirit.
    The Air Force's fiscal year 2014 budget request for S&T is 
approximately $2.3 billion. These investments support a robust 
and balanced foundation of basic and applied research and 
advanced technology development that will provide demonstrated 
transition options and support future warfighting capabilities. 
This year's budget reflects a strong support of S&T from our 
leadership in this challenging fiscal environment and is 
balanced across the warfighters' needs for rapid reaction 
solutions, mid-term technology development, and revolutionary 
far-term capabilities.
    Despite the strong support, the Air Force S&T program is 
not immune to the impacts of sequestration. So far, the Air 
Force research laboratory has notified over 40 universities and 
20 contractors regarding grants and contracts that will be 
terminated, delayed, or rescoped.
    We are also concerned about the negative impact of 
sequestration on our ability to attract and retain exceptional 
scientists and engineers.
    The total impact of the Air Force research, technology, and 
development activities remains unclear, but it is safe to say 
that many of the new and promising technologies will be delayed 
in their transition to the warfighter.
    While there are still uncertainties with sequestration, the 
budget does reflect a promise of the future warfighting 
capabilities, enabled by technologies developed in our 
laboratory.
    Chairman Hagan, Ranking Member Fischer, I am pleased to 
present the Air Force program and look forward to your 
questions.
    [The prepared statement of Dr. Walker follows:]
               Prepared Statement by Dr. David E. Walker
                              introduction
    Chairman Hagan, members of the subcommittee, and staff, I am 
pleased to have the opportunity to provide testimony on the fiscal year 
2014 Air Force Science and Technology (S&T) Program. This is my first 
chance to address you as the Deputy assistant Secretary of the Air 
Force for Science, Technology and Engineering, a position I assumed in 
August 2012.
    As the nature and sources of conflict throughout the globe have 
become more diverse and less predictable, our Nation continues to face 
a complex set of current and future security challenges many of which 
are outlined in Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense, the defense strategic guidance issued by the President 
in January 2012. This guidance directed a renewed focus on the Asia-
Pacific region, as well as continued emphasis on the current conflicts 
in the Middle East. The Air Force's enduring contributions to national 
security as part of the joint team are more important now than ever 
before and we must remain agile, flexible, ready and technologically-
advanced. Over the last year, the Air Force has aligned our S&T efforts 
to best support the Defense Strategic Guidance within current fiscal 
constraints. Our S&T Program supports the Air Force capabilities 
fundamental to the major priorities of the guidance, such as deterring 
and defeating aggression, projecting power in anti-access and area 
denial environments, operating in the space and cyberspace domains, and 
maintaining a safe, secure, and effective strategic deterrent. The Air 
Force S&T Program plays a vital role in our Nation's security by 
creating compelling air, space and cyberspace capabilities for precise 
and reliable global vigilance, reach and power.
    The Chief of Staff of the Air Force, General Mark Welsh III, 
recently stated in his vision for Airmen that our Service is ``fueled 
by innovation.'' Our single, fully integrated S&T Program is truly at 
the forefront of this innovative spirit and stems from several enduring 
tenets. First, we must prepare for an uncertain future and investigate 
game-changing technologies to affordably transition the art-of-the-
possible into military capabilities. To support the Air Force Core 
Functions, we must create technology options across a wide spectrum 
ranging from institutionalizing irregular warfare capabilities to 
providing new capabilities to operate effectively in cyberspace and 
across all domains. We must demonstrate advanced technologies that 
address affordability by promoting efficiencies, enhancing the 
effectiveness, readiness, and availability of today's systems, and 
addressing life cycle costs of future systems. In keeping with our 
Service heritage, we must continue to foster an appreciation for the 
value of technology as a force-multiplier throughout the Air Force. We 
must maintain the requisite expertise to support the acquisition and 
operational communities and modernize and improve the sustainability of 
unique research facilities and infrastructure. Finally, we will 
leverage and remain vigilant over global S&T developments and emerging 
capabilities to avoid technological surprise and exploit art-of-the-
possible technologies for our military advantage.
                 air force s&t fiscal year 2014 program
    The Air Force fiscal year 2014 S&T Program investments support a 
robust and balanced foundation of basic research, applied research, and 
advanced technology development that will provide demonstrated 
transition options to support future warfighting capabilities.
    As a brief overview, adjustments were made within the S&T portfolio 
to focus investments in the most promising technologies to develop 
future warfighting capability. We are continuing emphasis in our 
propulsion portfolio by investing in the development of adaptive 
turbine engine technologies which will provide optimized fuel 
efficiency and increased performance capabilities over a wide range of 
flight regimes. We have emphasized research in hypersonics technologies 
and in electronic warfare areas to provide the capability to counter 
adversary anti-access and area denial approaches and effectively engage 
time sensitive targets. Based on the current and forecasted cyberspace 
capabilities, threats, vulnerabilities and consequences outlined in our 
recently published Cyber Vision 2025 document, we aligned and 
emphasized our cyber S&T investment in four areas: mission assurance, 
agility and resilience, optimized human-machine systems, and 
foundations of trust. We have also emphasized the development of 
technologies to address limiting capability factors of human 
performance in military missions including autonomy, data to decisions 
and human systems research. I will highlight some of these adjustments 
later in my testimony.
                    air force s&t program priorities
    The Air Force fiscal year 2014 S&T Program supports the following 
overarching priorities that are detailed in our Air Force S&T Strategy 
document.
Priority 1: Support the Current Fight While Advancing Breakthrough S&T 
        for Tomorrow's Dominant Warfighting Capabilities
    While developing technologies to equip our forces of tomorrow is 
the primary objective of any S&T portfolio, our dedicated scientists 
and engineers have been equally motivated over the last decade to 
ensuring needed technologies get into the hands of our warfighters 
today. This valuable near-term S&T investment has saved lives in the 
current fights and continues to pay dividends as we transition to other 
focus areas in the long term. I would like to share with you a few 
examples of how we have supported our warfighters over the last year 
and how those technologies are being poised to sustain and increase 
military capabilities of the future.
    As an example of one method, the Air Force has executed a rapid 
reaction process through the Air Force Research Laboratory since 2005 
which has provided rapid S&T solutions to the urgent needs of Air Force 
Major Commands (MAJCOMs), Combatant Commands (COCOMs) and other Defense 
agencies. Through focused interaction with warfighters and often 
partnership with other Agencies, the process leverages the breadth and 
depth of knowledge within the laboratory and its external ``innovation 
network'' of academia and industry to deliver accelerated technology 
solutions in approximately 1 year or less.
    This rapid reaction process has been used to develop warfighting 
capabilities to meet U.S. Central Command (CENTCOM) Joint Urgent 
Operational Needs including efforts such as Blue Devil Block 1. Blue 
Devil Block 1 is a persistent intelligence, surveillance, and 
reconnaissance (ISR) capability demonstrating the first-ever 
integration of wide area field-of-view and narrow field-of-view high 
definition day and night sensors cued by advanced signals intelligence 
sensors. Imagery and data are transmitted in near-real-time to an 
individual soldier on the ground or a Blue Devil ground station where 
multiple sensor data is rapidly fused for real time cueing and 
decisions. This new technology and lessons learned from testing in 
theater will improve capabilities in future systems, especially those 
poised for engagements where reaction timelines and aircraft access 
will be more challenging. In addition, the Air Force is rapidly working 
a variety of S&T solutions to address MAJCOM operational needs for 
rapid landing site survey and preparation, improved collaboration using 
existing infrastructure and information, and increased global command, 
control and communication (C3) connectivity. The Air Force has a strong 
record of nurturing these types of game-changing concepts using modest 
S&T funds along with partnerships with customers to transition 
technologies quickly to warfighters while leveraging the investment to 
inform and enhance the development of future technologies.
    Even outside of the defined rapid reaction process, the Air Force 
S&T Program has been instrumental in quickly bringing new or enhanced 
operational capabilities to warfighters worldwide. For example, we are 
improving awareness of the global space operations through Air Force 
S&T support to the Joint Space Operations Center (JSPOC) at Vandenberg 
AFB, CA. In 2011, the Air Force Research Laboratory deployed a modern 
data fusion and display prototype which provides a Windows-type user 
interface for the 20,000 object space catalogue, modernizing from the 
text-based system used for the last 50 years. The prototype system 
provides near real-time monitoring of all orbiting U.S., commercial and 
foreign spacecraft assets within a common operating picture reducing 
operator workload while alerting them to events in a more timely 
fashion. It was used in October 2012 to monitor the breakup of a 
Russian Breeze-M rocket body and ensure that orbiting operational space 
assets were safe from the newly created space debris. As this 
technology is transitioning to the operational Air Force through the 
JSPOC Mission System (JMS) program at the Space and Missile Systems 
Center (SMC), the Air Force Research Laboratory now provides continued 
upgrades for space operations on tight, 6-month spirals and accelerates 
transition of critical S&T products to Air Force capability.
    The models of development for these technologies, as well as 
lessons learned, are now informing our research efforts to effectively 
manage and utilize the volumes of data created by the vast array of 
fielded sensors. While we have developed tools to fuse data from 
multiple sensors and sources to assist intelligence analysts in 
exploiting the data, most of these tools have not yet been integrated 
into our standard tactical intelligence processing system, the Defense 
Common Ground Station (DCGS). To facilitate this transition, we are 
building a Planning and Direction, Collection, Processing and 
Exploitation, Analysis and Production, and Dissemination (PCPAD)-
Experimental Cell, or PCPAD-X. This will be an operationally-
representative environment and innovative approach for research, 
development, experimentation, demonstration, and objective evaluation 
to facilitate transition of technologies for mission driven PCPAD. It 
will provide a realistic ``analyst-in-the-loop'' environment which does 
not exist today, complete with validated subjective and objective 
performance metrics, for testing potential analysis capability 
improvements. This environment will allow us to run existing and new 
analytical tools through the PCPAD-X to more quickly and affordably 
identify ``best of breed'' tools for transition.
    The Air Force S&T Program is also supporting the current F-22 
Raptor fleet while planning to enhance warfighter effectiveness in next 
generation platforms. The Air Force Research Laboratory supported the 
Safety Investigation Board, Scientific Advisory Board, the Root Cause 
Corrective Action analysis, and is a major participant in the Air 
Combat Command-led F-22 Life Support Systems Task Force. To address 
life support issues, laboratory personnel provided expertise on oxygen 
systems, toxicology, aerospace medicine/physiology, epidemiology, and 
bio-environmental engineering. Scientists and engineers from the 
laboratory identified on-board oxygen generating system (OBOGS) 
limitations and recommended parameters for OBOGS challenge testing, 
resulting in a new Department of Defense (DOD) Air Quality Standard. 
They also developed and flew a helmet-mounted pulse oximeter for use on 
the F-22 in 90 days and then transitioned the design for fleet-wide 
operational fielding. To address multiple Air Force demand signals and 
future concerns due to the increasingly complex and capable fighter 
aircraft in development, the Air Force has begun reconstituting 
aerospace physiology/toxicology core competencies at the Air Force 
Research Laboratory. Using research and technology developed in 
response to the F-22 issues, this program will provide evidence-based 
understanding of pilot physiologic response to new air platforms, 
characterize physiologic performance for new flight envelopes, 
understand physiologic impacts due to toxic exposure, and understand 
unexplained cognitive dysfunction that can occur in some pilots.
Priority 2: Execute a Balanced, Integrated S&T Program that is 
        Responsive to Air Force Service Core Functions
    Our Nation depends on the Air Force to counter a broad range of 
threats that could limit our ability to project global reach, global 
power, and global vigilance. Even as we emphasize focus on the Asia-
Pacific region, we are aware that we cannot predict with certainty the 
time, place, or nature of the next contingency where airpower will be 
needed. The Air Force's technological advantage is threatened by the 
worldwide proliferation of nuclear weapons and advanced technologies, 
including integrated air defenses, long-range ballistic missiles, and 
advanced air combat capabilities. In addition, advances in adversarial 
capabilities in space control and cyber warfare may limit Air Force 
operations in air, space, and cyberspace. Some of these technologies 
are attained with relatively minimal cost; greatly reducing the 
barriers to entry that have historically limited the reach and power of 
non-state actors, organized militias, and radical extremists. Today's 
strategic environment indicates the military need for flexibility and 
versatility which requires a shift to inherently agile, deployable, and 
networked technologies and systems--including legacy systems--designed 
to accomplish a multitude of missions.
    Through prioritization and planning, the Air Force fiscal year 2014 
S&T Program provides the technical edge to affordably meet these 
threats during this time of fiscal constraint. Since high-payoff 
technologies are needed to sustain our air, space, and cyberspace 
superiority in an increasingly competitive environment, we are smartly 
investing in a broad portfolio of technologies aligned with the Defense 
Strategic Guidance that are balanced across the warfighter's need for 
near-term, rapid-reaction solutions; mid-term technology development; 
and revolutionary, far-term capabilities.
    At the Service level, the Air Force has matured its S&T planning 
processes a great deal over the last year by improving the alignment 
between S&T efforts and capability gaps outlined in Air Force Core 
Function Master Plans (CFMPs). Our robust research program pushes the 
technological state of the art across a range of areas for potential 
military application as well as being responsive to technology needs 
expressed by the operational community. The established S&T planning 
governance process ensures S&T investments are well understood, 
structured for success, and poised for transition when completed. This 
process is the backbone of Air Force S&T contributions to the larger 
DOD priorities and strategies and has provided us opportunities to lead 
the Department's research and strategic planning efforts in some areas 
including cyber, autonomy, electronic warfare and manufacturing 
technology. These planning efforts also support the Department's Better 
Buying Power 2.0 initiatives to achieve greater efficiencies in 
acquisition, including developing stronger partnerships with the 
requirements community, using the technology development phase for true 
risk reduction and incentivizing productivity and innovation in 
industry.
    To illustrate how the Air Force S&T Program is supporting our 
national security by providing the necessary speed, range, flexibility, 
precision, persistence, and lethality across all domains (air, space, 
and cyber), I would like to highlight some of our efforts in the areas 
we are leading for the Department as well as across our portfolio of 
contributions:
    Speed can contribute to survivability of Air Force systems and 
allow us to engage time sensitive targets even in the anti-access/area-
denial environments we increasingly expect to encounter in the future. 
Starting in early fiscal year 2011, the Air Force S&T community--in 
collaboration with industry--developed roadmaps for high speed 
technology options for Air Force missions in anti-access/area-denial 
environments. The Air Force focused its S&T investments in two key 
areas: technology for survivable, time-critical strike in the near term 
and a far-term penetrating regional Intelligence, Surveillance, and 
Reconnaissance (ISR) aircraft.
    Our survivable, time critical strike technology effort includes 
research and advanced technology development efforts that support the 
maturation to Technology Readiness Level 6 (TRL 6) of Mach 5.0 plus 
cruise missile technology. Detailed roadmaps have been developed, which 
include advanced guidance technology, selectable effects ordnance, 
airframe technology, and expendable cruise propulsion. The technologies 
requiring early flight testing are included in a demonstration effort 
that will begin later in fiscal year 2013 called the High Speed Strike 
Weapon (HSSW).
    HSSW is an integrated technology demonstration that was proposed by 
the same Air Force and industry team who developed the overall Air 
Force S&T plan/roadmaps in the high speed area. Key to HSSW's tactical 
relevance is its compatibility with Air Force 5th generation platforms 
to include geometric and weight limits for internal B-2 Spirit bomber 
carriage and external F-35 Lightening II fighter carriage. It will also 
include a tactically compliant engine start capability and launch from 
a relevant altitude. The flight demonstration will be the first 
tactically-relevant demonstration of Mach 5.0 plus airbreathing missile 
technology. This effort addresses many of those items necessary to 
realize a missile in this speed regime including: modeling and 
simulation; ramjet/scramjet propulsion; high temperature materials; 
guidance, navigation, and control; seekers and their required 
apertures; warhead and subsystems; thermal protection and management; 
manufacturing technology; and compact energetic booster technologies. 
The Air Force is actively pursuing a partnership with the Defense 
Advanced Research Projects Agency (DARPA) on this demonstration to 
leverage their recent experience in hypersonic technologies that are 
relevant to HSSW and other hypersonic systems.
    Analysis of challenges in the future security environment has made 
clear that our advanced munitions technology like the HSSW and other 
existing or advanced munitions will need to operate when the Global 
Positioning System (GPS) signal is either degraded or perhaps even 
denied entirely. As such, we have focused on pursuing a number of 
munitions guidance technologies that will allow us to continue to 
operate much as we have become accustomed today. These include 
technologies that expand upon our current anti-jam GPS navigation 
capabilities and novel technical approaches to navigation such as optic 
field flow techniques and multi-sensor fusion. These techniques allow 
the Air Force to harvest information regarding these systems as they 
traverse through their flight environment and infer the necessary 
navigation information.
    The importance of dominance in the cyberspace domain cannot be 
overstated as it is a foundation for global vigilance, reach and power. 
Cyberspace is a domain in which, from which and through which all 
military missions are performed and is becoming increasingly contested 
or denied. The Air Force has placed great emphasis on S&T efforts to 
overcome threats and provide systems and methods that are affordable 
and resilient. The Chief Scientist of the Information Directorate of 
the Air Force Research Laboratory located in Rome, NY (``Rome Lab''), 
has been charged to chair the collaborative, Joint cyber S&T road-
mapping efforts for DOD based on the Laboratory's history of 
exceptional cutting-edge cyber research.
    Recognizing that sound strategies are the foundation for wise 
investments, the Air Force Office of the Chief Scientist partnered with 
operators and technologists from across the Air Force, government, 
industry, academia, National Laboratories, and Federally Funded 
Research and Development Centers to develop Cyber Vision 2025 last 
year. Cyber Vision 2025 describes the Air Force vision and blueprint 
for cyber S&T spanning cyberspace, air, space, command and control, 
intelligence, and mission support. It provides a long-range vision for 
cyberspace to identify and analyze current and forecasted capabilities, 
threats, vulnerabilities and consequences across core Air Force 
missions in order to identify key S&T gaps and opportunities. The Air 
Force's cyber S&T investments are aligned to the four themes identified 
in Cyber Vision 2025: Mission Assurance, Agility and Resilience, 
Optimized Human-Machine Systems, and Foundations of Trust. Cyber Vision 
2025 and our associated cyber S&T strategy guides the research 
conducted at the Air Force Research Laboratory ensuring the relevance 
and efficiency of our technology development for Air Force and national 
security users.
    Air Force S&T efforts in Mission Assurance seek to ensure 
survivability and freedom of action in contested and denied 
environments through enhanced cyber situational awareness for air, 
space, and cyber commanders. Research efforts in automating network and 
mission mapping are working to provide warfighters with the ability to 
detect and operate through cyber attacks with threat warning, 
integrated intelligence, and real-time forensics/attribution. We are 
also focused on developing technologies to achieve cross-domain 
integrated effects and determine cross-domain measures of effectiveness 
(MOEs), including cyber battle damage assessment.
    Our research in Agility and Survivability is focused on minimizing 
future system risk by reducing attack surfaces, segregating critical 
mission systems, and developing methods to contain attacks. Air Force 
S&T efforts are creating dynamic, randomizable, reconfigurable 
architectures capable of autonomously detecting compromises, repairing 
and recovering from damage, and evading threats in real-time. The Air 
Force is also enhancing cyber resiliency through an effective mix of 
redundancy, diversity, and fractionation (i.e., distributed 
functionality).
    We are also working to maximize the human and machine potential 
through the measurement of physiological, perceptual, and cognitive 
states to enable personnel selection, customized training, and user-, 
mission-, and environment-tailored augmented cognition. Air Force S&T 
efforts are developing high performance visualization and analytic 
tools to enhance situational awareness, accelerate threat discovery, 
and empower task performance.
    The Air Force is developing secure foundations of computing 
including trusted fabrication technologies, anti-tamper technologies, 
and supply chain assurance, as well as effective mixes of government, 
commercial off the shelf, and open source software to provide operator 
trust in systems (e.g., sensors, communications, navigation, command 
and control). Research into formal verification and validation of 
complex, large scale, interdependent systems as well as vulnerability 
analysis, automated reverse engineering, and real-time forensics tools 
will improve security at all levels of technology implementation. 
Further, efforts exploring high speed encryption, quantum communication 
and, eventually, quantum encryption will further increase the 
confidentiality and integrity of supporting infrastructure.
    The security atmosphere of today, and that which we can visualize 
in the future, requires our military aircraft to operate in highly 
contested environments. Manipulation of the electromagnetic spectrum--
called electronic warfare--can help us negate the integrated air 
defenses of our adversaries. Over the years, we have developed stand-
off, on-board, and off-board capabilities to protect fighter and bomber 
aircraft; however, our adversaries continue to evolve their 
capabilities at the same time. As the lead for the DOD Electronic 
Warfare Priority Steering Committee, the Air Force has been charged to 
facilitate road-mapping efforts for research in new technologies and 
techniques to be effective against the new threats involving ways to 
defeat new sensors operating in new frequencies, more elaborate 
detection methods, and greater computational and networking 
capabilities of adversaries. The new technologies and techniques being 
created feed into Air Force and Navy upgrades to a range of military 
aircraft including fighters, bombers, support and decoy aircraft. For 
example, the Eagle Passive/Active Warning Survivability System (EPAWSS) 
effort for the F-15 Eagle is leveraging the Air Force Research 
Laboratory Sensors Directorate work in advanced digital receiver 
technology as one key architecture option.
    Research in our Directed Energy portfolio has also shown promise in 
the development of capabilities to defeat our adversary's electronic 
systems on the ground. In October 2012, the Air Force successfully 
flight tested a system called the Counter Electronics High Powered 
Microwave Advanced Missile Project (CHAMP). During the flight test, the 
CHAMP cruise missile navigated a pre-programmed flight plan and emitted 
bursts of high-powered microwaves at targets containing a wide range of 
representative electronic equipment, effectively delivering a 
functional disable of the systems without harmful effect on people or 
structures in and around the target area. This successful test 
culminated the CHAMP Joint Capabilities Technology Demonstration and 
moved the Air Force closer to providing combatant commanders with a 
non-kinetic counter electronics capability as a complement to lethal 
measures, increasing mission options for the warfighter.
    The Defense Strategic Guidance pivot to emphasis on the Asia-
Pacific region means missions with expanded duration, intermittent 
communication disruptions, high rate of changing situations, and a 
larger array of asset capability. These realities require research in 
both human systems and performance to better enable warfighters to 
enhance military capabilities as well as autonomous systems which can 
extend human reach by providing potentially unlimited persistent 
capabilities without degradation due to fatigue or lack of attention. 
Since they are investment priorities, the Department has established 
cross-Service steering groups for both human systems and autonomy to 
roadmap and coordinate research efforts in these areas. The Air Force 
is leading the autonomy steering group and is an active member of the 
human systems group.
    The Air Force envisions that the greater use of autonomous systems 
will enable United States forces to operate well within the ``decision 
loops'' of our adversaries. Such increases in machine autonomy will 
require humans and automated systems to work as a team, with some level 
of decisionmaking delegated to the machine counterpart. We seek to 
enable the right balance of human and machine capability to meet Air 
Force challenges in the future and are focused on growing autonomous 
system capability, integrated with the human capacity to perform in a 
high-tempo, complex decision environment, and to optimize humans 
working together with machines, both effectively and efficiently.
    To achieve this, the Air Force is developing technologies to enable 
Airmen and machines to work together, with each understanding mission 
context, sharing understanding and situation awareness, and adapting to 
the needs/capabilities of the other. The keys to maximizing this human-
machine interaction are: instilling confidence and trust among the team 
members; understanding of each member's tasks, intentions, capabilities 
and progress; and ensuring effective and timely communication. This 
must all be provided within a flexible architecture for autonomy, 
facilitating different levels of authority, control and collaboration. 
Current research is focused on understanding human cognition and 
applying these concepts to machine learning. For example, we are 
developing efficient interfaces for an operator to supervise multiple 
MQ-9 Reaper platforms and tools for ISR analysts to better identify and 
track targets of interest. We are also conducting human systems 
research in the areas of decisionmaking, training, bioeffects, and 
human-centered ISR. We have increased our emphasis in training research 
with the objective of providing live, virtual, and constructive 
rehearsal capabilities to increase affordability by reducing training 
time by 30 percent, increasing training effectiveness by 15 percent, 
and creating common methods for cross-mission application. As a result 
of this research, the Air Force will be more efficient and effective 
while tailoring training and rehearsal to the point-of-need to keep 
pace with rapidly evolving and complex threats.
    Today there is little cross-platform interaction or coordination 
without a human engaging in the interaction. Therefore, the Air Force 
is developing cooperation technologies that will allow machines to 
autonomously synchronize activity and information to take our military 
capabilities beyond human limitations. Systems that coordinate 
location, status, mission intent, intelligence and surveillance data 
can provide redundancy, increased coverage, decreased costs and/or 
increased capability. The Air Force's research efforts are focused on 
developing control software to enable multiple, small unmanned air 
systems to coordinate mission tasking with other air systems or with 
ground sensors and also on developing munition sensors and guidance 
systems that will increase operator trust, validation, and flexibility 
while capitalizing on the growing ability of munitions to autonomously 
search a region of interest, provide additional situational awareness, 
plan optimum flight paths, de-conflict trajectories, optimize weapon-
to-target orientation, and cooperate to achieve optimum effects.
    The Air Force's mission to fly, fight and win in air, space and 
cyberspace, requires a tremendous amount of energy. In fact, our 
Service uses approximately 2.5 billion gallons of aviation fuel per 
year and is the largest fuel consumer in the Federal Government. As 
such, we are pursuing research into technologies to reduce energy 
demand for both legacy and future aircraft.
    For example, in conjunction with Air Mobility Command, the Air 
Force Research Laboratory is conducting promising research to reduce 
drag on C-130 Hercules aircraft, one of the primary fuel consumers in 
our legacy fleet. This low-cost aft-body flow control research, 
consisting of microvanes and finlets, will reduce the flow separation 
around the cargo ramp and the horizontal junction with the fuselage. 
Flight testing to date has shown that these devices can save 3 to 5 
percent of total aircraft drag during normal flight conditions. The Air 
Force has developed and funded a two-phase flight test process to 
optimize the design of the devices to provide the maximum fuel savings 
possible without having detrimental effects on airdrop operations, 
basic loadability, handling qualities and structural dynamics. Phase I 
(early operational assessment) testing was successfully completed at 
Yuma Proving Ground in November 2012. Phase II (fuel flow, handling 
qualities and structural dynamics) testing is on schedule for late 
spring of this year. This modest research investment could save 
approximately $130,000 per year, per aircraft and the resulting 
production versions are installable at the field level, meaning minimal 
downtime for the warfighter and depot level maintenance savings.
    For the longer term reduction in energy demand, the Air Force is 
investing in the development of adaptive turbine engine technologies 
which have the potential to reduce fuel consumption by 25 percent in 
comparison to current turbine engines by enabling optimized performance 
over a wide range of flight conditions. These technologies also 
increase capability in anti-access/area denial environments by 
increasing range by 25 to 30 percent or increasing time-on-station by 
33 to 40 percent.
    The Air Force initiated investment in adaptive engine technology 
through the Adaptive Versatile Engine Technology (ADVENT) program. This 
research is being leveraged by our current Adaptive Engine Technology 
Development (AETD) program. AETD will mature ADVENT and additional 
technologies, including inlet and exhaust systems, to TRL 6 to reduce 
risk for follow-on activities and facilitate integration into multiple 
platforms to realize operational benefits. Investments in these efforts 
helps us reduce energy demand, bridge the ``valley of death'' between 
S&T and potential acquisition programs, and help maintain the U.S. 
industrial technological edge and lead in turbine engines.
    The Air Force is also the lead for the Department in the 
development and demonstration of technology solutions that decrease 
manufacturing risk and increase weapon system affordability for 
aerospace propulsion, structures and ISR systems. Simply stated, a more 
capable and lean warfighting force requires a much more efficient and 
responsive manufacturing and industrial base than we currently have 
today. The Air Force Manufacturing Technology program explores 
strategic issues and opportunities in manufacturing and industrial 
readiness including moving manufacturing considerations to bear earlier 
in the design cycle to reduce acquisition cost and risk; enabling a 
seamless life-cycle value stream management through a cradle-to-cradle 
digital design thread to improve process control, optimization, and 
agility; integrating the industrial base enterprise to predict, 
identify, and react to supply chain issues; and creating the factory of 
the future with flexible, robust tooling and machine cells for limited 
part runs.
    For example, the Air Force Manufacturing Technologies program 
conducts Manufacturing Readiness Assessments on new technology, 
components, processes, and subsystems in order to define the current 
level of manufacturing maturity and identify associated risk. A number 
of major DOD weapon system suppliers and Original Equipment 
Manufacturers (OEMs) have integrated manufacturing readiness levels 
into their gated technology transition processes to help decide when a 
technology is mature enough to use in a product design. As a result, 
prime contractors and other OEMs are making better decisions about 
which technologies to include in product designs resulting in reduced 
cost, schedule and performance risk. This past year, the advanced 
manufacturing propulsion initiative continued activities to reduce the 
weight and cost of turbine engines through advanced manufacturing of 
light weight castings and ceramic composites. The advanced next 
generation radar and coatings affordability projects continue to reduce 
technology cost and manufacturing risk to systems such as the F-22 and 
F-35 aircraft.
    The Air Force S&T Program is also supporting the President's 
Materials Genome Initiative (MGI) aimed at doubling the speed and 
reducing the cost of discovering, developing and deploying new advanced 
materials. The MGI is engaging all stakeholders in the materials 
development community which spans academic institutions, small 
businesses, large industrial enterprises, professional societies, and 
government. Our supporting effort is called Integrated Computational 
Materials Science and Engineering (ICMSE) and its objective is to 
develop quantitative and predictive techniques for the field of 
materials science and engineering (MSE) to bring similar benefits to 
MSE that have been realized from Finite Element Analysis or 
Computational Fluid Dynamics in aircraft design.
    ICMSE requires new, science-based capabilities in order to create 
fresh approaches for the design of materials. Coupled with materials 
design is the need to develop a robust, two-way conduit between 
materials design, manufacturing, and component design. The Air Force, 
Johns Hopkins University, and the University of Illinois have teamed to 
form a center-of-excellence (COE) to innovate new solutions for 
pervasive ICMSE issues, including physics-based multi-scale modeling 
and uncertainty quantification. While the COE explores basic science 
underpinnings for ICMSE, nearer-term approaches to integrate the 
continuum spanning materials design and vehicle design are being 
explored in concert with vehicle/component designers, manufacturers, 
materials suppliers, and materials developers. Two Air Force-relevant 
engineering problems (high-temperature metals and composites) establish 
the scope on which to develop, test and demonstrate approaches for 
ICMSE.
    Research in our space portfolio also addresses how to accomplish 
the Air Force mission with resiliency and affordability. For example, 
we are seeking to provide added protection to our satellites by 
increasing the robustness and resiliency of the most susceptible 
spacecraft components which will provide affordable options for a more-
defendable space capability. The Air Force collaborates with NASA on 
research in space communications to extend the frequency trade space 
and create options for future space communication satellites. We are 
also continuing to mature technology for next-generation GPS user 
equipment with anti-jam capability for contested theater operations, 
including the transitioning of the cold atom technology from basic to 
applied research which offers great promise for operating in GPS-denied 
environments. In the space situational awareness area, the Air Force 
S&T enterprise operates two 3.5 meter class telescopes and several 
smaller ones that, as well as performing research, are used to support 
satellite owners in determining the health/status of their satellites 
using high resolution optical images instead of the traditional radar.
    To reduce the cost of space access, the Air Force is researching 
ways to improve Evolved Expendable Launch Vehicle capability through 
increased use of multiple payloads. Air Force S&T maintains a long-term 
investment in pervasive spacecraft technologies, such as more efficient 
space solar cells that can reduce solar array mass by 40 percent.
    Space experiments, such as the current Advanced Responsive 
Tactically Effective Military Imaging Spectrometer payload on TacSat-3 
and the Communications/Navigation Outage Forecasting System, are a 
critical tool used to develop and prove new technologies and 
phenomenologies. Future experimental satellites include the Automated 
Navigation and Guidance Experiment for Local Space, which will research 
local space surveillance, and the Demonstration and Science Experiment, 
which will research approaches to counter a space nuclear detonation.
    Development of revolutionary, far-term capabilities begins with 
scientific discovery and the building of foundational knowledge with 
our investment in basic research. Based on visions of the future 
established by Air Force leadership, Air Force scientists and engineers 
identify, nurture and harvest the best basic research to transform 
leading-edge scientific discoveries into new technologies with 
substantial military potential. These technologies transform the art-
of-the-possible into near-state-of-the-art and offer new and better 
ways for the acquisition community to address far-term warfighter 
needs. While it can be more of a challenge to quantify long-term basic 
research, with the scientists and engineers at the Air Force Office of 
Scientific Research within the Air Force Research Laboratory actively 
engaged in worldwide technical communities, the Air Force has leveraged 
significant investments made by other defense and Federal agencies, as 
well as non-defense and international laboratories, in its on-going 
efforts to advance basic science.
    For example, an Air Force basic research funded project in quantum 
storage at the University of Maryland has demonstrated for first time 
that multiple images can be stored and retrieved at different times 
based on interaction between light and matter. In this atomic memory, 
light signals can now be stored as patterns in a room-temperature vapor 
of atoms that are tailored to absorb and later re-emit messages on 
demand. Quantum storage capabilities will exploit quantum effects for 
computing and communications are vital to increasing the speed, 
capacity and security of our networks and computer systems of the 
future. The researchers are continuing to understand entangled quantum 
memories for use in securing long distance transmission of secure 
information through optical fiber systems.
    While most of our investments in the Air Force S&T Program focus on 
developing and advancing technologies for the future, S&T also has an 
important role to play in providing technology options to increase the 
availability and decrease the life cycle costs of our legacy platforms 
now. Many of the Air Force's current aircraft were manufactured decades 
ago and are experiencing age-related issues, such as cracking and 
corrosion, especially after nearly 20 years of unabated use. Our S&T 
efforts to address sustainment issues not only pay dividends now but 
also provide options when designing and building future systems. We are 
focusing our sustainment efforts in three areas: inserting new 
technologies in legacy systems to better and more affordably sustain 
the fleet, developing technology-based approaches to improving fleet 
health management and introducing new design approaches for future 
systems and components.
    For example, over the last year our research had yielded results in 
addressing critical cracking issues with the C-5 Galaxy aircraft floor 
bulkhead end fittings. The cracks, caused by stress corrosion, led to 
increased maintenance costs and reduced the amount of cargo that could 
be carried on the aircraft. Using a new, more stress corrosion-
resistant aluminum alloy, researchers developed a new die forging 
process by which all of the 92 fitting shapes required for the C-5 
bulkhead could be produced using only two separate forging dies. The 
new technology, which has now been transitioned to the Warner Robins 
Air Logistics Center, provides many benefits including a 25 percent 
overall cost savings, an 80 percent reduction in fabrication time and a 
60 percent increase in service life of the fittings.
    The Air Force is also a key member of the multi-Service Advanced 
Technology Demonstration (ATD) addressing propulsion sustainment for 
current and future aircraft. The team is working to provide hot section 
component durability which is a significant driver of maintenance 
costs. This effort is focused on advanced turbine cooling and 
aerodynamics technologies that reduce weight and allow engines to run 
hotter at the same material temperature thereby producing more thrust. 
These types of technologies are aimed at benefitting turbine engine 
programs across DOD including current programs, such as the F-35, as 
well as future Air Force programs, such as the Long-Range Strike 
bomber.
Priority 3: Retain and Shape the Critical Competencies Needed to 
        Address the Full Range of S&T Product and Support Capabilities
    The U.S. Air Force is the most technologically advanced air force 
in the world - and we intend to keep it that way. Technology is part of 
every mission we perform, and innovative and technically-savvy Airmen 
are our most important asset. The Air Force ensures we continue to have 
war-winning technology by careful and proactive management of our 
Science, Technology, Engineering, and Mathematics (STEM) workforce.
    Through implementation of Bright Horizons, the Air Force STEM 
Workforce Strategic Roadmap, and the Air Force Systems Engineering 
Strategic Plan, we continue to develop and retain a workforce with the 
skill sets necessary to create compelling air, space and cyberspace 
capabilities for precise and reliable global vigilance, reach and 
power. The Air Force is progressively developing a highly qualified 
engineering workforce with the engineering competencies required to 
support the acquisition of warfighting systems. We continue to be 
appreciative of the Laboratory Demonstration authority and are 
investigating opportunities to expand the program to our entire STEM 
workforce.
    The Air Force conducted an in-depth review of our STEM requirements 
and is revamping our accession and recruiting processes to help career 
field managers obtain the right skill sets. Over last 8 years in the 
Science, Mathematics, and Research for Transformation (SMART) 
Scholarship Program, the Air Force averaged 60 scholarships per year to 
scientists and engineers; after payback commitment, we retained 88 
percent of scholars in Air Force jobs. Through an innovative Section 
219 (of the Duncan Hunter National Defense Authorization Act of 2009) 
workforce initiative, the Information Assurance Internship funds 10 to 
20 college juniors and seniors in STEM disciplines to study the science 
of information assurance and information warfare on Air Force problems. 
For instance, last year's interns, who averaged a 3.8 grade point 
average, developed a mathematical model for the MQ-9 Reaper remotely 
piloted vehicle in a contested cyber environment. The Air Force 
utilizes this initiative to attract and offer employment to the best 
and brightest cyber students. An objective of our workforce strategy is 
to improve the pool of diverse candidates available to enter our STEM 
workforce. We also continue to have a vibrant relationship with 
Historically Black Colleges and Universities and Minority Serving 
Institutions (HBCU/MI), who conduct research projects, improve 
infrastructure, and intern with the Air Force Research Laboratory in 
support of the Air Force mission. The Air Force uses essential tools, 
such as the SMART Program and the Information Assurance Internship, to 
renew and grow the required skill sets critical for Air Force mission 
success. The Air Force remains dedicated to improving our force 
management processes to attract, recruit and retain STEM talent.
Priority 4: Ensure the Air Force S&T Program Addresses the Highest 
        Priority Capability Needs of the Air Force
    As discussed earlier, the Air Force S&T planning and governance 
process ensures the Air Force S&T program addresses the highest 
priority capability needs of our Service. The Air Force Core Function 
Master Plans (CFMPs) play a critical role in this process by 
identifying S&T needs as they relate to capability gaps, requirements, 
and potential materiel solutions.
    Among other things, this process has allowed us to create and 
execute Air Force Flagship Capability Concepts (FCCs). Key factors in 
commissioning this type of an Air Force-level technology demonstration 
effort include having a well-defined scope and specific objectives 
desired by a MAJCOM. The technologies are matured by the Air Force 
Research Laboratory with the intent to transition to the acquisition 
community for eventual deployment to an end user. These FCCs are 
sponsored by the using command and are vetted through the S&T 
Governance Structure and Air Force Requirements Oversight Council to 
ensure they align with Air Force strategic priorities. Currently, the 
Air Force is working on three FCCs: the High Velocity Penetrating 
Weapon (HVPW), Precision Airdrop (PAD), and Selective Cyber Operations 
Technology Integration (SCOTI).
    The HVPW FCC was established to demonstrate critical technologies 
to reduce the technical risk for a new generation of penetrating 
weapons to defeat difficult, hard targets. This FCC is maturing 
technologies that can be applied to the hard target munitions 
acquisition including guidance and control, terminal seeker, fuze, 
energetic materials and warhead case design. This effort is developing 
improved penetration capability of hard, deep targets containing high 
strength concrete with up to 2,500 feet per second (boosted velocity) 
impact in a GPS-degraded environment. This technology will demonstrate 
penetration capability of a 5,000 pound-class gravity weapon with a 
2,000 pound weapon thus increasing the loadout for bombers and 
fighters. Testing in 2013 has demonstrated warhead survivability and 
several sled tests are scheduled for the first quarter of fiscal year 
2014.
    The PAD FCC was commissioned in 2011 in response to a request from 
the Commander of Air Mobility Command for technologies to improve 
airdrop accuracy and effectiveness while minimizing risk to our 
aircrews. The Air Force Research Laboratory, Aeronautical Systems 
Center, and Air Mobility Command members established a working group to 
explore all aspects of the airdrop missions from re-supplying our 
warfighters in the field to providing humanitarian aid to people in 
need across the globe. To date, PAD FCC efforts have focused on: early 
systems engineering analysis to determine major error sources, data 
collection, flying with crews, wind profiling, designing high density 
pallet rollers, and designing modeling and simulation (M&S) activities. 
We expect demonstrations to begin in late calendar year 2013.
    The SCOTI FCC is executing smoothly toward providing cyber 
technologies capable of affecting multiple nodes for the purposes of 
achieving a military objective. SCOTI directly meets the needs of a 
major capability area in the Air Force Cyberspace Superiority Core 
Function Master Plan and provides a non-kinetic alternative to an 
adversary's operations. The standardized delivery platform being 
developed is scheduled to be complete in fiscal year 2013 and will 
serve as a baseline for current and future integrated cyber tools. The 
SCOTI stakeholders signed the finalized Technology Transition Plan in 
March, clearly identifying how SCOTI is expected to transition to the 
warfighters for operational use. SCOTI is on track to be delivered to 
the Air Force Life Cycle Management Center in fiscal year 2013 for 
integration with additional mission software, and Initial Operational 
Capability can be achieved as early as fiscal year 2016. In the past 
year, the stakeholders also completed SCOTI's Test Master Plan, and 
warfighters from the 166th Air National Guard conducted system-level 
tests on two development spirals of SCOTI technology with positive 
results. SCOTI is on track to meet all eight of its technical 
performance measures and provide the desired capability to the 
warfighter.
    To ensure these FCCs and other advanced technology development 
efforts are postured for successful transitions to warfighting 
capability, the Air Force is continuing deliberate efforts to better 
align S&T planning, technology transition planning, and development 
planning. The linkages between these planning activities are critical 
to initiating acquisition programs with more mature technologies and 
credible cost estimates, and we are mandating this linkage in new Air 
Force policy.
    The Air Force is also engaging small businesses through the Rapid 
Innovation Fund (RIF) to rapidly insert innovative technologies into 
acquisition programs that meet critical national security needs. In the 
first year (fiscal year 2011), the Air Force solicited innovative 
technologies in five broad thrust areas for this program: (1) Rapid 
Fielding to Support Overseas Contingency Operations; (2) Cyberspace 
Superiority and Mission Assurance; (3) Improved System Sustainment; (4) 
Power Generation and Energy for Platforms; and (5) Joint Urgent 
Operational Needs with an Air Force interest. After receiving 729 white 
paper proposals from vendors in 44 States, the Air Force awarded 46 
contracts, all of which went to small businesses.
    We have experienced a similar reaction from industry to our fiscal 
year 2012 RIF broad agency announcement which solicited innovative 
technologies from more than 40 thrust areas submitted by the Air 
Force's Program Executive Offices (PEOs). The more than 700 white paper 
proposals received will be evaluated by a team from across the Air 
Force. We expect to make award notifications for the fiscal year 2012 
RIF program in the spring of this year.
    Overall, the Rapid Innovation Fund presents an opportunity to 
transition innovative technology into Service programs. The Rapid 
Innovation Fund provides a vehicle for businesses (especially small 
businesses) to easily submit their innovative technologies where they 
feel it will best meet military needs. The Air Force benefits by having 
the ability to evaluate proposed innovative technologies against 
critical needs and selecting the most compelling for contract award.
    Through the Small Business Innovation Research (SBIR)/Small 
Business Technology Transfer Program, the Air Force continues to garner 
the creative, innovative, and entrepreneurial spirit of small 
businesses to solve many technological problems. In that regard, we are 
pleased that the SBIR program was reauthorized through 2017 and many of 
its provisions expanded or made permanent. As we implement the 
provisions of the reauthorization, we intend to collaborate with other 
Federal agencies, where practical, to ensure that our processes are 
streamlined, efficient, and that small businesses continue to be a 
major driver of high-technology innovation and economic growth in the 
United States.
                               conclusion
    Our emphasis areas reflect our re-focused S&T portfolio given 
budgetary challenges and the Defense Strategic Guidance. I believe 
these areas also reflect the promise of future warfighting capability 
enabled by the technologies that will be developed with Air Force S&T 
Program investment. We recognize that these challenges will not 
disappear tomorrow, and that is why we have improved our processes to 
make better investment decisions and to capitalize on these investments 
to efficiently deliver capability to our warfighters. We continue to 
institutionalize these initiatives in our policies and procedures 
across the Air Force. The S&T portfolio we present to you today, after 
all, is the genesis of our warfighting capability of tomorrow. Our 
Airmen and our Nation are depending on it!
    Chairman Hagan, thank you again for the opportunity to testify 
today and thank you for your continuing support of the Air Force S&T 
Program.

    Senator Hagan. I thank all of you very much.
    I know sequestration really has had a negative impact on 
all of these disciplines, and it is something, I am sure, we 
will be talking about more. It really does concern me greatly 
especially, Dr. Walker, your last comment about the ability to 
retain the current scientists and as engineers that are 
currently working throughout the disciplines of civilians in 
DOD.
    So let us look at my handouts, the two charts.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Hagan. These two charts were taken from a DARPA 
presentation on the defense aircraft industry last year. The 
first one titled: ``Threats evolve faster than we develop 
systems,'' depicts an example of how these threats evolve much 
faster than the time it takes for us to actually develop these 
systems, such as the F-22 fighter. During the time from the 
initial requirement of the advanced technical fighter in the 
early 1980s to the first F-22 delivered in 2003, this chart 
depicts how the world had significantly changed, both in terms 
of threat and in terms of technologies. Especially today when 
we are talking about the budget, the sequestration, the impact 
of the time alone certainly would impact the budgeting 
consequences and issues.
    Then the second chart titled: ``Clear time trend in defense 
new start aircraft developments,'' shows the time that it has 
taken DOD to develop the aircraft from an historical 
perspective. The chart shows the time it took from the start of 
an aircraft program to the time it first flew in an operational 
capability over the years, once again from the 1940s until now. 
Note that this time from program start to first operational 
flight has significantly increased.
    The interesting thing, I think, too on this chart is it 
shows a comparison of development time for commercial aircraft 
and then the commercial automotive sector. As you can see, they 
are diametrically opposed to what it is from the military.
    Now, I know that we have to heavily caveat these charts 
because these increasing delays over time are due to a host of 
issues, including budget pressures and I know the acquisition 
system inefficiencies, change orders, et cetera. So I am not 
implying that this is solely a S&T issue.
    But to me, these charts really do stress a key concern that 
is relevant to the panel today. With the rapid pace of global 
technological development, we no longer have the luxury of 
thinking about an idea, developing it, waiting a decade or more 
to field these weapons systems.
    So I would like each of you to address the following. What 
is the DOD S&T enterprise doing to ensure that DOD is able to 
take advantage of the latest technological developments and 
make sure that they are infused in a timely and affordable 
manner into current and future programs of record? Mr. Shaffer, 
if you would like to start, and we can just go down the panel.
    Mr. Shaffer. Certainly. I would like to highlight two 
things that DOD is doing in S&T.
    The first is we are trying to put more developmental 
prototyping in our 6-3 program. The reason we are trying to do 
that is it is much cheaper to test out concepts and 
capabilities in S&T than it is in full-up acquisition. In fact, 
if you look at your chart here, the period where we were flat 
with very short delivery--and there are certainly a number of 
factors--happens to coincide when DOD and NASA were in full 
scale with their X-plane prototype period. We had the X-1, X-2, 
through the X-15. None of those were designed to be fully 
operational systems, but we actually prototyped parts of those 
systems very early. Mr. Kendall has asked myself and asked also 
DARPA to take a look at doing additional prototyping in these 
spaces to drive down the cost and time.
    The second thing that we are doing, and this is really with 
DARPA and the Services--is we are gathering up all of our folks 
in our laboratories who are working in the area of system 
design. We have a program--they are terrible names--Engineering 
Resilient Systems, and it is led by Dr. Jeff Holland, who is 
the technical director at the Army Corps of Engineering Lab in 
Vicksburg, a strange place for it, but he has a very big 
effort.
    We are looking at how do we do more system design in 
computers so you can do a much broader range of trades in 
computers rather than bending metal and also design in things 
like open systems to the maximum extent possible. So as we have 
long developments, we can do very easy modular changes to the 
design and we can do that in a computer instead of on an 
assembly line.
    I highlight those two areas. If those two pan out, we will 
dramatically reduce the cost of new systems, the time to 
develop, and also importantly, we will stock the cupboard for 
when the acquisition budget grows again so we will have 
capabilities to keep our forces safe.
    Thank you.
    Senator Hagan. Dr. Prabhakar?
    Dr. Prabhakar. Let me start by just putting my comments in 
the context that you started with, which is to recognize that 
there are so many factors behind any of these phenomena.
    From the technology end, what we are really seeking are 
some technical approaches and demonstrations that might serve 
to poke that system and show that there are some different ways 
of doing business in the hope that that will help trigger a 
change in the overall process because that is really what it is 
going to take.
    I want to break the question into two pieces. First, is the 
platforms that we build, and the aircraft that these charts 
focus on are a great example of that, the major vehicle systems 
that we build. Then second, the capabilities that go on them, 
be it electronic warfare or communications or sensing whatever 
job we are trying to do. I think that there are important 
innovations in both of those.
    On the platform side, a key theme that I think many of us 
see is that as these acquisition processes stretch out, that 
just creates more time for requirements to continue to change 
and for more and more iterations which creates a situation 
where it is literally decades and the whole thing does not 
really close. So one of the key concepts that is behind several 
of our programs is: are there approaches that will collapse 
that time so that we can much more quickly get to a capability 
and not have this long period of time during which we are 
continuing to move the requirements around. We are working 
towards that in some of our manufacturing programs.
    As well, when we do X-plane or other X-platform projects, 
these are not acquisition programs, but at the R&D stage, we 
are really looking at innovative business models and have had 
some very good success in doing demonstrations that are much 
faster and for far fewer dollars than anyone thinks is possible 
simply by building the right incentive structures, by having 
very specific objectives that do not change, some of those 
kinds of practices. So that is platforms.
    I think I am actually much more encouraged by what is going 
to be possible as we change the systems that go onto our 
platforms, and electronic warfare is a particularly good 
example. Today when we build a new electronic warfare system, 
we are building something that is monolithic and it is very 
complex. When our adversary changes what part of the 
electromagnetic spectrum they are working then we have to start 
all over and redesign the whole thing. We are building a new 
architecture that will allow us to be extremely agile so that 
when the threat changes, we can adapt in real time without 
having to ditch that whole thing and go through this next 
laborious acquisition process.
    So those are a couple of the ideas.
    The big point in my mind is that for so many years 
affordability has been the conversation you have after you do 
the innovation. A challenge that we are really putting out to 
the leading edge technical community is to say where are the 
innovations that will completely flip the cost equation, not 
just make incremental changes because I think that can be 
powerful, but it has not been historically the question that we 
have been asking.
    Senator Hagan. Thank you.
    Ms. Miller?
    Ms. Miller. Thank you.
    As Mr. Shaffer said, prototyping is a big activity that we 
are doing to try to better inform our requirements, 
requirements that often are reaching a little bit too far and 
take us a long time to achieve. What we have been doing within 
the Army is working with our requirements community and our S&T 
community to better inform those requirements. The prototypes 
help to set us up for good capacity in that regard because we 
can show what is technically achievable and we can drive down 
risk.
    In addition, within the Army, I mentioned our strategic 
modernization strategy we are developing. This is a 35-year 
look out into the future. What it does is it allows us to align 
the programs of record and their lifecycles against where they 
need technology insertion and where we need to have new 
platforms, perhaps, to replace them. That helps to, again, 
inform requirements and helps to baseline our S&T investments 
so that we can do this insertion. It is actually aligning us so 
that our technology is there when it is needed, not too early, 
not too late, and we will, again, try to shorten up our----
    Senator Hagan. It seems 35 years is an awfully long time 
from a planning perspective in today's highly technical 
architecture and field.
    Ms. Miller. Yes, ma'am. I wish I could say that we did not 
have platforms that lasted that long, but ma'am, we do and we 
do need to have technical upgrades as we go along. That is why 
it is important to understand the lifecycle of the platforms 
and when we can have technical insertions.
    I would also argue, and it has been mentioned, that we do 
not really know what threat will be there in 30 or 35 years, 
but the fact is, if you stretch something out that far, you 
certainly know the world is going to be different. It breaks 
people from saying I am just going to do what I am doing now 
for a little bit longer. They have to think differently. It has 
opened some new trains of thought with people that pretty much 
have been closed thinking.
    Senator Hagan. That is why I like, Dr. Prabhakar, your 
comment about when the threat changes, that you can quickly 
adapt.
    Ms. Miller. Absolutely.
    The other aspect that we are doing is looking to the 
international community and what technologies they can bring 
in. We talked about open architectures and systems engineering, 
and we are looking at the international community to see what 
they can bring in and augment the Army's capabilities. I am 
certain that is true across all of the Services and DARPA 
because we are never going to say that we are the smartest 
people here. Everybody has good ideas. We need to know how to 
use them.
    Senator Hagan. I am already running close. We are going to 
have 10-minute sessions. So let us move on. Thank you, Ms. 
Miller.
    Ms. Lacey?
    Ms. Lacey. So I will agree with everyone, all the comments 
that have been made so far.
    I will cite two specific examples. One is a rapid 
prototyping that you probably heard a lot about in the last 
couple of weeks, our high-energy laser demo on an operational 
platform in the Gulf. So that should give us some context, some 
learning, some understanding, so we can make sure that as we 
move into the development phase, that we have provided a 
capability that the warfighter can actually use.
    Senator Hagan. What does this laser do?
    Ms. Lacey. It is a high energy laser and it will shoot down 
air targets or fast attack craft targets close in on the 
surface. So we are going to be doing a demonstration of that 
coming up in 2014. I am very excited about it.
    The comment I would like to make about open architecture--
we too are moving in that direction. It is not so much driven 
by S&T, but it is certainly enabled by it. But the real key is 
to open up what you already have. As Ms. Miller pointed out, we 
are going to have systems for 35 years. In our case, we have 
aircraft carriers for 50 years. If we do not open those systems 
up now, we are not going to be able to take advantage of these 
S&T breakthroughs as they happen. So we in the Navy are 
spending a lot of time doing that as we move forward.
    Senator Hagan. Thank you.
    Dr. Walker?
    Dr. Walker. The Air Force is in lockstep with the other 
Services and the Acting Assistant Secretary of Defense for R&E 
as well.
    A couple of things I did want to address, though, is I 
really like your slide because I am doing a study right now 
that our chief scientist, Dr. Mark Maybury, is running on 
Global Horizons, which is really looking at the future of S&T 
and how we take that to improve the Air Force of the future. I 
am leading a team that is doing mission support which is really 
how do we improve the acquisition system so that we can bring 
in new technology faster. This slide is my number one trend 
slide that I am using.
    It was interesting. When I started looking into this, we 
really have driven ourselves into a long acquisition process. 
We are not following the trends of other agencies, and we want 
to take advantage of that. We started asking questions. The 
automobile industry, which is actually coming down--they 
actually are using four times the number of lines of code in a 
modern automobile than we use in the F-35. Yet, they are able 
to do it faster. One of the reasons is because they learned to 
use loosely coupled software, use loosely coupled systems as 
opposed to our approach which has been highly integrated 
systems.
    So when you start looking at how do we have an evolvable 
system, which is really addressing that issue of requirements--
requirements change over time. From the time you define what 
you want to have to the time you actually have it fielded and, 
much worse, 60 years later when you are still using it like we 
are using some of our aircraft, you have to be able to evolve 
and you need to design the system so it can evolve along the 
way. Having loosely coupled, where possible, allows you to do 
that and is much more flexible.
    Taking advantage of the digital design and building a 
digital thread, taking advantage of advanced manufacturing 
capabilities--these are all ideas of how we can improve our 
ability to get from technology ideas into warfighting systems.
    Senator Hagan. Thank you.
    Senator Fischer?
    Senator Fischer. Thank you, Madam Chairman.
    I would just like to follow up with you on the line of 
discussion that Chairman Hagan was discussing. When we talk 
about collapsing time and looking at the changes that are 
occurring and looking out 35 years and adapting and evolving, 
is that happening now? Is that happening now or is that your 
plan and goal for the future? Is that the direction you want to 
head or are you headed in that direction now? If you are headed 
there now, have you had any successes that you could share with 
us where you have been more able to adapt in a quicker manner?
    Dr. Prabhakar. I will kick off.
    Let me just shift to a different realm than aircraft. An 
example I really love of adaptability--your big question was 
are we doing this yet. I would say we have been trying for a 
while and it is slow progress, but there are some examples 
where we are making progress.
    One that I really like has to do with the situation our 
soldiers on the ground were facing in Afghanistan. The 
intelligence that is collected from the battlefield all gets 
pulled up, but the soldiers on patrol from 1 day to the next do 
not really have the kind of immediate, fresh information from 
their colleagues as they go every day when they go out on 
patrol. So one of the projects that we did, we would hear 
sometimes from these young soldiers that they had left a 
civilian world where they could walk around with maps on their 
iPhones and know where they are and post text notes to their 
friends. Now they are in Afghanistan and all of that is gone 
when they really could have used it.
    It turns out those things are much harder to provide in a 
battlefield environment. Security is a real concern. The 
connectivity does not really exist. You need secure and 
physically hardened devices. So there was a whole host of 
challenges.
    In some work that we did where we did get real devices in 
the hands of soldiers, we were able to give them handhelds 
where they would have these kinds of applications that looked 
like the applications that they used in the civilian world, and 
they used these applications in just very practical ways. So 
soldiers would go out, they are going out on patrol, they are 
recording the local observations of what is this farmer doing 
in this field or what is the scuttlebutt that they are picking 
up as they are talking to people. That is immediately fed to 
their colleagues and to the guy that is going out on patrol the 
next day.
    Senator Fischer. So it is not just going up. It is really--
--
    Dr. Prabhakar. It is laterally. Exactly.
    The thing that I think is really great about this, because 
I love what we are doing for the soldiers today, but really the 
exciting thing to me is we are introducing this element of 
adaptability because the applications that they use one day 
tell them what the applications are that they need the next 
day. The development team that we have sitting next to them 
then will spin up that application, and a few days later, they 
are able to have a new capability that matches the particular 
thing that they are trying to track or a particular way that 
our adversary might have adapted on the other side.
    So it is just one little example, but when you see the 
power of that kind of ability to react, I think it does tell 
you where we could go.
    Senator Fischer. Good. That is good to hear.
    I would like to talk about sequestration and the effect 
that that is going to have on the groups that you are 
representing. Sequestration could reduce the Federal R&D 
spending by $57.5 billion, or 8.4 percent, through 2017. 
Spending on defense R&D could be cut by $33.5 billion, or 9.1 
percent. That is going to bring the spending levels for defense 
down to the 2002 level.
    Do you have any specific S&T sequestration funding numbers 
for fiscal year 2013 and a breakdown of how it is going to 
impact your programs?
    Mr. Shaffer. Yes, ma'am, and we can provide that to you. I 
mean, I do not have it in my pocket.
    [The information referred to follows:]

    The fiscal year 2013 sequester amount for science and technology 
(S&T) program is $1.035 billion less than the President's budget 
request of $11.861 billion as shown in the below chart, this was 
roughly a 9 percent reduction.

                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                         Sequestration Cuts   President's Budget
                                                    President's Budget     to President's        Request 2014
                                                       Request 2013       Budget  Request     (Fiscal Year 2013
                                                                                2013                CY $)
----------------------------------------------------------------------------------------------------------------
Basic Research (6.1).............................               2.117               -0.176        2.164 (2.128)
Applied Research (6.2)...........................               4.478               -0.403        4.627 (4.549)
Advanced Technology Development (6.3)............               5.266               -0.456        5.192 (5.105)
                                                  --------------------------------------------------------------
  Department of Defense Science and Technology...              11.861               -1.035      11.984 (11.782)
----------------------------------------------------------------------------------------------------------------

    Impact to S&T programs were varied and resulted in outright program 
reductions and delays. In many cases, work in S&T is sequential, the 
work planned for fiscal year 2013 will be deferred to fiscal year 
2014--and reduces the work planned in fiscal year 2014 by that same $1 
billion. Some of the reduction will be seen at our government labs, but 
other impacts will be seen in government and universities. For example, 
we expect the total investment in universities to decline by about $250 
million. This will reduce our overall number of grants going out to 
universities by somewhere between 500 and 1,000 grants. Since manpower 
in our S&T laboratories is funded with Applied Research, we were left 
with the choice of reduce program content or people. A reduction of 
$400 million within Applied Research equates to more than 1,500 
scientists and engineers; we forestalled these layoffs in fiscal year 
2013 but not for much longer. Sequestration cuts have also impacted the 
S&T laboratories to hire scientists and engineers into critical 
positions. Within the Assistant Secretary of Defense for Research and 
Engineering portfolio, there will be no new technology demonstrations 
in fiscal year 2013. These specific examples are only an illustration 
of $1.035 billion cut to the DOD S&T program. The impact of these cuts 
will not only affect today's S&T program but will have lasting effects 
in the future.

    Mr. Shaffer. The basic rule of thumb, 9 percent to every 
program element and project across DOD in RDT&E. So you can 
take whatever was appropriated in fiscal year 2013, subtract 9 
percent from that. That will cause terminations in some cases. 
It will cause certainly slowdowns to all of our programs.
    The place that it will hurt, I think, the worst is the 
reduction in the number of grants and new awards. We heard Ms. 
Lacey say that the future naval capability new starts are cut 
in half. I will start no new technology demonstrations for 
fiscal year 2013. We will reduce our overall number of grants 
going out to universities by somewhere between 500 and 1,000. 
That does not sound like much, but when we in the United States 
are struggling to have enough scientists and engineers to work 
on national security problems, I do not know which of those 500 
or 1,000 grants might give me a very good scientist or engineer 
to come work in my laboratory. But if we reduce the pool, we 
reduce the future. Those are the impacts of sequestration.
    We are all in the business of an uncertain future. We were 
talking before this hearing started. We have some members in 
uniform who say, just fund the basic research projects that are 
going to pan out. We wish we were that good. You have to fund a 
number of things and then some of them will bubble up. By 
reducing the pool, we are going to reduce the future.
    I want to point out one thing that we are talking about 
within DOD. In previous periods, the last two big budget 
contractions for DOD, Secretary Perry was involved in both of 
those. He made a strategic choice to maintain investment in R&D 
because we are cheaper and we provide options. We are working 
through that argument. I do not know if that is going to hold 
for this time or not. But in the past, there has been a 
strategic choice in our Government to maintain the future.
    Senator Fischer. Would it be more helpful if you had 
flexibility to decide where you were going to make those cuts 
and make them more targeted?
    Mr. Shaffer. Yes, absolutely.
    Senator Fischer. Would it be less harmful to the programs 
that you deal with?
    Mr. Shaffer. Absolutely.
    Senator Fischer. So you could make wiser decisions if we 
would give you the flexibility to let you make those decisions 
within your department?
    Mr. Shaffer. Absolutely.
    Senator Fischer. Did anyone wish to add anything on that 
point?
    I happen to believe that we need to make sure that the 
funding and the programs need to be focused on our warfighters. 
So while sequestration may impact each of your organizations, 
the impact I am concerned with is, what is going to happen with 
regard to those warfighters and the warfighting capabilities? 
So what specific aspects and impacts will those cuts due to 
sequestration have on our warfighters and those specific 
capabilities?
    Ms. Miller. I guess I will start.
    Senator Fischer. If it remains like it is now and you do 
not have the options to make decisions yourself.
    Ms. Miller. As you have already heard, sequestration is not 
only impacting our programs. In some cases, we will terminate 
some of our S&T efforts, efforts that may well have produced 
capability for the warfighter. We are also certainly going to 
constitute a delay in what we can deliver. It will be an impact 
to getting things through the acquisition system and improving 
what we have.
    Certainly in the Army, we have a lot of systems that are 
coming back out of the war, becoming programs of record, 
becoming part of our main set of equipment, and it would be up 
to the S&T community to make sure that those pieces of 
equipment then are operational and can be upgraded and perform 
much more capably and affordably. So we will look to try to 
invest our resources, what we have of them, to make sure that 
we have platforms that are affordable and that do not cost as 
much money and perhaps not make as many new designs based on 
the limitation in the funding, certainly tied to what the 
warfighter wants.
    Senator Fischer. The budget that you were looking at, the 
five of you, was the budget introduced by the President. Is 
that correct?
    Ms. Miller. Yes, ma'am.
    Senator Fischer. So that did not account for sequestration. 
If we are going to account for sequestration, have you dug into 
that even deeper to find out what will need to be done? Have 
you looked at that at all?
    Mr. Shaffer. Are you asking have we gone through a 
prioritization to begin to understand how we would deal with it 
in 2014 if sequestration actually hits? Yes, ma'am, we are 
doing it.
    Senator Fischer. Well, it has hit.
    Mr. Shaffer. It has hit.
    Senator Fischer. It has hit, but the budget that was 
introduced did not have that accounted for in it.
    Mr. Shaffer. That is absolutely correct.
    Of course, we are looking at how we would prioritize. Yes, 
ma'am.
    Senator Fischer. The rest of you, would you answer please?
    Dr. Prabhakar. Absolutely.
    Just for context, in our work, which is projects-driven, we 
do not have standing laboratories for the work that we do at 
DARPA. We are in a constant process of prioritizing in the 
normal course of business. So when something like sequestration 
hit in fiscal year 2013, of course, we started with our lowest 
priority programs that were struggling already or, for whatever 
reason, there was a problem. But when the cut is as substantial 
as it was in fiscal year 2013, it does cut into the things that 
we very much would have wanted to do. So the consequences there 
included delays to important programs. Plan X, which is our 
cyber offense program that is just beginning, is an example. 
Delays on transition.
    One of the very interesting things we are seeing is the 
secondary effects because we do so much of our work with our 
partners in the Services, be it contracting or when things are 
more mature when we are going to field tests or going to test 
ranges. We are finding that all of those schedules now are 
delayed and pushed out.
    So the net effect from a 1-year hit in fiscal year 2013 
tends to be a series of delays. It is not the end of the world 
for our mission in the long-term. It is just very corrosive and 
extremely demoralizing to our program managers that we worked 
very hard to get in the door.
    One time, you can absorb that. My concern, about if this 
continues, is then it does start getting at our fundamental 
ability to create, in our case, these big leap-ahead 
technologies. So, instead of just a few months of delay, if we 
end up starting to have to cut into the actual work and drop 
things on the ground, that is where I think the bigger impacts 
loom, which would be much more dangerous.
    Senator Fischer. Just maybe a quick answer from the other 
three. I am way over my time.
    Ms. Miller. Yes, ma'am. We are looking at prioritization 
and what we will no longer be doing and aligning it with our 
programs of record and what the warfighter needs.
    Ms. Lacey. We are doing that as well in the Navy and the 
Marine Corps.
    Dr. Walker. We are also in the Air Force. The alignment to 
a given program element and the hits on certain programs will 
cause us to have to either realign programs within the Air 
Force or to delay in some of the key programs, particularly the 
bigger demonstrations that are closer to warfighter needs.
    Senator Fischer. Thank you. I am glad to hear that you are 
all being very realistic about the current law that we are 
under and the budget situation that we face. Thank you.
    Senator Hagan. Thank you.
    Dr. Prabhakar, you just mentioned the Plan X, and I wanted 
to address that. The President and the leadership of DOD from 
the Secretary on down have emphasized the importance of cyber 
to our Nation's security and prosperity and continue to 
increase investment in this area despite the declining overall 
budgets.
    DOD has turned to DARPA for substantial investment in this 
leap-ahead technology. DARPA's role is especially critical as a 
highly credible source of alternative approaches to operating 
in cyberspace from those developed by the National Security 
Agency and the cryptologic services of the Army and the Navy 
and the Air Force. It is very concerning to see that DARPA has 
levied a 43 percent cut on this flagship cyber program called 
Plan X in allocating sequester reductions in the portfolio.
    Why is this flagship cyber program being cut so 
significantly, and what are the broader implications because of 
this 43 percent cut?
    Dr. Prabhakar. That is a great example of the unfortunate 
impact of sequestration because when we are done making the 
cuts that we can live with, then we get to the things that we 
are not very happy about having to live with.
    The Plan X program that you cited is one component in an 
overall set of activities that we are doing in cyber. I do not 
want you to take away a notion that it is a 43 percent cut to 
our entire cyber portfolio. The Plan X program is just ramping 
up, and that was one of the reasons that we felt that was the 
right place to take that portion of the cut within that program 
element relative to the other hundreds of contracts that were 
underway in that program element. We had to choose among our 
children there.
    But just to paint a little bit broader picture, you are 
absolutely right. Cyber is something about which there is 
enormous concern in terms of cybersecurity. DARPA's role very 
much as in other fields is not operational. There are many 
other parts of DOD and the Intelligence Community as well that 
are focused on the operational mission. I think they are 
putting enormous effort into keeping up with this growing 
threat.
    What we are trying to do is come up with the technology 
ideas that change the trajectory because right now the threat 
keeps growing and all we really have as solutions is to hire 
people, of which there are not enough because they need special 
training, and every time there is an attack, we patch and then 
we hope. That is essentially all we can do.
    We have two themes and Plan X is one of them. The other 
piece is about cyber defense, first of all, which is trying to 
build--and I think we actually have some phenomenal programs 
that will build--the technical ability to create a more 
fundamental defense, ways to assess legacy systems and assure 
that they are secure and also then to build new systems, for 
example, embedded systems that might go into our advanced 
military platforms, build them in a way that is much more 
inherently secure. So I think with those technologies, we can 
get to a place where we get beyond just throwing people at it 
and get to a much more automated future for security.
    Then for cyber offense, back to the Plan X story, the dream 
here is right now our warfighters are engaged in, and they know 
how to fight a kinetic fight. Electronic warfare is a fully 
integrated part of that. But cyber sits off on the side. It is 
not a tool that someone engaged in that kinetic activity can 
really bring to bear in an active situation. It is because 
cyber offense tools are things that are exquisite pieces of 
software that you write. You really do not know for sure what 
they are going to take out when you launch them. Once you 
launch them, you do not really know what other collateral 
damage they have. They really are not weapons in the 
conventional warfighting sense. Building those capabilities is 
what the research program in Plan X will do, and that is, 
obviously, why we are very excited about pushing it forward as 
aggressively as we can.
    Senator Hagan. So do you feel comfortable, or somewhat 
comfortable, with the funding for the defensive part of 
cybersecurity issues?
    Dr. Prabhakar. I think we have been able to size that at a 
place where we are making the investments that have the 
greatest promise for big impacts. So, yes, I am comfortable 
with that.
    Senator Hagan. We certainly need to go back and look at 
Plan X too, in my estimation, going forward, for sure.
    Mr. Shaffer, last month Mr. Frank Kendall, the Under 
Secretary of Defense for Acquisition and Technology and 
Logistics, was quoted at a conference saying that he is 
considering a strategy of funding R&D projects despite the 
ongoing budget pressures. His objective is to fund R&D projects 
to keep the leading edge of the industrial base working on 
advanced technologies when budget pressures are significantly 
impacting major acquisition programs.
    Two thoughts, two questions. What are you doing to 
implement this strategy?
    Then also, in the President's budget, you have more than 
doubled the funding for the emerging capabilities technology 
budget line from $25 million to $62 million and have also 
created a new applied research for the advancement of S&T 
priorities with $45 million. Can you describe what this funding 
is for and how will it address the key issues of increasing 
responsiveness to develop and to deploy new technologies and 
affordability?
    Mr. Shaffer. Yes, ma'am. There are actually two threads in 
there, so let me start with the first one.
    We have touched on this a little bit already. Mr. Kendall 
is asking us to take a look at prototyping, late development 
prototyping demonstrations for a couple of reasons. One is to 
develop new capabilities. A second is to keep design teams 
employed when we are going through periods where we are not 
buying them out of equipment. So when you look at advanced 
technology, the real secret sauce are those really smart design 
team engineers who will go ahead and create the new trades and 
possibilities. So we will do some prototyping in some of those 
areas, I believe, to make sure that we keep the national 
intellectual capital viable for when we need the next set of 
systems.
    So that is where Mr. Kendall is looking. He is looking, 
through DARPA, at something called the next generation air 
dominance initiative to really look at what are the pieces for 
the next generation fighter or network set of fighters that we 
need to keep in place so that when we actually go to the next 
generation aircraft, hopefully it will not take 30 years to 
develop and that we will have the right smart people in place.
    The second question you asked, and by the way, and I have 
in my own lines in the Office of the Secretary of Defense 
increased the funding for prototyping in the emerging 
capabilities technology demonstration program. They will be 
doing prototyping in things like very advanced electronic 
warfare systems and things like some cyber capabilities. It is 
where we have to address new and emerging capabilities.
    The $45 million for the applied technology program actually 
is not a new start, new set of money. I took five or six of my 
old programs and collapsed those into a single program element 
to be able to fund good ideas competitively across DOD in the 
cross-cutting areas that everybody has S&T programs in: 
communications, cyber, electronic warfare, materials, those 
types of things that all of my partners here are funding at 
some level. We want to have a program to put connective tissue 
to make their programs better. All of that $45 million will be 
executed through the Services. So it is a new way of thinking 
about how are we going to get more bang for the buck by funding 
internally competitively proposed projects in those certain 
cross-cutting areas.
    Senator Hagan. Thank you.
    Ms. Miller, Ms. Lacey, and Dr. Walker, in the fiscal year 
2014 budget request, DOD has more or less preserved its top 
line funding for S&T. In part, this is due to increases in 
basic and applied research at the expense of advanced 
technology development. While increased basic research is 
important, there are concerns over decreases in more applied 
research funding and for activities that can help transition 
technologies across what has classically been labeled the 
valley of death, the gap between the labs and then the military 
users.
    Do you feel the balance between basic research, applied 
research, and advanced technology development is right, and 
what is your assessment of our funding for technology 
development across the valley of death? Ms. Miller?
    Ms. Miller. I will start, ma'am.
    I think that the balance needs to be looked at. I think 
that we have done a good job in pushing resources down into 
basic research and now applied research, but it has caused an 
even earlier valley of death.
    Senator Hagan. If you have any examples, I love examples.
    Ms. Miller. I would tell you in this budget development, we 
ended up decreasing our budget activity 3, advanced tech 
development resources, on the order of $140 million pushed into 
other 6-2 areas, and we took our tech maturity, so I should 
start with the Army established a 6-4 line for their S&T 
activities to help do prototyping and to cross the valley of 
death. Those resources have also been reprogrammed into the 6-1 
and 6-2 at this time to make sure that we could meet compliance 
and have those next generation capabilities.
    But at this point, we need to start being cognizant of the 
ability to take those good ideas that are developed in earlier 
research veins and be able to transition them through. We will 
be looking to try to get a better balance from here on out.
    Ms. Lacey. I too agree that the balance needs to be 
relooked. We have seen that valley of death or the 
interpretation of it being a valley of death widen over the 
years. In reality, what we have done is we have moved things 
that historically had been in procurement accounts back into 
the R&D accounts. We have a lot of pressure on our 6-4 accounts 
that we currently have today, which is the traditional 
transition zone, and 94 percent of our money in what is BA-4 
through BA-7 in the Navy is tied to programs of record. We have 
very little that is focused on that transition area, and that 
is something we need to look at very, very carefully DOD-wide. 
By preserving the 6-1 and 6-2, a very noble thing to do, at the 
expense of the 6-3 and 6-4, we are actually widening that 
valley.
    Dr. Walker. In the 2014 budget submission, we were actually 
able to increase our 6-3 at a greater rate than our 6-1 and 6-2 
trying to reverse a trend that we have had over the last few 
years. 6-1 and 6-2 tended to dominate the S&T budget. But we 
have the same problem as the Navy. Our 6-4 program, our BA-4 is 
primarily tied to programs of record, and we miss that 
opportunity to move beyond the laboratory and into a 
demonstration and development program getting ready prior to a 
program of record being in place. That is an area that we think 
we need to improve as well.
    Senator Hagan. Thank you.
    Senator Fischer?
    Senator Fischer. Thank you, Madam Chairman.
    I would like to talk about furloughs for civilian personnel 
that you may have. We know that it causes loss of productivity. 
I think it will harm our military readiness at a time when we 
are facing, I think, more serious threats than many other times 
in history for this country. Furloughs will have a significant 
impact on employees' families and also on our States' 
economies.
    While DOD has decided to reduce the number of furlough 
days, I remain deeply concerned about the impact of those 
furloughs on the things that I mentioned. Your scientists, your 
engineers, your program managers play a critical role in 
maintaining our superiority on the battlefield because of the 
research that you are doing. I have heard that the Navy and the 
Marine Corps have funds available to avoid furloughs, but DOD, 
the Army, and the Air Force will have furloughs for their 
civilian employees.
    I have three questions for you. What is the current status 
of furloughs in each of your organizations? What would be the 
impact if you had to furlough some or all of your civilian 
employees? Would any of your civilian employees be exempt?
    Mr. Shaffer. Ma'am, the actual implementation of furloughs 
is still an ongoing process, but right now it looks like across 
the board in DOD, the policy will be 14 days for civilian 
personnel taken over the last 14 weeks of the year.
    The reason that this step is being taken is because of the 
inability to move money between accounts from one to the other. 
We, DOD, are in what I consider to be a very terrible place. We 
either fund the ongoing war efforts for our deployed forces or 
we furlough. So there are other ways at the margin to get 
there, but at the end of the day, we are so underfunded in our 
operations and maintenance (O&M) accounts right now in DOD that 
we have to take the drastic steps. None of us particularly like 
furloughs. I have talked to Dr. Prabhakar and she actually has 
a different problem. She hires people for 4 years and they want 
to come in and do things. It is going to be very upsetting that 
they are not going to be allowed to do things.
    I also want to point out that while we have a furlough of 
14 days, it is not just the 14 days that is going to impact us. 
One of our Services, in fact, all of our Services, are 
dramatically under-represented in contracting officers. In 
addition to furloughs, people who are currently being paid 
overtime will no longer be paid overtime. They will not be 
allowed to work overtime. So it is not going to be just the cut 
of 14 days, it is going to be a reduction in many cases of 
people who are putting in 50- to 60-hour weeks and getting paid 
for it being cut to 32 hours. So that will impact getting money 
out the door and on contract.
    There is a whole host of second-order impacts due to 
sequestration, but those are all going to hurt everybody on 
this panel and it is going to hurt our young people. We are 
breaking faith with our young people, many of whom, at least in 
this area, are living very close to the margin and have 
mortgages to make and that type of thing.
    So this is a very serious step. None of us like it. We 
understand why DOD is taking it. It is where we are, ma'am.
    Dr. Prabhakar. I think Mr. Shaffer said it all.
    I will just add you asked about exemptions. In my 
organization, the furlough applies to civilian Government 
employees and we will be taking that across the board, 
including myself and my deputy. We have one civilian Government 
employee who is in Afghanistan for some of the field test work 
that we are doing, and we are sorting out that situation. But 
that would be the only exemption, if there is one.
    Ms. Miller. Pretty much what Mr. Shaffer said applies to 
all the rest of us.
    Ms. Lacey. In terms of exemptions, we are looking at health 
and safety issues as potentials at the moment.
    Dr. Walker. For us in the S&T workforce, it will be no 
exemptions, just for the health and safety issues, but right 
now, we do not have any of those.
    Senator Fischer. Once again, I would ask you with regard to 
flexibility, if we would be able to give you flexibility to 
make decisions within your own programs, would that help with 
the furlough situation?
    Mr. Shaffer. Ma'am, I think that this is all tied into 
flexibility with O&M accounts and because of the way we have to 
spend money, funding the war efforts forward. We are rapidly 
running out of time because O&M for the Army and the Navy are 
1-year money. So even if we start to get flexibility late in 
the summer, it is going to be very hard to move money from one 
account to O&M and then get that spent. So we have a double 
whammy going on. It is the color of money but it is also the 
time of the year and whether or not we would actually be able 
to expend it.
    Mr. Hale, a wonderful guy, I am surprised he has any hair 
left because every time I go by him, he is pulling more of it 
out. It is a very difficult management problem.
    Senator Fischer. So are you saying with regard to the 
furloughs, the flexibility really would not help at this point 
at all?
    Mr. Shaffer. It is beyond our ability to deal with. This is 
really a larger issue coming from Dr. Carter, the comptroller, 
and Secretary Hagel and how they would be able to manage the 
war effort. That is what is driving everything. Internally, I 
do not think that it would help much.
    Senator Fischer. Thank you.
    I would like to move on to infrastructure, if I could, with 
modernization and duplication. The lab enterprise includes 62 
organizations spread across 22 States, with a total workforce 
of about 60,000 employees, more than half of whom are degreed 
scientists and engineers. That infrastructure supports this 
enterprise like the rest of DOD and continues to age with no 
military construction (MILCON) funding in sight to modernize 
your facilities.
    The NDAA for Fiscal Year 2013 Senate Report required DOD, 
the Air Force, and the Navy to conduct a survey of its 
laboratory infrastructure and brief the congressional defense 
committees on the results of their surveys no later than March 
1, 2013. I believe the Army has provided their survey, but we 
are waiting to receive some surveys from DOD and the Navy.
    What is the overall status of your facilities and how does 
that status and the state of your infrastructure affect your 
mission?
    Ms. Lacey. Ma'am, where we are in the Navy, we have 
actually baselined the buildings that we have, and we can quote 
a number. But that is not very informative when it comes to 
understanding what can you do with that building. You have to 
couple it with the equipment that is in it and the people so 
that we can understand the real capability. That is where we 
are right now is trying to make sure we understand that.
    Senator Fischer. Are you completing your survey now? Will 
we be receiving a briefing on that?
    Ms. Lacey. We can give you a briefing, but I want to be 
careful here. We have completed our survey on the facilities 
themselves, the building piece. What we really are interested 
in is the capability piece, and we are only about halfway 
through that. So we expect that it will be sometime early next 
fiscal year before we have our first look at that.
    But do we have old buildings? Yes. The fact of the matter 
is that our scientists and engineers are very dedicated folks 
that do amazing work despite the buildings that some of them 
have to operate in. Would I like it to be better? Absolutely. 
But we are trying to determine right now what we really need to 
invest in. Making every building very nice may not be the right 
answer for the Navy for the long term.
    Senator Fischer. Dr. Walker?
    Dr. Walker. I believe we have turned in our survey. The Air 
Force survey of the building facilities is like Ms. Lacey was 
saying. About 90 percent of our buildings are actually in 
fairly good shape. We put a lot of effort into this, both in 
good support from Air Force MILCON, MILCON inserts that we have 
gotten over the time, and the recent base realignment and 
closure allowed us to modernize a number of our areas.
    We have also taken advantage of section 219 to really work 
the lab piece of it and start to modernize the interior of the 
buildings because a lot of our buildings were built in the 
1960s and 1970s and they do not need to be replaced. They just 
need to be modernized in place. We have also modernized older 
buildings with the recent MILCON at Wright-Patterson where we 
took a shell of a building and completely rebuilt the interior 
of it to make a world-class, modern power lab for the Aerospace 
Systems Directorate. So we have taken advantage of this. The 
Air Force has been very good to us.
    We realize in this day and age of where we are in the 
fiscal environment, we are probably not going to get MILCON for 
a time in the Air Force, but we have actually taken advantage 
and using section 219 are able to keep the labs to the par that 
we would like to have them on.
    Senator Fischer. Have you looked at what it would cost if 
you truly were going to modernize for not your wants but your 
needs for your mission?
    Dr. Walker. We have taken the surveys of that. I do not 
have that number off the top of my head, but it is not a small 
number.
    Senator Fischer. Thank you.
    Senator Hagan. Just so the panel knows, we are going to 
stop the meeting right before 4 p.m.
    I have a question on the Rapid Innovation Program. Three 
years ago, Congress established the Rapid Innovation Program to 
help fund the rapid transition of innovative technologies 
largely from the small business community to the warfighter. 
This was an environment where rapid fielding of technologies 
was driving a significant level of the effort on the S&T 
community. As we draw down our combat operations overseas, the 
demand for rapid fielding may diminish.
    What are your views on the Rapid Innovation Program? From 
my understanding, this program is not included in the fiscal 
year 2014 budget request. Is this program not useful now to DOD 
in the current environment? Mr. Shaffer?
    Mr. Shaffer. Yes, ma'am. The reason it is not in the 2014 
budget request is that we have just gone through and we have 
done the first year's worth of awards. We are waiting to see 
how this program pans out and the types of products that come 
out of it before we put in a budget request. It is not clear 
that we would get new money.
    There would be other ways we could do this. As you 
mentioned, most of the Rapid Innovation Program comes through 
the small business community. We could include this as part of 
the Small Business Innovative Research Program in the future, 
and that is one of the things we are considering. But before we 
jump off the cliff, we really would like to have a year's worth 
of evaluation of the programs to see if we actually got value 
for money.
    Senator Hagan. How much money did you put out?
    Mr. Shaffer. We got everything out that was appropriated. I 
am trying to remember. In the first year, it was $200 million, 
$500 million, somewhere in there, yes.
    Senator Hagan. $400 million?
    Mr. Shaffer. $400 million, yes, ma'am.
    Senator Hagan. Thanks. Ms. Lacey, Ms. Miller, anybody?
    Ms. Lacey. We have not completed the first round, but we do 
have one early completion expected next month, but the vast 
majority are not going to finish up for another 12 to 18 
months.
    Dr. Walker. We put $105 million out to 44 different small 
businesses working across the rapid response for the 
warfighter, cyber, sustainment. So far things are looking good 
and showing promise, and we will see as the program goes on. We 
are looking forward again to our next round somewhere around 18 
to 20 awards coming out this year out of the 2012 money.
    The other thing that we are getting out of this is that 
there is huge interest in the program because we have had over 
700 white papers both years that we put out the announcement. 
So there are a lot of people out there with good ideas that we 
are able to take a look at and screen through the program.
    Senator Hagan. Ms. Miller?
    Ms. Miller. The Army was the same as well. We have no early 
indicators yet. We know that we got a lot of interested 
parties, and it certainly gets connectivity to small business.
    Senator Hagan. Thank you.
    Over the years, there also has been much discussion over 
the pros and cons of various management models of DOD labs that 
are government-owned and government-operated (GOGO) versus the 
Department of Energy labs that are government-owned and 
contractor-operated (GOCO).
    So, Ms. Miller, Ms. Lacey, and Dr. Walker, if you were 
going to start a new basic and/or applied research laboratory, 
what type of business model would you use for the management 
and operation of that laboratory? Dr. Walker, why don't we 
start with you and go back?
    Dr. Walker. I have run two directorates in the Air Force 
research laboratory and we have pretty much operated under the 
government-owned with the contractor collaboration with a 
strong in-house contractor representation. It gives us some 
flexibility in being able to turn over workforce, identify and 
bring in new workforce into both the Government and the 
contractor side and have flexibility as we change the thrust of 
the research that we are doing at any given time. This has been 
a very successful model for the Air Force. We studied the GOCO 
model back in the mid-1990s and we decided to go with the 
collaborator-assisted model instead, and it has been very 
successful. I think I would follow that model into the future.
    Ms. Lacey. In the Navy, we have a GOGO philosophy which is 
a little different than the Air Force. However, we do use a 
significant amount of contractor personnel, perhaps not as 
fully embedded as you might see in the Air Force. We are very 
comfortable with our model. We are continuously overseeing how 
they are doing and ensuring that they are focused on the things 
that we need them to do and not out there freelancing and 
creating duplicate capability in their various areas. But as I 
say, it is something the Navy has become very comfortable with 
and very good at operating. So it works for us.
    Ms. Miller. The Army model is very much like the Navy 
model. We are very happy with how we are performing our work.
    Senator Hagan. Thank you.
    Go ahead. Ask another question.
    Senator Fischer. Thank you, Madam Chairman.
    In my last question, I asked about the infrastructure and 
the modernization. We did not get to the duplication part.
    What kind of process do you have set up that would address 
if there is unneeded facilities out there?
    We talked the other day, yesterday I believe, about 
programs and how do you keep track of all the programs and the 
research that you are running to make sure that what the Navy 
is doing, the Army is further along it, and you really do not 
need to be doing it. How do you prioritize it? How do you work 
together? How do you make sure that your efforts are being 
utilized wisely?
    Mr. Shaffer. I always hate to sound like a Washington 
bureaucrat and talk process.
    Senator Fischer. But you will. [Laughter.]
    Mr. Shaffer. I will. [Laughter.]
    What we have done is reinstituted and strengthened 
something we call Reliance 21. We are taking a portfolio 
approach in about 18 of these big areas that all of us have 
investment in. Now, I cannot track every one of the 10,000 
programs. But we have SES-level members, senior executive 
service members, in each one of the Services who we charge to 
get the best that they can out of their program. So we have 
created a portfolio review with the SESs having to come back to 
report back to us and tell us what they are doing.
    DARPA plays in a slightly different way in this process 
because we do not want DARPA on any Services' critical path. We 
want DARPA to disrupt that critical path. So how DARPA plays is 
they will come in and brief these portfolio managers, and each 
one is chaired by someone from the Service, brief the portfolio 
managers on what they are doing so the portfolio managers have 
that awareness.
    But if we cannot trust our SESs to get rid of duplication 
between themselves, because they are all charged with 
delivering capability, if we cannot trust our flag-level 
civilians to drive down duplication, it is very hard for us to 
do it from the top of the mountaintop.
    So this is strengthened. We are in our second to third year 
of this process. This year we are having the first six of these 
portfolio managers come back in roughly two half-day sessions 
brief out their programs to myself, Ms. Miller, Admiral 
Klunder, Ms. Lacey, and Dr. Walker, and we are going to see how 
well we are able to drive out duplication. Sometimes you want 
to have intended duplication, but it has to be a conscious 
choice. But fundamentally, we have to push that process down to 
our senior executives to come back and report to us.
    Senator Fischer. Have you ended any programs if you found 
that there was duplication taking place?
    Mr. Shaffer. I know that programs have ended. Typically 
when our SESs find out that there is a little bit of 
duplication, we do not have to end the program. They figure out 
who is in the lead, who is going to take that piece on so 
someone else does another portion of the work. These portfolio 
folks have come back and told us where they have modified their 
portfolio to get more bang for the buck.
    Senator Fischer. Are you in touch with universities or 
private industry that is doing research as well and trying to 
monitor what they are doing and work together or else let one 
or the other of you move ahead on that project?
    Mr. Shaffer. The answer is yes, and I think Dr. Prabhakar 
has the best answer.
    Dr. Prabhakar. I hope I do since I volunteered to try to 
answer that. [Laughter.]
    Senator Fischer. She had a good one in my office.
    Dr. Prabhakar. Just following on what Mr. Shaffer was 
describing as a formal process, a thing I really look to is our 
core program managers at DARPA to make sure that they know what 
is going on across the Services but very much, as you said, in 
the broader technical community. The first way we do that is we 
recruit program managers who come out of the best parts of the 
technical community. I think only about 10 percent of my 
program managers come from other parts of Government. Most of 
them come from universities or have worked in companies. So 
they are already from that broader community. Then their day 
job is to be out and engaged with that community. That is how 
they build their programs. It is where they get their 
inspiration for the next generation. They are so personally 
driven to make an impact with their programs that the last 
thing they want to do is waste a nickel on something that 
someone else is already going to do. So that is the bottoms-up 
part that I think augments what we do as a management team.
    Dr. Walker. From an industry perspective, when we are 
building road maps, we want industry involved with our road-
mapping process so they understand what it is that we are 
trying to do and what contributions they can make, as well as 
how they can align their independent R&D to what is important 
to the government. So it is really a collaborative effort 
across academia, industry, and the government to ensure that we 
have the right technology development moving forward to where 
we want to be in the future.
    Senator Fischer. Thank you.
    Ms. Lacey, I was going to ask you about the laser on the 
ship. This is just for my own personal interest because I read 
an article on it and it just sounded fabulous. But how is that 
working out? Can you tell us? What do you think the future 
holds for lasers?
    Ms. Lacey. Ma'am, we would be happy to come in and brief 
you on this, and if you are ever in Bahrain, we can take you on 
the USS Ponce and show it to you.
    We have been working on laser programs collaboratively with 
our sister Services for decades, and what we are doing is 
installing this on a ship that is available in theater to do a 
demonstration against realistic targets again and to understand 
the operational domain.
    But what we are fundamentally trying to do here is prove to 
ourselves that we have the capability and we can develop the 
tactics, techniques, and procedures to change the cost 
equation. We are talking about taking a shot for a dollar as 
opposed to--yes, whatever it takes to generate the electricity 
on board that ship to defeat that threat. That is a huge game 
changer when it comes to the cost equation. As opposed to using 
a $3 million missile to take out a $50,000 target, we are 
talking about dollars. It is a big deal. So we have reached the 
point where we are comfortable that we can put it in an 
operational theater to learn even more lessons about it.
    We would be happy to come show you what we are doing, 
ma'am.
    Senator Fischer. I may take you up on that. Thank you very 
much. Thank you all very much. I appreciate it.
    Madam Chair?
    Senator Hagan. I know I have a couple more questions, and I 
am running out of time. So I might submit some for the record 
for your reply and certainly Senator Fischer too.
    Mr. Shaffer, I know that DARPA has just completed its 
strategic framework. I was just wondering about another 
strategic framework for your division. I know last year the 
Defense Science Board (DSB) conducted a study of DOD's basic 
research portfolio, and one key finding was that DOD needed a 
technology strategy that would not only be invaluable in 
alignment of R&E but an alignment of systems, missions, and 
national security affairs more broadly. Then they listed a 
vision, an assessment of emerging areas of S&T, particularly 
areas of rapid change and substantial promise, realistic 
objectives, an approach to achieve the vision, and detailed 
plans on how to achieve the objectives.
    Are you developing a more comprehensive strategy with the 
elements just outlined?
    Mr. Shaffer. Senator Hagan, a couple of things.
    The short answer is yes, but not at the detail listed in 
the DSB report. I commented that I do not like a lot of 
bureaucracy.
    One of the other things I will note in Washington is more 
is written than is ever read.
    Senator Hagan. I agree with that.
    Mr. Shaffer. So this strategy that is outlined by the DSB 
is really an implementation plan. We have developed a strategy 
and we are waiting to see what happens with the political 
process. But the strategy that I have written is very much like 
DARPA's framework. It is a very short document that outlines 
where we want to go and the tools that will be available to the 
people.
    Following from that, the rest of these things that are in 
the DSB report is really an implementation plan, and that 
should be pushed down to the people who actually are going to 
execute the program to come back up and tell us. So these 
things that are in this plan are in those portfolio managers' 
responsibilities that I just mentioned.
    We are on the path. We are not there yet. I have a strategy 
drafted. I have shown it to Mr. Kendall, the Under Secretary, 
and now we are just waiting to see what happens with all the 
political process.
    Senator Hagan. Thank you.
    Mr. Shaffer. Yes, ma'am.
    Senator Hagan. To all of our witnesses, I really do 
appreciate your time, the service that you give to our country, 
and in particular, the detail, the approaches for the long-term 
using the technology that you are developing right now. I think 
it is very, very important to our country, to the warfighters, 
and to the national security. Thank you for being here.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kay R. Hagan
                   oversight of laboratory personnel
    1. Senator Hagan. Mr. Shaffer, the Department of Defense (DOD) 
Laboratory Quality Improvement Program (LQIP) established in 1993 seeks 
to improve the efficiency of the labs by streamlining their business 
practices and granting the heads of the labs increased authority to 
operate their organizations in a business-like fashion. One of the 
outcomes of LQIP was the creation of a panel to provide recommendations 
on DOD lab personnel issues. Currently, the LQIP panel for personnel 
falls under your oversight. What has this panel recently accomplished?
    Mr. Shaffer. The LQIP Personnel Panel is the most active group 
within the LQIP and meets quarterly to exchange best practices and 
experiences on the variety of unique authorities given to each lab. The 
most notable accomplishment of the panel is its contribution to the 
implementation of expanded direct hiring authority for scientists and 
engineers with advanced degrees. Also, through the efforts of the LQIP 
Personnel Panel, 95 percent of the defense laboratory workforce is 
included in a Science and Technology Reinvention Laboratory also known 
as ``Demonstration Program'' personnel program as of the end of fiscal 
year 2012. In addition, the Personnel Panel was instrumental in 
gathering data and assisting in analysis of information in support of 
the soon to be submitted DOD Human Capital Workforce Strategic Plan.

    2. Senator Hagan. Ms. Miller, Ms. Lacey, and Dr. Walker, what are 
your views on the effectiveness of the LQIP and should there be other 
panels under LQIP, for instance, for laboratory infrastructure?
    Ms. Miller. The Laboratory Quality Enhancement Program (LQEP) 
(formerly the Laboratory Quality Improvement Program) is restarting 
after being dormant for more than a decade. While the main program has 
been dormant, a subpanel of the program focused on the Science and 
Technology Reinvention Laboratories has been very active and effective 
at addressing issues related to the Laboratory Demonstration Program. 
There has been continuing dialog amongst the LQEP members with regard 
to initiation of additional subpanels, to include one on laboratory 
infrastructure. However, no additional subpanels have been chartered. 
LQEP members do see value in having subpanels meeting at the working 
level to address focused issues prior to senior leader engagement and 
decisionmaking.
    Ms. Lacey. LQIP provides a forum for the Department of Navy to 
collaborate with our sister Services to address issues of long-term 
sustainability of our research and development infrastructure. The 
cross Service nature of this panel allows the Navy to consider common 
approaches to shared issues such as streamlining authorities, 
infrastructure investments, and workforce revitalization that affect 
all DOD labs.
    The LQIP already allows the sharing of best practices and lessons 
learned that impact all DOD laboratories. As currently structured, the 
LQIP is an effective forum for the exchange of ideas and information 
and does not need to be expanded beyond the existing panel.
    Dr. Walker. The LQIP is now known as the LQEP. Over the last 2 
decades, the LQEP has provided a means for the Air Force Research 
Laboratory (AFRL) and the other DOD laboratories to articulate and 
propose approaches to address problems that are unique to the 
laboratory community. For example, the Personnel subpanel has been 
vital to the continued success of the demonstration project authorities 
by focusing on the mission and associated needs of each individual 
laboratory. The subpanel's efforts have resulted in authorities and 
legislation that have provided AFRL the control and flexibility needed 
to manage its workforce and improved and strengthened AFRL's ability to 
compete for critical personnel.
    The LQEP no longer has a dedicated subpanel to address laboratory 
infrastructure issues; however, the panel as a whole continues to work 
common infrastructure issues among the laboratories. This approach is 
working well. With resources at a premium--both personnel and dollars--
the Air Force does not recommend the establishment of a separate 
infrastructure subpanel at this time.

    [Whereupon, at 3:54 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2014 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        TUESDAY, APRIL 23, 2013

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

 PROLIFERATION PREVENTION PROGRAMS AT THE DEPARTMENT OF ENERGY AND AT 
                       THE DEPARTMENT OF DEFENSE

    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SR-222, Russell Senate Office Building, Senator Kay R. 
Hagan (chairman of the subcommittee) presiding.
    Committee members present: Senators Hagan, Fischer, and 
Graham.
    Majority staff members present: Jonathan S. Epstein, 
counsel; and Richard W. Fieldhouse, professional staff member.
    Minority staff members present: Thomas W. Goffus, 
professional staff member; and Robert M. Soofer, professional 
staff member.
    Staff assistants present: Lauren M. Gillis, Daniel J. 
Harder, and Kathleen A. Kulenkampff.
    Committee members' assistants present: Jeff Fatora, 
assistant to Senator Nelson; Christopher Cannon, assistant to 
Senator Hagan; Chad Kreikemeier, assistant to Senator Shaheen; 
Peter Schirtzinger, assistant to Senator Fischer; and Craig 
Abele and Matthew Rimkunas, assistants to Senator Graham.

      OPENING STATEMENT OF SENATOR KAY R. HAGAN, CHAIRMAN

    Senator Hagan. Good afternoon. The Emerging Threats and 
Capabilities Subcommittee meets today to review the President's 
fiscal year 2014 request for nonproliferation programs at the 
Department of Defense (DOD) and Department of Energy (DOE). We 
plan to have a hard stop here at 3:20 p.m. so that we can 
adjourn to the Office of Senate Security in room SVC-217 of the 
Capitol Visitor Center for a closed session with our witnesses 
today.
    In the interest of time, I want to ask that the witnesses, 
if you would give a short, 2 minutes or so, opening statement. 
We have your written testimony and we obviously have that for 
the record.
    We are joined today by three expert witnesses to help us 
understand the programs under way in both of these Departments. 
Madelyn Creedon is the Assistant Secretary of Defense for 
Global Strategic Affairs, who is responsible for the policy 
aspects of these programs at DOD, and we welcome you back to 
the Senate Armed Services Committee.
    Kenneth Myers is the Director of the Defense Threat 
Reduction Agency (DTRA) at DOD, which is focused on reducing 
the threats from weapons of mass destruction (WMD). The agency 
is responsible for executing the Cooperative Threat Reduction 
(CTR) program. He is also the Director of the U.S. Strategic 
Command (STRATCOM) Center for Combating (SCC) WMD, located at 
the agency.
    Anne Harrington is the Deputy Administrator for Defense 
Nuclear Nonproliferation at the National Nuclear Security 
Administration (NNSA) at DOE.
    We thank you all for your service and thank you for joining 
us here today.
    For fiscal year 2014, DOD and DOE propose to spend on the 
order of $2.6 billion in nonproliferation activities to help 
stem the flow of the WMD. For the past 20 years, the CTR has 
achieved remarkable accomplishments in Russia and the former 
Soviet states in helping to secure or to destroy the world's 
largest stockpiles of WMD and their materials. I understand a 
new CTR umbrella agreement between the U.S. and Russia is under 
negotiation and we would like to hear the administration's 
objectives for the new agreement.
    Also, we are now transitioning many CTR programs to 
countries in Southeast Asia, the Middle East, and Africa, and 
for the first time we may see as much CTR funding outside the 
former Soviet Union as in it.
    We'll want to hear what strategic approach you have 
implemented to assess how these funds would be most effectively 
spent. For instance, the Cooperative Biological Engagement 
Program now has 61 projects in 19 countries. Within DOE's NNSA, 
I understand the mixed oxide (MOX) fuel program is considering 
a strategic pause due to significant cost overruns of as much 
as $3 billion and a 3-year delay. The purpose of the 14-year-
old program is to turn 34 metric tons of excess weapons-grade 
plutonium into commercial reactor fuel, with the Russians doing 
the same, a laudable nonproliferation goal.
    My understanding is DOE is now estimating a life cycle cost 
of up to $27 billion over 15 years to produce the MOX fuel. So 
I look forward to hearing from Ms. Harrington what DOE is 
thinking with the existing MOX program and how long it will 
take DOE to get back to Congress with the results from the 
reevaluation of this program.
    Again, thank you for being here today. We look forward to 
your testimony. I want to turn to my colleague and ranking 
member, Senator Fischer, for her comments.
    Senator Fischer.

                STATEMENT OF SENATOR DEB FISCHER

    Senator Fischer. Thank you, Madam Chairman. I join you in 
thanking our witnesses for being here today. While I look 
forward to their testimony on these essential proliferation 
prevention programs, I am concerned by the prevalent argument 
that the United States can persuade the rest of the world to 
halt nuclear proliferation by reducing its own arsenal. I know 
that the Strategic Forces Subcommittee oversees our nuclear 
enterprise, but its critical contribution here is also worth 
highlighting.
    In fact, a robust U.S. nuclear deterrent, often referred to 
as the nuclear umbrella, provides a strong disincentive for 
other nations, including our partners and allies, to develop 
WMD. Moreover, there's little evidence that U.S. nuclear 
reductions from a high of 30,000 nuclear weapons in 1967 to 
just 5,000 today have reduced nuclear proliferation. North 
Korea and Iran stand as recent evidence to the contrary.
    While some in the United States and in the west view 
nuclear weapons as outdated Cold War relics, other nations are 
increasing their reliance on nuclear weapons, much as the 
United States did after World War II. The United States will 
not change this reality by reducing its arsenal. Overlooking 
this fact and dogmatically pursuing the reduction of U.S. 
nuclear forces, instead of addressing the proliferation of 
nuclear weapons to rogue states, will lead to a lack of 
confidence in U.S. nuclear security guarantees. As a result, 
adversaries won't be deterred and nations that have not pursued 
nuclear capabilities, such as South Korea, Japan, Turkey, and 
Saudi Arabia, may reconsider.
    Transparency and strategic stability must be our goals with 
respect to Russia and China. Dealing with North Korea, Iran, 
and potential nuclear terrorists requires a different set of 
priorities and different programmatic tools, some of which we 
intend to discuss here today.
    The important proliferation prevention agencies represented 
here today, underpinned by a strong U.S. nuclear deterrent, are 
critical to our national security.
    So I thank the chair and I look forward to our questions. 
Thank you so much for being here.
    Senator Hagan. Secretary Creedon, if you would like to go 
first with your opening statement.

 STATEMENT OF HON. MADELYN R. CREEDON, ASSISTANT SECRETARY OF 
  DEFENSE FOR GLOBAL STRATEGIC AFFAIRS, DEPARTMENT OF DEFENSE

    Ms. Creedon. Thank you, Senator Hagan, Ranking Member 
Fischer. It's a pleasure to be here, also to be here today with 
colleagues of longstanding duration from both the DTRA and from 
the NNSA.
    As we all are very well aware, we face a number of 
significant WMD challenges and the three of us together are 
aggressively pursuing the President's vision to keep WMD out of 
the hands of terrorists and states of concern. These states of 
concern, of course, include North Korea, Iran, and Syria, just 
to mention a few.
    One of the most worrisome scenarios we face is the prospect 
of a dangerous WMD crisis involving the theft or loss of 
control of weapons or materials of concern that end up in the 
hands of hostile actors. As the situation in Syria illustrates, 
instability in states pursuing or possessing WMD could lead to 
just such a crisis. To meet these challenges, DOD has focused 
on three areas: preventing WMD acquisition, containing and 
rolling back the threats, and responding to a WMD crisis.
    Preventing the WMD acquisition requires cooperation with 
our international partners and the Proliferation Security 
Initiative (PSI) is a good example of that. This is 29 partners 
together who participate in, among other things, exercises. The 
United Arab Emirates hosted the most recent one. We are now on 
the verge of celebrating PSI's 10th anniversary and our Polish 
allies will be hosting that particular celebration of the 
accomplishments and also looking forward to the next 10 years.
    PSI is an interesting concept with our allies and for the 
United States. It's not included in any budget line as it comes 
out of general exercise money. But in the fiscal environment 
that we're now facing, we are looking at the idea of developing 
a specific line item dedicated for PSI activities and will 
probably be presenting this in the construct of the fiscal year 
2015 budget.
    But beyond preventing acquisition, which is one of our 
priorities, we're also containing and rolling back WMD threats. 
One of the most important tools we use to accomplish this is 
the CTR program. The flexibility of the CTR legislation has 
allowed the program to expand its work both geographically, 
most recently in the Middle East, and now also functionally.
    A major focus of CTR is addressing the threat posed by 
Syria's chemical weapons. To address the proliferation threat 
from these weapons, CTR is funding the second portion of 
Jordan's border security project, which will increase Jordan's 
ability to mitigate proliferation along a 256-kilometer border 
with Syria.
    CTR also works in Africa to improve the safety and security 
and hopefully destroy, in an excellent partnership that's just 
developing with Germany, Libya's chemical weapons stockpile. 
CTR is also working to improve biological security and 
increasing partner capacity in Kenya and Uganda and to enhance 
maritime surveillance capabilities and capacity in Southeast 
Asia.
    The functional expansions that I mentioned were developed 
initially to assist with the close collaboration that we enjoy 
with DOD. DOE negotiates high-priority transfers of material, 
mostly nuclear material, to more secure locations for storage 
and reprocessing, and DOD has specific capabilities and 
training to transport this material. As a result, we are 
developing a transportation determination that will allow more 
nimble collaboration with DOE.
    These examples also demonstrate that the CTR program 
remains responsive to the current and emerging security 
environment. We have pushed the envelope and we will continue 
to do so when we believe it will reduce WMD threats.
    If our efforts to contain and roll back WMD threats fail, 
we must be prepared to respond. The recently activated Standing 
Joint Force Headquarters-Elimination (SJFHQ-E) has this 
responsibility. In addition to the unique support it provides 
to the combatant commands, this year the SJFHQ-E participated 
in major exercises with South Korea, France, and the United 
Kingdom. We're committed to meeting the Nation's countering WMD 
requirements while taking into account shrinking DOD budgets.
    None of the efforts I have described would be possible 
without the continuing support of Congress. I thank you for 
your support for our fiscal 2014 budget and look forward to 
your continuing cooperation.
    Thank you.
    [The prepared statement of Ms. Creedon follows:]
             Prepared Statement by Hon. Madelyn R. Creedon
                              introduction
    Madam Chairman, Ranking Member Fischer, and members of the 
subcommittee, I am pleased to testify today about the progress the 
Department of Defense (DOD) has made in carrying out a wide range of 
activities to counter weapons of mass destruction (WMD). We continue to 
pursue aggressively the President's vision for countering WMD by 
keeping WMD out of the hands of terrorists and states of concern, 
locking down dangerous nuclear and biological materials, eliminating 
chemical weapons, destroying legacy weapons, and building capabilities 
and conducting operations to prevent acquisition, contain and roll back 
threats, and respond to WMD crises.
    I am pleased to be here today with two colleagues whose efforts are 
critical to addressing these important issues: Mr. Kenneth A. Myers 
III, the Director of the Defense Threat Reduction Agency (DTRA); and 
Ms. Anne M. Harrington, the Deputy Administrator for Defense Nuclear 
Nonproliferation for the National Nuclear Security Administration 
(NNSA). Together, we are supporting a whole-of-government effort to 
make the United States, and the world, safer from WMD threats.
    In my role as the Assistant Secretary of Defense for Global 
Strategic Affairs (GSA), I oversee all Defense efforts to counter WMD, 
as well as nuclear, missile defense, space, and cyber policies. The 
great team at GSA develops defense strategies and policies, sets 
Departmental priorities based on guidance from the Secretary of 
Defense, and manages interagency and international relationships for 
the Department in these functional areas. Under the leadership of Mr. 
Myers, DTRA implements GSA's countering WMD guidance through the 
management and execution of the Cooperative Threat Reduction (CTR) 
Program and other non- and counter-proliferation activities. Mr. Andrew 
Weber, Assistant Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs, provides acquisition guidance and 
oversight for DTRA's work. Together, we work with the Joint Staff, the 
combatant commands, the Services, national labs, and other implementing 
partners to execute DOD's counter WMD responsibilities. DOD also works 
closely in this area with Ms. Harrington and her team at NNSA, as well 
as other interagency partners.
    Our mission is straightforward--DOD is working to ensure that no 
additional states or non-state actors acquire WMD; those possessing WMD 
do not use them; and if WMD are used, the effects are minimized. In a 
constrained fiscal environment, we are focusing our efforts on 
preventing acquisition and countering the most likely threats. 
Accordingly, we are emphasizing early cooperative action in order to 
shape the security environment and disrupt proliferation networks 
through pathway defeat--deliberate actions taken against actors of 
concern and their networks to delay, disrupt, destroy, or otherwise 
complicate WMD-related activities. We are prioritizing capabilities 
that counter operationally significant risks and that are not resident 
elsewhere in the U.S. Government, in order to avoid wasteful or 
duplicative expenditures.
                             wmd challenges
    The current strategic environment presents a number of WMD 
challenges stemming from those who possess WMD and those seeking to 
acquire new and expanded capabilities, including North Korea, Iran, 
Syria, and certain non-state actors. Both state and non-state actors 
who are actively seeking or already possess WMD present a significant 
intelligence and defense planning challenge. Their strategic 
intentions, proliferation pathways, decisionmaking processes, and 
capabilities are difficult to assess and influence. Their relative risk 
tolerance and isolation can create further challenges for the United 
States to dissuade and deter these actors from acquiring or using WMD. 
For example, North Korea has recently taken a series of provocative and 
destabilizing actions and Iran continues to defy the calls of the 
international community for transparency into its nuclear activities 
and a demonstration that these activities are solely for legitimate, 
peaceful purposes. Certain non-state actors continue to seek WMD, and 
WMD technologies.
    Technological advances and the availability of expertise, 
materials, and technology through a variety of networks increase the 
likelihood that both state and non-state actors will gain access to WMD 
and related capabilities. Those who provide support--including WMD and 
related capabilities--to other governments and non-state actors also 
threaten U.S. security and destabilize the international system. 
Furthermore, such proliferation increases the likelihood that a 
recipient may employ WMD independently or as a proxy.
    Despite significant progress in securing vulnerable WMD materials, 
new avenues for access continuously emerge. Fragile or failed states 
with WMD programs or capabilities are particularly ripe for 
exploitation. One of our most worrisome scenarios is the prospect of a 
crisis involving the theft or loss of control of weapons or material of 
concern that results in the WMD ending up in the hands of hostile 
actors. Instability in states pursuing or possessing WMD or related 
capabilities could lead to just such a crisis. The potential 
convergence of violent extremism, political instability, and inadequate 
WMD security is also a most troubling scenario. If highly motivated 
non-state actors determined to obtain and employ WMD took advantage of 
these types of situations, they would no doubt be difficult, if not 
impossible, to deter.
    Violent extremists are expanding their geographic reach into 
ungoverned territories. Recent events in Mali involving Al Qaeda and 
affiliates demonstrate this problem. Such territories could be used to 
support illicit activities, including undetected and unwarned 
development and proliferation of WMD-related capabilities. These safe 
havens enhance adversaries' freedom of action and make our task all the 
more difficult.
                       addressing the challenges
    When making strategic resourcing decisions, DOD consistently has 
protected countering WMD (CWMD) efforts. In today's fiscal environment, 
however, our goals will be tougher than ever to sustain. We are 
accepting increased risk in areas where WMD use is less plausible, less 
feasible, or would have limited effects, allowing us to prioritize more 
likely scenarios for WMD acquisition and use.
    To maximize effectiveness and because this is not a DOD mission 
alone, we are incorporating our CWMD efforts, as reflected in the 
broader plans and operations within DOD, across the U.S. Government and 
with international partners. Partnering serves as a force multiplier: 
it extends DOD's strategy and capabilities through increased 
interoperability with other U.S. departments and agencies, allies and 
friends, and international bodies. DOD seeks to leverage and enhance, 
but not duplicate, capabilities resident elsewhere in the U.S. 
Government or activities best executed by our interagency partners, for 
which other agencies and departments have lead responsibilities. DOD 
stands ready to support these other agencies and departments as needed.
    Today's complex security environment presents significant 
challenges that require increased emphasis on early cooperative action 
to shape the environment and disrupt networks. The dynamic structures 
of WMD networks present challenges, but they also offer opportunities 
for exploitation through flexible, innovative, and adaptive approaches 
that target these networks and their hubs. Understanding, monitoring, 
and targeting these networks can help deter acquisition, bolster 
prevention activities, and reduce reliance on measures that carry 
higher political, military, and humanitarian risks.
    Deterrence strategies supported by credible CWMD capabilities will 
remain an effective approach against many WMD-armed adversaries. Toward 
that end, the Department equips and trains forces and develops 
capabilities that can be employed in three broad categories: (1) 
prevent acquisition; (2) contain and roll back threats; and (3) respond 
to WMD crises.

    1.  Preventing Acquisition

    To further reduce incentives for WMD acquisition, DOD continues to 
support the efforts of our State Department colleagues and others to 
strengthen international treaties, conventions, and regimes, and to 
implement sanctions. We support discussions among the permanent five 
(P5) states of the U.N. Security Council to meet our obligations under 
the Nuclear Nonproliferation Treaty and to make progress under the 
action Plan agreed to at the last Nuclear Nonproliferation Treaty 
Review Conference. In this context, DOD is developing, in conjunction 
with interagency partners, common approaches to reporting and 
definitions. Such confidence-building measures, when reciprocated by 
other members of the P5, increase transparency and stability among 
nuclear weapon states. DOD also supports efforts to begin negotiating a 
Fissile Material Cutoff Treaty (FMCT). We support the P5's moratorium 
on the production of new fissile material for use in nuclear devices, 
and believe its continuance is part of the foundation that is needed in 
order to make progress on an FMCT. To meet U.S. obligations under the 
Chemical Weapons Convention, DOD has destroyed almost 90 percent of our 
chemical weapons stockpile while continuing to assist other states in 
the destruction of their stockpiles. We also continue to support U.S. 
transparency efforts in the context of the Biological and Toxin Weapons 
Convention (BWC) and to uphold longstanding U.S. commitments under the 
BWC Confidence-Building Measures by reporting on biodefense research 
activities taking place at DOD biological facilities.
    Another example of our commitment to preventing proliferation of 
WMD is our support to an interagency effort to develop and implement a 
U.S. policy for Dual Use Research of Concern (DURC). As was highlighted 
during national and international discussions in 2012 concerning H5N1 
avian influenza research, biological research, while critical for the 
betterment of the health, welfare, and safety of mankind, also has the 
potential to be misused. As a Federal research funding agency, DOD has 
now implemented the 29 March 2012 ``United States Policy for Oversight 
of Life Sciences Dual Use Research of Concern,'' and reviews the life 
sciences research it funds and conducts to ensure that dual use issues 
are adequately addressed from the outset. In addition, we continue to 
actively engage in interagency efforts to further develop additional 
policies in this area as our understanding of this challenge evolves.
    DOD is raising barriers to the acquisition and proliferation of WMD 
through both bilateral and multilateral cooperation with partners. This 
May, our Polish allies will host meetings marking the 10th anniversary 
of the Proliferation Security Initiative (PSI). Through its exercises 
and leadership in PSI's operational experts group, DOD has steadily 
worked with partners to address all aspects of the proliferation 
threat. Twenty-nine partners participated in our most recent exercise, 
Leading Edge, which was co-hosted by the United Arab Emirates and 
included full maritime, air, and land interdiction activities. PSI is 
an activity, not a program, and as such has no dedicated budget. In a 
time of increasing resource constraints, previous methods of funding 
PSI activities are becoming less available, and it is time we addressed 
the need for a dedicated PSI funding line.
    DOD is also engaged in what we refer to as pathway defeat 
activities. These activities seek to identify various pathways that are 
or could be used to conceptualize, develop, acquire, or proliferate WMD 
and related capabilities and develop methodologies to deny, delay, 
disrupt, or destroy these WMD pathways. The pathway defeat work focuses 
on the specific nodes and linkages in the networks that constitute an 
adversary's WMD acquisition pathway. By disrupting these networks, we 
raise barriers to acquisition and enhance efforts to detect, identify, 
and respond to acquisition attempts, especially those shielded by 
legitimate activities such as nuclear power generation; chemical, 
biological, radiological, and nuclear (CBRN) defensive programs; 
biomedical research; and the global chemical industry.

    2.  Containing and Rolling Back Threats

    DOD is containing and rolling back WMD proliferation threats by 
restricting the supply of WMD-relevant materials and technologies, 
including delivery systems, available for illicit uses. One of the most 
important tools we use to accomplish this is the CTR Program. The 
President recently commemorated CTR on its 20th anniversary. He stated, 
``This is one of our most important national security programs. It's a 
perfect example of the kind of partnerships that we need, working 
together to meet challenges that no nation can address on its own . . . 
That's why, over the past 4 years, we've continued to make critical 
investments in our threat reduction programs--not just at DOD, but at 
Energy and at State. In fact, we've been increasing funding, and 
sustaining it. Even as we make some very tough fiscal choices, we're 
going to keep investing in these programs--because our national 
security depends on it.'' Among other achievements in securing and 
eliminating WMD materials and in preventing WMD proliferation, the CTR 
Program can take credit for assisting three former members of the 
Soviet Union in deactivating and properly disposing of over 13,000 
nuclear warheads.
    As WMD threats have changed since the end of the Cold War and 
dissolution of the Soviet Union, so has the CTR Program's focus and 
partnerships. In support of this geographic and functional expansion, 
the President has requested $528.5 million in fiscal year 2014 for DOD 
CTR activities, an increase of approximately $9 million over the fiscal 
year 2013 appropriated level. These funds will continue ongoing 
partnerships in the former Soviet Union, support new partnerships in 
Africa, and expand work in the Middle East, South Asia, and South East 
Asia. It is important to note that CTR remains a threat-based program 
focused on supporting DOD's mission. To strengthen our stewardship of 
program resources, the Department is developing a comprehensive metrics 
approach to improve program management and ensure investments directly 
advance strategic threat reduction goals. When fully implemented, CTR 
Program metrics will track material inventory, training activities, 
equipment utilization, and major program milestones, such as the 
completion of transfer of custody. These inputs will help us track 
project plans against our completed activities in a tailored way. 
Importantly, this will improve the dialogue between Congress and the 
Department of Defense when evaluating the success of the DOD CTR 
Program. Additional information on the CTR metrics will be included in 
the CTR annual report to Congress, which will be submitted later this 
spring.
    The Secretary of Defense, with the Secretaries of State and Energy, 
recently approved the expansion of CTR activities to the Middle East. 
Through enhanced border security and threat reduction train and equip 
support, CTR will work with partner countries to help mitigate the 
threat posed by the potential proliferation or use of Syria's chemical 
weapons or materials and other WMD. With this new authority the CTR 
Program is working with our regional partners to increase their 
awareness of the threat posed by the potential proliferation or use of 
Syria's chemical weapons, materials, or other WMD; build and expand 
border protection capabilities to prevent illicit transfers of chemical 
weapons materials; and operate in a potentially contaminated 
environment. The CTR Program is proving to be exceptionally valuable to 
our partners and to existing partnerships in the face of this emerging 
threat. For example, CTR is funding Phase 2 of the Jordan Border 
Security Project, which will integrate technology and training to 
increase Jordan's visibility and ability to mitigate proliferation 
along the remaining 256-kilometer stretch of border with Syria.
    Another focus area for the CTR Program is to enhance maritime 
domain awareness capabilities for maritime surveillance in Southeast 
Asia, providing the ability to detect illicit transfers of WMD 
materials and strategic delivery systems. In particular, we are 
engaging Vietnam to improve maritime law enforcement awareness and 
security. This program is working to improve logistics and maintenance 
as well as providing equipment and developing a training center to 
enable more efficient efforts to thwart illegal smuggling of WMD and 
related equipment.
    CTR is also countering biological threats. CTR's partnerships 
decrease the vulnerability of biological agents to theft by nefarious 
actors and increase partners' abilities to detect, diagnose, contain, 
and report outbreaks of public health and national security concerns. 
Our hope is that current partners will, in the future, become sources 
of best practices and resources for other countries looking to improve 
their domestic biological security, outbreak surveillance, and response 
capabilities. GSA has briefed this committee in the past on improved 
biosecurity partnerships in East Africa, and I am proud to inform you 
that key facilities housing some of the world's most dangerous 
pathogens are now secure thanks to collaborative efforts among partner 
countries and the Departments of Defense and State.
    But gates and guards are not the only solution. We are also working 
to enhance the culture of security within the life sciences community. 
Insufficient security leaves us all vulnerable to misuse of biological 
material. As new challenges of dual-use and global access to 
biotechnologies demand new approaches, we are developing non-
traditional partnerships, including collaboration with the World Health 
Organization (WHO) to leverage their technical capabilities and global 
networks. While a DOD-WHO partnership may seem counterintuitive to 
some, we do in fact share many biosafety and biosecurity objectives. 
The WHO's International Health Regulations specifically call out these 
areas as requirements and sets guidelines for active and passive 
biological surveillance, which are the best means for detecting 
naturally occurring outbreaks and biological terror events. Compliance 
with these guidelines reinforces DOD objectives and enhances U.S. and 
international security. Direct and continued engagement with the WHO 
and similar organizations provides CTR with significantly more 
opportunities to enhance a culture of security within the existing life 
sciences communities that can recognize, report and aid in countering 
the grave threat posed by biological weapons development or use. 
Further, partnership with such organizations increases the likelihood 
that CTR-provided investments will be sustained in the future.
    I highlight these efforts in particular to note new levels of 
responsiveness in the CTR Program as it expands. We are advancing our 
approaches to threat reduction in appreciation of the dynamic threat 
environment. We have pushed the envelope, and we will continue to do so 
where we believe it will reduce WMD threats.
    DOD will also encourage and support--through direct and indirect 
assistance--states that have already committed to secure and dispose of 
WMD and reduce or dismantle WMD programs. In Libya, the CTR Program is 
working now to increase the safety and security of Libya's recently-
discovered chemical weapons stockpile, and we are also working to 
finalize a destruction agreement.
    Indeed, even beyond the projects and partnerships mentioned here, 
we are considering other, novel applications of the CTR Program. One is 
to transport vulnerable nuclear and radiological materials to more 
secure locations for storage or reprocessing. The Departments of 
Defense and Energy collaborate closely in threat reduction, drawing on 
each department's respective strengths. The Department of Energy is 
negotiating high-priority transfers of material to more secure 
locations for storage or reprocessing, and DOD has specific 
capabilities and training for secure transportation internationally. We 
are, therefore, working cooperatively to achieve overall U.S. 
objectives in nuclear and radiological security.
    Touching briefly on the future, DOD's CTR program is at a 
transition. We are now funding roughly as much work outside of the 
former Soviet Union as we are inside the former Soviet Union. Based on 
emerging threats, our aperture has widened substantially and we are 
increasing the flexibility of the program to be successful as a global 
effort. Developments in Libya and the Middle East this past year 
exemplify this requirement. We look forward to engaging with you and 
your congressional colleagues in the future about how to continue this 
update to the CTR program and increase its effectiveness.

    3.  Responding to Crises

    DOD works to manage WMD risks emanating from hostile, fragile, or 
failed states and safe havens. Where hostile actors persist in making 
significant progress toward acquiring WMD, the Department is prepared 
to undertake or support a full range of actions to stop such 
capabilities from being fully realized. We will convey to fragile 
states that proliferation undermines security and stability and work 
with them to enhance WMD security. We must deny non-state actors the 
means to manipulate and acquire the tools and resources of state actors 
and prevent them from achieving territorial freedom of action.
    The Department is continuing to develop tailored plans and 
capabilities to deter specific actors of concern, including those who 
may be serving as proxies, from employing WMD. DOD will also be 
prepared to locate, characterize, secure, exploit, and destroy WMD. We 
are seeing immediate successes in this area with the activation of the 
Standing Joint Force Headquarters-Elimination (SJFHQ-E). In addition to 
its unique support to the Combatant Commands, this year the SJFHQ-E 
participated in major exercises jointly with South Korea, France, and 
the United Kingdom. We are already seeing how this capability is able 
to address a range of challenges under varying security and political 
conditions.
    Given the prevalence of coalition operations in contemporary 
military campaigns, helping allies and partners understand WMD risks to 
develop effective defenses is an important element of our mutual 
defense. Such practical security cooperation focused on countering 
regional WMD threats helps partners resist incentives to acquire WMD in 
response to changes in the security environment. With this in mind, we 
have active bilateral CBRN defense partnerships with Japan, South 
Korea, Israel, France, the United Kingdom, and members of other 
countries as well as with NATO.
    The Department is also prepared to sustain operations and support 
continuity-of-government efforts following a WMD incident. Forces and 
operational areas must be able to function with minimal residual 
limitations resulting from chemical, biological, radiological, or 
nuclear (CBRN) exposure or contamination. In support of the warfighter, 
we will build on the successes of the Chemical and Biological Defense 
Program by continuing to improve the training of CBRN forces and 
advisors, developing medical and physical countermeasures, and 
advancing protective equipment and platforms for physical protection 
and decontamination. In addition, DOD is prepared to support civil 
authorities with CBRN response capabilities to mitigate the 
consequences of events in the homeland and abroad, including through 
the provision of timely technical forensics to enable strategic 
decision-making. DOD may also lead or assist in the disposal of 
residual adversary WMD capabilities until such time that a civilian or 
international entity can assume these responsibilities.
                               conclusion
    We are committed to meeting the Nation's countering WMD 
requirements while taking into account a shrinking Department of 
Defense budget. DOD will continue to pursue CWMD activities that span a 
range of unilateral and multilateral counter-proliferation and non-
proliferation efforts, and we will continue to coordinate our efforts 
within the interagency and with our international partners to prevent 
and protect against these most dangerous threats. None of the efforts I 
have described to you today would be possible without the continuing 
support of Congress. I thank you for your support for our fiscal year 
2014 budget request and look forward to our continued partnership.

    Senator Hagan. Thank you, Secretary Creedon.
    Director Myers.

STATEMENT OF MR. KENNETH A. MYERS III, DIRECTOR, DEFENSE THREAT 
  REDUCTION AGENCY, DEPARTMENT OF DEFENSE, AND DIRECTOR, U.S. 
    STRATEGIC COMMAND CENTER FOR COMBATING WEAPONS OF MASS 
                          DESTRUCTION

    Mr. Myers. Madam Chairwoman, Ranking Member Fischer, 
members of the subcommittee: It's an honor to be here today. 
I'm pleased to share with you the work being done to counter 
the threats of WMD by the DTRA and the SCC WMD.
    As a combat support agency, we are available 24 hours a 
day, 7 days a week, to support the combatant commanders and 
Military Services in responding to any WMD threat. As a defense 
agency, we manage a research and development portfolio to 
develop tools and capabilities needed in a WMD environment. In 
fact, DTRA provides U.S. Special Operations Command (SOCOM) 
with the tools they need to address counterproliferation 
threats.
    As a STRATCOM center, we synchronize U.S. efforts to 
counter WMD, and the complementary SJFHQ-E provides direct 
operational support for U.S. military task forces in hostile 
environments. As STRATCOM Commander General Bob Kehler recently 
noted: ``DTRA-SCC is where the country's expertise is. This is 
the focus point. This is where it all comes together, right 
here.''
    The events of the past week have reminded us once again 
that terrorists are determined to strike at any opportunity. Al 
Qaeda encourages their mujahedin brothers with degrees in 
microbiology or chemistry to create poisons and an effective 
delivery method. Because of our success in limiting access to 
materials in the former Soviet Union, groups and states seeking 
WMD have shifted their attention to other geographic areas and 
potential WMD sources.
    This evolution has required a shift in our thinking and 
strategy and is the reason why we have authorized the expansion 
of the Nunn-Lugar program and other programs to nearly 80 
countries. Today we are confronting potential WMD threats all 
over the world. We must be prepared for any geopolitical or 
military event.
    Thank you again for the opportunity to be here. I'm happy 
to take your questions.
    [The prepared statement of Mr. Myers follows:]
             Prepared Statement by Mr. Kenneth A. Myers III
    Madam Chairwoman, Ranking Member Fischer, and members of the 
subcommittee, it is an honor to be here today to share with you the 
work being done to counter the threats of weapons of mass destruction 
(WMD) by the Defense Threat Reduction Agency (DTRA) and the U.S. 
Strategic Command Center for Combating WMD (SCC-WMD).
    The threat posed by nuclear, radiological, biological, and chemical 
weapons is immediate, growing in scope, and evolving in its potential 
applications. Those who wish to harm us understand that the use of such 
weapons could result in immense loss of life and enduring economic, 
political, and social damage on a global scale.
    President Obama has made it clear that countering weapons of mass 
destruction (CWMD) is a critical national security priority for our 
Nation. Quite simply, the Agency and Center's focus is to keep WMD out 
of the hands of terrorists and other enemies by locking down dangerous 
nuclear and biological materials, destroying legacy weapons, preparing 
for, and responding to WMD incidents, and developing technologies to 
prevent, defend against, and counter a WMD attack.
                                mission
    Our mission spans the scope of nonproliferation--reducing WMD at 
their source; counterproliferation--the deterrence, interdiction, and 
defeat of WMD threats, and consequence management--the minimization of 
the operational effects of WMD attacks and mitigation of their 
consequences.
    DTRA and the STRATCOM Center, and the companion Standing Joint 
Force Headquarters for Elimination are a one-stop shop in addressing 
these threats. If these organizations were compared to a grocery store, 
not only would we provide access to nearly every kind of food product 
one could ask for but we have partnerships to deliver what we do not 
carry in-house. Our store would not only bring in the produce but would 
also work with the farmers in the field to improve productivity. We 
would not only bring your groceries to the car but we would also come 
home with you to help cook the meal. In fact, we would provide our own 
recipes. Now obviously we are not a grocery store nor do we stock 
shelves with inventory, but through our partnerships and expertise, we 
are built lean and flexible to fill very unique and specialized CWMD 
roles for a wide variety of customers. What is most impactful about 
these three organizations is not just the depth of our mission but the 
broad span of services we provide, all of which are necessary for 
successfully countering WMD. Each of these initiatives, whether large 
or small in scope add up to create a very strong proactive and reactive 
shield for our security and that of our allies.
    Regardless of the time or day, our building housing DTRA and the 
SCC is constantly buzzing with activity and with a diverse and 
remarkable collection of talented workers. As you enter our building 
and walk through the hallways, you encounter personnel with highly 
advanced technical degrees and skills related to physics, chemistry, 
microbiology, and nuclear engineering. They are working right alongside 
those with expansive experience with program management, logistics, 
planning, special operations, targeting and military operations. Our 
operation is often described as unique in this way, and it is true.
    Let me give you a simple example of exactly how our agency works. 
On our Science and Technology (S&T) side, we are developing the 
technologies necessary to verify arms-control commitments. We must make 
sure that the equipment we are producing in our research and 
development efforts fit the needs and the constraints and the 
conditions under which our inspectors are going to have to operate. It 
has to be rugged, compact, transportable, easy to use and most of all 
effective in a variety of diverse and often difficult environmental 
conditions. Consistent with our one-stop shop mission, we bring 
everything needed to wherever the mission is to be performed.
    On the other side, our operations experts have to be properly 
trained to make full use of the technology, make repairs, work with 
foreign governments and personnel, and get the job done under tight 
timelines. These two parallel processes, S&T and operations, must be 
able to support each other and the workforce must be dynamic enough to 
fill both roles.
    What binds our mission together are the consequences of the world's 
most dangerous weapons. The processes to create chemical, biological, 
radiological, nuclear and high yield explosive (CBRNE) weapons are all 
different and each represents different challenges in terms of 
approach, destruction, and impact. As a result, there are over 2,000 
people who work for DTRA/SCC-WMD in 11 sites within the United States 
and 9 sites around the world. In fact, nearly 30 percent of DTRA/SCC's 
workforce performs work outside of the DC area. While these individuals 
are specialized, they are focused on one mission, protecting the United 
States and our allies from weapons of mass destruction.
    The truth is that countering and combating weapons of mass 
destruction has to be performed on a larger scale than just our single 
institution. No one Federal Department, no single geographic region, no 
single country can marshal the necessary capabilities alone to 
successfully fight the WMD threats we face in this day and age. It 
requires careful collaboration not only across a variety of U.S. 
Government agencies but also with our allies and other partner nations 
abroad. As a result, the design and approach of our agency is 
intentionally open to collaborative partnerships and outward 
engagement.
    For example, it is not enough to turn back a shipment of WMD 
materials at an overseas border crossing. The actors' motives and 
intent need to be dissected and analyzed. The WMD material itself needs 
to be analyzed so we can better understand its strength, how it was 
made, and trace it back to its source. The materials at hand must be 
safely secured and disposed. The DTRA and SCC role in all of this 
provides the support necessary to do just that.
    On any given day, tens to hundreds of DTRA and Center experts are 
dispatched overseas, and in certain cases to some of the most dangerous 
and sensitive of areas, in order to provide analysis, research, 
testing, training and operational expertise.
    Our nuclear experts are supporting global nuclear weapons lockdown 
efforts, helping to protect and ensure surety of our own nuclear 
weapons, and survivability of U.S. Nuclear Command, Control, and 
Communications.
    Our biologists are consolidating and improving the security of 
dangerous pathogen collections across the planet, collaborating closely 
with other like-minded nations to prevent nefarious distribution of 
biological materials. They are also working cooperatively with 
international partners to counter emerging and potentially genetically 
altered or weaponized infectious diseases and developing new means for 
protecting our military personnel against biological terrorism.
    Our chemical weapons experts are assisting with the safety, 
security, and cooperative destruction of chemical weapons (CW) in the 
United States and Russia. They are also assisting with safety and 
security at Libya's CW storage facility and developing plans to assist 
them with CW destruction activities. In addition to addressing this 
urgent need, our S&T efforts also address potential future chemical 
weapons threats.
    DTRA structural dynamics experts are working on solutions to 
protect military and related government facilities at risk while also 
developing new means for mitigating blast effects resulting from 
vehicle-borne improvised explosive devices against structures and other 
infrastructure.
    Our DTRA and Center workforce performs CWMD planning and exercise 
support and provides expertise to the combatant commands and other 
customers.
    Our CWMD Science and Technology development is conducted in 
parallel with our operational capabilities in a complimentary and 
collaborative fashion. DTRA does not own or operate any functional 
laboratory, but we are able to select from the full range of national 
expertise, wherever that may be. Our performers include the DOD and 
Department of Energy/National Nuclear Security Administration (DOE/
NNSA) labs, contractors, Federally Funded Research and Development 
Centers, University-Associated Research Centers, and academia. We 
provide and operate test and evaluation capabilities at government 
facilities in New Mexico and Nevada to meet our own mission 
requirements, and those of our various customers and stakeholders.
    As our STRATCOM Commander General Bob Kehler recently noted while 
visiting DTRA and the Center, ``this campus right here is where the 
experts are, this is where the country's expertise is. This is the 
focus point; this is where it all comes together, right here.''
                               structure
    DTRA was created from a number of other national security entities 
whose combined history includes the Manhattan Project, the Defense 
Nuclear Agency, the Defense Special Weapons Agency, and the Chemical 
and Biological Defense and Nunn-Lugar Cooperative Threat Reduction 
programs, to name a few.
    As a Combat Support Agency we are available 24 hours a day, 7 days 
a week, to support the combatant commanders and Services in preparing 
for, preventing, or if necessary, responding to any WMD threat or 
challenge that they might face whether it be here or abroad. In the 
laboratory, planning sessions, or on the battlefield, our experts 
provide or utilize collaborative partnerships to address every CWMD 
contingency.
    As a Defense Agency, one of our prime responsibilities is to 
perform and to manage a research and development portfolio to develop 
tools and capabilities that the warfighter will need to address and to 
operate in a WMD environment, whether that be nuclear or other CWMD 
detection, chemical and biological protection gear, uniforms, or 
detectors.
    As the STRATCOM Center for Combating Weapons of Mass Destruction, I 
report to General Bob Kehler, Commander, STRATCOM. Our Center supports 
the Commander, STRATCOM with the Unified Command Plan responsibility to 
synchronize the planning for DOD CWMD efforts and advocate for CWMD 
capabilities.
    The Standing Joint Force Headquarters for Elimination was stood up 
by General Kehler last year to provide direct operational support to 
on-scene task forces that need CWMD expertise. To be clear, I am not 
the commander of the Standing Headquarters, but it is commanded by the 
flag officer that serves as my Deputy Director of the STRATCOM Center 
collocated in DTRA. The Standing Joint Force Headquarters is 
intentionally designed to expand our threat reduction activity to 
nonpermissive environments, or one in which we are not permitted a 
cooperative opportunity to reduce weapons of mass destruction.
    DTRA, the SCC and the Standing Joint Force Headquarters all have 
technically different roles in the counter-WMD mission area but they 
are located together so we can all leverage the most out of the 
resources that Congress provides and the capabilities that we develop 
and deploy together.
    To quote General Kehler again, if a joint commander ``needs help 
with an SCC-WMD issue, he turns to Mr. Myers . . . and if Mr. Myers 
can't help him with his SCC-WMD hat on, he can flip on his other hat 
and turn to DTRA . . . all of the expertise to deal with these problems 
is here . . . and it makes all the sense in the world.''
    DTRA performs its programs in response to direction provided by the 
Office of the Secretary of Defense (OSD), in direct support of each 
combatant commander on behalf of the Chairman of the Joint Chiefs of 
Staff and General Kehler as Commander of STRATCOM. As the Director of 
DTRA, I report through Mr. Andrew Weber, the Assistant Secretary of 
Defense for Nuclear, Chemical, and Biological Defense Programs, to the 
Under Secretary of Defense for Acquisition, Technology and Logistics. 
We also work in partnership with the Assistant Secretary of Defense for 
Research and Engineering and with the Assistant Secretary of Defense 
for Global Strategic Affairs in the Office of the Under Secretary of 
Defense for Policy.
                  strategies and goals--layered attack
    One of our major strategies is erecting layers of defense between 
the threats and the American people. It is just common sense to go 
where the problem begins and attempt to counteract and eliminate these 
threats as far away from American soil as possible.
                            nonproliferation
    The most well-known nonproliferation program was created by your 
former colleagues Senator Richard Lugar and Senator Sam Nunn. The Nunn-
Lugar Cooperative Threat Reduction (CTR) Program has been a true 
success story and has made incredible contributions to U.S. national 
security in the last 20 years.
    The program has now helped to destroy more than 7,616 warheads 
created for the purpose of hitting targets in the United States. This 
is chilling when you consider that any one warhead could take out the 
city the size of Charlotte in one shot. As of the end of February this 
year, we have destroyed 912 intercontental ballistic missiles (ICBMs), 
197 ICBM mobile launchers, 906 air-launched cruise missiles, and 
eliminated 33 nuclear powered submarines (SSBN) capable of launching 
ballistic missiles (SLBMs); eliminated 498 ICBM silos, 155 bombers, 492 
SLBM launchers, and 695 SLBMs; sealed 194 nuclear test tunnels and 
holes; safely and securely transported 607 nuclear weapons train 
shipments; upgraded 24 nuclear weapons storage sites; and secured 47 
Biological Threat Reduction Zonal Diagnostic Laboratories.
    This past year, we eliminated 21 SS-24 ICBM rocket motors in 
Ukraine and destroyed over 791.8 metric tons of Russian nerve agents. 
We have also secured four bio labs in Ukraine and Georgia, and opened a 
Biosafety Level 2 laboratory in Georgia to help us with global bio 
surveillance. This is just scratching the surface of the Nunn-Lugar 
program's accomplishments. As President Barack Obama recently stated at 
a Nunn-Lugar Program 20th anniversary celebration, ``missile by 
missile, warhead by warhead, shell by shell, we're putting a bygone era 
behind us.''
    The evolution of Nunn-Lugar has been remarkable. We are no longer 
building large, expensive missile dismantlement facilities or large 
chemical weapons destruction sites. Missile and submarine elimination 
projects are now being tracked alongside smaller, yet equally critical 
biological material projects in sub-Saharan Africa and proliferation 
prevention projects in Southeast Asia. Because of our success in 
eliminating access to materials in the former Soviet Union, groups and 
states seeking WMD have shifted their attention to other geographic 
areas and potential WMD sources. This evolution has required a shift in 
our thinking as well and is the reason why we have expanded Nunn-Lugar 
authority to nearly 80 countries, with close collaboration with our 
partners at the State Department and the National Nuclear Security 
Administration.
    In most cases, our new partners have no WMD aspirations. But, 
endemic diseases, man-made or otherwise, are not constrained by 
geographic or political boundaries. So it is up to us to go to the 
source. It requires us to form cooperative partnerships to ensure that 
consequential WMD proliferation does not occur.
    For example, DTRA/SCC-WMD is focused on helping African nations 
secure naturally occurring dangerous pathogens. Deadly African diseases 
like Ebola, Marburg, and Anthrax that were once used to make biological 
weapons during the Cold War are being safeguarded, cataloged, and, if 
needed, destroyed as part of the Cooperative Biological Engagement 
Program, now the largest activity within the Nunn-Lugar Cooperative 
Threat Reduction Program. For a relatively small investment, the 
program is reducing access to biological materials and expanding 
international partnerships to better counter natural and man-made 
biological events.
    For example, the laboratories I visited in Africa in 2011 had 
broken windows, rusty locks, meager electrical capabilities, and 
insecure fencing. Keep in mind that these facilities stored Anthrax, 
Ebola, Marburg, and Brucellosis. During one of my visits I casually 
walked into an unlocked room in an unsecure building that had seven 
unlocked freezers. In those freezers, situated next to countless other 
diseases, were many vials containing several grams of Anthrax. Just 2 
grams of Anthrax killed five Americans in the postal mail attack on the 
U.S. Senate in 2001. The anthrax that I saw was not weaponized; 
however, those vials could serve as the foundation for a biological 
weapon. In fact, during the Cold War, the Soviets reached into Africa 
to obtain the Anthrax which filled the 300 metric ton fermenters at 
Stepnogorsk. Through Nunn-Lugar we are working with our partners in 
Kenya and Uganda to ensure that those vials of Anthrax will not be 
weaponized and will not fall into the hands of terrorists.
    Timing is everything with biodefense. DTRA works closely with the 
Departments of Health and Human Services, the Centers for Disease 
Control and the U.S. Department of Agriculture and others to maximize 
our expertise and relationships within the global health community to 
improve early warning and detection capabilities and mitigate pandemic 
disease threats. We are even working on a mobile testing device which 
would allow for us to diagnose both threat and infectious bio-agents in 
humans in potentially remote areas. We are also creating partnerships 
with industry for advanced development and manufacturing of medical 
countermeasures to counter emerging bio threats and infectious 
diseases.
                          counterproliferation
    If our programs and our efforts at the source are unable to stop 
these WMD threats before they leak out, we help combatant commanders 
and military Service components to engage the threat on someone else's 
soil. Detection, interdiction, and if need be, destruction of these 
weapons and materials are the goal, thus disrupting the supply or 
smuggling routes and providing our national leadership with knowledge 
concerning important threat details. Working with our International 
partners, our goal is to deter, dissuade, and deny those who both 
produce and attempt to gain access to these materials and drive them 
out of business.
    For example, the Proliferation Prevention Program (PPP) enhances 
the capacity of partner countries to deter, detect, investigate, and 
respond to the attempted proliferation of WMD. It provides specialized 
equipment, training, and facility upgrades for partner nation border 
security and law enforcement organizations. Training is 
institutionalized through a train-the-trainer approach and sustained 
with periodic local and regional WMD Integrated Exercises which enable 
students to use program skills and equipment within a realistic 
training environment. The PPP's partners span the Caucuses, Eastern 
Europe, Central Asia, Southeast Asia, and the Middle East.
    One example of the impact of PPP can be seen with the country of 
Ukraine. During an exercise in 2007, Ukrainian border guard personnel 
intercepted a vehicle with an unmarked container filled with a 
suspicious white powder. PPP observers witnessed the border guards 
opening the container and literally smelling it to determine whether or 
not the contents were nefarious. Fast forward to today and we have 
fully institutionalized a ``WMD Inspection'' course at the State Border 
Guard Service of Ukraine. DTRA was able to accomplish this by providing 
appropriate training and training equipment. Furthermore, Ukraine has 
taken the initiative to offer training to its neighbors as a regional 
training center. They have hosted Moldovan border guards already and 
will soon be hosting Armenian Border Guard Forces in addition to the 
regular training that they provide for their own forces.
    Because of our success in interdicting and eliminating weapons at 
the source, we have literally driven the enemy underground. As a 
result, our national security leadership and military commanders need 
non-nuclear capability to strike at Hard and Deeply Buried Targets 
(HDBT). DTRA works closely with the Defense Intelligence Agency to find 
these targets and provide Combatant Commanders and Service Components 
with effective CWMD contingency responses. For example, the U.S. Air 
Force now owns and can employ a DTRA initiated product--the Massive 
Ordnance Penetrator Program (MOP). The MOP is a 30,000 pound 
conventional penetrating weapon designed to provide substantial 
improvements in accuracy and lethality over current weapons in the 
inventory to defeat hardened deeply buried targets.
    Another aspect of our work is to ensure the complete and successful 
stewardship of our nuclear weapons stockpile. We have systems in place 
to guarantee that we have complete control and accounting of our 
nuclear weapons at all times. In fact, last year we conducted 18 
inspections of U.S. nuclear capable units. We make sure every safety 
system is in place, maintained and in working order, and put the 
operations, maintenance and security forces through drills and 
exercises to ensure that everyone knows their job, they know the proper 
procedures and they know how to react when the situation changes. Our 
collective goal is to protect, control and serve the Nation with 100 
percent assured predictability, reliability and confidence in our 
nuclear weapons stewardship.
                         consequence management
    DTRA's roots reach to the early days of the Cold War when it 
provided technical and operational nuclear weapons effects expertise to 
the Military Services. This mission continues with additional services 
for the combatant commands and their ability to respond to WMD threats. 
DTRA's Technical Reachback capabilities support any CBRNE 
decisionmaking capability both here and abroad. We give the troops on 
the front line access to some of the smartest subject matter experts in 
real time. Last year, we fielded 1,492 Technical Reachback requests.
    The Consequence Management Assistance Program (CMAP) has active 
engagements in the Middle East, South East Asia, East Africa, and 
Eastern Europe. One recent success story occurred in Jordan where CMAP 
worked to enhance their capability to respond to incidents involving 
WMD. This was the first time that representatives from 28 Jordanian 
civilian and military organizations--including the Jordanian Armed 
Forces, Civil Defense, Ministries of Water and Irrigation, Religious 
Affairs, Education, and Trade and Commerce--sat together for the 
express purpose of revising a national emergency response plan. This 
engagement produced a more focused response to chemical and biological 
threats and better coordination among their ministries.
                       regional contingency teams
    In my testimony last year, I shared with the Committee DTRA's work 
to provide real-time technical assistance to our U.S. Armed Forces in 
Japan and the Japanese government in dealing with the estimated 9.0 
magnitude earthquake that rocked the east coast of Honshu, Japan, 
causing enormous damage and destruction. The earthquake was followed by 
a devastating tsunami that resulted in even more damage and tremendous 
loss of life. As damage reports from the earthquake and tsunami reached 
the Japanese Government leadership, the Tokyo Electric Power Company 
was working to prevent a third disaster--nuclear meltdown.
    As a close ally, the United States offered its consequence 
management support and DTRA provided radiological sensor data to 
produce models of the radiological plume. We provided daily update 
briefings and video teleconferences and worked to educate our military 
leaders about possible impacts to the Japanese population and our own 
troops in the area. In fact, the Japanese Ambassador even commented to 
me, ``We wish we had a DTRA.''
    Following this and other missions, DTRA began to review how to best 
utilize their assets and maximize both results and efficiency during 
fast-paced, real-time events. As a result, we created Regional 
Contingency Teams (RCTs) for certain national security situations to 
ensure that when we face a crisis, we have in place the best and most 
appropriate and complimentary technical, planning, and operations staff 
from all three of our organizations. Likewise, we set up beforehand 
whatever necessary equipment and coordination among combatant commands, 
Joint Staff, other DOD offices, other U.S. Government agencies and even 
our international partners. This approach enhances our planning and 
response time and allows for the best, most integrated information to 
be available across the board. We didn't just alter the stove pipes; in 
this case we blew them up.
    This concept sounds simple but it is often difficult as stove pipes 
are hard and thick and take considerable effort to break down. This is 
especially true when you consider the depth and breadth of our mission 
and the various roles that each organization fulfills. Communication 
and coordination across mission areas is sometimes difficult to 
accomplish. Nevertheless, it must be done--and we are making progress--
but there is much left to do.
    Events in the Levant, North Africa, Northeast Asia, and elsewhere 
have tested our model and the impact that we have seen is very 
positive. Our Requests for Information (RFIs) from our customers are up 
and the information disseminated is more timely, accurate and complete. 
Our fiscal year 2014 budget request helps us to continue this cross-
cutting, collaborative approach.
                         northeast asia, syria
    Within this framework, DTRA is playing a critical role in current 
U.S. national security issues around the world. Events in North Korea, 
Syria, and the Middle East are well publicized and our agency is 
engaged in these matters. While I would prefer to discuss our agency's 
involvement in these issues during the closed session, I share the 
member's interest in these issues.
                                 budget
    We accept that the overall budget situation will likely remain 
difficult and that additional pressures are expected to continue. This 
is significant as DTRA's annual appropriations have remained relatively 
flat since fiscal year 1999, despite the continuing importance, 
evolution, and transformation of CWMD mission requirements.
    We are working very hard to become more effective and efficient 
with the resources we have. We are prioritizing. We have shut down a 
number of offices. We did a complete prioritization of programs and 
eliminated those we felt could be covered in other ways. We are 
utilizing technology to reduce the need to travel and attend 
conferences and other administrative costs.
    One of the other ways we have worked to improve the efficiency of 
our organization is to expand partnerships that enable us to leverage 
expertise and capabilities from across DOD and other Federal agencies. 
For example, we coordinate with the Department of Homeland Security on 
development of nuclear detection and forensics, and piggyback on 
service technology development, particularly unmanned aerial vehicles 
as platforms for WMD search detection and interdiction. We also 
leverage the CDC's global partnerships and technical expertise to 
implement biological research and capacity building projects that help 
our international partners increase capacities through improved disease 
surveillance, detection, diagnosis, and reporting.
    Today, DTRA and SCC-WMD remain capable of executing our missions. 
However, I believe that General Kehler and I speak with one voice when 
I describe my most serious concern as the direct impact that this 
continuing fiscal uncertainty is having on our people. Uniformed 
servicemembers and civilian Federal employees alike have successfully 
withstood the effects of round-the-world mission accomplishment and 
hectic operational tempos. They willingly accept the uncertainties and 
risks which accompany mission performance. But they are anxious about 
what financial risks do to their families.
    Our workforce will cope with the effects of financial uncertainty 
in the near term. But, like General Kehler, I worry that over time our 
most experienced professionals and our most promising younger people 
will vote with their feet to pursue more stable opportunities 
elsewhere.
             fiscal year 2014 dtra budget request overview
    Our budget request for fiscal year 2014 is $1.49 billion and 
comprises Defense-wide Research, Development, Test and Evaluation; 
Operations and Maintenance; Procurement; and Nunn-Lugar Cooperative 
Threat Reduction (CTR) appropriation accounts. In addition, DTRA 
executes the $449.3 million Science and Technology (S&T) portion of the 
DOD Chemical and Biological Defense Program (CBDP) and serves as the 
funds manager for the remainder of that program's funding, $1.05 
billion. Therefore, the total DTRA resource portfolio is approximately 
$2.99 billion. Details and highlights for these requests follow.
Operations and Maintenance Funding
    Nearly 85 percent of DTRA O&M funding directly supports the 
warfighters and national missions as it pays for planning, training, 
exercises, and other means for collaboration across DOD and the U.S. 
Government, and with international partners. O&M funding is the fuel 
that enables us to reach out to our components and personnel, the 
warfighters, and international partners across the globe.
    The requested O&M funding would be applied as follows:

        <bullet> Nonproliferation Activities ($67.3 million) for arms 
        control activities including the conduct of U.S. Government 
        inspections of foreign facilities, territories, or events; 
        coordination and conduct of the escort of inspection teams for 
        inspections or continuous monitoring activities in the United 
        States and at U.S. facilities overseas; and the acquisition and 
        fielding of technology capabilities required to implement, 
        comply with, and allow full exercise of U.S. rights and 
        prerogatives under existing and projected arms control treaties 
        and agreements.
        <bullet> WMD Combat Support and Operations ($180.2 million) for 
        a wide range of combat and warfighter support to the Joint 
        Chiefs of Staff, the combatant commanders, and military forces 
        as they engage the WMD threat and challenges posed to the 
        United States, its forces, and allies. DTRA supports the 
        essential WMD response capabilities, functions, activities, and 
        tasks necessary to sustain all elements of operating forces 
        within their area of responsibility at all levels of war.
        <bullet> U.S. Strategic Command Center for Combating WMD ($11.8 
        million) for DTRA direct support to the SCC-WMD including 
        development of tools; providing strategic and contingency 
        planning, policy, and analytical support; developing 
        interagency relationships; and working closely with STRATCOM 
        partners to establish the means for assessing and exercising 
        capabilities to combat WMD.
        <bullet> Core Mission Sustainment ($185.1 million) for a wide 
        range of enabling capabilities which include information 
        management; resource management; security and asset protection; 
        acquisition and logistics management; strategic planning; 
        leadership and professional development; and provide the 
        safety, security, and efficiency necessary for mission success. 
        In recent years, DTRA has increased investment in its 
        Information Technology systems to provide secure and dependable 
        connectivity for global mission execution.
Nunn-Lugar Cooperative Threat Reduction
    The request of $528.5 million for this important program would be 
used as follows:

        <bullet> Strategic Offensive Arms Elimination ($10 million) for 
        elimination of Strategic Offensive Arms in Russia and the 
        storage and elimination in Ukraine of rocket motors from 
        dismantled SS-24 ICBMs. Due to diminishing elimination 
        activities needed for the Russian Federation to meet the New 
        START Treaty requirements, the DOD intends to transition 
        remaining responsibility for elimination activities to the 
        Russian Federation in 2014.
        <bullet> Chemical Weapons Destruction ($21.3 million) for 
        technical support to the Russian chemical weapons destruction 
        operations at Shchuch'ye and the Kizner Chemical Weapons 
        Destruction Facilities. Russia began chemical weapons 
        destruction operations at Shchuch'ye in March 2009 and, as of 
        April of this year, has destroyed over 1.6 million munitions 
        and 4014 metric tons of nerve agent. Funding is also provided 
        under this account for technical expertise and resources to 
        support chemical weapons destruction in Libya.
        <bullet> Global Nuclear Security ($86.5 million) for improving 
        nuclear material security, including security for nuclear 
        warheads and weapons-usable nuclear material. This program also 
        assists in the secure transport of nuclear warheads and other 
        qualifying nuclear material to dismantlement facilities, secure 
        storage areas, or processing facilities for disposition.
        <bullet> Cooperative Biological Engagement ($306.3 million) for 
        combating the threat of state and non-state actors acquiring 
        biological materials and expertise that could be used to 
        develop or deploy biological materials and weapons. This 
        program destroys or secures certain biological agents at their 
        source, and works in partnerships to ensure a secure disease 
        surveillance system. This program works closely with other U.S. 
        Government departments and agencies, international partners, 
        and the private sector.
        <bullet> Proliferation Prevention ($73.8 million) to enhance 
        the capability of non-Russian, Former Soviet Union (FSU) states 
        and other partner countries to deter, detect, report, and 
        interdict illicit WMD trafficking across international borders. 
        Beginning in fiscal year 2012, the Proliferation Prevention 
        program began expansion outside of the FSU to Southeast Asia. 
        In fiscal year 2013 and 2014, Proliferation Prevention will 
        continue expansion activities in the Southeast Asia region on a 
        bilateral and regional basis and begin to work with partners in 
        the Middle East.
        <bullet> Threat Reduction Engagement ($2.4 million) to develop 
        active and positive relationships between the defense, 
        military, and security establishments of the United States and 
        the states of Eurasia and Central Asia. This program engages 
        military and defense officials in activities that promote 
        regional stability, counterproliferation, and defense reform; 
        build security cooperation with the partner states; and promote 
        exchanges that enhance interoperability with U.S. and North 
        Atlantic Treaty Organization (NATO) forces for multinational 
        operations.
        <bullet> Other Assessments/Administrative Support ($28.2 
        million) to ensure that DOD-provided equipment, services, and 
        related training are fully accounted for and used effectively 
        and efficiently for their intended purposes. This account also 
        funds CTR program travel, translator/interpreter support, and 
        other agency support to include support to program personnel 
        assigned to U.S. Embassy offices in partner states.
Research, Development, Test, and Evaluation
    DTRA RDT&E programs respond to the most pressing CWMD challenges 
including stand-off detection, tracking, and interdiction of WMD; 
modeling and simulation to support weapons effects and hazard 
predictions; classified support to Special Operations Forces; defeat of 
WMD agents and underground facilities; and protection of people, 
systems, and infrastructure against WMD effects.
    DTRA RDT&E is unique in being focused solely on CBRNE; tied closely 
with the agency's Combat Support responsibilities; has a top-notch in-
house field test capability; relies upon competitive bids, the national 
labs, industry, and academia rather than an in-house laboratory 
infrastructure, allowing for a ``best of breed'' approach to performer 
selection; and is nimble and responsive to urgent needs.
    The agency has a comprehensive, balanced CBRNE S&T portfolio that 
supports DOD goals and is well connected with DOD customers, as well as 
interagency and international partners. Our RDT&E approach balances the 
need for near-term pay-off with the need for long-term knowledge and 
expertise, and is centered upon the following projects: Basic Research, 
Applied Research, Advanced Research, and System Development and 
Demonstration. The requested RDT&E funding includes $45.9 million in 
Basic Research to provide for the discovery and development of 
fundamental knowledge and understanding by researchers primarily in 
academia and world-class research institutes in government and 
industry.
    The DTRA fiscal year 2014 request also includes $175.3 million for 
WMD Defeat Technologies Applied Research, $274 million for 
Proliferation Prevention and Defeat Advanced Research, and $12.9 for 
WMD Defeat Capabilities System Development and Demonstration.
Chemical and Biological Defense Program S&T
    The Department's CBDP S&T programs support DOD-wide efforts to 
research, develop, and acquire capabilities for a layered, integrated 
defense against CBRN agents; better understand potential threats; 
secure and reduce dangerous materials whenever possible; and prevent 
potential attacks. Although funding for the CBDP is not part of the 
DTRA budget request, the agency executes the S&T portion of this 
program, for which the Department has requested approximately $449.3 
million in fiscal year 2014. The agency also manages funding execution 
in support of CBDP advanced development and procurement.
                               conclusion
    Madame Chairwoman, in closing my testimony I would like to 
highlight a recent speech by Deputy Secretary of Defense Ash Carter who 
spoke at a celebration of the Nunn-Lugar program's 20th anniversary. 
``Historians should look back at what might have happened, but didn't 
thanks to Nunn-Lugar. Imagine the alternative if loose nukes from the 
former Soviet Union had gotten into Bin Laden's hands; into the hands 
of other terrorists with odious causes; or rogue states . . . 
contemplate all of that and you see the enduring value of Nunn-Lugar.''
    This analogy is a perfect snap-shot of why what our Agency and 
Center does is important. What would happen if we didn't do all of the 
things I have described today? What would happen if we were not funded 
enough to accomplish our mission? These are serious questions which 
strike at the heart of our national security challenges. We hope that 
we will continue to earn the committee's trust and support in meeting 
these threats and ensuring our security. Thank you, again, for the 
opportunity to be here today. I would be pleased to respond to your 
questions.

    Senator Hagan. Thank you.
    Now Ms. Harrington.

  STATEMENT OF MS. ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
              ADMINISTRATION, DEPARTMENT OF ENERGY

    Ms. Harrington. Madam Chairman, Ranking Member Fischer: 
Thank you for having me here to discuss the President's fiscal 
year 2014 budget request for the DOE's NNSA defense nuclear 
nonproliferation account. I am particularly pleased to appear 
here today with my colleagues from DOD and DTRA. We share a 
strong commitment to the security of the Nation and to finding 
ways for our programs to work together to that end.
    Earlier this month the President released the 2014 budget 
and allocated $2.1 billion for NNSA's nonproliferation, 
counterterrorism, and emergency response programs. The defense 
nuclear nonproliferation appropriation account of the fiscal 
year 2014 budget request has been restructured to include 
nuclear counterterrorism and incident response programs and the 
counterterrorism and counterproliferation programs. By drawing 
these NNSA programs together with the Office of Defense Nuclear 
Nonproliferation Programs in a single appropriation, we 
strengthen existing synergies and cooperation among these 
functions. We already work together very strongly and we see 
that this is a good way to grow in that direction in the 
future.
    Both the President and members of this committee have shown 
strong support for NNSA's mission in recent years. With your 
help and under the President's 4-year goal to remove dangerous 
nuclear materials and secure them, 10 additional countries are 
now free of highly enriched uranium and 3 more countries will 
be de-inventoried of highly enriched uranium by the end of 
2013.
    But there is still much to be done. I want to stress how 
vital your continued support of NNSA's nonproliferation 
programs is to reducing the threat of dangerous nuclear 
materials.
    In today's budget-constrained environment, we have to 
ensure that we are continuously improving how we do business. 
NNSA is an organization that is modernizing in every way and we 
are holding our people, both contractors and Federal employees, 
accountable. We owe it to the American people to continually 
review our work and make strategic decisions for the future.
    This includes our plutonium disposition strategy. The 
United States is firmly committed to disposing excess weapons 
plutonium, but, given the rising costs associated with the MOX 
project, we must step back and take a thoughtful look at the 
MOX project and our plutonium disposition options.
    I'm sure you have a number of questions. I look forward to 
the opportunity to talking with you today. I want to thank you 
for acknowledging the value of our work and for your support in 
previous years that has helped us accomplish many things that 
have made the American people safer.
    I look forward to working with you to implement the 
President's budget. I am ready for any questions you have.
    [The prepared statement of Ms. Harrington follows:]
               Prepared Statement by Ms. Anne Harrington
                              introduction
    Madam Chairman, Ranking Member Fischer, and distinguished members 
of the subcommittee, thank you for having me here to discuss the 
President's fiscal year 2014 budget request for the Department of 
Energy's National Nuclear Security Administration's (NNSA) Defense 
Nuclear Nonproliferation appropriation account. The Defense Nuclear 
Nonproliferation appropriation budget request of $2.14 billion provides 
the funding necessary to implement the President's nuclear security 
priorities. I am particularly pleased to appear today with my 
colleagues from the Department of Defense and the Defense Threat 
Reduction Agency. We share a strong commitment to the security of the 
Nation and to finding ways for our programs to work together to that 
end.
    The Defense Nuclear Nonproliferation appropriation account of the 
fiscal year 2014 budget request has been restructured to include 
Nuclear Counterterrorism Incident Response Program (NCTIR) and 
Counterterrorism and Counterproliferation Programs (CTCP), both of 
which include activities transferred out of the Weapons Activities 
appropriation. By drawing these NNSA programs together with the Office 
of Defense Nuclear Nonproliferation programs in a single appropriation, 
we strengthen existing synergies and cooperation among these functions. 
In doing so, we provide priority and emphasis to the NNSA programs that 
are responsible for implementing the President's nuclear security 
priorities and the 2010 Nuclear Posture Review (NPR) which ``outlines 
the administration's approach to promoting the President's agenda for 
reducing nuclear dangers and pursuing the goal of a world without 
nuclear weapons, while simultaneously advancing broader U.S. security 
interests.'' This change in budget structure will present with greater 
clarity the total funding and level of activity undertaken by the NNSA 
in this area, which the NPR identifies as the highest priority nuclear 
threat facing the Nation. At the same time, this realignment ensures 
that the Weapons Activities appropriation is now more focused on the 
nuclear weapons stockpile and related activities.
    As we look to the future, we see challenges and opportunities 
across the globe. Over the past 4 years we have seen increased focus, 
determination and expansion of activities with our international 
partners. This has been due largely to the momentum created by the 
Nuclear Security Summit process to meet shared nuclear security goals. 
Russia, for example, has announced its intention to be a full partner 
with us, and remains a critical partner in the efforts to secure the 
most vulnerable nuclear materials and keep them out of the hands of 
proliferators and terrorists. The Russians are not alone, and dozens of 
countries have stood alongside President Obama and the United States at 
two Nuclear Security Summits to show their commitment to our shared 
cause. The fiscal year 2014 Office of Defense Nuclear Nonproliferation 
budget request provides $1.92 billion to harness the international 
momentum created by the Nuclear Security Summit process and address our 
most pressing nonproliferation challenges.
    One of our most important accomplishments has been to support the 
President's call for an international effort to secure vulnerable 
nuclear material across the globe in 4 years. The President's 4-year 
effort is an unprecedented global undertaking, led by the United 
States, with significant contributions from dozens of countries around 
the world. The White House, in close coordination with our interagency 
and international colleagues, is leading and implementing a 
comprehensive three-tiered strategy to secure vulnerable material at 
the individual site level, the national level and the global level. I 
am pleased to report that NNSA has made important contributions to the 
U.S. Government's efforts in each of these strategic areas. Since 2009, 
our efforts to secure plutonium and highly enriched uranium (HEU) 
around the world have accelerated to make it significantly more 
difficult to acquire and traffic the materials to make an improvised 
nuclear device. I am proud to say that we are very close to meeting our 
goals to remove or dispose of 4,353 kilograms of highly enriched 
uranium and plutonium in foreign countries by the end of 2013, and 
equip 229 buildings containing weapons-usable material with state-of-
the-art security upgrades, though some challenges remain.
    On April 5, 2013, we completed the removal of all HEU from the 
Czech Republic, making it the 10th country to be completely de-
inventoried of HEU in the last 4 years. The NNSA will complete 
prioritized removal of vulnerable nuclear material from three more 
countries this year.
    The fiscal year 2014 budget request provides $424.5 million to the 
Global Threat Reduction Initiative. While this is a decrease in funding 
compared to years past, this budget reflects the expected successful 
conclusion of the 4-year effort.
    The 4-year effort allowed us to accelerate some of our most 
important work, but it has been accurately described as ``a sprint in 
the middle of a marathon.'' After our 4-year sprint, there will be much 
left to complete in the areas of the elimination, consolidation and 
securing of nuclear and radiological materials worldwide. Nuclear and 
radiological terrorism continues to be a grave threat, nuclear and 
radiological WMD technology and expertise remain at risk, and materials 
of concern, such as plutonium, are still being produced. While the 
challenges are substantial, they are not insurmountable.
    GTRI's fiscal year 2014 budget will address these challenges head-
on by funding the removal of an additional 565 kilograms of HEU and 
Plutonium, the shutdown or conversion of an additional 4 HEU research 
reactors, and the completion of security upgrades for an additional 105 
high-priority nuclear and radiological buildings.
    In addition to GTRI's material security and elimination efforts, 
the fiscal year 2014 budget provides $369.6 million for another 
important element of the President's nuclear security agenda-- the 
Office of International Material Protection and Cooperation (IMPC). The 
fiscal year 2014 IMPC budget reflects the completion of a number of 
major initiatives in several program areas as well as a shift to a 
sustainability phase with the Russian Federation.
    The fiscal year 2014 budget funds comprehensive MPC&A upgrades at 8 
more buildings in Russia that store and process weapons-usable nuclear 
material, converts 0.8 Metric Tons of HEU to LEU and continues 
engagement with China, India, and other countries on MPC&A best 
practices. The fiscal year 2014 IMPC budget will also provide $140 
million to the Second Line of Defense program to implement the 
conclusions of the strategic review briefed to the Global Nuclear 
Detection Architecture (GNDA) interagency working group, including 
supporting fixed radiation detection at 25 sites in 8 countries, 
focusing more on mobile detection technologies, and on strengthening 
the GNDA.
    In addition to physical security and material detection, the fiscal 
year 2014 budget provides $141.7 million to the Office of 
Nonproliferation and International Security (NIS). The decrease from 
the fiscal year 2013 budget reflects a reduction in HEU transparency 
activities as the U.S.-Russian HEU Purchase Agreement nears completion. 
The fiscal year 2014 request funds NIS efforts to safeguard nuclear 
material and facilities, control illicit trafficking of nuclear WMD-
related technology and expertise, verify compliance with international 
arms control and nonproliferation treaties, and develop and implement 
policy to reduce nuclear dangers.
    A key element of our nuclear security and nonproliferation strategy 
is the development of capabilities to monitor nuclear treaties, weapons 
development activities, and detonations worldwide. The fiscal year 2014 
budget provides $389 million to the Office of Defense Nuclear 
Nonproliferation Research and Development to address these core goals 
including producing nuclear detection satellite payloads.
    We will continue to pursue a multi-layered approach to protect and 
account for material at its source; remove, down-blend or eliminate 
material when possible, detect, deter, and reduce the risk of 
additional states acquiring nuclear weapons; and support the 
development of new technologies to detect nuclear trafficking and 
proliferation, as well as verify arms control treaties.
    We owe it to the American people to continually reevaluate our work 
and make strategic decisions for the future. The fiscal year 2014 
budget request takes a thoughtful look at the Mixed Oxide (MOX) Fuel 
Fabrication Facility project and our plutonium disposition options. The 
United States remains committed to disposing of excess plutonium, to 
working in partnership with the Russian Federation in our parallel 
plutonium disposition efforts under the Plutonium Management and 
Disposition Agreement, and to engaging with the International Atomic 
Energy Agency (IAEA) to verify the disposition. The U.S. plan to 
dispose of surplus weapons-grade plutonium by irradiating it as MOX 
fuel has proven more costly to construct and operate than anticipated. 
Considering these unanticipated cost increases and the current budget 
environment, the administration has begun assessing alternative 
plutonium disposition strategies and identifying options for fiscal 
year 2014 and the out-years. Naturally, this assessment of technologies 
will also include the Mixed Oxide approach. During the assessment 
period, the Department will slow down the MOX project and will actively 
engage key program partners and stakeholders as the assessment of 
alternative plutonium disposition strategies is developed. We believe 
the plutonium disposition assessment will ensure that we are able to 
follow-through on our mission in the decades to come.
               nuclear counterterrorism incident response
    This year, the request for NCTIR will support a strategy focused on 
reducing nuclear dangers through integration of its subprograms: 
Emergency Management, Emergency Response, Forensics and International 
activities supported by training and operations.
    In fiscal year 2014, the program will invest in unattended sensing 
capabilities for the Nuclear Emergency Support Team, maintain training 
of the Consequence Management Home Team, sustain stabilization cities, 
complete improvements to U12P-tunnel, address and sustain emergency 
management requirements, maintain the Emergency Communications Network, 
and continue supporting international partners. The NCTIR program will 
continue to maintain essential components of the Nation's capability to 
respond to and manage the consequences of nuclear incidents 
domestically and internationally, and continue to conduct programs to 
train and equip response organizations on the technical aspects of 
nuclear counterterrorism.
           counterterrorism and counterproliferation programs
    The aforementioned budget realignment includes the CTCP program 
office, which we stood up last year. The funding request for CTCP 
includes the transfer of the discontinued National Security 
Applications funding into a consolidated and substantially revised 
budget line to support the highest priority counterterrorism and 
counterproliferation technical work, including the study of Improvised 
Nuclear Devices and other non-stockpile nuclear device threats. This 
increased funding will support unique nuclear device-related technical 
contributions derived from NNSA's core nuclear science and technology 
expertise. This activity supports interagency policy execution, DOD and 
Intelligence Community customers, and DOE's own emergency response 
operations.
                               conclusion
    Our continued focus on nonproliferation, nuclear security, and 
nuclear counterterrorism efforts is vital. The threat of nuclear 
terrorism and WMD proliferation remains. Detonation of a nuclear device 
anywhere in the world could lead to significant loss of life, and 
extraordinary economic, political, and psychological consequences. In 
these challenging budget times, we must not lose site of the critical 
role played by these programs and the protections they provide by 
reducing the risk of nuclear terrorism and WMD proliferation.

    Senator Hagan. Thank you.
    I do expect some other Senators to come in, so right now we 
will take about 6-minute questions for the Senators.
    Secretary Creedon, I wanted to talk about the CTR umbrella 
agreement. I know that the United States is negotiating a new 
umbrella agreement with Russia on the continuing CTR activities 
there. Can you please explain the high-level goals and 
objectives you hope to achieve in a new agreement?
    Ms. Creedon. Thank you, Senator. When we look back over the 
20 years of success of the CTR program, it is really striking 
how much we have accomplished with the Russian Government. When 
you look at the scorecard, which has been the longstanding 
metric for a lot of the accomplishments, this program has not 
only substantially reduced the number of warheads and delivery 
systems associated with the former Soviet Union, but it also 
was instrumental in removing entire countries from being 
weapons states and helping them to completely denuclearize.
    This relationship has been able to survive all of the ups 
and downs of the broader U.S.-Russia relationship over the 
course of the last 20 years. So at the very highest levels, it 
is important that we maintain the ability to work with Russia 
on these topics of major concern to both countries.
    How we actually will do that going forward in the future is 
still not resolved, as the umbrella negotiations are going on 
pretty much even as we speak today in Geneva. But it's 
maintaining that ability to work together. We're going to 
change, obviously, how we work. Many of the programs at DOD 
were on a natural glide path for completion over the course of 
the next several years. We want to make sure that as we 
transition out of these programs that Russia is going to be 
able to sustain them, that they have the budget-making and 
funding capability to sustain these programs. But we want to 
also figure out ways that as we look for changes in this 
relationship that we can work together on certain things. So 
maybe there are opportunities in the future where we can take 
our combined knowledge and share it with other countries. It's 
that sort of a strategic relationship that we hope in the 
future we'll be able to sustain.
    I think practically a lot of the work in Russia is really 
coming to completion, the actual work is probably less 
important at this point, although I don't want ever to 
underplay or undersell it. But it's that strategic relationship 
that's important in the future.
    Senator Hagan. Thank you.
    In 2012 you made two determinations with respect to using 
CTR funding in the Middle East and Syria. Can you explain again 
what was accomplished in this past year and your long-term 
objectives for these activities?
    Ms. Creedon. As is very obvious, this is a region of 
significant turmoil, not the least of which is in the last 18 
months or so with Syria. So one of the main things that we've 
done with this new authority is to work with the Jordanians in 
developing a substantial border program, as I mentioned in my 
statement, that will provide border security capability to the 
Jordanians for over 250 kilometers of the shared border with 
Syria, to help prevent the leakage or the proliferation, 
primarily of chemical weapons, but also of technology. One of 
the fears is that something along the line may be stolen or 
someone may try to get it out of the country.
    We're also working with several of the other border 
countries, and we've also done a fair amount of work with the 
Jordanian military, helping them to also be able to respond in 
some sort of a chemical environment.
    Senator Hagan. Thank you.
    Ms. Harrington, in the fiscal year 2014 budget it proposes 
to take, as I said earlier, a strategy pause in the MOX fuel 
program after the large cost growth in the overall effort. Can 
you explain why DOE has taken this strategic pause?
    Ms. Harrington. Thank you, Madam Chairman. Yes, we are 
developing a plan to assess the options for moving forward on 
plutonium disposition, emphasizing the fact that we remain at 
the highest levels in the administration fully committed to 
fulfilling our commitments under the plutonium management 
disposition agreement and to involving the International Atomic 
Energy Agency in verifying the disposition of those materials.
    So those two principles remain steadfast. But in the face 
of rising costs and schedule slips and the prospect of 
rebaselined projected costs near $8 billion, we thought it was 
prudent and responsible to the taxpayers whose funds actually 
support this program to take a step back to ensure that we are 
carrying out this commitment in the smartest possible way.
    Senator Hagan. I'm sure we'll have more questions. My time 
has run out. I will go to Senator Fischer.
    Senator Fischer. Thank you, Madam Chairman.
    I'd like to continue with the CTR, if I may. Secretary 
Creedon or Director Myers, there has been a large reduction in 
the warheads within the former Soviet Union and I believe 
that's a very great accomplishment. In fact, I believe that the 
work that all of you do is vital and very important. I want to 
thank you for the service that you provide to our country and 
to the citizens of our country in this very important work.
    When you're looking at moving on--you said work is nearing 
completion. How do you judge when work is complete? What are 
some of the benchmarks that you use?
    Ms. Creedon. I'll take two of those, just for example, and 
then ask Ken to do some additional ones. One of the ones that 
my office has been particularly focused on is understanding 
when we've completed or are nearing completion of the 
elimination of the strategic offensive delivery systems. So 
these would be, for instance, the intercontinental ballistic 
missiles (ICBM), the various ICBMs that were from the Soviet 
era. We are for the most part completed. We've almost completed 
all of that work. So that is an example of we've gotten rid of 
all the legacy systems, we're moving out, we've done all that 
work, and that's almost finished.
    The other one of these big examples is also the chemical 
weapons destruction work. When we started off, the United 
States and Russia had the largest chemical weapons stockpiles. 
In the work, primarily at Shucha, the Russians have built one 
facility and the United States built another facility. This 
facility is working through the bulk of the Russian stockpile. 
There are several other facilities, but again this is one where 
they are about, I want to say, 70 percent complete of the 
stockpile that's out there. So this is another example of 
significant success and significant progress.
    Senator Fischer. How do you prioritize in which area you 
begin? Do you prioritize the nuclear over the chemical or the 
biological? How do you do that?
    Ms. Creedon. Are you speaking like historically within 
Russia or looking forward?
    Senator Fischer. Well, both.
    Ms. Creedon. Both.
    Senator Fischer. Let's look at both.
    Ms. Creedon. Historically we really focused initially on 
the nuclear side because that was the concern that Senator Nunn 
and Senator Lugar had when they kicked off these programs. As 
that relationship was built, we were able to venture into both 
the biological and the chemical weapons side as well. So it was 
a little bit of discovery and then building cooperation and 
more discovery and then more opportunities presented 
themselves.
    As we look to the future, we want to maintain this threat 
focus. So we look out and see what are the threats. So it could 
be a specific threat from a specific country in a specific 
material, or it could be one that we just think is maybe 
underaddressed, and the biological threat fits in that one at 
the moment.
    Senator Fischer. Thank you.
    Mr. Myers. Senator, let me add a couple of points. First, 
one of the other specific areas that we cooperate with the 
Russians on is on nuclear warhead security, helping them 
transport nuclear warheads for dismantlement and ensuring that 
their storage facilities are safe and secure. One of the ways 
that that was measured was in the Bratislava agreement which 
set up the cooperation. We were basically able to establish 
metrics and we were able to really judge how far along in that 
process we are.
    Secretary Creedon also mentioned our work on chemical 
demilitarization. In addition to Shucha, we provide some 
technical support to Kisner and other locations and facilities. 
Than obviously we watch how quickly and how they move forward 
through the reports to the Organization for the Prohibition of 
Chemical Weapons as to progress they make moving forward.
    The third category I would point out is there has also been 
efforts when the United States and Russia have worked together 
in third countries. That's also been a very important building 
block for the strategic relationship, specifically in places 
like Kazakhstan and elsewhere. Obviously, in those types of 
situations we're able to measure our effectiveness together and 
with equal responsibilities, either in-kind contributions or in 
monetary contributions.
    I would also just echo what Secretary Creedon mentioned. As 
we move forward with these efforts in new countries, we are 
focused primarily on the threat, but we're also coordinating 
very closely with the combatant commands and working closely 
with them in terms of opportunities, in terms of building 
relationships, and the like. Obviously, the combatant commands 
also have an opportunity to make recommendations or make 
requests, and we'll work with them as we expand the program to 
new areas and new regions.
    Senator Fischer. Countries have to invite the United States 
in to do this work, correct? That's been the case with Russia, 
and you say that there has been a good working relationship and 
it's continued as you move on to other nations, correct?
    Mr. Myers. Just to be clear, Senator, yes, the relationship 
with Russia is very professional. The relationship where we 
work together in third countries has been very professional. 
But they have not been partners in all of the countries we work 
in.
    Senator Fischer. Do you see this partnership being 
available in countries such as Syria?
    Mr. Myers. It's unclear. We'll have to look forward to 
continuing the conversations and discussions and see what the 
opportunities provide us in the future.
    Senator Fischer. Thank you.
    Senator Hagan. Senator Graham.
    Senator Graham. Thank you, Madam Chairman. I'll try to do 
this in 6 minutes.
    Ms. Harrington, we'll have a discussion here in a moment, 
but I want to let the chairman and the ranking member know 
about my concern about the MOX program. Back in the 1990s, 
under the Clinton administration, South Carolina agreed to 
accept 34 metric tons of plutonium, weapons-grade plutonium, in 
excess of our defense needs. There was an agreement negotiated 
between the Clinton administration and the Russian Government 
where we would take 34 metric tons of plutonium in excess of 
our defense needs, weapons material, and the Russians would 
take 34 metric tons and we would dispose of it.
    We've been dealing with this issue for over a decade now, 
well over a decade, and the Obama administration comes along 
and they actually begin to build the MOX facility. I'm sure 
you're aware of it because of Duke Power, but in case people 
are not, there's a technology that's been tested and it works, 
where you can take weapons-grade plutonium, blend it down, and 
make commercial-grade fuel out of it. So, you're taking a sword 
and making it into a plowshare. The MOX facility at Savannah 
River Site is somewhere toward halfway being completed.
    Last year, the statute that Senator Thurmond wrote when he 
was in the Senate and I was in the House, because there was so 
much pushback in South Carolina about accepting this plutonium, 
the fear was we're going to hold this stuff and have no way 
forward--well, guess what, Yucca Mountain shut down. So MOX 
gives you a way forward. It becomes commercial-grade fuel.
    But the statute we wrote back in the early part of this 
century, I believe 2000, required a $100 million fine to DOE if 
they didn't stay on track. Last year they were off track in 
terms of the timetable, but I sat down with the Obama 
administration and said: ``Listen, we don't want the $100 
million; we want the MOX facility.'' So we extended the time 
period for 2 years.
    I can assure you, I would not have done that if I had known 
this year in the President's budget they would be suspending 
the MOX program for a study. We have studied this thing to 
death. It is now time to get on and getting it built.
    Ms. Harrington, we do have an agreement with the Russians 
regarding the 34 metric tons, is that correct?
    Ms. Harrington. Yes, sir, that's correct.
    Senator Graham. In 2010 the agreement was amended to say 
that the disposition path would be MOX, is that correct?
    Ms. Harrington. That is correct.
    Senator Graham. We rejected vitrification because if you're 
going to vitrify all of this stuff we're not going to store it 
at Savannah River Site. We're not a storage site.
    So if we do something other than MOX, how can we meet our 
obligations under the treaty?
    Ms. Harrington. First, I'd like to clarify that in this 
assessment pause that we have included in the budget, MOX 
remains clearly on the table. It is not that we are 
disregarding MOX as a viable option.
    Senator Graham. Ms. Harrington, I don't mean to be rude. 
You're a very smart lady. It's not on the table. It's the 
pathway forward. It's not subject to debate. I wouldn't have 
done anything I did last year if I thought there was one chance 
in a million that we'd be debating a year later whether or not 
MOX is the way to go. I don't want the $100 million. I want to 
get this stuff off the table in America and particularly in 
Russia, given the times in which we live in.
    So what I would suggest to you is that the $2 billion 
overrun concerns me, too. I met with the Deputy Secretary of 
Energy, and here's what I'm willing to do. I'm willing to sit 
down with DOE and the contractor to try to get the cost down 
below $8 billion.
    Now, at Savannah River Site the pit disassembly facility 
was going to be a third separate building. This is where you 
take the pit out of the warhead and that's what's blended down 
into MOX fuel. It's the plutonium bullet. We were able to avoid 
building that facility and save $2 billion right there.
    Over the past decade, Savannah River Site has been very 
forward-leaning when it comes to saving money in a responsible 
manner. We have 54 tanks full of Cold War residual material, 
high-level toxic waste, and we agreed back in 2002, I believe 
it was, to leave a portion of the waste in the bottom of the 
tank, in the heel of the tank, rather than scraping it all out, 
and that saved $16 billion. We thought we could close the tanks 
up with some high-level waste that would be treated, and that 
saved $16 billion.
    So, Ms. Harrington, we in South Carolina and Georgia have 
tried to be good stewards of taxpayers' money, and I'm just 
here to tell you that I will work with the administration--I 
talked with Denis McDonough about this last night--to get the 
cost down. But I will not entertain for 1 minute a disposition 
plan other than MOX. We're halfway through. There is no other 
way to do it. We have an agreement with the Russians and now is 
not the time to break that agreement, given the world in which 
we live in. When it comes to studying another way to do it, 
count me out.
    Have a good day.
    Ms. Harrington. Thank you, sir.
    Senator Hagan. All right.
    Mr. Myers, can you please give us an unclassified summary 
now of the role of the SCC WMD to support planning for any 
contingencies with the chemical weapons in Syria?
    Mr. Myers. Thank you, Madam Chairman. Yes. The SCC, DTRA, 
and the SJFHQ-E, working together as an integrated team, are 
working on planning across DOD. We are playing a key role in 
multiple planning initiatives. We are reaching out across DOD 
to identify pockets of chemical weapons expertise, 
capabilities, and equipment.
    We have developed internally an entity called the Regional 
Contingency Team to bring the three organizations together in 
an effective and efficient manner, and together we are 
synchronizing planning efforts across the combatant commands, 
identifying and applying specialized WMD knowledge and 
expertise to the challenges at hand. We're looking to mitigate 
the gaps that might currently exist.
    How that planning might be applied is obviously a decision 
for our leadership and for the President. But that's the best 
unclassified answer I can give you. I'm happy to go into more 
detail in closed session.
    Senator Hagan. Great.
    Secretary Creedon, with the CTR program moving to countries 
outside Russia and the former Soviet Union, we understand you 
have developed a strategic approach or guidance for 
prioritizing what activities the CTR program will undertake. 
Please explain this strategic approach and what metrics you 
will use to assess the success of future programs?
    Ms. Creedon. Thank you, Senator. The new CTR strategic 
guidance has just been issued, and I should also mention we're 
also working on a broader guidance document that would be more 
largely for WMD. The combination of these two should help DOD 
focus on the threats as they emerge to prevent the acquisition, 
to prevent the transition of technologies, and if all that 
fails, to be able to interdict. It's some of what I mentioned 
in my opening statement.
    But mostly we want to be able to position DOD to be 
responsive to all of the various national security objectives 
and threats. We want to make sure that we've integrated all of 
the tools within WMD to bring to this program. We want to make 
sure that as we go forward that we are good stewards of the 
taxpayers' money, so that DOD really focuses on what DOD does 
best and works in collaboration with our international and 
interagency partners to do things that they can do. The 
transportation determination in our partnership with DOE is an 
example of one of those things.
    The other thing that we are going to continue to focus to 
the extent that we are able to do so in a cooperative 
environment is dismantle and destroy where we can. We want to 
make sure that what's out there is also accounted for and 
secure. Then we want to also expand our capabilities to prevent 
and detect. So understanding when something is missing, 
detection of when it's in transit, figuring out how to 
interdict it.
    All of these are the construct in which we'll work with the 
CTR program going forward.
    Senator Hagan. Mr. Myers, is this your chart?
    Mr. Myers. Yes.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Hagan. On the second page, can you just go over 
this chart with me? I love charts, by the way.
    Mr. Myers. Madam Chairwoman, you have me at a disadvantage. 
I don't have that chart.
    Senator Hagan. Oh, you don't have the chart.
    Mr. Myers. But I probably have it memorized, if you give me 
a hint.
    Senator Hagan. Why don't we give you a copy of it.
    Mr. Myers. That would be great. Thank you.
    Senator Hagan. Since you have the chart too, right? 
[Pause.]
    Then what I really want to ask you--if you can give him the 
second one, too.
    The way I read this, you're showing the reductions as of 
2013, the target in 2017, and the percent achieved.
    Mr. Myers. Yes, Senator.
    Senator Hagan. Then did you get the next one, too?
    Mr. Myers. Yes, Senator, I did.
    Senator Hagan. The one, ``Nonproliferation, 
Counterproliferation, and Consequence Management''?
    Mr. Myers. Yes, Senator.
    Senator Hagan. That's the one I need, where you talk about 
best practices and best of breed or behavioral hallmarks. 
Explain best of breed to me?
    Mr. Myers. Best of breed--DTRA does not have a laboratory. 
We do not have a specific relationship with any one entity, 
which leaves us with the flexibility to search high and wide 
for the best technology and the best performers to confront 
specific challenges, whether that be in the nuclear, chemical, 
or biological arena, whether that be in the nonproliferation, 
counterproliferation, or consequence management.
    So when we say best in breed, we have the opportunity to 
reach across the entire U.S. Government, academia, as well as 
the private sector here in the United States. We utilize that 
flexibility to the maximum extent possible, because many of the 
challenges that we're dealing with are obviously very difficult 
and very complicated. Very often we have to build partnerships, 
build partnerships between different entities in different 
sectors of our government and in the private sector.
    We do that, and the nonproliferation, counterproliferation, 
and consequence management is really the scope, the breadth, 
and depth of our mission area.
    Senator Hagan. Consequence management is defined from your 
perspective as? Explain that section?
    Mr. Myers. Nonproliferation, let me start there, I would 
argue that that is when we're preventing the proliferation of 
weapons, not allowing them to leak or to move forward. 
Counterproliferation I would suggest is defeating those weapons 
or materials should they proliferate from their source. 
Consequence management obviously is the worst case scenario, in 
which we are responding to a WMD event or accident or incident.
    Senator Hagan. Thank you.
    Senator Fischer.
    Senator Fischer. If I could ask all of you this question. 
The Government Accountability Office has reviewed a number of 
your programs and often recommended a comprehensive review of 
structure and scope to better target initiatives and prevent 
overlap. Can you describe what measures are in place to prevent 
that duplication across the proliferation prevention programs? 
Mr. Myers, let's begin with you.
    Mr. Myers. Senator, I would tell you that we work very hard 
with our partners at NNSA and at the Department of State (DOS) 
to ensure that we do not have overlap and duplication. In fact, 
the three of us meet on a regular basis. The employees of the 
organizations meet almost on a daily basis and communicate on 
an hourly basis to ensure that we do not duplicate, to ensure 
that we do not overlap.
    The recommendations that have been made in the past in 
terms of implementation, especially at the DTRA, have been 
adopted and we have moved forward with them.
    Senator Fischer. Could you give me an example of one?
    Mr. Myers. Yes, I'll give you a good example. In one case 
we had cost overruns in some of the cooperative projects that 
we were doing in Russia, and they made a number of different 
recommendations in terms of meeting on a regular, semi-annual 
basis to ensure that both the United States and the Russian 
side remained on the very same page, with the same goals, the 
same metrics in mind to make sure. It was a very commonsensical 
recommendation that we concurred with and have been 
implementing ever since, and it has proven very effective in 
terms of identifying potential differences of opinion long 
before they become an issue for programmatic purposes.
    Senator Fischer. Thank you.
    Madam Secretary, do you have anything to add to that?
    Ms. Creedon. Just very briefly. Not only do we all meet 
with a pretty high degree of frequency, but we also bring in 
our DOS partner as well, so that we understand what the 
overarching U.S. Government approach is.
    The other thing is, as you might imagine, this is a very 
active White House in this field as well. So we have a lot of 
meetings with the White House, with the various interagency 
teams, to tackle various problems so that we make sure that 
we're all coordinated in our various approaches. Then amongst 
the DOD and DOE, we also pretty carefully decide who's going to 
do what and who's going to focus on something. So whereas DOE 
focuses on nuclear materials, DOD will focus on the delivery 
systems. DOD focuses on biological and chemical, DOE doesn't do 
that.
    Senator Fischer. You mentioned you work with the DOS. Do 
you also work with your combatant commands?
    Ms. Creedon. We work very closely with our combatant 
commands, particularly on the planning side, and that was what 
Mr. Myers was talking about. DTRA provides a lot of the 
technical support to the combatant commands to do the planning 
and the policy role is to work with the combatant commands as 
they develop those plans. So there's a good relationship. We 
get the commands coming and going. DTRA helps them build the 
plans and we help review the plans.
    Senator Fischer. If you look at a timeline, I would guess 
that it's the combatant commands that possibly come up with a 
nation that you should be looking at partnering with? Or how 
does that work? Who finds this?
    Mr. Myers. Senator, much of what we work on is focused on 
where the threat is in terms of denying that, those threats 
from coming to fruition. But we work hand-in-glove with the 
combatant commands. DTRA and the SCC have a physical presence 
in each of the commands to facilitate communication and the 
discussion back and forth.
    So I would suggest to you that as we do the planning, as we 
provide the subject matter expertise to the combatant commands 
and share with them where we believe the threats are, why we 
believe we should move in one direction or another, it really 
does become a team effort, that we then move forward and 
obviously bring to Congress for authorization and 
appropriation.
    Senator Fischer. Ms. Harrington?
    Ms. Harrington. Both Mr. Myers and Ms. Creedon have talked 
about this coordination mechanism. In fact, we meet next week. 
It is called the bridge meeting because it bridges among us. It 
is a standing group. It meets typically on a quarterly basis. 
We have some standing working groups of our staffs underneath 
it, other ad hoc groups. Sometimes they look at exactly the 
question you asked, which is, which countries are ripe for 
engagement, where must we think creatively about how to engage.
    So we task those sorts of things to our staffs. Next week 
we will look specifically at what the impacts of the 2014 
budget might have on our ability to collaborate and cooperate 
and really have good synergy.
    Another issue that's already come up today is the 
transportation process that DOD is going through. One of the 
reasons we launched that is because we discovered and were able 
to discuss in this mechanism the fact that we ended up on a 
removal from a country using the U.S. Transportation Command 
assets, but not having a way to actually coordinate that 
directly with the CTR program because the mechanism wasn't in 
place.
    So we figured out that it actually costs the U.S. 
Government double, because it wasn't in place, what it would 
have cost had it been in place. So we just decided, okay, let's 
get this finished, let's set this up so that in the future we 
have the flexibility and the cost effectiveness to be able to 
do this in the most efficient way.
    So I think those are just a couple more examples of why 
this interaction among us, including among our research and 
development groups and at other levels, is so valuable, not 
only in terms of program implementation, but in terms of budget 
efficiency.
    Senator Fischer. On your core groups that meet, does that 
stay the same group all the time or does it vary depending on 
what nation the United States may be in at the time?
    Mr. Myers. We obviously will augment the working groups 
with regional expertise or specific subject matter expertise if 
it's needed.
    Senator Fischer. Where does the expertise come from?
    Mr. Myers. A little bit from all of us, quite honest with 
you. Obviously, Secretary Creedon's colleagues in the Office of 
the Secretary of Defense-Policy, our colleagues at NNSA, as 
well as from the DOS, their country desks, their regional 
bureaus, and obviously the technical support comes from all 
three of us as well, and sometimes from outside our three 
organizations and the DOS.
    Senator Fischer. Thank you very much.
    Ms. Creedon. Just to add there, not only from Policy; we 
pull in all of our regional offices, and we also then can tap 
into the Joint Staff as well and so bring in their expertise.
    Ms. Harrington. We also have staffs at a limited number of 
embassies overseas in critical countries. So both DOE and DOD 
work with DOS and work through the embassies to also engage 
that network in our work.
    Senator Fischer. Thank you.
    Senator Hagan. I have one more question I wanted to ask in 
the open forum and certainly Senator Fischer can, too. I wanted 
to ask Ms. Harrington, last year I asked a similar question and 
I wanted to follow up on it this year. It pertains to the 
production of the medical isotope molybdenum-99 using low 
enriched uranium and converting Russian reactors that produce 
it from highly enriched to low enriched uranium. What is the 
status of that work?
    Ms. Harrington. Thank you, Senator. The minimization of the 
use of highly enriched uranium for civilian purposes is one of 
our high target programs, because that is where a good deal of 
the highly enriched uranium lies across the world.
    In Russia we are working on two tracks. One is to convert 
their research reactors in general to low enriched uranium. We 
have completed six studies in that area. Two reactors are ready 
to go forward. The Russians have made a public statement that 
they intend to complete the first conversion by the time of the 
2014 nuclear security summit. So that's a good step in the 
right direction. The second reactor should follow soon after 
that, and hopefully more after. The Russians have made 
significant public statements to the effect that they will 
underwrite a significant portion of the cost of those 
conversions and shutdowns.
    On the moly-99 conversion, we also are working with them on 
that, but in a somewhat different venue. The Nuclear Energy 
Agency (NEA), which is headquartered in Paris, has a committee 
that looks specifically at the isotope production worldwide. 
Through that committee, we are developing a global strategy for 
full-cost recovery production of low-enriched uranium-based 
moly-99.
    As you may know, we've already made significant progress 
with our European partners moving in that direction. South 
Africa really was the first major step in that direction. 
Russia is moving in that direction and we will continue to push 
on them both bilaterally and through the NEA. That is an 
important goal for us.
    We have worked within the administration, I think, to do 
some fairly creative things that we're holding out as models to 
other countries. For example, the Department of Veterans 
Affairs, Medicare, government programs that deliver medical 
services and use this isotope in those medical services can 
give preference to low-enriched uranium-based moly-99. This can 
do a lot in terms of encouraging the marketplace to move in 
that direction.
    So those are things that indeed are very helpful. We also 
are working with national regulatory agencies like our Federal 
Food and Drug Administration to license the low-enriched 
uranium-produced moly-99 so it can be used in more countries.
    But that's a long answer and it's not totally specific to 
Russia, but it's a complicated, more global issue because 
ensuring a consistent supply of this is absolutely critical.
    Senator Hagan. Thank you.
    Other questions?
    Senator Fischer. Madam Chair, I yield back my time. Thank 
you.
    Senator Hagan. What I'd like to do now is we will adjourn 
this open session and we will go over to the Capitol to the 
closed session. Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                 new 4-year nuclear security initiative
    1. Senator Inhofe. Ms. Harrington, in April 2009 President Obama 
announced a new international initiative to secure all vulnerable 
nuclear material worldwide within 4 years. However, the administration 
appears to have moved the goal posts for the initiative, and adjusted 
its scope to focus on only securing the most vulnerable nuclear 
materials. What are the criteria for determining the most vulnerable 
materials, and can they specify how the original scope of work has been 
changed and what countries and facilities are no longer encompassed by 
the 4-year initiative?
    Ms. Harrington. The National Nuclear Security Administration's 
(NNSA) goal under the 4-year effort is to remove or dispose of a 
cumulative total of 4,353 kilograms of vulnerable nuclear material 
(highly-enriched uranium (HEU) and plutonium) by December 31, 2013, and 
this goal has not changed. The criteria that determines the highest 
priority work for securing vulnerable nuclear material includes the 
type of material (HEU, Pu, different radiological sources, et cetera), 
the form of the material (metal vs. alloys vs. oxides, et cetera), the 
quantity of the material, and a number of other factors that can be 
expanded upon in a classified briefing.
    As of May 2013, NNSA's Global Threat Reduction Initiative (GTRI) 
has removed and/or confirmed the disposition of 3,641 kilograms of HEU 
and plutonium. GTRI must remove or confirm the disposition of another 
712 kilograms of HEU and/or plutonium by the end of 2013 to meet this 
goal and we are currently on track to achieve this metric. In addition, 
over the past 4 years GTRI has removed all HEU and plutonium from 10 
countries for a cumulative total of 23 countries deinventoried of these 
dangerous materials.
    From the perspective of security upgrades to buildings containing 
weapons usable nuclear material, that aspect of the 4-year plan will be 
complete once 229 buildings are upgraded. All of the original 229 
buildings identified are still part of the plan for upgrades. To date, 
we have completed security upgrades at 218 of the 229 buildings. The 
remaining 11 buildings are located at a single large nuclear site in 
Russia and we are working with our Russian counterparts to complete 
those upgrades on schedule.
    Four years of accelerated effort helped NNSA make a significant 
contribution to global security, but it is accurately described as ``a 
sprint in the middle of a marathon.'' Significant stockpiles of HEU 
still exist in too many places, and global inventories of plutonium are 
steadily rising. NNSA will continue to work with international partners 
to eliminate additional stocks of HEU and plutonium after the 
completion of the 4-year effort.

    2. Senator Inhofe. Ms. Harrington, the Government Accountability 
Office (GAO) reported in December 2010 that a comprehensive strategy 
for the initiative did not exist and it raised many questions on the 
scope, timeframe, costs, and challenges associated with the initiative. 
The GAO recommended that the administration develop a comprehensive 
plan for implementing the initiative identifying the scope of 
facilities, U.S. programs responsible for addressing each location, and 
estimated timeframes and costs to address each site. To your knowledge, 
has the administration made any effort to develop such a comprehensive 
plan, and why not, if it hasn't?
    Ms. Harrington. Yes, the administration has developed a 
comprehensive classified U.S. Government strategy to lock down nuclear 
materials that identifies and prioritizes facilities and other nuclear 
security goals and allocates U.S. programs for addressing facilities, 
national capabilities, and the global nuclear security architecture. We 
routinely participate in interagency meetings led by the National 
Security Staff to discuss the status of NNSA's efforts that support the 
comprehensive strategy and ensure we remain coordinated on implementing 
a comprehensive plan. If you require additional information, NNSA will 
brief appropriately cleared staff in a classified setting.

    3. Senator Inhofe. Ms. Harrington, many of the programs involved in 
working with other countries to secure nuclear materials have been in 
place and working internationally for many years, including the NNSA's 
nuclear material protection, control, and accounting (MPC&A) program 
and the GTRI. How much more work do these programs have to do, what are 
their key priorities, and how much longer do they need to achieve their 
goals?
    Ms. Harrington. The GTRI program has identified 5,350 kilograms of 
HEU and plutonium that needs to be removed or dispositioned by the end 
of 2019, which leaves about 1,000 kilograms to remove after the 4-year 
plan ends in December 2013. GTRI is also focused on the conversion of 
research reactors and isotope production facilities from HEU to low 
enriched uranium (LEU). To date, GTRI has successfully converted or 
verified the shutdown of 88 of the 200 HEU fuel research reactors and 
isotope production facilities.
    Additionally, GTRI estimates that there are more than 13,000 
civilian buildings (70,000 devices) worldwide in over 100 countries 
that maintain high activity radiological sources of concern, with 8,500 
in the United States and in other-than-high-income countries. GTRI and 
the interagency have identified the five most prevalent isotopes of 
concern as Cobalt-60, Cesium-137, Americium-241, Iridium-192, and 
Strontium-90. While the quantity of material sufficient to create a 
significant radiological dispersal device'' varies by isotope, GTRI has 
categorized the most high-risk quantities into two levels: Category 1 
thresholds generally have a radioactive activity of 1,000 curies and 
greater (such as a cesium-chloride capsule the size of a pencil), and 
Category 2 thresholds as 10-1,000 curies (such as a capsule of iridium 
the size of a pencil eraser). To date, GTRI has upgraded the security 
at 1,529 civilian buildings housing radiological sources (1,013 
internationally and 516 domestically). Based on current projections, 
GTRI anticipates a protection program completion date of 2044, with 
GTRI planning on completing the highest priority sites as soon as 
possible.
    The MPC&A program has completed a significant amount of work to 
secure vulnerable nuclear material. However, we continue to seek 
opportunities to partner with our Russian counterparts on further 
improvements to security systems and practices in that country due to 
Russia's very large material stockpiles. Nuclear security is not a 
static concept; rather it requires continual analysis and testing of 
system performance against a range of evolving threats. This has been a 
significant theme in our cooperation with Russia, and we have been able 
to work with counterpart organizations over the years to continue to 
improve security at these sites by addressing additional gaps that have 
been identified. For example, in recent years we have redoubled our 
efforts to ensure the security upgrades we support are effective in 
mitigating insider threats and have made important improvements in that 
area. Nevertheless, important work remains to be done such as improving 
personnel reliability programs and continuing to enhance nuclear 
security culture. Another example is the material consolidation efforts 
that are underway at two locations in Russia under this cooperation, 
which will significantly reduce the security requirements and the long-
term cost of meeting those requirements at these two sites. There may 
be additional opportunities to engage in this kind of effort. 
Additionally, there are several HEU-fueled research reactors, more than 
70 radioisotope thermoelectric generators, and hundreds of civilian 
buildings with high-activity radiological sources in Russia that 
require conversion, recovery, and/or physical protection upgrades.
    Russia has continued to fund an increasing share of costs for new 
upgrades and sustainability measures related to nuclear security, but 
it is the assessment of NNSA that the U.S. needs to remain actively 
engaged in Russia. An ongoing nuclear security partnership with Russia 
will continue to foster broad improvements in nuclear security best 
practices there and will facilitate faster and more effective solutions 
to meeting the security challenges that both countries consider 
critically important.

                        nuclear security summits
    4. Senator Inhofe. Secretary Creedon and Ms. Harrington, the 
administration has initiated and supported a biennial Nuclear Security 
Summit process that has brought together dozens of world leaders to 
build consensus on practical steps that can be taken to improve nuclear 
security worldwide. The next Summit is scheduled for 2014. What goals 
and expectations do you have for the 2014 Summit?
    Ms. Creedon. The broad goals of the Nuclear Security Summit process 
are for participating countries and international organizations to come 
to a common understanding of the threat posed by nuclear terrorism, to 
agree to effective measures to secure nuclear material, and to prevent 
nuclear smuggling and terrorism. Those overarching objectives have not 
changed. President Obama has recently committed to attending the 2014 
Summit in The Hague, Netherlands, and the Department of Defense (DOD) 
will continue to support the Nuclear Security Summit process actively.
    Ms. Harrington. The White House is leading the U.S. Government 
efforts for the 2014 Nuclear Security Summit and would be best able to 
provide details. For its part, NNSA actively participates in this U.S. 
interagency summit process, and what we do know is that U.S. priorities 
going into 2014 fall into three broad areas:

    (1)  strengthening the global nuclear security architecture 
(treaties, institutions (such as the International Atomic Energy Agency 
(IAEA)), informal collectives, and national regulations that govern 
nuclear security behavior);
    (2)  maintaining a high rate of execution on the national 
commitments from the 2010/12 Summits and identifying further tangible 
security outcomes (i.e., HEU removals); and
    (3)  expanding on a relatively new concept of international 
assurances (things done by a state or others to provide confidence in 
the effectiveness of nuclear security). Our nonproliferation programs 
continue to work towards implementing all of the commitments made 
during the two previous Nuclear Security Summits, and NNSA will be 
prepared to support the administration's global nuclear security agenda 
at the 2014 Nuclear Security Summit, and beyond.

    5. Senator Inhofe. Secretary Creedon and Ms. Harrington, it is 
unclear whether the administration supports continuing this summit 
process beyond 2014, which has raised questions about how the global 
nuclear security agenda can grow and maintain a high profile without 
U.S. leadership. What are your views on the security summit process and 
whether it should be sustained beyond 2014?
    Ms. Creedon. The Nuclear Security Summit process has provided 
participating countries and international organizations much-needed 
impetus and an important forum for discussing and thinking critically 
about how to improve nuclear security. One of the goals of the Nuclear 
Security Summit process is to expand, enhance, empower, and energize 
the existing institutions and structures aimed at advancing nuclear 
security. The 2012 Seoul Communique identified the central role of the 
IAEA in this field; the United Nations and INTERPOL have their own 
areas of responsibility and competence as regards nuclear security. 
Therefore, regardless of whether the Summit participants decide to 
sustain the Summit process beyond 2014, we should work to ensure that 
these institutions have the human and financial resources, technology, 
and authorities they need to fulfill their respective mandates and 
execute their different but related missions--thereby reaching new 
levels of effectiveness in nuclear security.
    Ms. Harrington. The Nuclear Security Summit process has provided a 
critical political boost and brought the highest level of attention to 
improving nuclear and radiological security around the world. The 
Summits have invigorated important multilateral platforms and 
accelerated projects in dozens of countries to secure, remove, detect, 
and intercept material. In his speech in Berlin in June, the President 
has announced that the United States will host a fourth Nuclear 
Security Summit in 2016. We welcome this announcement and will work 
closely with the administration to ensure its success.

                          foreign costsharing
    6. Senator Inhofe. Ms. Harrington, in December 2011, GAO reported 
that NNSA's nuclear nonproliferation programs have made efforts to 
obtain greater costsharing with foreign countries where these programs 
are implemented, but GAO noted difficulties NNSA faces in collecting 
such information and that NNSA is not systematically tracking such data 
when it is available. Has NNSA been able to make any progress in 
developing better costsharing information from recipient countries, and 
has it developed a system for tracking and maintaining costsharing data 
across all nonproliferation programs?
    Ms. Harrington. NNSA's nonproliferation programs consistently work 
with foreign partners to promote costsharing as a programmatic best 
practice and to encourage partner countries to build nuclear security 
capacity and financially support as much of the global nonproliferation 
effort as possible. Specifically, we have developed several new 
costsharing efforts and maintain a number of ongoing successful 
costsharing partnerships, which include:

        <bullet> Recoveries of Russian radioisotope thermoelectric 
        generators (RTG).
        <bullet> Nuclear forensics development with the IAEA, European 
        Union, the Global Initiative to Combat Nuclear Terrorism 
        (GICNT), and the Association of South East Asian Nations 
        Regional Forum members.
        <bullet> Cooperative seismic monitoring efforts with Thailand 
        and the Comprehensive Nuclear-Test-Ban Treaty Organization 
        Preparatory Commission.
        <bullet> Joint export control training with European, Russian, 
        and Kazakhstani outreach partners.
        <bullet> International export control, nuclear safeguards, and 
        nuclear security outreach with approximately 25 bilateral 
        partners.
        <bullet> Costsharing with Russia for various MPC&A upgrades 
        projects and increasing share of maintenance and sustainability 
        support.
        <bullet> Russian Ministry of Defense funding for all 
        maintenance, sustainability, and retrofit costs for all U.S. 
        funded security upgrades for warhead sites.
        <bullet> Equal costsharing for radiation detection systems 
        deployed in Russia with maintenance and sustainability costs 
        increasingly taken over by the Russian Federation.
        <bullet> Costsharing with China for the expansion of radiation 
        detection at borders, ports, and airports and the Nuclear 
        Security Center of Excellence.
        <bullet> Costsharing with the Republic of Korea and Japan for 
        their Nuclear Security Centers of Excellence and nuclear 
        security course development and regional workshops.

    While this program information helps inform planning and country 
engagement, a system for tracking and maintaining costsharing data 
across all nonproliferation programs is neither practical nor cost-
effective due to the inability to audit another country's accounting 
records, and is complicated by uncertainties associated with variations 
in foreign labor rates, labor hours, material costs, and overhead 
rates. In addition, there may be situations where estimates of 
costsharing can be made only on the basis of cost-avoidance if NNSA had 
to bear the full cost of the project. Upon initiating engagement, NNSA 
carefully considers the financial capacity of foreign partners and 
encourages them to have a vested interest in the outcome of assistance 
or collaborative programs.

    7. Senator Inhofe. Secretary Creedon and Mr. Myers, have Defense 
Threat Reduction Agency (DTRA) and the Office of the Secretary of 
Defense (OSD) been able to make any progress in developing better 
costsharing information with recipient countries and has it developed a 
way for foreign nations to be able to fund some of your efforts?
    Ms. Creedon. Yes, we are implementing new costsharing models with 
Cooperative Threat Reduction (CTR) partners so they can share the costs 
of projects, thereby demonstrating both a financial and a political 
commitment to mutual proliferation prevention goals. One example is the 
Philippines where we are costsharing construction expenses of the new 
Philippines' National Coast Watch Center; another example is Azerbaijan 
where they funded construction of the Central Reference Laboratory and 
the CTR will fund equipment and training costs. Additionally, CTR is 
exercising the authority provided by Congress to utilize contributions 
to the DOD CTR program from the United Kingdom, Canada, and Germany.
    Mr. Myers. Yes, the Nunn-Lugar CTR program has made progress in 
both costsharing with recipient countries and in developing a process 
for foreign nations to contribute to our efforts.
    The CTR program encourages costsharing with recipient countries due 
to the cooperative nature of the projects. By instituting detailed 
joint project implementation plans, CTR is able to establish the 
various roles and responsibilities between the CTR program and the host 
nation, to include specific tasks for which the host nation is 
responsible.
    The National Defense Authorization Act for Fiscal Year 2010, Public 
Law 111-84, section 1303, provided CTR program authority to receive 
outside contributions. We have developed a process, working with the 
Department of State (DOS), U.S. Treasury, and the Office of Management 
and Budget, by which outside contributions have begun to come into the 
program. The first contribution was received in March 2013 from the 
Ministry of Defence of the United Kingdom of Great Britain and Northern 
Ireland for $685,000. Those funds will be contractually awarded in 
support of CTR's Cooperative Biological Engagement Program (CBEP) with 
scientific studies into avian influenza virus in the country of 
Georgia. There are two more contributions awaiting the finalization of 
memorandums of understanding with donors from Canada and Germany as 
well. We look forward to working with your committee to renew this 
authority before it expires.

                         engaging new countries
    8. Senator Inhofe. Ms. Harrington, what work are you doing to 
secure large stockpiles of nuclear materials in countries outside of 
the former Soviet Union, where programs like MPC&A have not 
traditionally worked and where access has been problematic, including 
China and India?
    Ms. Harrington. There is a multilayered strategy that guides U.S. 
Government nuclear security engagement. Where possible, we remove or 
secure large stockpiles of materials. Where that is not possible, we 
engage in activities that promote nuclear security best practices 
through training and workshops. NNSA partners with China and India to 
develop Nuclear Security Centers of Excellence (COE), which are 
intended to serve as central venues for domestic and regional nuclear 
security training.
    During the April 2010 Nuclear Security Summit, China announced a 
commitment to create a nuclear security training COE that will build on 
the best practices program that has been underway between DOE/NNSA and 
the China Atomic Energy Agency (CAEA) since 2004. The COE reflects the 
commitment of the Chinese Government to strengthen their cooperation on 
nonproliferation, nuclear security, and combating nuclear terrorism. 
China has the responsibility for constructing the physical facility, 
while NNSA is working with DOD and the CAEA on a design for the Center, 
as well as defining detailed equipment specifications, providing some 
equipment, and participating in technical consultations. To date, 
approximately 40 technical exchanges, including best practices and 
training workshops, have been conducted with Chinese experts. These 
include many technical discussions on the COE as well as best practices 
workshops on such topics as Secure Transportation, Mitigating Insider 
Threat, Domestic Inspections, Measurement Control, and Nuclear Security 
Culture.
    In the case of India, the pace of the collaboration is proceeding 
more slowly. NNSA hosted a delegation of Indian officials at U.S. 
nuclear security training centers in July 2012 to further thinking on 
their training center requirements. The Indian delegation expressed 
interest in continued bilateral collaboration on the Global Centre for 
Nuclear Energy Partnership (GCNEP), including curriculum development 
and facility design consultation. The Indians have reported that they 
are actively working on internal approvals and planning for the GCNEP. 
A meeting is scheduled this summer to explore further partnership 
opportunities. Similar to the China COE, the Indian side is expected to 
fully fund the construction of the GCNEP.

              nuclear smuggling overlap and fragmentation
    9. Senator Inhofe. Secretary Creedon and Ms. Harrington, in 
December 2011, GAO identified potential fragmentation and overlapping 
functions among some Federal programs--including those at DOD, NNSA, 
and DOS--working to counter smuggling of nuclear materials, equipment, 
and technologies overseas, especially those providing equipment and 
training to foreign border security and customs services. Among other 
things, GAO recommended that the administration undertake a 
comprehensive review of the structure, scope, and composition of 
agencies and programs across the Federal Government involved in 
combating nuclear smuggling overseas. This review would assess the 
level of overlap and duplication among agencies and programs, potential 
for consolidation of these functions to fewer programs and agencies, 
and the feasibility, costs, and benefits of establishing a special 
coordinator for U.S. counter-nuclear-smuggling assistance to foreign 
nations. Has such a review occurred, and if so, what are the 
conclusions; and if not, why not?
    Ms. Creedon. The National Security Staff has led an interagency 
process to review the integration of the various programs and agencies 
contributing to the Global Nuclear Detection Architecture (GNDA), with 
particular focus on programs and agencies providing equipment and 
training to foreign border security and customs services to counter 
smuggling of nuclear materials, equipment, and technologies overseas. 
DOD, DOS, and NNSA contributed significantly to the resulting GNDA 
International Implementation Plan, which establishes coordinating 
mechanisms for improved collaboration and programmatic coverage, and 
establishes priority regions of focus to assist programs and agencies 
in reducing overlap and duplication of effort. The GNDA report, which 
references the International Implementation Plan, was submitted to 
Congress in April 2013. Following this report, the International 
Implementation Plan was approved in January 2013 via the Interagency 
Policy Committee (IPC) process, but has not yet been submitted to 
Congress.
    Ms. Harrington. The National Security Staff has led the Countering 
Nuclear Threats Sub-Interagency Policy Council (Sub-IPC) to take stock 
of the requirements of a GNDA and create an International 
Implementation Plan that reflects those requirements and identifies 
needed actions. This group has served as a cross-government mechanism 
to coordinate related efforts among participating agencies to prevent 
overlap and duplication in the areas which fall under the broad rubric 
of the international (outer) layer of the GNDA. In concert with this 
effort, the Second Line of Defense Program conducted an extensive 
strategic review in fiscal year 2012. This review, and the broader 
coordination efforts undertaken by this Sub-IPC, involved all relevant 
U.S. Government agencies including the Departments of State, Defense, 
Homeland Security, Justice, and others.

                           radiological risks
    10. Senator Inhofe. Secretary Creedon, Mr. Myers, and Ms. 
Harrington, as terrible as last week's bombings in Boston were, had 
those bombs been so-called dirty bombs containing radioactive material, 
the effects could have been much more serious, complicating clean-up, 
inhibiting evidence gathering, and posing untold remediation and health 
costs. What steps is the administration taking to secure nuclear and 
radiological materials within the United States and to prevent 
trafficking of nuclear and radiological materials into the country?
    Ms. Creedon. DOD takes the security of nuclear and radiological 
materials very seriously and, as such, we work to complement and 
support a number of U.S. programs aimed at preventing nuclear and 
radiological trafficking. Consistent with law and at the request of the 
Attorney General, DOD provides support to the Federal Bureau of 
Investigation (FBI) for preventing acts of radiological and nuclear 
terrorism inside of the United States. DOD provides such support in 
accordance with the Prevention Framework, which is anticipated to be 
released May 2013, as one of the five National Preparedness Frameworks 
of Presidential Policy Directive-8. DOD also has overseas programs such 
as the Prevention Proliferation Program (PPP), previously called the 
Weapons of Mass Destruction (WMD) Proliferation Prevention Initiative 
(PPI), which addresses the vulnerability of partner countries to 
trafficking of WMD and related components. In addition, the Global 
Nuclear Security Program (GNS) works with partner countries to account 
for and secure vulnerable nuclear materials worldwide.
    I defer to DOE, NNSA, and FBI on the domestic aspects of securing 
nuclear and radiological materials and I would direct your question to 
the Department of Homeland Security (DHS) pertaining to preventing 
trafficking into our country.
    DOD coordinates both the PPP and GNS programs very closely with 
NNSA and other interagency partners.
    Mr. Myers. DTRA defers to DOE/NNSA, FBI, and DHS on the prevention 
aspects of securing domestic nuclear and radiological materials and 
preventing trafficking into U.S. territory.
    Within the United States, DTRA provides operational and technical 
support to DOD components to sustain a safe, secure, and effective 
nuclear arsenal. We conduct independent nuclear surety inspections of 
units responsible for the assembly, maintenance, and storage of nuclear 
weapon systems, and oversight of military inspection teams. We provide 
research, development, test, and evaluation support to OSD and the 
military for nuclear weapons physical security, including force-on-
force tests to examine DOD policies on nuclear physical security. We 
coordinate and collaborate with DOE/NNSA on our nuclear stockpile 
stewardship responsibilities.
    Overseas, the Nunn-Lugar CTR program focuses on eliminating, 
securing, and consolidating WMD, related materials, and associated 
delivery systems and infrastructure at their source in partner 
countries and also preventing the proliferation of WMD materials in 
transit across international borders. DTRA also implements the DOD/FBI/
DHS International Counterproliferation Program (ICP). The goal of ICP 
is to build partner capacity among border, customs, and law enforcement 
officials to detect, interdict, and investigate illicit WMD 
trafficking. Additionally, DTRA/U.S. Strategic Command (STRATCOM) 
Center for Combating (SCC)-WMD directly supports the Proliferation 
Security Initiative (PSI) activities, in cooperation with geographic 
combatant commands and other parts of the U.S. Government. This 
includes design, planning, and participation to support U.S.-led and 
foreign-hosted multinational PSI exercises and workshops as part of a 
global effort to stop trafficking of WMD, their delivery systems, and 
related materials to and from states and non-state actors of 
proliferation concern.
    One final DTRA program bears special mention. The DTRA Nimble Elder 
program provides the combatant commanders with the capability to search 
for, locate, and identify lost or stolen radiological devices and/or 
radioactive material in all operational environments.
    Ms. Harrington. Just prior to the tragic bombings in Boston, NNSA's 
GTRI successfully completed the recovery of two high-activity 
radiological devices from Boston, MA. The first device, containing 
nearly 700 curies of cobalt-60, was recovered from St. Elizabeth's 
Medical Center, and the second, containing more than 1,200 curies of 
cesium-137 sources, from the Dana Farber Cancer Institute. These are 
but 2 of the more than 32,000 radiological sources recovered by GTRI in 
the United States over the past 20 years. GTRI does this because there 
are no commercial disposal options for these dangerous radioactive 
materials.
    In addition, GTRI has partnered with the Nuclear Regulatory 
Commission (NRC), DHS, and FBI to further strengthen security of high 
activity radiological sources in the United States. The NRC and State 
regulatory agencies have worked together to create a strong and 
effective regulatory framework that includes licensing, inspection, and 
enforcement of facilities with high-activity radiological materials. 
This framework provides a common baseline level of security to ensure 
adequate protection of public health and safety and the common defense 
and security. To assist in that effort, GTRI works with the NRC, the 
materials licensees, State, local, and tribal governments, and other 
Federal agencies, to build on the existing regulatory requirements by 
providing voluntary security enhancements. GTRI's voluntary upgrades 
complement NRC regulations to ensure the highest possible protection 
for U.S. locations with high-activity radiological sources.
    GTRI implements security systems with remote monitoring 
capabilities to alert local law enforcement and to counter insider 
threats. GTRI has also developed an Alarm Response Training course that 
brings together site radiation protection staff, on-site security, and 
local law enforcement to train in realistic scenarios using actual 
radioactive sources. GTRI efforts are important because most site 
guards are unarmed and local law enforcement is outside the NRC's 
regulatory control. These domestic radiological security efforts 
complement similar efforts GTRI is undertaking with nearly 100 other 
countries.

    11. Senator Inhofe. Secretary Creedon, Mr. Myers, and Ms. 
Harrington, in light of the proposed fiscal year 2014 budget cuts to 
the GTRI program, should we have concerns that preventing radiological 
terrorism in the United States is not a high administration priority?
    Ms. Creedon. No. WMD terrorism, including radiological terrorism, 
is one of the highest priorities of the Obama administration. DOD, in 
partnership with NNSA, DHS, and FBI, take the prevention of 
radiological terrorism very seriously and, as such, we have a number of 
programs to reduce the possibility of such an event. To complement the 
efforts of other parts of the government such as DOE, DHS, and FBI, DOD 
has overseas programs such as the PPP, previously called the WMD PPI, 
which addresses the vulnerability of partner countries to trafficking 
of WMD and related components. DOD works closely with all of these 
agencies to coordinate our respective programs and prevent duplication 
and unnecessary overlap.
    Mr. Myers. DTRA defers to DOE/NNSA on this question given their 
responsibility for oversight and implementation of the GTRI program.
    DTRA fully supports the administration's priority as evidenced by 
our participation in defense support to civil authorities via 
assistance to U.S. Northern Command and/or U.S. Pacific Command.
    Ms. Harrington. Preventing radiological terrorism remains one of 
the highest priorities for the administration and NNSA. We are working 
with our domestic and international partners to secure radiological 
materials in the most effective, efficient, and timely manner possible.

                     second line of defense program
    12. Senator Inhofe. Ms. Harrington, the Second Line of Defense 
(SLD) program at NNSA, which works with foreign countries to install 
and maintain nuclear smuggling detection capabilities, has a proposed 
fiscal year 2014 budget of $140 million, or a 54 percent reduction from 
its fiscal year 2013 funding of $263.7 million. The fiscal year 2013 
budget for the program was also sharply reduced while the 
administration took a strategic pause to reevaluate the program. In 
this context, what changes are being made to the SLD program and its 
approach to combating nuclear smuggling?
    Ms. Harrington. In fiscal year 2012, the SLD program, in 
coordination with interagency partners, completed a thorough strategic 
review and analysis to determine the most efficient and effective 
approach to closing key gaps in the global nuclear detection 
architecture and increase the impact of detection and deterrence using 
fixed and mobile deployments. The review incorporated a broad range of 
data, including: known trafficking pathways; smuggling information; 
country geography and border porosity based on imagery and other 
sources; updated maritime shipping system information and trends; the 
availability of existing infrastructure to support detection equipment; 
the availability of financial and technical resources to continue 
operation and maintenance of SLD-provided equipment over the long-term; 
results of interviews with key partner country stakeholders; 
deployments in place by SLD and others; and political developments such 
as the expanding Russian-led Eurasian Customs Union. The review 
considered specific site and country information as part of a regional 
context to more effectively target resources. It also identified the 
point of diminishing returns after which equipping more ports produced 
limited benefit with respect to the volume of global and U.S.-bound 
cargo being scanned for radiation. Sensitive to budget realities in 
today's fiscal environment, the review also overlaid fiscal constraints 
so that the optimal approach could be taken to close critical gaps in 
the detection architecture and improve performance effectiveness.
    The strategic review recommended a plan to address remaining fixed 
detection gaps, expand mobile detection, and fully fund sustainability. 
The review also resulted in the reorganization of SLD Core and 
Megaports programs under joint implementation and sustainability 
subprograms. The changes being implemented to program strategy include 
an accelerated effort to target deployments of fixed radiation portal 
monitors (RPM) to address critical gaps in the existing detection 
architecture surrounding Russia, made more complicated by the creation 
of a new Customs Union between Russia, Kazakhstan, Kyrgyzstan, and 
Belarus. At this time, only 17 percent of that work remains to be 
completed. The SLD program also intends to expand the provision of 
mobile radiation detection equipment to foreign law enforcement as part 
of an adaptable, flexible detection approach. The program has developed 
a reduced Megaports scope that will focus primarily on equipping the 
key hubs that process the most container traffic and cover the highest 
threat areas within the maritime system and maximizing SLD's global 
deterrence effect. Additionally, we have launched special initiatives 
in strategic focus areas including: enhancing deterrence through 
discreet monitoring and messaging, enhancing international capability 
to respond to information alerts related to smuggling through rapid 
asset mobilization planning, and developing a geospatial data interface 
that maps SLD capabilities worldwide and can be used in coordination 
with U.S. Government partners. Finally, SLD has increased technical 
exchange outreach efforts to recruit donor countries, industry and 
international organizations to accept a greater financial share of RPM 
deployments, while continuing an emphasis on the performance and 
effectiveness of the systems.

    13. Senator Inhofe. Ms. Harrington, how will the decrease in 
funding affect SLD's future plans and commitments with partner 
countries?
    Ms. Harrington. SLD's strategic review considered a variety of 
factors, including existing trafficking pathways, assessments of border 
porosity, existing architecture, the ability of partner countries to 
sustain radiation detection capabilities, and existing fiscal 
constraints. The result of SLD's assessment led to a streamlined 
approach with fewer sites/ports and leveraged multiple types of 
resources to continue to mitigate threats.
    For border sites, SLD reduced the program goal from approximately 
650 sites to 585. The decrease is a result of removing deployments at 
crossings on opposite sides of the border, where possible, and areas 
that were impacted by the Customs Union (Russia-Belarus, Kazakhstan-
Russia, and Kazakhstan-Kyrgyzstan). For large ports, SLD reduced the 
program goal from 100 to 73, which includes the completed 45 ports, 
plus 14 fully-funded and cost-shared ports, and 14 that would be 
completed via full financial support of host country or industry 
partner (technical exchanges). This revision in scope equips the 
highest threat and volume ports, focusing resources on those ports 
where the benefit of the RPM installations are apt to have the greatest 
impact. Though not among highest priority ports, SLD will remain open 
to considering technical consultations on detection at the 27 ports 
that have been removed from the program goals should the host country 
or port operator request it.
    With regard to meeting the sustainability commitments that we have 
made to our partner countries, we remain committed to having a robust 
sustainability program that focuses on capacity building and 
maintaining system effectiveness. SLD typically provides between 3 to 5 
years of sustainability support to each partner country, including 
training and maintenance support, data analysis, SLD Help Desk support, 
workshops, exercises, and assurance visits. Further, during the 
transition period, SLD conducts quarterly assessments of partner 
country capabilities to progress to building the requisite indigenous 
capabilities. SLD will strive to maintain this standard within the new 
funding profile.

          global security through science partnerships program
    14. Senator Inhofe. Ms. Harrington, in 2008, GAO raised many 
concerns and problems surrounding NNSA's Global Initiatives for 
Proliferation Prevention (GIPP) program, following a series of earlier 
GAO reports on this program and other agency WMD scientist engagement 
programs. NNSA is now recasting the GIPP program as a Global Security 
through Science Partnerships (GSSP) program. What assurances can you 
give that significant program improvements have been made to the 
program, including the extent to which GAO's recommendations have been 
implemented, to ensure the new program will be addressing real threats, 
using funding cost-effectively, and generating real, measurable 
results?
    Ms. Harrington. In response to the concerns raised by GAO and 
Congress in 2008, NNSA took immediate action to address all of the 
recommendations for the GIPP including:

        <bullet> Implementation of more uniform interagency review and 
        approval procedures for scientist engagement projects overseen 
        by the National Security Council, strengthening an already 
        comprehensive review process.
        <bullet> Completion of a comprehensive institute risk 
        assessment in order to target resources where they are most 
        needed to prevent proliferation of WMD expertise.
        <bullet> Revised project criteria including a requirement in 
        Russia and the former Soviet Union to involve institutes that 
        have been assessed as high priority.
        <bullet> Management reforms to streamline the program, 
        producing significant results, including the reduction of 
        uncosted balances to meet the DOE carryover threshold.

    Based on recommendations from Congress, NNSA completed an all-
source assessment of the expertise proliferation threat that included 
an extensive intelligence component. The assessment concluded that 
there is a significant WMD expertise proliferation threat that no 
longer is limited to expertise acquired by direct involvement in 
weapons programs, and that the threat is exacerbated by the increasing 
global availability and accessibility of weapons-usable information and 
knowledge. In response to the assessment, NNSA decided to transform its 
approach to scientist engagement to better address current threats. The 
GSSP program will be a distinct program from GIPP, but will build on 
lessons learned over almost 20 years of scientist engagement in the 
former Soviet Union and elsewhere. GSSP will mitigate the risks of WMD 
expertise proliferation by refocusing its efforts geographically; 
leveraging complementary NNSA and U.S. Government programs in a whole-
of-government approach; and using new engagement methods that emphasize 
partnership over assistance or redirection.
    The program incorporates all relevant improvements recommended by 
GAO, and includes a comprehensive prioritization system to identify 
countries for engagement that includes an assessment of vulnerability, 
capability, and interagency coordination. Moreover, GSSP has developed 
an approach to identifying priority areas of ``at risk expertise'' that 
are vulnerable to recruitment. By engaging ``at risk'' populations in 
priority countries, GSSP will ensure that projects meet 
nonproliferation objectives. GSSP will coordinate closely with other 
U.S. Government nonproliferation and nuclear security programs to 
prioritize the allocation of its resources to those countries that 
present the highest current and near-term risk of WMD-usable expertise 
proliferation. GSSP will use a combination of quantitative metrics, 
expert assessments, and whole-of-government considerations to evaluate 
its impact in engaged states and to ensure that GSSP effectively 
supports national priorities and programs. GSSP also will employ 
objective, weighted indicators to track each state's progress through 
five levels, with a desired minimal end state of achieving sustainable 
capacity to address expertise proliferation, corresponding to level 
three.

           cooperative threat reduction engagement priorities
    15. Senator Inhofe. Secretary Creedon and Mr. Myers, currently 
about 60 percent of the CTR program is used for the CBEP. After the 
previous sharp focus on nuclear weapons in former Soviet Union 
countries, how did you determine the need to shift resources to 
biological issues?
    Ms. Creedon. Most of DOD's CTR effort to enhance security for 
nuclear weapons in the former Soviet Union will be complete in 2013. 
While CTR's foundation in the former Soviet Union is nuclear non-
proliferation, we noted the importance of addressing the biological 
threat in the former Soviet Union many years ago and established the 
Biological Threat Reduction Program to eliminate offensive biological 
weapons. Much of the elimination work has been completed and we are now 
focusing on biological security risks, which have grown in recent 
years. The close proximity of organizations with intentions to acquire 
dangerous pathogens for use against the United States or its allies to 
potential sources of biological agents of concern is especially 
troublesome. As stewards of CTR program funding, we take a targeted 
approach and prioritize expansion efforts based on threat awareness, 
support for broader U.S. nonproliferation objectives, and opportunities 
to enhance strategic relationships with partner countries. Thus far, 
this has led the Secretary of Defense, with the concurrence of the 
Secretary of State, to expand CBEP activities to Afghanistan, Pakistan, 
Iraq, India, Africa, Southeast Asia, and the Middle East.
    Mr. Myers. We dedicate resources and make priority decisions based 
on the risks and threats that we are facing in close coordination with 
the Intelligence Community, the U.S. Strategic Command, the Joint 
Chiefs of Staff, and the combatant and regional commands. Although a 
real and catastrophic threat, the capability to build, test, produce, 
and use nuclear weapons is constrained to a select few countries. The 
program's nuclear security efforts were previously completed in all 
former Soviet Union countries except Russia. Russia and the United 
States are in agreement that this is an appropriate time for the 
Russian Ministry of Defense to assume responsibility for security of 
its nuclear weapons. The biological threat has no boundaries. Diseases 
caused by especially dangerous pathogens occur every day, and the 
technologies to manipulate, store, isolate, and diagnose these 
pathogens for scientific research or medical diagnosis are becoming 
increasingly effective as biological sciences and biotechnology 
continue to rapidly evolve. Unfortunately, these technologies are 
becoming increasingly accessible to those with evil intent. The same 
technologies used to support medical and scientific research can also 
be used to support the production of biological weapons or toxins. The 
Nunn-Lugar CBEP provides an avenue to work with an ever increasing 
group of countries to safely secure and store especially dangerous 
pathogens. Simultaneously, CBEP actively engages their scientists in 
the areas of biological research, biosafety, biosecurity, and 
bioethics, thus reducing the possibility that diseases stored at these 
foreign facilities could fall in to the wrong hands, and be used for 
nefarious purposes.

                securing facilities in kenya and uganda
    16. Senator Inhofe. Secretary Creedon and Mr. Myers, your written 
testimony indicates success securing facilities in Kenya and Uganda 
that store Anthrax and Ebola. Can you describe your work in those 
countries and how you identified these particular nations to work with?
    Ms. Creedon. Kenya and Uganda both have a high prevalence of 
endemic diseases of concern to the United States, weak disease 
diagnosis and reporting systems, and active terrorist groups in the 
region. We have recently completed critical biosafety and biosecurity 
(BS&S) updates at key facilities in both Kenya and Uganda. In Kenya we 
recently completed construction of a perimeter security wall and 
installation of an incinerator ash pit at the Kenyan Medical Research 
Institute (KEMRI). We also completed construction of the perimeter 
security wall and guardhouses, provision of basic laboratory materials, 
and installation of three autoclaves at the Central Veterinary 
Laboratory (CVL) in Nairobi. In Uganda, we conducted initial BS&S at 
the Uganda Virus Research Institute (UVRI) and National Animal Disease 
Diagnostics and Epidemiology Center (NADDEC), including the 
installation of a perimeter security fence/wall, guard station, and 
facility lighting, as well as laboratory material and equipment, at 
both locations.
    Mr. Myers.

        <bullet> In November 2010, U.S. Senator Richard Lugar (R-IN) 
        and the Assistant Secretary of Defense for Nuclear, Chemical, 
        and Biological Defense Program, the Honorable Andrew C. Weber, 
        identified BS&S gaps during a visit to KEMRI and CVL in Kenya 
        and UVRI and NADDEC in Uganda.
        <bullet> DTRA CTR was given authority to expend funds on the 
        Africa continent in March 2011.
        <bullet> BS&S upgrades at KEMRI were completed in February 
        2013; the upgrades consisted of construction of a perimeter 
        security wall and installation of an incinerator ash pit.
        <bullet> CVL BS&S upgrades were completed in May 2012 and 
        consisted of construction of the perimeter security wall and 
        guardhouses, provision of basic laboratory materials, and 
        installation of three autoclaves.
        <bullet> BS&S at UVRI included the installation of the 
        following: perimeter security fence/wall, guard station, and 
        facility lighting. This also included BS&S upgrades at NADDEC 
        and included installation of the following: perimeter security 
        fence/wall, guard station, facility lighting, wheel wash, 
        medical and animal waste incinerator, and incinerator ash pit; 
        procurements of guard station equipment as well as laboratory 
        materials and equipment were included for both locations; the 
        upgrades at UVRI were completed by February 5, 2013, and all 
        physical construction at NADDEC.

               future identifying highest risk countries
    17. Senator Inhofe. Secretary Creedon and Mr. Myers, what is your 
systemic way of identifying the highest risk countries to work with in 
the future?
    Ms. Creedon. We use a threat-based approach and determine how CTR 
is able to best support national and departmental priorities such as 
those established the National Security Strategy, the National Defense 
Strategy for Countering WMD, and the Guidance for the Employment of the 
Force (GEF). Based on these and other similar inputs, we consider four 
factors when identifying and prioritizing CTR efforts:

        <bullet> We evaluate threats, risks, and vulnerability and 
        evaluate the ability--in cooperation with partner countries and 
        applicable local, regional, and international organizations--to 
        directly and appreciably prevent proliferation and/or terrorist 
        acquisition of materials and expertise to develop and utilize 
        WMD.
        <bullet> We consider the ability of the CTR program to create, 
        strengthen, or sustain partnerships on issues of bilateral, 
        regional, and global concern with countries in existing and 
        emerging centers of influence.
        <bullet> We consider the ability of the CTR program to 
        influence partner countries' views and behaviors toward 
        international and regional countering WMD and nonproliferation 
        regimes and to enable them to meet such commitments, encourage 
        and improve compliance, and encourage others to do the same.
        <bullet> We evaluate the ability of the CTR program to 
        contribute unique threat reduction capabilities, resources, or 
        partnerships that other DOD and U.S. Government threat 
        reduction and related programs cannot contribute.

    Combined, these criteria guide us in a systematic way to identify 
the highest risk countries with which the CTR program should partner. 
We also use these criteria to continuously evaluate the benefit of 
maintaining existing CTR program projects with current partners.
    Mr. Myers. Annually, DTRA assists DOD in concert with other 
expertise across the U.S. Government to make the best judgments 
possible concerning where/what/why we should focus limited resources 
based on congressionally-mandated Nunn-Lugar CTR goals and guidance. We 
dedicate resources and make priority decisions based on the risks and 
threats that the United States is facing--in close coordination with 
the Intelligence Community, STRATCOM, the Joint Chiefs of Staff, and 
the combatant and regional commands. Working closely with CTR partner 
countries and interagency partners, we thoroughly evaluate risks and 
identify opportunities that would have the highest impact to reduce or 
mitigate the WMD threat and support DOD's strategic objectives. On a 
yearly basis, Ms. Creedon and her staff host roundtable discussions to 
take a systematic approach in evaluating countries for future 
engagement.

    18. Senator Inhofe. Secretary Creedon and Mr. Myers, your written 
testimony indicates that we are helping countries set up disease 
surveillance systems. Why is DOD rather than the Centers for Disease 
Control (CDC) executing the disease surveillance function?
    Ms. Creedon. The CDC has a public health mission to protect the 
public from infectious disease outbreaks. DOD's CTR program has a 
security mission to reduce the threat to the United States and its 
allies from WMD and related materials, technologies, and expertise, 
including associated delivery systems and infrastructure. One way in 
which CTR reduces biological threats is by working with partner 
countries to build capacity to rapidly and accurately prevent and 
detect the use of biological weapons. Often the first indicator of a 
biological weapons attack or accidental release of biological weapons-
related material is through disease surveillance. DOD CTR therefore 
provides the tools, techniques, laboratory, and disease surveillance 
capacity to improve partner countries' readiness to detect and report 
all disease outbreaks, naturally occurring or otherwise. DOD CTR's 
biosurveillance efforts are carefully nests within a whole-of-
government approach to ensure our efforts are coordinated and 
deconflicted with our foreign partners. Toward this end, the national 
security players--the Departments of State, Defense, and Energy--work 
in concert with the Departments of Health and Human Services (HHS), 
Agriculture, Commerce, and Homeland Security, the FBI, the U.S. Agency 
for International Development, and a wide range of international and 
nongovernmental partners to address problems that are of shared 
concern.
    Mr. Myers. It is safer, more secure, cheaper, most efficient, and 
most effective to address WMD threats at the source and as far away 
from our shores as possible. DOD's mission is to assist the U.S. 
Government and partner nations with the security of extremely dangerous 
pathogens that can be weaponized or used to conduct a bioterrorist 
attack. This is a different mission than the CDC public health mission. 
The CDC has great experience and networks operating in Africa and 
Southeast Asia where many of these biological agents can be found. We 
can, and do, leverage their expertise, access, and existing 
institutional relationships by bringing the DOD defense-in-depth 
security mindset and expertise together with CDC's public health work. 
This allows the U.S. Government to focus all of its capabilities 
against a pandemic health and security threat as quickly, and as 
effectively, as possible.
    Funding provided by DOD leverages CDC's expertise to develop 
epidemiological training courses, laboratory-based surveillance 
systems, laboratory quality management programs, build workforce 
capability, and create electronic disease data collection systems 
globally focused towards meeting the legislatively-mandated security 
goals for CTR.
    DOD, through the Nunn-Lugar CTR's CBEP, works to enhance the 
partner country's capability to detect, diagnose, and report pathogens 
of security concern from natural outbreaks (endemic and epidemic) and 
bioterror attacks as well as potential pandemics. CBEP also ensures 
that the developed capabilities are designed to be secure, safe, and 
sustainable. CBEP's primary efforts focus on the infrastructure and 
networks, within DOD core capabilities, to rapidly identify and report 
any outbreaks of pathogens of security concern (biological weapons-
related) in order to differentiate a natural versus terror attack as 
well as identify any potential outbreaks/pandemics which could impact 
our national security. These activities are carefully coordinated with 
the CDC, and other relevant agencies, in a collaborative manner.

    19. Senator Inhofe. Secretary Creedon and Mr. Myers, how do you 
work with and deconflict your efforts with the CDC on biological 
issues?
    Ms. Creedon. We consistently communicate and coordinate with all 
U.S. Government departments and agencies, including the CDC and HHS. At 
a strategic- and policy-level, IPC meetings provide opportunities to 
align and deconflict CTR efforts with those of other interagency 
partners and to ensure we are working in concert to advance national 
strategies and objectives. With respect to biological threat reduction 
issues, DOD, HHS, and CDC all participate in regular Global Health 
Security IPCs and sub-IPCs such as the International Biological 
Engagement Working Group. At a working level, we host quarterly 
regional forums to brief interagency partners on our biological 
engagement programs and to coordinate activities and raise issues or 
concerns. In the field we also engage with the Health Team at the U.S. 
Embassy--typically composed of CDC, the U.S. Agency for International 
Development, and other interagency partners--and we invite CDC 
colleagues to join DOD delegations when meeting with foreign partners, 
when appropriate. Combined, these efforts increase our collective 
awareness of similar or related activities across the U.S. Government 
as well as help identify areas in which the CTR program can leverage 
another department's or agency's capabilities.
    Mr. Myers. It is safer, cheaper, and most effective to address WMD 
threats at the source and as far away from our shores as possible. 
DOD's mission is the security of extremely dangerous pathogens that can 
be weaponized or used to conduct a bioterrorist attack. The CDC has 
great experience and networks operating in Africa and Southeast Asia 
where many of these biological agents can be found. We can leverage 
their expertise by bringing the DOD security culture together with 
CDC's public health work. CDC and DTRA collaborate regularly to reduce 
the potential for duplication of effort regarding biological issues. 
DTRA's collaboration with CDC occurs at the programmatic level. For 
example, DTRA's Nunn-Lugar CTR (through the CBEP) works in coordination 
with the CDC's Global Disease Detection and Emergency Response to 
resource and execute efforts to reduce global health security threats. 
Recently, DTRA and CDC have increased collaboration beyond the 
programmatic level. This broader strategic partnership will leverage 
the strengths of each organization and introduce capabilities that can 
enhance each other's overall capabilities to execute our missions. For 
example, increased collaboration on modeling and simulations helps to 
enhance situational awareness necessary for supporting decisionmaking 
regarding global health threats.

                     measuring success of programs
    20. Senator Inhofe. Secretary Creedon and Mr. Myers, CTR has 
eliminated over 7,600 warheads--a fantastic accomplishment. How do you 
measure your success for CTR programs so you know when a program in a 
particular country is complete and needs to be concluded?
    Ms. Creedon. First and foremost, we measure success by our ability 
to directly and appreciably achieve strategic threat reduction 
objectives, which include:

        <bullet> Dismantle and destroy stockpiles of nuclear, chemical, 
        or biological weapons, equipment, or means of delivery that 
        partner countries own, possess, or have in their control.
        <bullet> To account for, safeguard, and secure nuclear, 
        chemical, and biological materials, equipment, or expertise 
        that, if vulnerable to theft or diversion, could result in WMD 
        threats.
        <bullet> To prevent and detect acquisition, proliferation, and 
        use of nuclear, chemical, or biological weapons, weapons-usable 
        and related materials, equipment, means of delivery, and 
        knowledge.

    We also measure success by whether partners can sustain these 
capabilities when CTR funding is no longer available. This sustainment 
consideration is a significant factor in determining when and how to 
conclude CTR programs.
    We also consider other indicators of success that are more 
qualitative yet provide a broader sense of the strategic value of 
initiating, maintaining, and concluding CTR engagements. For example, 
we evaluate the benefit of continued CTR engagement to the overall 
bilateral relationship. We also consider the contribution of CTR 
engagements to improving our partners' compliance with and commitment 
to countering WMD and nonproliferation agreements and frameworks, such 
as the Biological Weapons Convention and United Nations Security 
Resolution 1540.
    Mr. Myers. Secretary Creedon's response has outlined how DOD 
broadly measures success for Nunn-Lugar CTR programs. DTRA, as the 
program's implementing agency, is responsible for managing the 
programming, contracting, and funding aspects of the program. DTRA 
develops Joint Requirements and Implementation Plans (JRIPs) that 
prescribe mutually acknowledged and agreed-upon requirements, 
assumptions, major milestones, contract approaches, risk assessments, 
and responsibilities. DTRA's program and project managers routinely 
measure progress against the agreed upon JRIPs, and evaluate the 
progress of a partner nation to sustain capabilities. The CTR program 
has developed program-level metrics for all of its program areas and 
projects, as well as an electronic database tool that permits 
collection of the relevant data to track program-level metrics and 
measure progress. All of what DTRA does as the implementing agency 
provides feedback to DOD to make the broader determination as to when a 
program in a particular country is complete and can be concluded.

   challenges associated with working as non-permissive environments
    21. Senator Inhofe. Mr. Myers, the CTR program works in permissive 
environments with fairly long-time horizons. What are your challenges 
associated with supporting combatant commanders who are generally 
working on shorter timelines and want counter-WMD solutions for non-
permissive environments?
    Mr. Myers. Counter-WMD operations in non-permissive environments 
present inherent challenges not present in permissive, cooperative 
environments.
    First, in the area of planning, contingency scenarios necessitate 
compressed planning timelines with no room for error. While CTR 
planning might span months or years, counter-WMD contingency planning 
might have to be measured in weeks, days, or even hours. Second, a 
significant difference is the provision of security for agency 
personnel, to include military, civilian, and contract personnel, who 
will perform many of the counter-WMD operations. CTR contractors 
operate in relatively stable environments with little worry that they 
will be fired upon by hostile forces. In contingency scenarios, 
however, we have to make provisions for the security of our personnel 
to include the possible arming of contract personnel. Additionally, 
normal protections under Status of Forces Agreement may not be in 
place. Third, counter-WMD operations, such as transportation, storage, 
and elimination generally require bilateral agreements with host nation 
authorities regarding such things as liability coverage, tax exemption, 
and the like--that might not be possible in non-permissive 
environments.
    Standing Joint Force Headquarters for Elimination (SJFHQ-E) was 
intentionally established in STRATCOM by the Secretary of Defense to 
provide direct operational counter-WMD support to the geographic 
combatant commands to assist dealing with such challenges. To be clear, 
I am not the commander of the standing headquarters, but the general 
officer who commands the headquarters also serves as my Deputy Director 
of the STRATCOM Center for Combating (SCC) WMD. The co-location of the 
headquarters with DTRA facilitates close collaboration with DTRA's 
extensive technical expertise and prior planning for follow-on 
nonproliferation activities.

    22. Senator Inhofe. Mr. Myers, do you need changes to your 
authorities to be more effective in this realm?
    Mr. Myers. Yes, I would ask for your support for DOD's legislative 
proposal 117 to authorize the Secretary of Defense to provide WMD 
incident response training and basic equipment to foreign military and 
civilian first responders at all levels of government who may or may 
not be part of a national security force--this authority does not 
currently exist. The Secretary of Defense would exercise this authority 
and activities would be funded through DTRA using Defense-wide 
Operation and Maintenance funds in targeted partner nations.
    DTRA executes DOD's Consequence Management Assistance Program 
(CMAP) in coordination with the supported strategic priorities of the 
combatant commanders. However, no specific authority exists to allow 
the use of Defense-wide Operation and Maintenance funds to train and 
provide basic response equipment to foreign military and civilian WMD 
incident first-responders.
    Consistent with the current requirements, DTRA's proposal would 
allow DOD to train foreign country forces based on mission rather than 
organization. Partner nation first-response forces are often organized 
differently from those in the United States; they may perform military 
functions and require military capabilities, but may or may not be a 
part of a military organization. The ability of DOD to provide training 
to foreign military and civilian first-responders is critical to 
fulfilling the current requirements of the agency.
    Furthermore, the ability to provide low-cost, high-demand equipment 
to partner organizations is essential to realistic and effective 
training and integration. This equipment would provide an initial 
capability and would take the form of basic equipment or supplies. Such 
equipment would be made available for use by both the host nation and 
U.S. forces that may be called upon to support the host nation.
    This requires close coordination and collaboration with Under 
Secretary of Defense for Policy, STRATCOM, and relevant geographic 
combatant commands. Funding for these activities is included in DTRA's 
fiscal year 2014 budget request and no additional funds are required.

    23. Senator Inhofe. Mr. Myers, Regional Contingency Teams (RCT) 
look to be an important initiative to better support the warfighter. 
Can you describe the concept in further detail, including the number of 
people, their typical functional areas of responsibility, and how you 
see them being employed?
    Mr. Myers. The DTRA/SCC-WMD/SJFHQ-E RCTs reach across all three 
organizations to unite subject matter experts in response to 
contingencies that require quick and coordinated responses to combatant 
commanders, OSD, and other parts of the U.S. Government. Two RCTs are 
currently activated: RCT-1 for contingencies in the Levant, and RCT-2 
for contingencies in the Asia Pacific region. Each is led by an O-6--a 
uniformed military senior officer--who reports directly to DTRA/SCC-
WMD/SJFHQ-E senior leadership and has the ability to leverage the 
expertise of any of the 2,000+ people across the organization. These 
RCTs integrate planning support, WMD technical expertise, intelligence 
support, deployable operational teams, treaty requirements, and 
regional experts to support U.S. Government response to WMD 
contingencies in all phases of military readiness preparation, 
reaction, and response. The RCTs also reach out to subject matter 
experts across the U.S. Government to ensure that RCT products include 
the best possible information, and produce the most effective outcomes. 
RCT products are regularly briefed to senior U.S. Government leaders to 
aid in high-stakes decisionmaking. RCTs are flexible and can be 
activated at any time. Typically, RCTs are activated because of new 
information identified through intelligence channels or requests for 
high levels of support from other parts of the U.S. Government.

              strategic offensive arms elimination program
    24. Senator Inhofe. Secretary Creedon, your funding of the 
Strategic Offensive Arms Elimination (SOAE) program is dropping off 
fairly rapidly, from about $28 million in 2012 to $10 million in the 
2014 request. What work is left to accomplish in Ukraine and Russia 
under this program?
    Ms. Creedon. For a number of years, Russia has requested support 
for the elimination of a decreasing number of missiles and launchers. 
DOD continuously assesses the ongoing threat reduction value of CTR 
projects, and our assessment is that Russia is willing and able to 
conduct missile and launcher eliminations independently. For this 
reason, Russia is in the process of taking full responsibility for 
missile and land-based launcher elimination. DOD is prepared to assist 
with such eliminations through the first half of fiscal year 2014, but 
Russia may accept full responsibility sooner due to the timing of its 
budget cycle and the timelines reflected in our current bilateral CTR 
Agreement. The SOAE program also anticipates assisting Russia with the 
elimination of a Delta III strategic submarine in fiscal year 2014.
    DOD also assists Ukraine with the storage and elimination of solid 
rocket motors from dismantled SS-24 ICBMs and will remain prepared to 
respond to any WMD delivery systems elimination requirements in other 
countries. 101 SS-24 solid rocket motors currently remain in Ukraine, 
and they are scheduled to be eliminated by fiscal year 2016.

                     umbrella agreement with russia
    25. Senator Inhofe. Secretary Creedon, if the Umbrella Agreement 
with Russia lapses and there is a gap before a follow-on agreement can 
be signed, what specific lines of effort will need to be suspended?
    Ms. Creedon. Under the current agreement, DOD conducts five kinds 
of cooperative efforts in Russia: (1) Nuclear Weapons Storage Security; 
(2) Nuclear Weapons Transportation Security; (3) Spent Nuclear Fuel/
Fissile Material Disposition; (4) Chemical Weapons Destruction; and (5) 
Strategic Offensive Arms Elimination. At the end of the current 
agreement, it is likely that some of these efforts will shift to 
Russian responsibility or will shift to a post-CTR, peer-to-peer 
exchange. If, however, the Umbrella Agreement lapses before follow-on 
arrangements can be applied, each of these efforts would need to be 
suspended.
    In addition to the DOD efforts, DOE also conducts nuclear material 
protection control and accountability activities that are subject to 
the Umbrella Agreement.

            chemical weapons destruction in libya and syria
    26. Senator Inhofe. Mr. Myers, what is the status of the 
destruction of chemical weapons in Libya?
    Mr. Myers. On May 4, 2013, the Libyan National Authority (LNA) for 
the Chemical Weapons Convention completed destruction of Libya's bulk 
liquid mustard using the hydrolysis and neutralization system they had 
previously procured (destroyed 8.819 metric tons).
    The LNA accepted the U.S. offer of destruction assistance for 
Libya's recently discovered munitions shortly after it was offered in 
early 2013. DOD's CTR will perform the work through a team of 
contractors, with the intent of completing destruction of Libya's 
category 1 munitions stockpile by December 2013, though that is an 
extremely tight timeline. The team commenced work at the Ruwagha 
Chemical Weapons Storage Facility in May 2013. Their efforts build on 
work that has been done by DOD CTR since early this year to strengthen 
the safety and security of the stockpile at that site. In support of 
the destruction efforts, a team of contractors is currently in country 
(a mix of U.S. and non-U.S. citizens) to coordinate logistics, perform 
soil sampling, clear unexploded ordnances, and conduct/oversee 
preparations for the destruction equipment site and worker camp. We 
anticipate continuing these efforts through 2013. We will respect all 
security guidance from the DOS, United Nations Department of Security 
Services, the U.S. Africa Command, and other key sources, when 
assessing the ability of our contractors to continue their work.

    27. Senator Inhofe. Mr. Myers, what lessons learned will you 
transfer to the situation in Syria?
    Mr. Myers. [Deleted].

    28. Senator Inhofe. Mr. Myers, in his briefing on Syria to the 
Senate Armed Services Committee last week, Secretary Hagel indicated 
DOD is funding over $70 million for activities in Jordan, ``including 
providing training and equipment to detect and stop any chemical 
weapons transfers along its border with Syria and developing Jordanian 
capacity to identify and secure chemical weapons assets.'' I assume 
this is part of the WMD proliferation prevention program under CTR. Can 
you give me more details on the kind of work that DTRA has been doing 
in Jordan under this program?
    Mr. Myers. DTRA's work through the DOD Nunn-Lugar CTR program, and 
through close coordination with the U.S. Central Command, is focused on 
building the capacities of relevant Jordanian military and civilian 
ministries to interdict, secure, identify, and manage the consequences 
of chemical weapons through the provision of training and equipment. 
Specifically, DTRA is expanding upon the existing Jordan border 
security program to provide additional remote sensor equipment and 
relevant training to improve Jordanian capabilities to detect and track 
attempts to cross green borders. This effort extends the 110km 
surveillance system along the final 256km of the Jordan-Syrian border, 
and supplements the existing system with chemical detection and 
identification equipment and training. In addition, CTR supported a 
series of workshops that trained the Jordanians on the protection of 
personnel and critical equipment in the event of a chemical, 
biological, radiological, nuclear, and explosives (CBRNE) hazard 
release. This capability is further supplemented through the 
replacement and refitting of outdated Jordanian decontamination 
equipment and the provision of new personal protective, identification, 
and sampling equipment with associated training.
    DTRA's CMAP has also worked with the Colorado National Guard and 
the Jordanian Armed Forces Chemical Support Unit to conduct an exchange 
of information about mission, capabilities, and operations of the 
Colorado National Guard WMD Civil Support Team and CBRNE Enhanced 
Response Force Package during March 2013. Another event is currently 
being planned to be held in Centennial, CO in June to continue to 
develop a National Guard Bureau/State Partnership Program CBRNE 
Exchange on June 17-21, 2013. Also, a CMAP, State Partnership Program, 
Defense Security Cooperation Agency, and Jordanian National Centre for 
Security and Crisis Management exercise planning workshop is scheduled 
for August 15-20, 2013. Finally, CMAP recently completed a Collective 
Protection of Critical Infrastructure, High-Value Resources, Personnel, 
and Civilian Population from Chemical Threats and Contamination 
workshop with the Jordanian Armed Forces in April 2013.

                  threat reduction engagement program
    29. Senator Inhofe. Secretary Creedon, only $2.4 million was 
requested for the Threat Reduction Engagement program that builds 
relationships for CTR program development in new geographic areas. But 
this looks potentially like an outreach program that might already be 
covered by other departments or agencies, such as the DOS. Can you 
please explain why a separate funding line is required for this 
program?
    Ms. Creedon. The Threat Reduction Engagement Program (TREP) is a 
unique, low-cost tool in the CTR program's toolkit that allows us to 
initiate and establish relationships with new partners prior to 
obtaining Secretary of Defense determination, with Secretary of State 
concurrence, to establish a full CTR partnership. It also allows us to 
maintain strategic relationships after CTR projects and activities are 
completed. All TREP-funded activities directly advance the CTR 
program's mission and have some connection to eliminating or preventing 
the proliferation of WMD or related materials. For example, this year 
we utilized TREP funding to jump-start our deepening border security 
relationship with Jordan, to support an important joint WMD-
interdiction exercise with the United Arab Emirates, and to continue 
our countering WMD engagement with Yemen.

                   securing chemical weapons in syria
    30. Senator Inhofe. Mr. Myers, what specific areas is DTRA 
providing support to Syria planning efforts in order to help secure 
chemical weapons in Syria should the chemical weapons sites become 
unsecure and manage the consequences should Assad use chemical weapons 
on his own people?
    Mr. Myers. [Deleted.]

    31. Senator Inhofe. Mr. Myers, in the briefing on Syria to the 
Senate Armed Services Committee last week, when Senator McCain asked 
Chairman Dempsey if he could secure chemical weapons in Syria, Chairman 
Dempsey said, ``Not as I sit here today simply because they have been 
moving it and the number of sites is quite numerous.'' What are the 
capability gaps that you see as the experts in countering WMD 
proliferation in Syria?
    Mr. Myers. [Deleted.]

    32. Senator Inhofe. Mr. Myers, what efforts are we doing to close 
those gaps?
    Mr. Myers. [Deleted.]

    33. Senator Inhofe. Mr. Myers, if contaminated refugees begin 
approaching Jordan, Turkey, and Iraq borders, are these countries 
prepared to handle them?
    Mr. Myers. [Deleted.]

    34. Senator Inhofe. Mr. Myers, what are we doing with our partners 
in the region (Jordan, Turkey, Iraq, and Israel) and partners outside 
the region (United Kingdom, France, Canada, and the North Atlantic 
Treaty Organization) to address Syrian chemical weapons issues?
    Mr. Myers.[Deleted.]

    [Whereupon, at 3:25 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
